<html>
<title> - CLEAN AIR ACT: STATE REAUTHORIZATION ISSUES</title>
<body><pre>[Senate Hearing 106-966]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-966
 
              CLEAN AIR ACT: STATE REAUTHORIZATION ISSUES
=======================================================================


                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CLEAN AIR, WETLANDS,
                  PRIVATE PROPERTY, AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION
                               __________

                           SEPTEMBER 27, 2000
                  NOVEMBER 13, 2000--OKLAHOMA CITY, OK
                               __________

  Printed for the use of the Committee on Environment and Public Works










                        U.S. GOVERNMENT PRINTING OFFICE
                                WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001











               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED SIXTH CONGRESS
                             second session

                 ROBERT SMITH, New Hampshire, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            DANIEL PATRICK MOYNIHAN, New York
CRAIG THOMAS, Wyoming                FRANK R. LAUTENBERG, New Jersey
CHRISTOPHER S. BOND, Missouri        HARRY REID, Nevada
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
MICHAEL D. CRAPO, Idaho              JOSEPH I. LIEBERMAN, Connecticut
ROBERT F. BENNETT, Utah              BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas          RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island
                      Dave Conover, Staff Director
               J. Thomas Sliter, Minority Staff Director
                                 ------                                
  Subcommittee on Clean Air, Wetlands, Private Property, and Nuclear 
                                 Safety

                  JAMES M. INHOFE, Oklahoma, Chairman
GEORGE V. VOINOVICH, Ohio            BOB GRAHAM, Florida
ROBERT F. BENNETT, Utah              JOSEPH I. LIEBERMAN, Connecticut
KAY BAILEY HUTCHISON, Texas          BARBARA BOXER, California

                                  (ii)










  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 27, 2000
                           OPENING STATEMENTS

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     9
    Statement submitted following the hearing....................    11
Thomas, Hon. Craig, U.s. Senator from the State of Wyoming.......     2
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     7

                               WITNESSES

Colburn, Kenneth, director, Air Resources Division, New Hampshire 
  Department of Environmental Services...........................    16
    Prepared statement...........................................   137
Hemmer, Dennis, director, Wyoming Department of Environmental 
  Quality........................................................    12
    Prepared statement...........................................   127
    Responses to additional questions from:
        Senator Baucus...........................................   129
        Senator Inhofe...........................................   128
        Senator Voinovich........................................   128
Homrighausen, Hon. Richard P., mayor, city of Dover, OH..........    34
    Prepared statement...........................................   156
Methier, Ronald, Chief, Air Protection Branch, Georgia 
  Environmental Protection Division..............................    18
    Prepared statement...........................................   144
    Responses to additional questions from:
        Senator Baucus...........................................   153
        Senator Inhofe...........................................   151
        Senator Voinovich........................................   152
Saitas, Jeff, Executive Director, Texas Natural Resources 
  Conservation Commission........................................     5
    Articles:
        Canadian Forest Fires....................................   121
        High Ozone Levels in Texas...............................    79
    Letters:
        Environmental Protection Agency..........................   105
        Texas Natural Resource Conservation Commission...........    77
    Prepared statement...........................................    65
    Responses to additional questions from:
        Senator Baucus...........................................    69
        Senator Inhofe...........................................    66
        Senator Voinovich........................................    67
Studders, Karen A., Commissioner, Minnesota Pollution Control 
  Agency.........................................................     3
    Prepared statement...........................................    43
    Responses to additional questions from:
        Senator Baucus...........................................    51
        Senator Inhofe...........................................    54
        Senator Voinovich........................................    52
Taylor, Zach, Executive Director, Association of Central Oklahoma 
  Governments, Oklahoma City, OK.................................    39
    Prepared statement...........................................   161
Terrill, John, Director, Air Quality Division, Oklahoma 
  Department of Environmental Quality............................    14
    Prepared statement...........................................   130
    Responses to additional questions from:
        Senator Baucus...........................................   136
        Senator Inhofe...........................................   135
        Senator Voinovich........................................   135
Willhite, Marcia, Assistant Chief of Environmental Health 
  Lincoln-Lancaster County Department of Health, Lincoln, NE.....    37
    Prepared statement...........................................   159

                          ADDITIONAL MATERIAL

Article, Profiles of Local Clean Air Innovation, NALGEP..........   164
Letter, National Association of Local Government Environmental 
  Professionals (NALGEP).........................................   162
                                 ------                                

                  NOVEMBER 13, 2000--OKLAHOMA CITY, OK
                           OPENING STATEMENT

Inhofe, James M., U.S. Senator from the State of Oklahoma........   179

                               WITNESSES

Coleman, Mark S., director, Oklahoma Department of Environmental 
  Quality, Oklahoma City, OK.....................................   188
    Prepared statement...........................................   214
Mitchell, Hon. Shawn, State Representative, Broomfield, CO.......   184
    Prepared statement...........................................   212
Seitz, John S., director, Office of Air Quality Planning and 
  Standards, Research Triangle Park, North Carolina..............   181
    Prepared statement...........................................   209
Thomas, Jim, director, Technical Analysis Division, Texas Natural 
  Resources Conservation Commission, Austin, TX..................   190
    Prepared statement...........................................   216













              CLEAN AIR ACT: STATE REAUTHORIZATION ISSUES

                              ----------                              


                     WEDNESDAY, SEPTEMBER 27, 2000


                                       U.S. Senate,
               Committee on Environment and Public Works,  
 Subcommittee on Clean Air, Wetlands, Private Property And 
                                            Nuclear Safety,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m. in 
room 406, Senate Dirksen Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Thomas, Voinovich, Lautenberg, 
and Smith [ex officio].

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order. Today is 
the third Clean Air Authorization hearing in this Congress.
    The first hearing last October addressed the broad policy 
issues that we would be dealing with such as cost-benefit 
analysis, risk and exposure.
    The second hearing was held in May and concentrated on the 
effect of multiple regulations addressing the same pollutants 
and we looked specifically at the utility industry as an 
example.
    Today's hearing addresses the role of States and the local 
governments in implementing the Clean Air Act. As a former 
mayor, I am very sensitive to Federal mandates, to problems 
that come with Federal programs, not just the fact that the 
cost of this that has to be borne by, in many cases, the States 
or the local communities, but also the one-size-fits-all 
concept that we are so often faced with.
    I have often criticized Federal bureaucrats within 
Washington, within the Beltway, for writing regulations without 
understanding how they get implemented out in the States. Part 
of the problem is the fact that what works in one State or one 
region doesn't necessarily work in another.
    In the Clean Air Act, Congress decided to give, and this is 
1990, give authority to set environmental standards to the EPA 
here in Washington, DC and the States were given the role of 
implementing the programs through the State Implementation 
Process, the SIP process.
    Unfortunately, I think the EPA has tried to micromanage the 
implementation too much and has not given the States the 
flexibility Congress envisioned.
    For the purpose of today's hearing, I have two main 
questions. From the State and local government point of view, 
what aspects of the Clean Air Act are currently working well 
and second, what needs to be improved in the Act in order to 
add more flexibility.
    We often say our States serve as national laboratories to 
test new programs and new approaches. I am sure we will hear a 
lot of positive feedback today and the coming months which will 
help shape the next version of the Clean Air Act.
    You know, we said sometime ago that we would start off this 
year with having three hearings which we now have had with this 
hearing. I think there is no reason we can't get into it 
aggressively in the new legislature.
    [The prepared statement of Senator Inhofe follows:]
        Statement of Hon. Jim Inhofe, U.S. Senator from Oklahoma
    The subcommittee's first hearing last October addressed broad 
policy issues such as cost/benefit, risk, and exposure. The second 
hearing was held in May and concentrated on the effect of multiple 
regulations addressing the same pollutants, and we looked specifically 
at the utility industry as an example.
    Today's hearing addresses the role of the States and the local 
governments in implementing the Clean Air Act. As a former mayor of a 
major metropolitan city, Tulsa, Oklahoma, I have a good understanding 
of the partnership between the Federal Government and the local and 
State governments. I also understand the problems associated with 
implementing Federal mandates, and when I say Federal mandates I don't 
just mean the associated costs of the mandates, but the problem of the 
``one-size-fits-all'' bias of Federal regulations.
    I have often criticized Federal bureaucrats, within the Washington 
beltway, for writing regulations without understanding how they get 
implemented out in the States. Part of the problem is the fact that 
what works in one State or one Region, may not necessarily work in 
another.
    In the 1990 Clean Air Act, Congress decided to give the authority 
to set the environmental standards to the EPA here in Washington, DC, 
and the States were given the role of implementing the programs, 
through the State Implementation Planning process. Unfortunately, I 
think the EPA has tried to micro-manage the implementation too much and 
has not given the States the flexibility Congress envisioned.
    For the purposes of today's hearing, I have two main questions.
    1. From the State and local government point of view, what aspects 
of the Clean Air Act are currently working well?
    2. What needs to be improved in the Act in order to provide you 
more flexibility and responsibility?
    We often say our States serve as national laboratories to test new 
programs and new approaches. I'm sure we will hear a lot of positive 
feedback today, and in the comings months which will help shape the 
next version of the Clean Air Act.

    Senator Inhofe. Senator Thomas, do you have an opening 
statement that you would like to share?

 OPENING STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR FROM THE 
                        STATE OF WYOMING

    Senator Thomas. Yes, Mr. Chairman. Thank you very much for 
the hearing. I think it is important to lay the groundwork for 
the reauthorization of the Clean Air Act.
    First, of course, I want to welcome Dennis Hemmer who is 
here from Wyoming. He is working in environmental quality and I 
think he has been a leader in this. I am looking forward to his 
testimony.
    The issue is, of course, of great importance to everyone. 
But in the West, in our State of Wyoming, we have currently 
some of the cleanest air that we have, and particularly, of 
course, we have lots of resources of coal, natural gas, as well 
as wind resources.
    So, we are very interested in how this moves and how it 
takes place. Since the enactment of the 1990 Clean Air Act, I 
think the administration has tried various ways to, of course, 
implement stricter standards, among them are ways to include 
the State and local governments.
    Often we vocalized our opposition to some of these 
propositions without much success. So, I think principles of 
sound science need to be involved. We need to have a cost-
benefit analysis, environment versus environmental benefits 
versus economy.
    Business and industry has made great strides and we 
encourage that to happen. So, I hope that we can take from 
these some ideas as to how to make this program even better and 
work even better. Thank you.
    Senator Inhofe. Thank you, Senator Thomas.
    I, too, want to recognize also we have two witnesses from 
Oklahoma here, John Terrill who is the Air Quality director of 
our Oklahoma Environmental Quality Department and then there is 
Mr. Zach Taylor, executive director of the Association of 
Central Oklahoma Governments.
    Now, the first panel consists of six people. I have asked 
them to be seated at the witness table. The way we have divided 
into two panels today is to start with Ms. Karen Studders, 
commissioner of the Minnesota Pollution Control Agency; Mr. 
Jeff Saitas, executive director of the Texas Natural Resources 
Conservation Commission; Mr. Dennis Hemmer, director of the 
Wyoming Department of Environmental Quality; Mr. John Terrill, 
Air Quality director to the Oklahoma Department of 
Environmental Quality; Mr. Kenneth Colburn, director of the Air 
Resources Division, New Hampshire Department of Environmental 
Services; and Mr. Ron Methier, Air Protection Branch chief of 
the Georgia Environmental Protection Division.
    I would like to tell you that even though your entire 
testimony will be made a part of the record of this community 
meeting, since we have two panels and a total of nine 
witnesses, we are going to confine your opening remarks to 5 
minutes and we will use the light system here.
    It appears that we are going to have quite a few members 
here today, more than we normally do, even though there are 
only two of us here right now, so we will try to confine our 
questions to 5 minutes.
    Ms. Studders, we would like to start with you. You are 
recognized to make your opening statement. Welcome to the 
community.

    STATEMENT OF KAREN A. STUDDERS, COMMISSIONER, MINNESOTA 
                    POLLUTION CONTROL AGENCY

    Ms. Studders. Thank you, Mr. Chairman and members of the 
subcommittee. I want to thank you all for the opportunity to 
appear before you today.
    My remarks reflect a perspective I have gained during my 
time as Commissioner of the Minnesota Pollution Control Agency, 
as well as my experience as director of Environmental Programs 
in a division of a $15 million international energy services 
company.
    I will focus my oral testimony on two areas. First, what 
Minnesota has learned about toxic air pollutants and second, 
some ideas on integrating environmental regulation with cost-
effective power generation.
    Please refer to my written testimony for comments on what I 
believe States need from the Federal Government to carry out 
the EPA mandates under the Clean Air Act, specifically more 
funding and flexibility.
    In your materials there is a picture of what the first air 
pollution alert looked like in the State of Minnesota back in 
1972. A grimy brown haze choked the Minneapolis skyline and 
visibility was bad even at ground zero.
    Our agency scrambled to warn people with asthma and heart 
disease to stay indoors. In the following years the Clean Air 
Act's strong anti-pollution requirements for smokestacks and 
cars helped reduce sulfur dioxide and other criteria air 
pollutants.
    These efforts in Minnesota paid off. We have not had an air 
alert since 1987. Today, Minnesota meets all Federal air 
quality standards. The Clean Air Act was the tool Minnesota 
desperately needed in 1972. In using that tool, we were able to 
take a deteriorating air quality situation and turn it around 
in less than 20 years.
    When the world of air pollution consisted of only six 
criteria pollutants, we didn't have problems as serious as 
those in cities like Los Angeles or Houston. We were getting 
control of the air pollution problem we had.
    Also in your materials there is a chart with some 
information having to do with criteria pollutants. This figure 
shows that levels of all pollutants, except nitrogen dioxide, 
have dropped in the past 8 years.
    This was achieved at the same time that the vehicle miles 
traveled continued to climb and our economy continued to grow. 
Indeed, we now know that economic growth and environmental 
protection can go hand in hand.
    Today we have a different set of problems, one that is more 
complex. Minnesota is one of a few States that actively 
monitors air toxics in outdoor air. We have a statewide 
monitoring network that has measured 75 air toxics in our State 
in locations ranging from farms to small towns to big cities. 
What we have found is disturbing.
    When compared to health benchmarks, 10 air toxics exceeded 
thresholds. Many of the air toxics with the highest 
concentration are primarily from cars, trucks, buses and other 
engines.
    Please refer to the executive summary in your materials for 
details in our report.
    The Federal Government must no longer delay taking action 
on air toxics. While the provision for point sources in the 
1990 Clean Air Act Amendments have made a difference, much more 
must be done about mobile sources of air toxics, both on and 
off the road.
    We need a real, national air toxic strategy with specific 
goals that we can all focus on so that we can improve our air.
    The final photo in your packet is a picture of a lake in 
northern Minnesota. Hundreds of lakes just like it are 
scattered across the region. If you fish there next summer, we 
would be obliged to warn you that you cannot safely eat more 
than one meal per week of many fish caught in the lake. If you 
are a pregnant woman, no more than one meal per month. There is 
too much mercury in the fish. The mercury got into the fish 
from the water; into the water mostly from mercury deposition 
from our air; into our air from mercury-emitting power sources, 
like power plants, hundreds, even thousands of miles away.
    We have taken significant steps to improve the situation in 
Minnesota, reducing our own mercury emissions by over 50 
percent. But most of the mercury in our fish comes from sources 
outside our borders.
    Increasing demand for electric power has brought us face to 
face with tough environmental issues. What about mercury and 
other toxic emissions from burning coal? What do we do about 
ozone transport? What do we do about regional haze?
    We need a comprehensive, integrated, national power 
generation strategy that regulates multiple pollutants, 
including nitrogen oxides, sulfur dioxide, carbon dioxide, 
mercury and other toxic pollutants.
    The strategy should set national goals and schedules that 
allow flexibility for industry on how to meet them. We need a 
strategy that once and for all deals with the old grandfathered 
power plants.
    I flew to Washington today from St. Louis where I 
participated in a conference for State environmental, energy 
and utility Commissioners on energy and the environment. I will 
pass on to you the most important piece of advice I heard 
there. If we try to achieve environmental results pollutant by 
pollutant, we will hamstring the industry and never achieve 
what we want anyway.
    Piecemeal programs targeting the power industry have led to 
uncertainty and cost inefficiencies. They are like separate 
trains heading down separate tracks each carrying a few 
passengers to separate destinations.
    What we need is one big train on a single track so we can 
get everyone on board, all heading to the same place. I am 
certain we can develop an approach that balances environmental 
needs and reliable energy production.
    Amendments to the Clean Air Act must address a 
comprehensive approach to the power utility industry.
     I thank you and I look forward to your questions.
    Senator Inhofe. Thank you, Ms. Studders.
    Mr. Saitas.

  STATEMENT OF JEFF SAITAS, EXECUTIVE DIRECTOR, TEXAS NATURAL 
               RESOURCES CONSERVATION COMMISSION

    Mr. Saitas. My name is Jeff Saitas. I am the executive 
director of the Texas Natural Resource Conservation Commission. 
That is the agency in the State that is responsible for a broad 
array of environmental programs including those related to air, 
water, and waste.
    I am pleased to be here today with you. We are going to 
talk about really two things. One is an example of how we have 
had planning success under the Clean Air Act and the second 
part will be with respect to some of the challenges.
    As you may know, we are in the process of developing clean 
air plans for some of our major metropolitan areas. Last April 
we submitted a plan to the Environmental Protection Agency to 
clean up the air in the Dallas-Fort Worth metroplex as well as 
the Beaumont-Port Arthur area.
    I would point to that particular process to be an 
indication of a very successful process. In that particular 
process we relied very heavily and engaged very intimately with 
the local government and the leadership of local government, 
particularly the county judges and the mayors of the largest 
cities, those of Dallas and in Fort Worth. By engaging them 
very early on in the process, they developed a series of 
measures that were very effective for them at the local level, 
because clearly, if you are going to clean the air you have to 
have rules that people will, in fact, follow.
    That process led to a plan that was adopted by our 
commission and ultimately submitted to the Environmental 
Protection Agency and has been recently deemed to be 
administratively complete. We look forward to an approval of 
that plan.
    However, once we adopted that plan we faced a series of 
lawsuits. That is the point I want to discuss with you with 
respect to implementation problems.
    One of the issues that was raised in a number of those 
lawsuits had to deal with the concept of Federal preemption. 
When I have to deal with developing a plan to clean the air in 
a place like Houston, TX, when you look at the solution you 
identify the broad array of places where emissions come from. 
Now, a big bulk of those are things that I have authority to 
regulate. But there is a piece of them that I don't.
    But, I have the responsibilities as the State to develop a 
plan. If I don't do that and I don't achieve that attainment by 
November 15, 2007, then the State is going to suffer the 
consequences.
    The point I want to make to you is when I go through this 
process and propose rules and develop rules to do that, I have 
to face a public that tells me, well, what are you going to do 
about the aircraft engines? What are you going to do about the 
ground support equipment in an airport? What are you going to 
do about the construction equipment? What are you going to do 
about the ships that steam into the port? What are you going to 
do about the locomotive engines? What are you going to do about 
the 18-wheelers that come up and down the road?
    So, while I am struggling with trying to find strategies 
that make sense, that will actually clean the air, there are 
certain key things which the public looks to which we drive by 
every single day and know they are a big part of the problem, 
yet we as a State are preempted from making them be a big part 
of the solution.
    Now, I am not arguing to this committee that it should be 
the role of everyone in the 50 States to be able to have 
separate standards for each one of these categories. That is 
not what I want to say to you today.
    What I do want to say to you today is if we are going to 
have a partnership to clean up the air in places like Houston, 
TX, we all have to work together which means if my deadline is 
2007, November 15, then the Federal Government should pull 
their load on exactly the same timeline.
    The reductions needed from those categories that I 
mentioned should occur on the exact same timeline. That is the 
point I want to leave with you because if we don't have that 
outcome, the end result is the entities that I do have control 
over in the State have to carry more than their fair share and 
that is just not right.
    With that, I will conclude my comments well ahead of time, 
Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Saitas.
    We have been joined by Senator Voinovich who has been a 
great addition to this committee with his background as both 
Governor and as a former mayor and by Senator Bob Smith, who is 
the chairman of the full committee.
    I would ask either one of them starting with Senator 
Voinovich, did you have an opening statement you wanted to 
make?
    Senator Voinovich. Yes, I do, Mr. Chairman.
    Senator Inhofe. You are recognized.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. First of all, Mr. Chairman, I want to 
thank you for conducting this important hearing this afternoon 
on the subject of the Clean Air Reauthorization.
    I appreciate the fact that you are holding these hearings 
this year in anticipation of reauthorization next year.
    When we talk about the Clean Air Act, I think there is a 
tendency to think of large, billion dollar companies. Later on 
today we are going to have some testimony from a small company 
in the State of Ohio. That is a little utility company that 
will testify about what they are confronted with.
    When I first entered office in 1991, most of Ohio's urban 
areas were not attaining the 1-hour ozone standard. By the time 
we left, we saw a situation where every area, just like 
Minnesota, met the ambient air standards that we have in place 
currently.
    The real issue, I think, that we are going to have to be 
confronted with, Mr. Chairman, is to look at the Clean Air Act 
in light of the practical implications of it for the people who 
really have to deal with it on an everyday basis and somehow 
come to grips with their practical problems and also the 
concerns of the environmental organizations that we have in 
this country in terms of how do we go about doing this and 
making sure that the dollars that we spend really deal with 
problems that are out there and that we don't spend dollars 
that we don't need to spend.
    As you know, Mr. Chairman, one of the things that I have 
done is introduce a bill that would amend the Clean Air Act 
fundamentally that would give the same provision that is now in 
the Safe Drinking Water Act. That would require risk 
assessment, cost benefit. It would require good science. It 
would require peer review.
    Senator Inhofe. I would add that is an excellent bill. I am 
joining you on that, cosponsoring it.
    Senator Voinovich. The thing is to kind of balance this up 
to make sure that what we are doing really makes sense. Now, I 
think too often some of you who are on the firing line on the 
State and on the local level are confronted with some 
unrealistic, impractical things that from a point of view of 
cost benefit really don't make sense and result in a loss in 
appreciation, I think, by some of our Federal agencies, 
particularly the EPA, on occasion, about the practical 
ramifications of what it is that you are being asked to do.
    So, I think, Mr. Chairman, the challenge will be to balance 
all of this up and I think that is going to be a challenge for 
all of us and it means that those who are on the firing line 
will have to work with the environmental community to try to 
come up with something that makes sense for all of us and 
protects our economy and also enhances the environment and the 
health of our citizens in this country.
    Thank you.
    Senator Inhofe. Thank you, Senator Voinovich.
    [The prepared statement of Senator Voinovich follows:]
     Statement of Hon. George V. Voinovich, U.S. Senator from Ohio
    Mr. Chairman, I want to thank you for conducting this very 
important hearing today on the subject of Clean Air Act 
Reauthorization.
    I would like to extend a warm welcome to Mayor Homrighausen of 
Dover, OH. Mayor Homrighausen testified before this subcommittee 
several years ago regarding his concerns with the EPA's new ozone and 
particulate matter standards. He and I were concerned that the new 
National Ambient Air Quality Standards (NAAQS) for ozone and 
particulate matter far outweighed the benefits to public health and the 
environment. Hopefully, Mayor Homrighausen, the Supreme Court will 
agree with us.
    When we talk about the Clean Air Act or electricity generation, 
there is a tendency to think about large, billion dollar companies. 
People forget about municipalities like Dover, OH, which owns and 
operates its own utility plant and provides low-cost energy to its 
consumers.
    Dover has done its share to help reduce air pollution in Ohio by 
installing effective environmental controls. In fact, it was the first 
electric utility in the United States to install natural gas co-firing 
burners to reduce particulate matter emissions. I welcome you back, 
Mayor Homrighausen.
    Mr. Chairman, I appreciate the series of Clean Air Act 
Reauthorization hearings that you have conducted. I believe that we 
need to take proactive steps to provide clean air now and in the 
future. Throughout my 33 years of public service, I believe I have 
demonstrated a commitment to preserving our environment and the health 
and well-being of all Ohioans. When I first entered office as Governor 
in 1991, most of Ohios urban areas were not attaining the 1-hour ozone 
standard. By the time I left office in 1998, all cities had attained 
the 1-hour ozone standard, except one. However, I am proud to say that 
now all of Ohio is in attainment of the 1-hour standard.
    Overall, the ozone level in Ohio has gone down by 25 percent and in 
many urban areas, it has gone down by more than 50 percent in the past 
20 years. I am very proud that Ohios urban areas and our citizens 
worked together to improve the quality of our air.
    When I was Governor of Ohio, the State Legislature made a decision 
to require vehicle emission testing. When it became politically 
unpopular, they tried to undo it. In fact, I even vetoed a bill in 1997 
that would have weakened our emission program, E-Check. This was a 
strong action in favor of public health and the environment and I was 
surprised that it did not receive strong support from Ohios 
environmental advocates.
    In addition, while I was Governor I supported a 65 percent 
reduction of nitrogen oxide (NO<INF>X</INF>) emissions from stationary 
sources, with a plan for additional reductions if they were necessary 
to meet air quality standards. Ironically, EPA's final NO<INF>X</INF> 
rule would require attainment of the 8-hour ozone standard a year later 
(2010) than the Midwest and Southern Governors alternative to achieve 
the standard in 2009.
    When we look to reauthorize the Clean Air Act, we need to make sure 
that State and local governments have the flexibility they need to 
implement the laws requirements. While national standards are 
necessary, there should be adequate flexibility for State and local 
governments to meet those standards. The EPA should not be in a 
position to mandate cookie-cutter approaches to meeting air quality. 
You don't always need a hammer. There are a lot of innovative programs 
out there and we need to promote and encourage these types of programs.
    For instance, in Ohio, Columbus just implemented a new program 
called Project CLEAR, which will involve citizens, businesses, local 
governments and other organizations in evaluating and choosing 
strategies to improve air quality. The Columbus Health Deapartment, 
Mid-Ohio Regional Planning Commission and the Office of Research at the 
Ohio State University are involved in this initiative.
    In addition, last year Cincinnati was awarded an annual Governors 
Award for Outstanding Achievement in Pollution Prevention for its gas 
cap replacement program. Through this program, motorists had the 
opportunity to voluntarily have their vehicles gas cap tested and 
replaced, if necessary, for free. Approximately 23,000 gas caps were 
given to vehicle owners in metro area in 1998. This eliminated an 
estimated 3.5 tons of hydrocarbon emissions daily, and almost 1,300 
tons annually.
    And these cities have voluntarily implemented these programs in 
order to meet national air quality standards.
    These are the types of innovations that we need to continue to 
encourage as we reauthorize the Clean Air Act.
    However, we also need to do a much better job of ensuring that 
regulations are based on sound science and that their costs bear a 
reasonable relationship with their benefits. And we need to do a better 
job of setting priorities and spending our resources wisely. We need to 
ask the question of whether a less costly approach would achieve the 
same benefits.
    And this is going to be a main topic of discussion as this 
subcommittee considers reauthorization of this law.
    We need to ensure that Federal agencies, such as the EPA, are 
accountable for the decisions they make in promulgating regulations 
under the Clean Air Act. They should be required to answer several 
simple, but vital questions:
    1. What science is needed to help make good decisions?
    2. What is the nature of the risk being considered?
    3. What are the benefits of the proposed regulation?
    4. How much will it cost?
    5. And, are there better less burdensome ways to achieve the same 
goals?
    That is why earlier this year Senator John Breaux and I introduced 
the Air Quality Standard Improvement Act, S. 2362, a bill that will 
provide a commonsense approach to promulgating regulations under the 
Clean Air Act and will increase public health safety and environmental 
protection.
    I thank the chairman for becoming an original cosponsor of that 
bipartisan bill and for agreeing to consider this legislation during 
the reauthorization debate. I look forward to todays testimony.

    Senator Inhofe. Senator Smith.

  OPENING STATEMENT OF HON. BOB SMITH, U.S. SENATOR FROM THE 
                     STATE OF NEW HAMPSHIRE

    Senator Smith. Thank you, Mr. Chairman. I will be very 
brief. I apologize for interrupting the witnesses and for being 
a little bit tardy. I had to chair the Senate, so that was one 
of the reasons why I was late.
    I want to thank Senator Inhofe for chairing the hearing and 
calling attention to this very important issue of the 
reauthorization of the Clean Air Act which we are going to be 
working on over the next several months.
    I certainly want to thank all the witnesses, but 
specifically Ken Colburn, the Air Quality director for New 
Hampshire. We have worked together for many years. You do a 
great job for the State and you are a very valuable resource to 
me and to my staff, and I appreciate it, Kenny.
    Mr. Colburn. Thank you, Senator.
    Senator Smith. I have a couple of points. I think we have 
had the Act, which since its inception has initiated a lot of 
regulation which has caused problems for some and probably 
gotten a lot of positive results as well.
    But it has initiated some innovative approaches, I believe, 
to environmental management. I think we need to build on some 
of the successes and perhaps move away from some of the bad 
aspects of that act.
    Let me just give two examples and then I will yield back.
    The State role: The Clean Air Act was the first to 
establish a system that calls on the Federal Government to 
establish standards and to allow the States to determine how 
best to achieve those standards. I want to expand on that, if 
we can, on our reauthorization.
    Second, and perhaps even more importantly is the market-
driven reduction standards. If we can move to the market and 
gain the reductions in air emissions that we have seen, well, 
then maybe we can move away from the end-of-pipe regulation and 
put the money on the focus of new innovations.
    There is a lot of that going on, relying on the market has 
proven, frankly, an unmitigated success. It is my belief that 
if we give the market the opportunity, it will move way out 
ahead of the regulation at such a rapid pace that regulation, 
at least to the extent that we now know it, won't be necessary.
    To give you an example, in the CAFE standards which many 
pressed us to tighten up, as Senator Inhofe knows, if we can 
produce automobiles such as hybrid cars that will produce less 
emissions the regulation, in terms of the CAFE standards as we 
now know them, goes away.
    If we can't and we don't give the market the opportunity to 
do it and we don't give them the incentive to do it, then 
perhaps it won't happen and we will continue to regulate at the 
end of the pipe. That is just one example.
    The acid rain program many years ago used a system of 
credits that worked fairly well. I don't see any reason why we 
can't look at the same approach again. We need to figure out 
how to adapt this approach to other programs, look at the 
entire issue, all of the air, all of the emissions and begin to 
look at how each individual component to this equation can be 
dealt with.
    I think the resulting requirements that we have had have 
been expensive and inefficient and yet, to some degree they 
have reduced the air quality. But can we improve on that? That 
is the issue.
    So, I would like to see us reduce utility emissions in the 
country while at the same time allowing our economy to grow and 
we can do this, I think, with a balance in the system that 
rewards, let us just use the power producers for an example, if 
they can produce the greatest amount of power while emitting 
the least amount of pollution, then maybe we would be getting 
somewhere.
    So, it is all very complex and it is not going to be an 
easy challenge, Mr. Chairman, but I know you are up to it. I am 
looking forward to working with you on it.
    Senator Inhofe. Thank you, Senator Smith.
    [The prepared statements of Senator Smith follow:]
      Statement by Hon. Bob Smith, U.S. Senator from New Hampshire
    Good afternoon. I would like to thank Senator Inhofe for continuing 
to focus our attention on the important issue of improving the Clean 
Air Act.
    I would like to thank the witnesses for taking the time to prepare 
statements and appear here today. The committee will benefit from your 
insight.
    I would also like to welcome Ken Colburn, the Air Quality director 
from New Hampshire. Ken is doing a terrific job for the people of New 
Hampshire, and has been an invaluable resource for my staff.
    The Clean Air Act is the most complex environmental statute on the 
books.
    With it we have made tremendous strides in reducing emissions and 
improving air quality.
    But the job of protecting air quality requires constant vigilance, 
and the Act itself requires regular maintenance as we learn more about 
which pollutants are most harmful and what sources need better 
controls.
    The Act has initiated numerous innovative approaches to 
environmental management. We need to build on these successes as we try 
to determine the next step for the Act.
    For Example:
    State Role.--The Clean Air Act was the first to establish a system 
that calls on the Federal Government to establish standards, but allow 
the States to determine how best to achieve those standards. We need to 
expand on this flexibility.
    Market Driven Reductions.--The most daring experiment of the 1990 
Amendments was to include an emissions trading program in the Acid Rain 
Program. Relying on the market has proven an unmitigated success. 
Actual costs for implementation and compliance are a mere fraction of 
the lowest 1990 estimates for the program. Emission reductions have 
come faster and been deeper than required by law. Most importantly, the 
Acid Rain Program has an unprecedented 100 percent compliance record. 
Clearly, we need to figure out how to adapt this approach to other 
programs.
    Lastly, I would like to point out that we need to build a better 
system for addressing emissions from the utility sector.
    Outside of the Acid Rain controls, the few emission reductions we 
have achieved under current law for this sector have come only after 
countless rounds of regulation and litigation.
    The resulting requirements are expensive and inefficient.
    We need to reduce utility emissions in this country, but we want 
our economy to continue to grow.
    Technology has made our economy more energy-intensive as more homes 
and offices acquire more electronic devices. The increasing power 
demand must be met at the same time as we drive overall utility 
emissions down.
    The only way to manage this balance without damaging the economy is 
to build a system that rewards the power producers that can produce the 
greatest amount of power while emitting the least pollution.
    The current law does not do this, and I believe it is the greatest 
challenge of reauthorization.
                                 ______
                                 
     Additional Statement of Hon. Bob Smith, U.S. Senator from New 
 Hampshire, Regarding Recent Trends in Texas Environmental Performance 
                                Measures
    During the questioning of Mr. Saitis' panel, Senator Lautenberg 
raised a number of questions regarding Texas' overall environmental 
performance. Senator Lautenberg''s indictment of the Texas record, 
specifically the record of Governor George W. Bush's administration, 
came at the very end of the panel's questioning, and I was not able to 
follow up with the witness. I will ask questions of the witness for the 
record. However, in the interest of ensuring a fair and complete 
record, I performed some research that should be made part of the 
record.
    Texas, the second largest State in area and population, is 
naturally among the leading states in terms of overall emissions of 
pollutants. That is not surprising. I imagine Governor Davis of 
California is among the very few Governors who would understand the 
sheer, magnitude and complexity of environmental problems, and 
especially clean air problems, that Texas faces. However, no one was 
unfairly bashing California in our hearing.
    In the large states especially, it is important to look at trends, 
and not just at the overall numbers. In Texas, under the leadership of 
Governor Bush, the trends are very encouraging. Despite the assertions, 
Texas is no longer the ``most polluted state'' in the nation, even as 
measured by the imperfect EPA Toxic Release Inventory. According to the 
EPA TRI data, Texas ranked either first of second in the Nation for 
total emissions to air, water and land from 1988, when the EPA started 
collecting TRI data, through 1994. What has happened under Governor 
Bush? Texas dropped from first place in 1995 to fifth place in 1998. 
From 1995 through 1998, no State reduced its toxic emissions by more 
than the 43 million pounds that Texas did.
    The topic of the hearing was the Clean Air Act, so it is fair to 
look at Texas' record specifically on that important statute. The fact 
is that Texas has reduced emissions of every criteria pollutant over 
the past few years, even when the national emissions for some 
pollutants increased. Between 1995 and 1997, Texas' emissions of 
NO<INF>X</INF> decreased by 23.6 percent while the national emissions 
increased by 8.2 percent. Texas' emissions of VOCs declined by 43.2 
percent while national emissions fell by only 16 percent. Texas' 
emissions of CO fell by 12 percent while the national emissions only 
fell by 5.1 percent. Texas' emissions of SO dropped by 17.1 percent 
while the national emissions increased by 11.2 percent. The only 
pollutant that Texas did not exceed the national trend was PM. 
Emissions of PM in Texas diminished by 11.9 percent while the national 
emissions fell by 21.2 percent.
    I would like to highlight one specific innovative program that 
holds special interest to me.
    In 1999, Texas established a voluntary emissions reduction program 
similar to the multi-pollutant bill--the so-called ``Bubble Bill''--
that I have been working on and plan to introduce next session. Under 
the Texas program, the oldest, dirtiest power plants, commonly referred 
to as ``grandfathered plants,'' are required to substantially reduce 
NO<INF>X</INF> and SO<INF>2</INF>. Though compliance is not required 
until 2003, Texas has already issued 133 permits to the grandfathered 
plants. These permits have resulted in emissions reductions of 
approximately 25,000 tons.
    Facts are difficult things. The facts are that Governor Bush 
inherited a State with difficult pollution problems, and that the 
trends are in fact quite good. In gross terms, Texas has reduced its 
emissions more than any other state. In relative terms, Texas is fair 
exceeding national averages for reductions in four of five criteria air 
pollutants. The slander that Texas is the ``most polluted State in the 
union'' just doesn't stand up. The facts that show Texas, under 
Governor Bush, is getting cleaner, in absolute and relative terms, 
every day.

    Senator Inhofe. From Wyoming, Mr. Hemmer.

  STATEMENT OF DENNIS HEMMER, DIRECTOR, WYOMING DEPARTMENT OF 
                     ENVIRONMENTAL QUALITY

    Mr. Hemmer. Thank you, Mr. Chairman and members of the 
committee. My name is Dennis Hemmer. I am the director of the 
Wyoming Department of Environmental Quality. I want to thank 
you for this opportunity to address you.
    My comments today will primarily focus on stationery 
sources with fewer than 500,000 people in Wyoming, I don't have 
much experience with mobile sources or many of the urban issues 
that some of my colleagues do. We also have very good 
atmospheric ventilation. Our clean air is often passing by at 
about 30 miles an hour.
    I think if you look at the results we have achieved in this 
country, the Clean Air Act has been very effective. It has 
focused on and addressed issues. However, since the original 
passage of the Clean Air Act, each reauthorization has added 
another layer to the Act.
    While each was effective in addressing the issues of the 
day, the layers do not necessarily compliment each other, nor 
do they create, some of them actually create disincentives for 
emission reductions and penalize facilities that voluntarily 
make early reductions.
    I believe it is time to start with a fresh sheet of paper. 
With respect to stationery sources, we need to start fresh and 
create a system that provides incentives for reductions.
    The first priority must be human health. The current health 
standards, essentially the national ambient air quality 
standards, should be retained. It is paramount that we protect 
the health of those around the facilities and our general 
population.
    I would ask that more emphasis be placed on good science 
and data related to what is needed to protect public health. 
One only has to look back at the debate over the proposed fine 
particulate and ozone standards to see the need for better 
science and better data.
    Once we have protected public health, I believe the other 
goals related to stationery sources encompassed by the Clean 
Air Act are best served by a market-based system. I believe a 
properly constructed market system could provide incentives for 
emission reductions and incentives for the development of 
technology to reduce emissions.
    Before I proceed, I have to give credit. Many of the 
particulars I am speaking of were developed in a paper by Mr. 
Bob Newfeldt. For a market system to work a market must be 
created by some sort of limit similar to what was done for 
sulfur dioxide in the 1990 Clean Air Act Amendments.
    The limit usually takes the form of a cap or benchmark 
below which emissions must be maintained. Benchmarks would need 
to be set for each pollutant depending on the goal you wish to 
achieve.
    Benchmarks would need to be periodically reviewed. If the 
results desired are not being achieved, the benchmark would 
need to be lowered. Ideally, the benchmark would create a 
situation that achieves the goals and creates an economy that 
stimulates the development of new technology to accommodate 
growth.
    However, I think we need to be realistic. The benchmark may 
need to be raised if it is so low that it is determined that it 
cannot accommodate society.
    As much as we would like to see air quality gains similar 
to those made over the last 30 years, we need to recognize that 
the population is expanding and today's technology demands 
materials and power.
    I want you to remember these are the goals beyond health. I 
am not suggesting we sacrifice health for growth. Setting the 
benchmarks would be a Solomon-like task. If we embroil them in 
the morass associated with today's rulemaking, like today's 
rules needed adjustments, it will only happen through 
litigation.
    A system is needed that allows adjustments to balance 
reductions with societal needs. The Federal Reserve could serve 
as a model. The parameters for the benchmarks must be clearly 
articulated and be closely tied to an intelligent national 
energy policy.
    I am concerned today that some decisions are being made to 
reflect agendas not articulated in the Act. I also believe that 
we are dictating national energy policy through decisions made 
under the Clean Air Act. While the two must compliment each 
other, energy policy needs to be thoughtfully debated in its 
own right.
    If a market-based system is used, the initial allocation of 
emissions is again a taxing task. Most systems use historic 
emissions as the base line. Unfortunately, this system 
penalizes the cleaner facility and rewards dirty facilities. 
Basing the allocations on a market-based value, I would suggest 
gross revenue would be a system consistent with market 
principles.
    I believe there are vast opportunities for such a system. 
We would be able to create an environment where emission 
reductions can become revenue enhancers, rather than revenue 
drains. We can create an environment that makes technology 
advances which reduce emissions marketable, where our concern 
is visibility as it often is in the West.
    There would also be opportunities for inter-pollutant 
trading. The light-disrupting properties of a particle of one 
species should be able to be related to the light-disrupting 
properties of another species. While the trades may not be on a 
one-to-one basis, we should be able to equate resource gains.
    I am not so naive as to believe that in a market system 
everybody will comply because they are good citizens or because 
they are making money. It would require that limits allocated 
or obtained through the market be contained in an enforceable 
permit and that those limits be closely monitored for 
compliance.
    I also recognize that there would still be categories of 
emissions from these facilities, for instance, fugitive 
emissions that cannot be accommodated in our market system.
    While we have a good law, if we continue to layer new on 
old, we will stifle significant opportunity for innovative. 
However, if we build on the advances of the last 30 years, take 
advantage of today's technology, and mold a system that 
addresses today's issues, we can achieve even more without the 
rancor and confrontation.
    Thank you.
    Senator Inhofe. Thank you, Mr. Hemmer.
    Now, from my State of Oklahoma, Mr. John Terrill.

  STATEMENT OF JOHN TERRILL, DIRECTOR, AIR QUALITY DIVISION, 
          OKLAHOMA DEPARTMENT OF ENVIRONMENTAL QUALITY

    Mr. Terrill. Thank you, Mr. Chairman and members of the 
subcommittee. My name is John Terrill. I am the Air Quality 
Division director for the Oklahoma Department of Environmental 
Quality. I appreciate the opportunity to comment on some of the 
changes that you are debating.
    My first set of comments has to do with the 8-hour ozone 
standard, but it really could apply to any time we change the 
national ambient air quality standards.
    Let me emphasize that we support the concept of a standard 
for ozone that looks at exposure over an 8-hour period. We 
believe this form of the standard best represents real world 
exposures likely to be experienced by the population most at 
risk.
    However, we disagree with the level at which the standard 
was implemented. It is our belief that any time a standard such 
as this is changed and the bar is raised as it clearly has been 
in this case, the statute should require clear and 
incontrovertible evidence that such a change is necessary.
    In addition, once it has been established that a change in 
existing standard is going to happen, it should be mandatory 
upon the EPA that all guidance necessary to help the States and 
local agencies with implementation must be formulated and made 
available prior to the beginning of any implementation of that 
program.
    Ideally, this guidance should be written in cooperation 
with the State and local programs or at least there should be 
an opportunity for comment before the guidance becomes 
effective.
    For example, we have never received guidance that outlines 
the EPA's position relative to the consequences of 
nonattainment under the 8-hour standard as it relates to new 
source review transition areas.
    The Act itself is specific to the 1-hour standard only. It 
has also become quite obvious that the things we understood 
about the 1-hour standard do not necessarily apply to the 8-
hour standard.
    Voluntary measures that worked well to shave the peaks on 
days of concern do not work as well under the 8-hour scenario. 
Ozone forecasting under the 8-hour standard is much more 
difficult and unpredictable. This is illustrated by the 
dramatic increase in the number of ozone alert days that we 
have called under the 8-hour standard as opposed to those that 
were called when the 1-hour was controlling.
    It has also become apparent that the transport of ozone and 
ozone precursors on a near-regional basis such as between 
neighboring States is very important to both forecasting ozone 
and meeting the new standard.
    Until we know the effect of national measures such as low-
sulfur gasoline and Tier 2 standards for mobile sources, as 
well as regional measures such as implementation of controlled 
strategies in areas working to meet attainment with the 1-hour 
standard, planning to meet this new standard is problematic at 
best.
    If there is one word that would summarize our concerns with 
the current system, it would be ``consistency or the lack 
thereof.'' Consistency in the interpretation of statutes, as 
well as the rules and regulations as they apply State to State 
and region to region is fundamental to the integrity of any 
Federal law. The same is true for consistency in the data bases 
that are used for a variety of purposes throughout the State 
and Federal system.
    A consistent interpretation of statutes, rules and 
regulations are vitally important to both the regulators and 
the regulated community.
    It is important to know that when we obtain an 
applicability determination or some other type of rule 
determination from the EPA, that we are getting the same 
interpretation as that which would be given to another State in 
a similar fact situation. It is very damaging to our 
credibility and that of the EPA when industry points out that 
the same facts and circumstance has resulted in a different 
interpretation in a different State or region.
    It can also create an unfair competitive advantage for like 
industrial facilities operating in different States and 
regions. The regulated community deserves to know what the 
rules are and that they are being applied the same throughout 
the country.
    Data base consistency, including the handling of data, who 
should have access to that data, and which is also an area that 
needs to be addressed.
    The vast majority of activities done by the EPA are driven 
by the data collected in the State and local programs. 
Currently, there is no consistent understanding as to what 
these data are useful to determine and what they are not. 
Consequently, there is little consistency from State to State 
and region to region.
    This is especially troublesome when outside parties such as 
industrial, environmental, and other special interest groups 
attempt to use the data in support of their particular cause.
    We believe the EPA should be required to establish the 
standards for data to be submitted by States and utilized by 
the EPA, yet allow States program flexibility in the design of 
their data management systems.
    The EPA should also be encouraging the States movement 
toward electronic data submittal, ease the paperwork burden on 
the regulated community and the State and local agencies. We 
would also incur further definition of what and when data are 
accessible by the public.
    We are supportive and believe in the public's right to have 
access to any data that are used to make decisions relative to 
air quality programs. However, Congress should statutorily 
insist that before any data is made public by any agency, it is 
carefully evaluated as to its accuracy and made available for 
public viewing only in the context of when it was collected.
    That will conclude my comments.
    Senator Inhofe. Thank you, Mr. Terrill.
    Mr. Colburn.

STATEMENT OF KENNETH COLBURN, DIRECTOR, AIR RESOURCES DIVISION, 
       NEW HAMPSHIRE DEPARTMENT OF ENVIRONMENTAL SERVICES

    Mr. Colburn. Thank you, Mr. Chairman. I am delighted to be 
back before the committee. I was down a year or two ago. I want 
to thank Mr. Wheeler for the invitation.
    Incidentally, when Mr. Hemmer was talking about that 30-
mile an hour wind that is going by, Senator Smith said, yes, 
right toward New Hampshire.
    I also want to thank Senator Smith for not only his kind 
remarks to me, but for offering approximately half of my 
speech, of which that would be a part, Senator.
    Senator Smith. Repetition is fine.
    Mr. Colburn. Thank you very much, Senator. I am delighted 
to be here and have the opportunity to share some of my 
thoughts regarding Clean Air Act Reauthorization.
    Four thoughts come immediately to mind. The first one is, 
``Thank God at last.'' The Act is certainly showing its age. 
With a decade of hindsight, it is clear that several 
fundamental flaws are evident in its structure, its approaches, 
and scientific presumptions including, for example, that it 
largely ignores the existence of wind. I think the EPA has done 
a reasonably good job of implementing the Act, although I do 
wish the agency had come to you sooner to fix some of its 
problems. Second, great good has resulted from the Act. So, we 
must undertake and amend it, don't end its reauthorization 
process.
    Many new ideas were tried out in the 1990 amendments and 
some, like cap and trade programs, proved extraordinarily 
successful. Others, however, proved counterproductive and we 
need to revise them.
    Third, this reauthorization is far too important to public 
health, functioning ecosystems and our Nation's global 
competitiveness for it to devolve into partisan, political or 
regional bickering.
    I am a witness to the power of collaboration. I have seen 
firsthand the progress that can be made when dedicated leaders 
like your chairman, Senator Smith, and New Hampshire's 
Democratic Governor, Jeanne Shaheen, work together.
    There is broad agreement among the States that the Act 
should contain less prescriptive approaches, provide greater 
opportunity to innovative responsibly and accountably, and 
incorporate new scientific developments much more readily.
    There is also broad agreement that progress in reducing air 
pollutant emissions, particularly from our transportation and 
energy sectors, and the technology development that rises to 
meet this challenge, must continue.
    Finally, thorough independent analysis of State air 
programs has determined that the Federal Government provides 
about enough resources to fund half of what it asks us to do.
    Contrary to popular belief, title V's ``Polluter Pays'' 
provisions do not fill this gap. Title V added more work than 
it funded. Furthermore, the responsible, accountable regulatory 
flexibility that States should have, and which our companies 
deserve, is much more costly than traditional one-size-fits-all 
command and control regulation.
    Simply put, Congress has to get serious about funding clean 
air or something has to give.
    Air issues are among the most complex and difficult of all 
environmental matters, so much so that it is impossible to go 
into detail in any single hearing. Nevertheless, having lived 
and breathed these issues for the last 6 years, I can and do 
confidently represent to you that there are better ways to 
conduct air policy, better for the environment, better for the 
regulated community and far less costly to administer.
    For example, while States generally support requirements 
that new facilities install state-of-the-art pollution 
controls, this provision of the Act lets ``excellent'' get in 
the way of ``good'' by encouraging sources to keep their old 
equipment running longer instead of installing new, cleaner 
equipment. We can fix this.
    I won't repeat the remarks of Karen Studders relative to 
multi-pollutant integrated approaches, particularly for the 
energy sector, only that we should also add to her list 
declining pollutant caps over time.
    I am delighted, Mr. Chairman, that your committee has begun 
to look at exactly this kind of integrated solution.
    By its very proscriptiveness, the Act makes it difficult, 
if not impossible, for the EPA to approve innovative new 
approaches to pollution reductions. We can fix this by 
providing the EPA with the authority and responsibility to 
approve non-standard solutions that provide equal or better 
environmental benefits.
    Requiring sources in similar categories to pay for 
emissions, and then taking those revenues and distributing them 
back to the sources based on production, would encourage both 
lower emissions and higher productivity, along with many 
attendant economic and regulatory benefits.
    Similarly, if we internalized environmental costs at the 
front end, market forces would drive environmental improvement 
instead of regulation.
    I would call your attention to the last page of the handout 
I brought today for an example of this involving industry 
averaging.
    Too much time and money has been wasted both at the Federal 
and State levels arguing about the nature and extent of 
transported air pollution. We should perhaps adopt a new 
definition of States' responsibility concerning transported 
pollution, perhaps by requiring that the air that leaves a 
State be as clean or cleaner as the air that entered the State. 
We can fix this.
    Science is increasingly showing that several pollutants 
including ground level ozone and fine particulate matter are 
zero threshold pollutants. Unlike traditional dose response 
approaches, there is no safe level of exposure. As a result, 
traditional approaches to setting and meeting national ambient 
air quality standards need revision, and costs should probably 
factor much more greatly into this process.
    Finally, and perhaps most importantly, there is widespread 
recognition that the production and use of energy in all 
sectors is the primary cause of most significant air pollution 
problems, ozone, mercury deposition, acid rain, haze, toxic air 
pollution and climate change.
    We need to do everything we can to assist States in making 
more efficient use of energy. In doing so, we will also reap 
the benefits of faster technology development and greater 
international competitiveness. We can address this problem, 
too.
    I want you to know that you have New Hampshire's 
commitment, Mr. Chairman, to assist in any way we can in the 
daunting, but doable task of defining, describing, developing 
and drafting the ways to fix these problems.
    Thank you for this opportunity, Mr. Chairman. I look 
forward to assisting in any way I can.
    Senator Inhofe. Thank you, Mr. Colburn.
    Mr. Methier.

  STATEMENT OF RONALD METHIER, CHIEF, AIR PROTECTION BRANCH, 
           GEORGIA ENVIRONMENTAL PROTECTION DIVISION

    Mr. Methier. Good afternoon. My name is Ronald Methier. I 
am the chief of the Air Protection Branch of the Georgia 
Environmental Protection Division. On behalf of the State of 
Georgia I thank you for the opportunity to testify on this very 
important issue.
    The single most valuable fix that Congress could make in 
the Clean Air Act would be to increase the flexibility given to 
the States and the EPA to allow the use of solutions that were 
not available or recognized when Congress amended the law in 
1990.
    There are two specific areas where the lack of flexibility 
in the law makes it difficult for Georgia to address its air 
quality problems in a timely and cost-effective manner.
    First, is the requirement to meet the Act's strict 
attainment dates, an unachievable goal because these dates 
apply to areas like Atlanta which are significantly effected by 
the transport of pollutants from other States.
    Second, the Act's mandate to use Federal reformulated 
gasoline is more hindrance than help in Georgia's struggle to 
achieve attainment.
    In 1990, the scientific community did not fully understand 
how ozone itself was formed, nor did it recognize that because 
of the regional weather conditions and heavy vegetation in the 
Southeast, nitrogen oxides, or NO<INF>X</INF> rather than 
volatile organic compounds or VOCs are the critical factor in 
ozone formation.
    In 1990 regulatory agencies had limited ability to quantify 
or control the impact of interstate transport of pollutants. As 
a result, the EPA was not able to take final action on the 
ozone transport problem until September 1998. This final rule, 
referred to as the NO<INF>X</INF>-SIP call, required 22 Eastern 
States to revise their State implementation plans to provide 
for significant NOx reductions. By court action, the final 
implementation date for the NO<INF>X</INF>-SIP call is now 
2004.
    Georgia has already adopted regulations to require major 
reductions of NO<INF>X</INF> emissions at least equal to those 
in the NO<INF>X</INF>-SIP call. Georgia projects that Atlanta 
will attain the 1-hour standard for ozone in 2004 as soon as 
the NO<INF>X</INF>-SIP call controls reduce NO<INF>X</INF> 
emissions from our neighboring States.
    Thus, despite significant efforts, Atlanta was unable to 
meet its 1999 attainment deadline. It was not alone. The map 
attached to my written testimony still shows more than 20 
metropolitan areas still classified as nonattainment for ozone.
    Except for those areas ranked ``extreme'' or ``severe'' 
shown in red on the map, all of these areas have already missed 
their statutory attainment dates. The reasons for nonattainment 
vary, but Atlanta's experience illustrates problems that are 
common to many of these areas.
    The EPA has acknowledged that Atlanta's ozone problem is 
significantly affected by pollutants transported from upwind 
States. In December 1999, the EPA proposed to apply its 
extension policy to Atlanta. This policy allows extension of 
the attainment date for Atlanta and other areas significantly 
affected by interstate ozone transport.
    In spite of the reasonableness of the extension policy, it 
has come under severe criticism by some who contend that it is 
beyond the EPA's authority. Georgia is currently involved in 
litigation in which the validity of the extension policy has 
been attacked.
    Another suit was recently filed seeking to require the EPA 
to bump up 15 other areas to the next highest pollution 
classification in spite of the EPA's proposal to extend the 
attainment dates for some of them.
    If Atlanta's attainment date is not extended by the EPA's 
extension policy or by legislation, Atlanta will be forced to 
bump up from serious to severe. Bumping Atlanta up from serious 
to severe would have punitive consequences, the worst of which 
is the requirement to use the EPA's reformulated gasoline, also 
called RFG.
    Because of the way ozone is formed in the Southeast, 
Atlanta must reduce more NOx than VOCs to reach attainment. 
Georgia, working with the EPA and the oil companies, designed a 
special low sulfur fuel currently used in the Atlanta area 
which reduces more NOx than RFG does.
    If we are forced to use Federal RFG, it will hurt rather 
than help us achieve the ozone standard and the incremental 
cost to gasoline consumers is about twice as great. As I am 
sure you understand, we want to avoid an increase in already 
high gas prices if there is no environmental benefit.
    We urge you to act expeditiously to address these 
unintended consequences of the 1990 amendments. We request that 
Congress either extend the attainment dates where the failure 
to attain is the result of interstate transport, or make it 
clear that the EPA has authority to extend.
    Second, we urge you to allow the States more flexibility in 
developing regionally relevant control measures such as clean 
fuels best suited to their localized air quality problems.
    I thank you for giving me the opportunity to tell you about 
some of these critical issues that Georgia is facing under the 
Clean Air Act.
    Senator Inhofe. Thank you, Mr. Methier.
    What I would like to do is propound a question and then 
start with Ms. Studders and go all the way across and have you 
respond very briefly to it.
    I think the 1990 amendments to the Act created an important 
partnership with the EPA setting the standards and the States 
doing the implementation. It sounded good and in some areas it 
hasn't worked out that well.
    I would like to have each one of you give us an example of 
where this partnership has worked well and where it has broken 
down.
    Ms. Studders. Mr. Chairman, I am speaking on behalf of the 
State of Minnesota. I would say where it has worked well would 
be two things: The advent of the Federal standards for fuels 
and the changes made technologically in engines to help us 
reduce the emissions from mobile sources. I would say those two 
have worked very well.
    On the front where it has not worked as well, several of my 
peers have testified here today that we have layers of 
permitting right now in the Clean Air Act.
    The Clean Air Act Amendments of 1990 added more. Right now 
we are incenting the exact opposite behavior that we want to 
incent. We are literally incenting old facilities to continue 
operating and to continue emitting more and more serious 
pollutants like nitrous oxides, sulfur dioxide, and mercury 
because the hoops you have to crawl through to build a new 
technologically sound facility are huge. So, we are incenting 
the exact opposite.
    Senator Inhofe. Mr. Saitas.
    Mr. Saitas. Mr. Chairman, I would just reiterate what I 
mentioned in my comments. To the extent that the EPA has 
implemented standards they generally do a very good job of 
setting standards that have a significant reduction on 
emissions.
    Where the shortcoming is, is that timeline for 
implementation doesn't match up with the timeline to clean up 
the air. So there needs to be some sort of matching of that for 
it to be effective and useful to us in meeting the most 
significant air quality challenges we have.
    Senator Inhofe. Good.
    Mr. Hemmer.
    Mr. Hemmer. I think that generally we have a good working 
relationship with the EPA and so on. Many of the 
implementations work well. I think the problem is with the lack 
of flexibility.
    That comes in two forms. One is prescriptiveness of the 
guidance or rules that come out of the EPA in prescribing one 
way of doing it. Sometimes the technology isn't there to do it 
correctly.
    Some of it, frankly, is in the Act in terms of prescribing 
certain tools. The one that comes to mind is when you are 
dealing with the prevention of significant deterioration, you 
require both short-term and long-term monitoring of document 
compliance.
    In many of our facilities the technology does not exist to 
do short term modeling that accurately reflects what is on the 
ground.
    Senator Inhofe. In Oklahoma, Mr. Terrill?
    Mr. Terrill. I think you are aware of the success the Tulsa 
area had with the Flexible Attainment Agreement. Tulsa was 
redesignated attainment for the 1-hour standard just prior to 
the 1990 amendments and then shortly thereafter they had two 
violations of the 1-hour standard.
    Rather than wait for the Federal Government to act or for 
the winds of weather to cause another one, industry, local 
citizens, and community leaders got together and created the 
Ozone Alert Program and then they worked with the EPA and the 
COG and other groups to form the flexible attainment agreement.
    That worked very well in keeping Tulsa in attainment with 
the 1-hour standard. We have had some problems over Labor Day 
weekend the past 3 years where some exceptional events have 
caused some problems there, but there are some flexible 
benefits to this agreement that should allow us to take care of 
that.
    I think that is a real success story because it allowed the 
community to do things that were specific to them to address 
the programs without a lot of preemptive type measures that may 
or may not have been effective.
    One of the bad things that has come out of this is relative 
to the 8-hour standard. It goes back to the lack of guidance. I 
think what it really goes back to is I think that the Federal 
system has forgotten its role.
    I think headquarters has forgotten what they are supposed 
to do. I think the regional offices are not allowed to do what 
was intended for them. The States are not funded well enough 
and were not given the flexibility to do what we are supposed 
to do under the Act.
    I think if we can address those issues we can go a long way 
toward providing a more flexible system and a more predictable 
system for our regulated community and cleaner air for our 
citizens.
    Senator Inhofe. Thank you.
    I would like to remind the panel here that the program he 
is talking about, the Flexible Attainment Program was a pilot 
program that did work well. So, it is nice to her that some of 
these experimentations that we do in specific areas such as we 
did in Tulsa are successful.
    Mr. Colburn.
    Mr. Colburn. Thank you, Mr. Chairman. In theory, the SIP 
process allows States to assemble an approach that they want to 
take. In reality that is not exactly true. There are several 
components of SIPs that are required under the Act.
    One of those, for example, is tailpipe testing. Our 
analysis of tailpipe testing has shown that it focuses 
primarily on the VOCs that Mr. Methier mentioned were less 
effective in reducing NO<INF>X</INF>--which is the primary 
source of ozone--and further, to implement a program according 
to the strict implementation of the statute would cost about 
$10 million in New Hampshire to achieve the same environmental 
benefit that would cost about $100,000.
    The success story here is that the EPA has not required 
that we move ahead to implement this foolish program for the 
State of New Hampshire.
    I would just add, Senator, that there is one other problem 
with SIPs in that they reflect unreality. They account for 
unreality where modeling and so forth comes up with numbers 
that are required to meet SIPs, and they don't adequately 
include reality when that is appropriate.
    Let me give you an example. Because of mobile source 
requirements, motor vehicle requirements in neighboring States, 
we have many cleaner vehicles than we actually require in New 
Hampshire.
    As a result, our air is cleaner, but we can't count those 
reductions even though they are in reality occurring, whereas 
some other things that may or may not prove true that are 
included in our SIPs do count.
    Senator Inhofe. Thank you. Mr. Methier.
    Mr. Methier. I think one of the best examples of the 
partnerships are when the States identify what their needs are 
and there are very common needs throughout the country and the 
EPA can respond with national standards, whether it is strict 
tailpipe standards or strict fuel standards.
    Those don't always match up when certain areas may have 
their attainment dates like some of these new vehicle standards 
and even fuel standards won't help us with Atlanta. But they 
will in the future and that is good.
    What we see bad is quite often in the development of those 
standards, whether it is vehicle testing or anything else, the 
EPA does like the one-size-fits-all, have to do it the same in 
every region approach.
    That is not the right way to do it. We have to reflect the 
science of what the problem is. How does the particular air 
pollution problem get formed in a particular State or region or 
what time of the year even. That, quite often, the EPA has been 
very inflexible on.
    Senator Inhofe. Very good.
    Using the early bird rule, we will go to Senator Thomas.
    Senator Thomas. Dennis, in your testimony you said that we 
are dictating national energy policy through decisions in clean 
air. We had a hearing yesterday with Secretary Richardson. I 
tend to agree with you. What would you give as an example of 
that?
    Mr. Hemmer. Senator Thomas, I think we are in many ways 
dictating that the fuel of choice becomes natural gas. Now, 
obviously Wyoming has lots of natural gas and lots of coal. But 
I question the wisdom if we are dictating it to the point that 
natural gas is being used for base load electricity.
    It seems to me that there are other fuels that are better 
for that. So, It seems to me that before we by air quality 
begin dictating what the fuels will be, we also need to think 
about what is the wisest use of those respective fuels.
    So, I am concerned that we are forcing fuels that may or 
may not be in the best long-term interest of the Nation in 
terms of energy.
    Senator Thomas. Thank you.
    Mr. Colburn, you seem to be interested or concerned about 
what is moving into your State from other States. If indeed you 
measure and control pollution as it comes from whatever it is, 
from power plants or exhaust pipes, at the location, how does 
that happen?
    Why do you feel like you are intimidated by somebody else's 
cost?
    Mr. Colburn. Thank you, Senator. As you know, the southern 
part of New Hampshire is quite proximate to the Boston 
metropolitan area. That is where most of my ozone exceedances 
occur. They occur in a very predictable pattern which the 
science makes clear, but the law does not.
    What happens is that the emissions from the metropolitan 
Boston commute and power plants and so forth go out over the 
Gulf of Maine early in the day. They cook out there in a 
uniform fashion to create ozone.
    As the land heats up on the same hot day, the air over the 
land rises, draws in the ozone that has been created over the 
ocean, and triggers the monitors. That process walks up the 
coast of New Hampshire and on up through Maine, hour by hour 
diminishing ozone concentrations so that you have maybe 130 
parts per billion at Rye, NH, 126 at Portland, ME, and 125 at 
Acadia.
    Senator Thomas. So it is aggravated as it moves? The air is 
still complying with the law?
    Mr. Colburn. I am sorry, in Maine?
    Senator Thomas. Maine or wherever.
     Mr. Colburn. They certainly could be. Exceedances are what 
are occurring downwind after that cooking of their emissions. 
We also get transport from much more distant areas, but it is 
distance dependent and the nearer areas are most important.
    Another example, Senator, would be Bridgeport, CT, which 
doesn't have a prayer of reaching attainment until New York 
City is more successful at reducing its emissions.
    Senator Thomas. I doubt if you get much from Wyoming. I 
have to comment on that.
    Mr. Colburn. I certainly do not, Senator.
    Senator Thomas. You know, I know how difficult it is, but 
in many things you would think what we should do is set 
attainment standards that we want to have over the country and 
then say to States, I don't care how you get there. All we are 
going to measure is what the result is. Is that a workable 
thing?
    Mr. Colburn. To a large extent setting a performance 
standard is a very good idea. What we lack an awful lot of is 
that to determine compliance under such an approach, we need to 
have a much more aggressive monitoring infrastructure because 
until you are able to identify the science behind it, the way 
you are going to be able to know it is by physically monitoring 
things, measuring the sources and measuring where it goes.
    Until you make that investment, then you are not going to 
be making the wisest decisions in terms of moving forward to 
clean the air.
    Mr. Saitas. I will tell you, with respect to the State of 
Texas, we actually contract with the university to fly an 
airplane and we can fly that airplane upwind of a power plant 
stack that is burning coal and we can fly it back and forth and 
cut that plume and we can track where it goes.
    Senator Thomas. But my point is that you all talk about you 
need more flexibility, things are different, why don't we just 
say, ``Here is the attainment goal. You could get there however 
you choose.''
    Ms. Studders. If I may, Mr. Chairman, I think what the 
issue becomes is that we need to see national standards.
    Senator Thomas. OK, we have got national standards.
    Ms. Studders. If you have the national standards, the 
dilemma in having the States say, OK, ``you just achieve it;'' 
From the industry perspective they need to know what that 
target is.
    A couple of people testified about the idea of the four 
pollutants and having a market cap with declining goals in the 
future.
    If we tell people where they need to go in the future, I 
think that is an OK and realistic thing to do from a business 
perspective and also from an environmental quality perspective, 
because you would know what equipment you would eventually have 
to add and it would take care of Mr. Hemmer's concern about 
which fuel would have to be used, because then you could just 
dictate where we wanted to go.
    But I think we run into trouble if we have different States 
with different----
    Senator Thomas. No, that is not what I said. You have 
national standards and then--well, it is here. I understand it.
    We always hear, ``Well, we have too many details.'' They 
told us how to do it. We need more flexibility and so on. I am 
saying set the standards and you all get there however you 
choose. However, you want the Feds to pay for it all; don't 
you.
    Mr. Colburn. Only what you require, Senator. The other 
problem, though, with that analogy is that I don't control the 
sources in the Boston area. I am perfectly willing to shoulder 
that challenge for the sources I do control.
    Senator Thomas. I understand. Thank you.
    Senator Inhofe. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    Mr. Hemmer and Senator Thomas, I was just thinking here, it 
was almost 31 years ago that I went out to Cheyenne, WY as the 
vice chairman of the Ohio Environment and Natural Resources 
Committee and the father of our Environmental Protection Agency 
to talk to Wyoming legislators about the importance of clean 
air and water, not to sacrifice your environment for the 
economy.
    It is hard to just think of all those years that have gone 
by. I also couldn't help but think--and you did a great job 
because it is working.
    Senator Thomas. Yes, it has.
    Senator Voinovich. And I comment about the fact that if it 
wasn't for Congress's passing in 1959 the Air Pollution Control 
Act, where would we be today as a country? I think so often we 
get together at these hearings and we just think about the 
problems that we have.
    But I don't think we celebrate enough the progress that we 
have made in this country in terms of cleaning up our air and 
water.
    The question I would like to ask of all the panelists is 
this: As you know, the new ambient air standards are now in the 
Supreme Court of the United States, the proposed ambient air 
standards for ozone and for particulate matter.
    In the event that the Court overturns the District Court 
and rules that those ambient air standards are applicable, what 
impact will those new standards have on your respective States 
and if they do go into effect, would you be requesting some 
more flexibility in terms of trying to achieve those standards?
    We will start out with whoever wants to volunteer. Ms. 
Studders.
    Ms. Studders. I am thinking. Minnesota is currently now in 
attainment. The issue I think we are going to have is two-fold. 
Down the road, depending on how many more vehicles continue 
driving more and more miles, until we get into the rub with the 
ozone standard, and we are a part of the country that is 
growing. More and more people are driving.
    The second area that is going to play into it is our power 
plants, given that they create 30 to 70 percent of emissions of 
the big pollutants.
    Short term, I think we are going to be OK. By ``short 
term'' I mean probably 5 years. Beyond that, I would need some 
data to help support it. But I think we would be running into 
some problems.
    Mr. Saitas. With respect to Texas, if the 8-hour standards 
are held to be enforceable by the U.S. Supreme Court, then 70 
percent of our population would be living in an area that 
didn't meet that standard.
    Senator Voinovich. Seventy percent would what?
    Mr. Saitas. Seventy percent of the population in the State 
of Texas would be living in an area that didn't meet that 
standard.
    Senator Voinovich. Does not meet the 8-hour standard?
    Mr. Saitas. Yes, sir.
    Mr. Hemmer. Mr. Chairman, our initial evaluation was that 
while we might have some localized facility impacts with the 
fine particulates standard, we would have to do a little more 
work on it.
    Basically, we would not be impacted to any significant 
degree by the fine particulate and we have the luxury of not 
having an ozone issue, so our analysis shows that we would have 
no impact there.
    I think the key point though in the whole thing, and it 
goes back, as you mentioned, to working on the Safe Drinking 
Water Act, it is getting back into some cost balance that cold 
be put in there.
    As you will recall, that was a real ticklish thing. That 
was finding the correct language that people could accept 
there.
    Mr. Terrill. In Oklahoma we would immediately go in 
nonattainment in the Tulsa area. If the EPA does what they have 
told me they will do in Oklahoma City, we can take the last 3 
years' worth of data and average out, although if you take the 
first 3 years and just look at that, they would be 
nonattainment.
    So, it will be interesting to see what happens if they do 
what they said they would do and take the last 3 or the best 3 
years worth of data which is the most recent.
    Basically, we are so close in so many areas that it is 
going to be a year-to-year struggle until a lot of the national 
measures go into effect.
    I think going back to the question that was asked 
previously, I think that one of the things that the EPA has 
done that I don't think if it was an intended consequence, but 
it may have some real relevance in trying to meet some of these 
standards are the regional planning bodies that came out of the 
Regional Haze Rule.
    I really think that that is the way that air pollution 
control is going to be looked at in the future, looking at it 
on a regional basis, because we have never said that we didn't 
affect our neighbor.
    There is no doubt that emissions from Oklahoma City and 
Tulsa affect Kansas on some days, Arkansas on some days, Texas 
on some days. We would argue about the extent of that, but near 
transport happens.
    It is amazing to me the things that they are doing in Texas 
to try to address their problem. I don't see how they got some 
of the measures passed that they did, but things they are going 
to do there is going to help us address this 8-hour problem.
    I think working on a regional basis, which I really believe 
these regional planning bodies should have the flexibility to 
look at other pollutants besides regional haze because they are 
all tied together.
    It doesn't make a lot of sense to me to look at just one 
area when we can cost-effectively look at a lot of areas and 
working together through that process, I think, will work.
    Mr. Colburn. Senator, the citizens of New Hampshire, as a 
result of a cold, rainy summer, enjoy air quality that either 
meets or very nearly meets the 8-hour standard.
    I would echo the comments of Mr. Terrill. The national 
measures that the EPA has implemented but which haven't yet 
taken effect, the SIP call, vehicle controls, and so forth, 
should reduce the pollution coming at us enough to ensure that 
we do remain in attainment.
    I don't think that we would be coming back to you 
requesting any additional flexibility than we have already 
asked today.
    Mr. Methier. In Georgia the ozone standard would have an 
impact on more of our cities. What I am most concerned with is 
the particulate matter standard. At this point, every single 
monitor that we operate indicates that it would violate this 
new standard.
    So, we would have widespread State nonattainment problems. 
What concerns me is that I see that a lot in the Southeast, 
more than in other parts of the country. We may have a similar 
southeastern or regional problem with this kind of pollutant 
like we have with ozone.
    With the way the law is constructed right now, there might 
not be the flexibility for our region to really plan for what 
is needed.
    Another possible problem is that the way the Clean Air Act 
is constructed and the way this monitoring data is being 
collected and when areas may actually be designated, we may 
have overlapping deadlines which may not allow us to really do 
the integrated kind of planning that you have heard some of the 
other panelists talk about.
    A lot of the same things that cause ozone cause fine 
particulate matter and cause regional haze. If we can lay out a 
timeline to address all of those problems at once, that would 
be much more cost effective.
    Senator Voinovich. Mr. Chairman, I would just make one 
other comment. It is interesting that when we set the 2.5 
standard for particulate matter, at the time they set it they 
weren't sure whether or not it would really make a difference.
    In other words, we had the standard of 10 which is the 
current standard. We have spent, I think, $185 million already 
setting up these testing--what do they call them? Monitors?
    Mr. Methier. The monitors around. One thing that this 
committee could look at, Mr. Chairman, is what is the result of 
all that monitoring and was the original 2.5 realistic in terms 
of what these monitors are picking up in terms of the impact it 
is having on the environment and public health.
    So, it might be something you might go back and revisit 
after we have more information. But it is interesting that they 
put the standard in effect and at the same time asked Congress 
for $24 million to start doing the research to find out whether 
or not the new standard was going to make a difference in terms 
of the environment and public health.
    Senator Inhofe. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman.
    As I was listening to each of you, I notice we have 
Minnesota, Texas, Wyoming, Oklahoma, New Hampshire, and Georgia 
here. So, we will give you guys a room and you can just lock 
yourselves in there, come up with a solution and give it to us 
and we will pass the law. Do you think you could do that?
    Mr. Saitas. We could try.
    Ms. Studders. Should we say we are up to the challenge?
    Senator Smith. You might do well.
    Mr. Saitas. Will you promise that?
    Senator Smith. Promise what? I will promise I will lock you 
in the room if you promise you will come up with the solutions.
    All kidding aside, you have coal producers. You have 
natural gas. You have some utilities that are doing a better 
job than others in terms of emission controls. You have 
nonattainment versus attainment. You have all these problems 
all in varying degrees around the country. Clearly, there is 
not one State answer.
    I think, Mr. Colburn, you brought it up that we can't be in 
attainment, no matter what we do, because of another State's 
emissions.
    So, it clearly is going to take a national plan. It is 
going to take something that we all can put together that 
probably is not going to make everybody happy.
     You won't get everything you want, but it is going to have 
to take a solution. You know, anyone of us can do the numbers. 
I don't care what State you are from. If it is 49 to 1, you are 
going to lose.
    In the case of New England, there are a lot more Senators 
from States other than New England than there are Senators from 
New England, and that includes Congressmen. So, clearly you 
can't win in any region if you go it alone.
    So, I think I have come to that conclusion. We need to look 
at a way, and I think Senator Thomas alluded to it, you look at 
wherever that line may be and then work it out in a way that we 
can all agree to come up with a solution for that.
    Let me ask you this question and anybody can respond to it 
or everybody, if you would like. Is it possible for us to come 
to that kind of agreement, a basic agreement which basically 
is--call it a bubble, call it whatever you want--credits 
whatever you want where some people are going to get a little 
forbearance and others are not.
    But can we come to an agreement, in your view, that would 
get us to a reasonable level of emissions that we can gradually 
ratchet down.
    A, can we come to that agreement, and B, if we can, give me 
some idea what you think it might be.
    If anybody wants to tackle that, go ahead, otherwise I am 
going to lock you in the room.
    Mr. Colburn. Senator, I will start. I appreciate that you 
come close to what I think is one of the essential policy 
dilemmas that faces the Congress in Clean Air Act 
reauthorization.
    That is the conflict between a least cost solution which 
means that perhaps controls in the less-populated areas of 
Wyoming are unnecessary because there are not a whole lot of 
emissions there as they are in, say, New York City, versus what 
is commonly viewed to be a fair solution of applying the same 
level of controls to all sources throughout the country.
    The question of fairness versus least cost, both of which 
are admirable and neither of which can be done together, will 
present a public policy problem and I think only the Congress 
can resolve it.
    Within that caveat though, I do believe that it is possible 
to come to a solution. I think there are some indications 
already in front of this committee from the utility community 
that they would agree on a multiple pollutant, bubble kind of 
approach.
    I think the same could be achieved in other sectors of our 
economy. I guess what I am most optimistic about is while we 
often think in terms of cost and benefit, there is an essential 
component left out typically.
    It is that the technology that evolves to meet the 
environmental reduction is marketable throughout the rest of 
the world. In New Hampshire, even though we have high energy 
costs--and we don't want to see them higher--our comparative 
advantage as a State relates to our quality of environment and 
our quality of life, not how much can we ratcheted down 
individual costs for environmental controls.
    I think there are huge technology benefits to this Nation 
and its competitiveness by developing the controls to solve 
these problems.
    Senator Smith. Is it possible to make the transition, the 
leap, if you will, from the historical pattern that we have 
been dealing with which, yes, has gotten results, end of pipe, 
but has not really focused on the innovation and new 
technology.
    Can we make that leap to get to new technology, perhaps 
revenue enhancers? Can we make that leap? Is that doable? I 
mean you all represent different States with different 
attainment and nonattainment problems. So it would be good to 
see if we get one answer here.
    That might be a good start. Does anybody want to start? Ms. 
Studders, Karen?
    Ms. Studders. Yes. Mr. Chairman and Senator Smith, having 
just returned from St. Louis, I need to share with the 
committee here that we had energy regulators and environmental 
regulators together for a couple of days. We did our Energy 101 
and Environmental 101.
    If I walked away with anything, I walked away with the 
understanding that we are a very electrified country and we are 
using electricity in great amounts and that we have some needs 
for future plants to provide that electricity.
    From the industry perspective, they need to know what the 
standards are that they need to meet. I think the time is right 
that we could come up with some national numbers, knowing that 
we would have a market cap that would decline over time because 
we have the energy they need there. We were talking about it at 
the table.
    In fairness to the developers of the plants, they need to 
know 10 years, 20 years, 30 years, and the life of that plant, 
what is going to be expected of them.
    I think we would be in a much better situation than we 
currently are right now, both from an energy perspective and an 
environmental one.
    I also will share with this committee that some of what 
impacts air quality is not just how we have each developed in 
our respective regions of the country, but also our geography. 
The ocean and the mountains play very heavily into how air 
quality is dispersed both around the United States and impacts 
how quickly we get the air quality from other countries.
    The importance would be, most of our players are national, 
if not international. If we had those caps nationally, I think 
we would be in a much better position than we are now. I think 
we could come to some agreement.
    Senator Smith. My time has expired.
    Would anybody disagree with that?
    Senator Inhofe. Why don't we ask, Senator Smith, and the 
rest of them could respond to that for the record, in writing, 
if they so desire because I am going to be making a similar 
request in a minute.
    Mr. Hemmer. I was going to respond to that question. I 
don't know what the bubbles would look like. I think we can do 
the bubbles. Obviously, some of us in the West were primarily 
worried about visibility. Other areas are worried about other 
thing.
    I think the pollutants may vary. We may have to shape those 
bubbles differently. I think the trick is to somehow provide an 
incentive to make sure that you can accommodate the growth that 
is going to happen in those areas with the gains that you are 
looking for.
    My pitch would be that to do that somehow we need to get 
into a market-based system that provides an incentive for the 
reductions to where that reduction becomes an asset.
    Senator Inhofe. Senator Lautenberg.
    Senator Lautenberg. Thank you very much, Mr. Chairman. I 
thank the members of the panel here for coming from fairly 
significant distances to be with us today. The distance, 
however, in the room might be more of a travail than the 
distances in the geography.
    I come from New Jersey. I wouldn't say I thank each of you 
for contributing to our pollution problems, but there is a 
significant amount of sharing. We recognize that.
     Mr. Colburn talked about what happens as a result of 
Boston's emissions in New Hampshire. I know New Hampshire, not 
very well, but I have been up there in the mountains and 
things, especially when I was younger.
    Besides, the chairman of the full committee is from New 
Hampshire. So we all did a primer on New Hampshire to make sure 
that we understand what the problems are.
    I will tell you though, your Senator was born in New 
Jersey, just in case you didn't know that. So, you can take the 
fellow out of New Jersey, but you can't take New Jersey out of 
the fellow.
    One of the things that I hear threaded through this 
discussion is, well, questions about whether or not we do it 
regionally and what can States do individually.
    I think that if everyone has a standard to meet within 
their own State's borders that we could ultimately take care of 
the regional problem.
    The question is: What kind of cooperation can we get?
    Mr. Saitas, I am sorry I wasn't here to hear your 
testimony, but I was very interested. You have an energetic 
State with a large stake in how much energy can be produced 
there, oil and so forth.
    It has been noted considerably in the last few days, the 
city of Houston won a distinction long held by Los Angeles, and 
that is they are the smoggiest city in the country. This calls 
for some significant action because there is a public health 
challenge here.
    It is my understanding and please disagree if my statistics 
are wrong, but I have read that Houston's own studies find that 
about 430 residents die prematurely each year from air 
pollution.
    I think statewide, Texas air pollution can be blamed for 
over 2,600 premature deaths per year. I give it the attribution 
of the Environmental Defense Fund. You can argue, perhaps, but 
it is a fairly significant number, absolutely.
    Since past approaches seem to have failed, is it time for 
Texas to adopt a standard much like California uses to fight 
air pollution?
    Mr. Saitas. Thank you, Senator. I would offer, first of 
all, that we do have a problem in Houston, TX. I have lived 
there. I have family there. My wife has family there. There are 
times that I can drive in on some days and you can't see the 
skyline. So we have to fix that, and we are going to fix that.
    I would also offer with respect to the studies, there was a 
substantial study that I think was done by the city of Houston, 
and I don't know if that is the one that you are referring to.
    Regardless if the number is 100 or 10 or 1, it doesn't 
matter. The fact of the matter is that the air quality there 
doesn't meet the standard. There are people being affected and 
it has to be fixed, first and foremost.
    What I said earlier in my opening comments I will repeat 
again now. To clean up that air is going to take the joint 
efforts of local, State and Federal.
    The main issue that we have, and it is a major stumbling 
block to try to clean up Houston's air, is the issue of Federal 
preemption.
    We don't have the ability as a State to require reductions 
from very key and very significant emission sources.
    I will repeat them again since you weren't here: Aircraft 
engines, ground support equipment, railroad engines, ships, 18-
wheelers, construction equipment. All of them, when you look at 
them collectively, are huge.
    Senator Lautenberg. Automobiles as well.
    Mr. Saitas. Yes. For us to be able to clean up Houston's 
air, we must have significant reductions from those categories 
on the same timeline which is November 15, 2007, if we are 
going to clean up the air.
    That is the biggest challenge we have right now because we, 
as a State, are required to meet that deadline. However, the 
rules to force reductions in those categories aren't required 
to be on the same timeline, in fact, they are not. Some of them 
haven't even been contemplated yet.
    So, any assistance you can bring to bear to make that 
happen would be greatly appreciated by us in Houston.
    Senator Lautenberg. Well, a large part of the debate in 
this room centers around how much Federal intervention we have 
with various problems, particularly on the environmental side, 
more often on the environmental side than any other.
    Houston was a favorite business place of mine. The company 
is called ADP, the company I helped start and run until I came 
here. It was in Houston. We have a very active location there. 
It is a terrific place to do business. I knew the former mayor, 
Bob Lanier, very well.
    So, while I am certainly not an expert on Houston, the 
problem, as you agree, has to be solved. Therefore, wouldn't 
you advocate a more aggressive Federal intervention? Each of 
the States, perhaps the Western most don't see it as much as we 
do in the East or in the center of the country. But it has a 
degree of pollution coming from other places.
    So, wouldn't it be appropriate for the Federal Government 
to set the standards and make sure they are enforced, offer 
whatever is necessary to get the job done.
    I mean it is quite a sorry thing to see a State like Texas 
wind up, I think, the 49th most polluted State in the country. 
Considering the number of lives lost early, it would be almost 
an ideal setting for us to get on with the task of taking care 
of our people and the quality of the air. That is what this 
meeting is about.
    So, wouldn't it make sense for a more aggressive posture?
    Mr. Saitas. I would beg to differ, Senator, that it 
requires more aggressive intervention. But let me read to you 
one sentence out of the comment letter that we received from 
the EPA yesterday. It was the 25th. That was 2 days ago.
    It talks about emission reductions. It says,

    Based on the Engine Manufacturers Association of America 
versus the EPA in the D.C. Circuit Court in 1996, it held that 
State regulation of nonroad engines is preempted by the Clean 
Air Act, unless it is a use restriction.

    So for me to be able to reduce emissions from construction 
equipment and by the way, when I take my kids to school in the 
morning, my son will see a backhoe that is on the corner and he 
will watch it billow smoke, and he will say, ``What are you 
going to do about that?'' My answer is: ``Well, I can't do 
anything.''
    Senator Lautenberg. You can drop him off at school and get 
out of there.
    Mr. Saitas. The Federal Government tells me the only thing 
I can do is a use restriction. Do you know what that means? 
That means I just move it in the course of the day. Because of 
the way ozone is created, you can't use it from the morning 
hours. You can do construction in the afternoon.
    Now, think of the social consequences of that. Think of the 
business consequences. The end result of that suggestion is 
that there is not a single pound of pollutant coming out of the 
air. It is still going to be emitted, but at different parts of 
the day.
    So, what we need more than anything else in terms of 
Federal intervention is for them to carry their load. They need 
to do it on the same timeline. So, anything you can do to make 
them carry their load on the timeline would be greatly 
appreciated.
    Senator Lautenberg. Just 1 minute, Mr. Chairman.
    Senator Inhofe. OK.
    Senator Lautenberg. Is it OK?
    Senator Inhofe. No, not really. You go right ahead. Nine 
minutes instead of five, so I'll give you one more.
    Senator Lautenberg. I appreciate the generosity.
    The question arises for me. I don't want to disrupt the 
social or the economic structure of Texas. That is not my 
mission. My mission as it has always been is to try to clean up 
the environment because all of us with children or 
grandchildren all know what the consequences could be as a 
result.
    But I made a mistake when I said before that Texas was 49th 
in the quality of the environment. It is 49th in spending on 
cleaning the environment.
    Well, to me it looks like that there is a place there that 
a difference could be made within the State itself with perhaps 
less disruption of the functioning of the society.
    Mr. Saitas. Senator, we spent $350 to $400 million a year 
in the State of Texas on environmental programs. We have 3,000 
employees. I would say that that is probably one of the most 
significant commitments by a State in this Union.
    Nonetheless, we still have to clean up the air. We still 
have to have clean water. We still have to have safe land.
    Senator Inhofe. Mr. Saitas, I am going to have to cut this 
off now because we have another panel.
    I had one question I would like to have you answer for the 
record because there is no more time now. That is, when we 
first started this program in 1970, no one had much experience. 
In the 1990 Act, the Federal Government had the experience, but 
the States really didn't.
    Now they do. So, I would like to have you send us in 
writing for the record what parts of the Federal program could 
be effectively delegated to the States.
    Senator Inhofe. The other things, just a comment, you know 
there is a diverse philosophy up here. Being close by Texas, I 
know what a difficult job it is in a huge State like Texas to 
do some of the things. You are doing an outstanding job.
    I hope that you will observe, if you haven't already, that 
there is a mentality in Washington, DC, that if a decision 
isn't made in Washington, it is not a good decision. I don't 
subscribe to that.
    Senator Lautenberg. Where in Washington is that done, Mr. 
Chairman?
    Senator Inhofe. Oh, it is done right here in the U.S. 
Senate.
    Senator Lautenberg. Is that right? I thought everybody 
represented properly their State interests. I didn't know that 
that was----
    Senator Inhofe. I can remember one time--no, I won't get 
into that.
    At this time I will dismiss this panel and ask the next 
panel to come forward.
    We do have several votes taking place at 4:30, so it is 
going to be the effort of this committee to conclude this 
hearing before those votes take place.
    If we could have order here while they are being seated, 
our second panel, as a matter of fact, I am going to skip the 
mayor because we have a very important U.S. Senator from Ohio 
who wants to make that introduction himself.
    We have Mr. Taylor from the State of Oklahoma, Zach Taylor. 
We appreciate your being here very much. He is the executive 
director of a group I work with with some regularity and that 
is the Association of Central Oklahoma Governments.
    We also have Ms. Marcia Willhite, the assistant chief, 
Pollution Prevention of Air Quality for the Environmental 
Health Division for the city of Lincoln, NE.
    I would recognize at this time Senator Voinovich for 
another introduction.
    Senator Voinovich. Thank you, Mr. Chairman. I kind of cut 
my first statement short because I knew the mayor was going to 
be coming on.
    But I would like to extend my welcome to Mayor Homrighausen 
of Dover, OH. Mayor Homrighausen testified before this 
committee several years ago, Mr. Chairman, in regard to his 
concern with the EPA's new standards for ozone and particulate 
matter.
    He and I were concerned about those new ambient air 
standards for ozone and particulate matter. We thought that 
they far outweighed the benefits to public health and the 
environment.
    Mayor, I hope that we are successful in the Supreme Court. 
It was interesting to hear the reaction from the State people 
in regard to what is going to happen in their States if these 
new ambient air standards go into effect.
    Mr. Chairman, as I mentioned, when we talk about clean air 
or electricity generation there is a tendency to think about 
those large billion dollar companies. People forget about 
municipalities like little Dover, OH, which owns and operates 
its own utility plant and provides low-cost energy to its 
consumers.
    I think that it came out from the previous testimony that 
when we look to reauthorize that Clean Air Act we need to make 
sure that State and local governments have the flexibility they 
need to implement the law's requirements.
    I agree that national standards are necessary, but there 
should be adequate flexibility for State and local governments 
to meet those standards.
    The EPA should not be in the position to mandate cookie-
cutter approaches to meeting air quality. You know, you don't 
always need a hammer. There are a lot of innovative programs 
out there. We need to encourage those types of programs.
    Forget about ``Well, local communities can do it if they 
put their mind to it.'' For example, in the city of Cincinnati, 
that was our last city to achieve their ambient air standards. 
Now, they recently received the Governor's Annual Award for 
Outstanding Achievement in Pollution Prevention for a little 
program.
    It was a gas cap replacement program. Through this program 
motorists had the opportunity to voluntarily have their vehicle 
gas cap tested and replaced if necessary, and it was for 
nothing. This is hard to believe, but 23,000 gas caps were 
given to vehicle owners in the metro area in 1998. It 
eliminated an estimated 3.5 tons of hydrocarbon emissions daily 
and almost 1,300 tons annually.
    So, that is just a little program, but it made a difference 
and it helped them to achieve that ambient air standard that 
they had been working to achieve for so long.
    So, I really think that if we have a more flexible approach 
to some of these things that we can achieve a whole lot more 
than if we are restricted.
    It was interesting to hear from the gentleman from Texas 
saying that he has been asked to do a job but not given the 
tools to get the job done.
    So those are the practical sides of these things that we 
need to address our attention to. I am anxious to hear the 
testimony of our witnesses here to date.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Voinovich.
    We will go ahead and start with the same rules as before.
    Again, we do have some votes that are coming up at 4:30, so 
we want to conclude before that time.
    We will start with our 5-minute opening statements. Mayor, 
we will start with you. I would add that you have four very 
sympathetic ears up here in that both Senator Voinovich and I 
have been mayors in the past. We know what a hard job it is.

   STATEMENT OF HON. RICHARD P. HOMRIGHAUSEN, MAYOR, CITY OF 
                           DOVER, OH

    Mayor Homrighausen. Senator Inhofe, Senator Voinovich, my 
name, as Senator Voinovich said is Richard P. Homrighausen and 
I am mayor of the city of Dover, OH.
    As a mayor from a small town in the heart of the industrial 
Midwest, I am honored to be invited for the second time to 
testify before you.
    As a small town mayor, local municipal utility operator of 
a small coal-fired power plant and active participant in other 
generation projects through AMP-Ohio, and as president of the 
Ohio Municipal Electric Association, I know both the value that 
citizens have received from the passage of the Clean Air Act 
and its amendments as well as the hardships imposed from 
inflexible, over-
zealous, and over-reaching administration.
    I sincerely appreciate this opportunity to share with you 
my observation on the Clean Air Act, its successes and 
failures, as well as my views on how to fix the problems that 
communities like mine are experiencing.
    Under the Clean Air Act, tremendous improvements have been 
made in air quality. As a local official, I must emphasize that 
these accomplishments were realized largely through the efforts 
of State and local governments through innovative development 
and implementation of the State implementation program.
    The following is a summary list of key areas in which I 
believe the Congress must seek improvements. Under the Unfunded 
Mandates Act, the Small Business Regulatory Enforcement 
Fairness Act and other provisions, the EPA and other Federal 
agencies are to consider and respond to specific and differing 
needs of small business and local government.
    Regrettably, all too often the needs of these interests are 
ignored with the EPA imposing one-size-fits-all approaches 
where the costs of compliance are as high for a small facility 
or operator as they are for facilities many times larger.
    Congress should amend the Small Business Regulatory 
Enforcement Fairness Act to ensure that the needs and concerns 
of small business and local government are addressed.
    The title IV Acid Rain Program exempts units under 25 
megawatts, but encourages these units to opt in. Despite the 
diligent efforts of AMP-Ohio, OMEA and others, the EPA has 
failed to construct the opt-in program in a workable manner. 
Therefore, they have penalized us and failed to use a cost-
effective means of bringing numerous small emitters under the 
Act's Acid Rain Program.
    Congress must fix the opt-in program and expand the use of 
market-based mechanisms to achieve pollution reduction 
objectives.
    In adopting and amending the Clean Air Act, Congress did 
not give the EPA the authority to set emissions limits for 
grand-
fathered plants. Yet, the EPA has taken numerous approaches to 
target these plants and attempt to force their retirement.
    The EPA also appears to be attempting to exceed its 
authority through backdoor imposition of carbon dioxide limits. 
Congress must maintain rigorous oversight and take action when 
necessary to prevent the EPA from over-reaching its statutory 
authority.
    The Act creates a careful partnership between the EPA and 
the States. In general, the EPA sets the broad standards and 
the States have the flexibility to implement various means of 
achieving that standard.
    However, the EPA has increasingly undermined the authority 
of the States such as seeking to impose plant-specific limits 
on grand-fathered plants in overturning the State best-
available control technology determinations.
    Congress should affirm the role of the States in 
implementing the Act. Since its inception, Congress expected 
that technological feasibility and cost effectiveness would be 
taken in to account and the EPA, the States and generally 
balanced pollution control technology and cost, and the 
required B.A.C.T. removal efficiency standards have improved 
impressively.
    However, in recent actions, the EPA appears to have ignored 
technological feasibility and cost effectiveness. Congress must 
affirm and strengthen provisions requiring technological 
feasibility and cost effectiveness.
    The EPA fails to take a holistic approach to pollution 
prevention and regulation, leading to deployment of 
technologies to reduce one form of pollutant that merely causes 
or contributes to another source problem.
    To cite an all-too-frequent dilemma and one that has the 
ability to greatly impact the city of Dover, the EPA is 
increasingly insistent that fly ash, a byproduct of coal-fired 
electric generation, be included in the list of hazardous 
wastes.
    Yet, in a neighboring township, the EPA sees nothing wrong 
with approving a new solid waste landfill that would be built 
directly over top and upstream of Dover's drinking water 
aquifer and one, and when at full capacity, would become the 
highest elevation point in Tuscarawas County.
    Congress should encourage and facilitate the use of multi-
media pollution management.
    One final note of interest, following my April 1997 
testimony before this subcommittee, I was amused to find the 
city of Dover listed among the key contributors to the 
pollution problems inherent in the northeastern United States.
    You will find this reference in the Section 126 petitions 
filed by the eight northeastern States. As you may have noticed 
in my written testimony, the city of Dover operates a 14-
megawatt coal-fired power plant which is co-fired with natural 
gas, in addition to gas turbine and diesel generation.
    Chairman Inhofe and Senator Voinovich, I have shared with 
you numerous concerns, but I want to reaffirm my earlier 
statement. The Clean Air Act has worked well in many of the 
areas envisioned by Congress, including developing a mechanism 
for setting and attaining ambient air standards.
    When standards are based on scientific consensus and 
designed to address human health and welfare, the system works.
    Most criticisms of the Clean Air Act are actually 
criticisms of the EPA's efforts to use the Act to achieve 
objectives and impose restrictions beyond congressional intent.
    Again, I want to thank you for this opportunity. I look 
forward to answering any questions you might have.
    Senator Inhofe. Thank you, mayor.
    Ms. Willhite.

       STATEMENT OF MARCIA WILLHITE, ASSISTANT CHIEF OF 
         ENVIRONMENTAL HEALTH LINCOLN-LANCASTER COUNTY 
               DEPARTMENT OF HEALTH, LINCOLN, NE

    Ms. Willhite. Mr. Chairman and Senator Voinovich, I am 
Marcia Willhite, assistant chief of Environmental Health at the 
Lincoln-Lancaster County Department in Lincoln, NE.
    Thank you for this opportunity to provide some comments on 
the Clean Air Act as you begin its reauthorization.
    Our local health department's air quality program 
administers the Clean Air Act within Lancaster County, 
Nebraska. Lancaster County is home to about 240,000 people and 
it includes a large range of air pollution sources.
    We are currently in attainment of all national ambient air 
quality standards and anticipate remaining so. Our scope of 
activities includes all levels of air permitting including our 
own title V program, compliance inspections, enforcement, air 
toxics, and collection of emission inventories, air quality 
planning, and technical assistance. Our guiding principle is 
pollution prevention.
    In summary, our local health department administrates a 
small-sized air quality program which is experienced in 
administering a large range of program activities.
    The main message I bring to you today from Lincoln, NE is 
that the Clean Air Act is working. It is holding the line on 
air emissions increases in our community.
    The secondary message I bring to you today is that there 
are some concepts that we as a local air quality program in a 
growing community encourage Congress to consider as the Clean 
Air Act is reauthorized.
    The Clean Air Act is a tool for public health risk 
reduction. The greater the air pollution reduction, the greater 
the risk reduction.
    Interestingly, the greatest air pollution reductions 
achieved in Lancaster County in the past 5 or 6 years were not 
mandated by the Clean Air Act. Between 1994 and 2000, a 53-
percent reduction in hazardous air pollutants and a 43-percent 
reduction in volatile organic compounds occurred because of 
voluntary choices made by businesses to use less toxic 
materials and less polluting processes.
    The coal-fired power plant in Lancaster County even reduced 
sulfur dioxide emissions by 2,000 tons per year voluntarily by 
switching to ultra-low sulfur coal.
    These choices to prevent pollution rather than control it 
need to be encouraged and rewarded. Somehow the lesson learned 
in Lancaster County that significant environmental benefits 
occur through voluntary pollution prevention needs to be 
applied to the Clean Air Act of the 21st century. Specifically, 
incentives for pollution prevention need to be incorporated for 
those businesses willing to take that option or to go beyond 
the minimum air quality requirements.
    Another area where prevention-based strategies are needed 
is in the area of maintaining clean air while cities grow.
    Lincoln is currently an attainment area, however, in the 
next 20 to 30 years our population is likely to increase 
substantially. The land use choices and transportation plans 
that we make today may affect our ability to maintain 
nonattainment status in the future.
    The tools and funding, funding, funding to support 
assessment, innovation and best management practices to reduce 
air quality impacts of transportation should be available to 
communities like Lincoln that are trying to prevent unhealthy 
air as well as to areas that are solving air quality problems.
    The next version of the Clean Air Act needs to achieve risk 
reduction more efficient and comprehensively by incorporating 
multi-pollutant control strategies.
    Harmonizing control options to simultaneously use all 
pollutants of concern for a particular sector is easier to 
implement for both industry and State and local regulatory 
agencies and is more cost effective.
    Examples of opportunities for better harmonization are 
plentiful. Coal-fired power plants have gone through separate 
requirements and permitting for acid rain and NO<INF>X</INF> 
reduction and are likely to face a different regulation for air 
toxics reduction.
    Similarly, the recent light and heavy duty vehicle and fuel 
standards are focused on ozone precursors. Had they been 
optimized to include air toxics reduction as well, a separate 
rulemaking process under 202(L) would not have been necessary.
    Reformulated gasoline or RFG, although intended for ozone 
reduction has been effective in reducing levels of air toxics 
such as benzene, which national assessments indicate is a 
concern in every county in the United States. Yet, RFG may only 
be sold in ozone nonattainment areas.
    The next version of the Clean Air Act should be structured 
to enable multi-pollutant strategies for air pollution 
management.
    The current Clean Air Act calls for a substantial reduction 
in cancer risk from air toxics in urban areas. To implement 
this, the Environmental Protection Agency has drafted a 
strategy centered on identifying the pollutants and sources 
which contribute most significantly to public health risks 
based on national, regional, or local level assessments.
    In this draft strategy, the EPA would address sources and 
risks ranking highly on national level assessment and States or 
localities would address risks and sources of high priority 
based on regional or local assessment.
    This is an efficient, common sense approach. However, the 
authority for it is unclear. In the reauthorization Clean Air 
Act a clear mandate and authority for States and localities to 
cause risk-based reductions would assist our local community 
when national standards do not address our most pressing air 
toxics risks.
    While other aspects of the Clean Air Act could be 
addressed, we have purposely limited our community's comments 
to these three key issues that we believe are of utmost 
importance.
    Please keep prevention-based strategies, multi-pollutant 
strategies and authorizing State and local toxics risk 
reduction in mind as you craft the reauthorization of the Clean 
Air Act.
    We hope you will consider these concepts worthy of further 
study.
    I look forward to your questions.
    Senator Inhofe. Thank you, Ms. Willhite.
    Mr. Taylor.

 STATEMENT OF ZACH TAYLOR, EXECUTIVE DIRECTOR, ASSOCIATION OF 
        CENTRAL OKLAHOMA GOVERNMENTS, OKLAHOMA CITY, OK

    Mr. Taylor. My name is Zach Taylor. I serve as the 
executive director of the Association of Central Oklahoma 
Governments, which is the Council of Governments serving 
Oklahoma City, the metropolitan area as well as serving as a 
metropolitan planning organization for transportation.
    This afternoon, I brought you a breath of fresh air from 
Oklahoma in case you need it in this dialog. The central 
Oklahoma region has been an attainment area for ozone since 
1978 and carbon monoxide since 1990.
    These accomplishments are due primarily to the proactive 
efforts of civic leaders, local businesses, government 
officials, and residents.
    However, we are fearful that changes in the National 
Ambient Air Quality Standards for ozone and particulate matter 
established in September 1997 will thwart the progress made by 
grass roots efforts in central Oklahoma.
    We are ever mindful that these standards were made 
effective retroactively for the entire summer of 1997.
    The past 3 years have brought exceptionally difficult 
weather to central Oklahoma with El Nino and La Nina and in 
many ways have thwarted our best efforts and episodic measures 
to combat what Mother Nature has provided us.
    If our metropolitan area were to go nonattainment, the 
label of nonattainment would have a stigma associated with it 
as well as a financial impact to our citizens. We have 
estimated a first-year cost of at least $43 million just for 
our motoring public, not to mention the ramifications for our 
businesses.
    As Congress addresses reauthorization of the Clean Air Act, 
we appreciate this opportunity to express some concerns from 
the heartland regional perspective. We hope that you will 
consider our full testimony.
    In the interest of time, I will attempt to be brief, Mr. 
Chairman.
    Consistent with the position of the Oklahoma Department of 
Environmental Quality, we also support an 8-hour measuring 
standard for ground level ozone. We believe this mode of 
measuring allows more realistic methods of evaluating ambient 
air quality conditions.
    However, we feel the measure currently in place is too 
strict and is limiting and we would favor a measure that is 
more scientifically sound.
    We urge the EPA Science Advisory Board to revisit its 
studies regarding air quality standards and that the EPA take 
smaller steps in implementing the scientists' recommendations.
    More specifically, the scientists' recommendations of a 
range of .07 to .09 parts per million, if more stringent 
requirements were shown to be scientifically justifiable, we 
would favor a more gradual implementation schedule beginning 
with .09.
    We feel Congress should allow States and local governments 
to use flexibility, which is a predominant theme this 
afternoon, in determining the most effective control measures 
in regions.
    Along those lines, we encourage, as has been suggested here 
today, the EPA invest in additional research related to the 
effectiveness of various measures or techniques from different 
regions around that country.
    We strongly encourage a national emphasis be placed on 
research and technological solutions rather than heavy-handed 
enforcement.
    We encourage national research for nationwide remedies, 
including technologies for mitigating industry pollution as 
well as mobile source pollution such as rapid acceleration of 
the use of alternative light fuel vehicles.
    Our single highest concern has to do with the conformity 
rule, or we call it the hammer. Should a region be declared 
nonattainment, the State and local governments in that area 
should be given ample time, at least 3 years, to adjust their 
transportation plans before transportation dollars are withheld 
in the name of conformity.
    In the current laws, both air and transportation, 
federally-funded transportation projects must be found to 
conform to State air quality plans before they are adopted, 
accepted, approved or funded.
    This dilemma, however, is one in which it takes several 
months to develop an emissions budget to do the necessary 
modeling and so forth to prove that the transportation plan 
does not worsen conditions.
    In Oklahoma, this process would take no fewer than 2 years, 
probably 3. We feel that it is ludicrous for the Federal 
Government to hold up progress in a regional community that has 
demonstrated a long-standing basis of good faith efforts in 
response to air quality and they are being made on a continuing 
basis.
    Also, because of the anomalous weather patterns, we ask 
that the EPA expand its current guidelines and parameters 
regarding exceptional events. The EPA proposed guidance a few 
years ago to address this situation, but those rules did not 
make it through the process.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Taylor. I know that you are 
aware, you expressed a concern over what should happen before 
transportation dollars were withheld. I think you know that my 
amendment is a part of the law that will be signed to stop them 
from doing that.
    It is very sensitive to me because way back in January 
1967, I came as a newly-elected State representative to 
Washington to testify before this very committee. Jennings 
Randolph was the chairman at that time.
    I was protesting the implementation of Lady Bird's Highway 
Beautification Act of 1965 and their withholding of Federal 
transportation dollars, saying, you know, that is blackmail and 
you can't do that.
    Well, here it is several generations later and we are still 
facing that same problem.
    Mr. Taylor, you have been a big help. You know, when we had 
our hearing out in Oklahoma, I did appreciate all the help you 
were to our various witnesses.
    In your written statement you mentioned that the cost of 
nonattainment in that area would be $43 million. Do you want to 
elaborate on that a little bit and say something in the nature 
of that and the cost on businesses of nonattainment in our 
particular area?
    Mr. Taylor. We principally focused on mobile sources and 
the measured economic impact of $43 million in the first year 
for the motoring public stems from what we expect to be 
required to impose in the way of motor vehicle inspections, 
different formulas for fuels as well as vapor recovery systems 
for both wholesalers and retailers.
    Senator Inhofe. I will ask all three of you this since I 
have been in the position you are in currently. Do you 
sometimes get the feeling that there is not a whole lot of 
concern from Washington over the cost that it is to the local 
communities and to the States in implementing some of these 
regulations?
    Mayor Homrighausen. From my perspective, that is exactly 
correct. One of the things that I think is the problem with the 
EPA is that they have a history of handing down unfunded 
mandates without congressional authority and without giving 
those of us that they hand the unfunded mandate to any remedy 
on how to accomplish and pay for the mandate.
    They consistently overstep their bounds and have 
disregarded Congress and the laws that Congress passes and 
continually make things more difficult for us to live with and 
don't offer us any money to carry them out.
    Senator Inhofe. Do you other two generally agree with the 
mayor?
    Ms. Willhite. Well, I guess I come at it from a little bit 
different perspective of being a delegated implementer of the 
program.
    Our funding needs are really to carry out the work and as 
has been mentioned before, the funding pot for State and local 
activities related to the Clean Air Act has been shrinking over 
the years and has a greater deficit between what it costs to do 
the work and what we are actually receiving.
    Senator Inhofe. There are two problems with the mandates 
that come from Washington. One is the cost of the unfunded 
mandates. The other is the one-size-fits-all. Would any of you 
like to respond to the one-size-fits-all aspect of this 
problem?
    Ms. Willhite. I think that as Senator Voinovich was 
illustrating, some very innovative programs can be developed at 
the local level for dealing with air quality problems.
    It would be nice to have the funding to support those types 
of activities, whether it is through the State and local grants 
or it is through something like the Clean Air Partnership fund 
that can support that innovation.
    It would also support the assessments to just kind of 
evaluate at the local level what would be useful problems to 
solve. It may not be the ones identified in the Clean Air Act.
    Senator Inhofe. Yes, Senator Voinovich did talk about the 
need for flexibility. He felt that when he had his positions 
back in the State of Ohio.
    Now that you have developed experience, are there specific 
areas where you would recommend we address the flexibility 
insofar as it affects you as we move into reauthorization?
    Mayor Homrighausen. Well, I would just cite Dover as an 
example, Senator and tie in the last question with this one, 
where through innovation we are partnered with East Ohio Gas to 
install coal-fired gas burners on our 14 megawatt boiler which, 
before we did that, we were at 29 percent of our SO<INF>2</INF> 
allowances, 36 percent of our particulate matter allowances, so 
we were well below what we were allowed to emit.
    But, by adding the gas burners, we even further reduced our 
emissions. Now, it was a partner between East Ohio Gas which is 
now Dominion and the city of Dover with no outside funding.
    So, you know, I think we should be allowed to get involved 
in projects like this because certainly AMP-Ohio's largest 
plant which is the Gorsuch Station down in Marietta is 213 
megawatts. What you would have at the Gorsuch Station certainly 
would not apply to Dover's 14 megawatt power plant.
    So, we have to have flexibility.
    Senator Inhofe. Are there any other comments?
    Mr. Chairman?
    Mr. Taylor. Well, related to cost, I think it is 
particularly important, as has been noted earlier, to allow 
national requirements to take hold in regions before imposing, 
particularly in previously determined attainment areas, before 
imposing new, costly local measures.
    In regard to the one-size-fits-all, the flexible attainment 
region approach which was piloted in Tulsa and used also in 
Oklahoma City has proven to be a very effective technique for 
allowing flexibility and flexible attainment regions.
    Also, we have piloted substantially in our area on 
alternative fuels and we have found the partnerships built 
around electric, propane, and natural gas organizations to be 
very, very productive in reducing emissions.
    It has been very, very successful for Tinker Air Force 
Base, which now has the single largest deployment of 
alternatively fueled vehicles in the United States.
    It has proven both to be a very, very effective 
environmental management technique, but also an economic 
management technique for the base.
    Senator Inhofe. Well, I would have to say we had a great 
deal of concern back when you and I were addressing the earlier 
mandates on ambient air.
    You mentioned Tinker Air Force Base, the effect it would 
have had on not just Tinker, but also Fort Sill, the firing 
range. In fact, our analysis was that it would have required 
shutting it down.
    You know, we have had three hearings on this so far. I 
think this is a pretty ambitious way to start out. We are 
committed to getting this through in the next Session, which 
means in the next 2 years.
    Now, you have lived under this for a while now. You have 
brought your expertise here. But we want to hear from you, if 
not in this hearing, afterwards as we progress, all of the 
problems.
    If we don't know about the problems, then we are not going 
to be able to address them. We are going to have a very 
aggressive attitude toward getting this reauthorization 
completed.
    So, we will want to hear from you because what is 
reauthorized you are going to have to live with for a while. As 
we come to a close, I would like to ask if there is anything 
that any of the three of you would like to say that may not 
have been clarified or you have not had a chance to say before 
now.
    Mayor Homrighausen. I would just like to add that if the 
1997 amendments do hold up in court and they are implemented, 
the city of Dover would not have any problem with ozone, 
however, we would have a problem with the PM<INF>2.5</INF>.
    I guess I would like to ask a question of the Federal 
Government what they would do once Theodore Roosevelt National 
Park goes out of compliance from the natural production of 
ozone.
    Senator Inhofe. Good. That is a very responsible question 
to ask. We will look for an answer.
    Anyone else?
    Well, we thank you very much for being here and also for 
those who are in the audience that were participants on the 
first panel, we appreciate it very much. We ask for your 
continued input as we progress over the next 24 months in this 
reauthorization.
    We are adjourned.
    [Whereupon, at 4:15 p.m., the subcommittee was adjourned, 
to reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    Statement of Karen Studders, Commissioner, Minnesota Pollution 
                             Control Agency
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. My name is Karen A. Studders 
and I am the Commissioner of the Minnesota Pollution Control Agency. I 
bring you greetings, Mr. Chairman, from Governor Jesse Ventura, who 
appointed me to this position in February 1999.
    My remarks reflect the perspective I have gained during my time as 
Commissioner at the Minnesota Pollution Control Agency, as well as my 
experience as director of environmental programs in the natural gas 
distribution division of a $15 billion diversified international energy 
services company, where I worked for 17 years.
    The Clean Air Act sets out broad goals. In the first wave of 
environmental protection, back in the seventies, we used ``command and 
control'' techniques to address air pollution from large, industrial 
point sources of pollution. Times have changed. I believe we are now 
ready for what I call ``the second wave of environmental protection,'' 
which allows the States more flexibility and encourages true 
innovation. Under current regulations, States are allowed limited 
flexibility, but we need more. We believe it is possible to craft a 
program that allows flexibility without compromising the environment, 
safety or health. Environmental laws cannot be static, because our 
impact on our environment is not static.
    While the structure of the Clean Air Act has worked, I will suggest 
several changes that can be made to improve the use of this tool in the 
21st century.
    Let me begin by telling you what I will discuss today.
    <bullet> The effect of the Clean Air Act in Minnesota;
    <bullet> States' need for funding to carry out mandates;
    <bullet> What Minnesota has learned about toxic air pollutants; and
    <bullet> Integrated, cost-effective environmental regulation of 
power generation.
              the effect of the clean air act in minnesota
    Twenty-eight years ago Minnesota had its first air pollution health 
alert. It was February 11, 1972, and it was almost 20 degrees below 
zero. A grimy brown haze choked the Minneapolis skyline and visibility 
was bad even at ground level (overhead of photo, ``February 11, 1972,'' 
in attachments, from Minnesota Environment 2000\1\). The 5-year-old 
Minnesota Pollution Control Agency scrambled to get the word out to 
warn people with asthma and heart disease to stay indoors.
---------------------------------------------------------------------------
    \1\ Minnesota Pollution Control Agency, Minnesota Environment 2000, 
St. Paul, Minn.: MPCA, 2000, http://www.pca.state.mn.us/about/pubs/
mnereport/index.html
---------------------------------------------------------------------------
    In the following years, the Clean Air Act's strong anti-pollution 
requirements for smokestacks and cars helped reduce sulfur dioxide, 
carbon monoxide and other criteria air pollutants. In Minnesota, these 
efforts paid off. We have not had an air pollution health alert since 
1987.
    Today, unlike many other States, Minnesota meets all Federal air 
quality standards. The Clean Air Act was a tool Minnesota desperately 
needed in 1972. Using that tool, we were able to take a dangerously 
deteriorating air quality situation and turn it around in less than 20 
years.
             states' need for funding to carry out mandates
    The Clean Air Act Amendments of 1990 created a new mechanism to 
help fund the requirements of the Act: emission fees. These air 
emission fees were intended to pay for many of the new requirements in 
the amendments. In Minnesota, emission fees cover 80 percent of the air 
program's needs. The fee amount specified by the Clean Air Act 
Amendments ($25/ton, with adjustments for cost of living) is not enough 
to pay for the costs it was intended to cover. Not long ago, the U.S. 
Environmental Protection Agency (EPA) and the States concluded that 
there was about a $100 million gap between funding necessary to carry 
out Clean Air Act activities and funding available to States.\2\ I 
suspect things have only gotten worse since then.
---------------------------------------------------------------------------
    \2\ ``Sagamore Study,'' prepared by U.S. EPA and presented by Jerry 
Kurtzweg at STAPPA/ALAPCO May 15, 1997 meeting.
---------------------------------------------------------------------------
    For example, the 1990 Clean Air Act Amendments required States to 
complete issuing all permits for major facilities (Title V Permits) by 
1998. Now, in the year 2000, 2 years after that deadline, many States 
have issued fewer than half their permits. Minnesota is in the same 
boat. We have issued about 160 permits--less than half. The good news 
is that, because we intentionally chose to target the largest emission 
sources, those 160 permits cover 75 percent of our emissions. The bad 
news is that about 200 permits have yet to be issued and we do not have 
the resources to issue them faster. To make matters even worse, the 
first permits we issued 5 years ago are now approaching the end of 
their 5-year shelf life.
    With States being this far behind in permitting, funding is clearly 
inadequate for the task at hand. As Congress considers changes to the 
Act, please also consider the funding necessary to operate an adequate 
air quality program.
    Nationally, States collect 94 percent of environmental data, 
conduct 97 percent of facility inspections, operate about 70 percent of 
the Federal programs delegated to them, conduct about 80 percent of the 
enforcement actions, and contribute about twice as much funding to 
environmental programs as the U.S. EPA.\3\
---------------------------------------------------------------------------
    \3\ Testimony of George Dana Bisbee, Assistant Commissioner, New 
Hampshire Department of Environmental Services and Chairman, ECOS Data 
Management Workgroup, before the Senate Committee on Environment and 
Public Works, September 26, 2000.
---------------------------------------------------------------------------
    Ten years after the Clean Air Act Amendments of 1990, it is clear 
that the total package of funding available to States--emission fees, 
other State funds and Federal grants--is not sufficient to adequately 
cover the costs of Clean Air Act-related activities. One example of a 
funding shortfall is the multi-year process to reduce regional haze.
         what minnesota has learned about toxic air pollutants
    When the world of air pollution consisted only of six criteria 
pollutants, we felt pretty smug in Minnesota. We did not have problems 
as serious as those in cities such as Los Angeles or Houston, and we 
were successfully addressing the air pollution problem we did have 
(overhead of, ``Trends in criteria air pollutants in the Twin Cities 
area, in attachments).<SUP>1</SUP> As this figure shows, all criteria 
pollutants except nitrogen dioxide dropped from 1990 to 1998. This was 
achieved at the same time vehicle miles traveled continued to climb and 
our State economy continued to grow. This is a clear indication that 
economic growth and environmental protection can go hand in hand.\4\
---------------------------------------------------------------------------
    \4\ Meyer, S. ``Environmentalism and Economic Prosperity: An 
Update,'' February 16, 1993, available on MIT website at http://
web.mit.edu/polisci/mpepp/reports.htm
---------------------------------------------------------------------------
    However, we do not feel so smug any more. Thanks to researchers, 
scientists, health professionals and U.S. EPA, we know that the world 
of air pollution is more complex than anyone dreamed back in 1972.
    Just 2 years ago, U.S. EPA completed the air toxics component of 
its Cumulative Exposure Project\5\ which used computer models to assess 
1990 outdoor concentrations of air toxics across the continental United 
States. Air toxics--also known as toxic air pollutants or hazardous air 
pollutants--are a group of chemicals associated with a variety of 
adverse health problems, including cancer, neurological effects, and 
reproductive and developmental effects. The U.S. EPA data suggest that 
half our increased risk of cancer (over and above the risk from 
smoking, consumption of certain foods and genetics) comes from air 
toxics emitted by our cars, trucks and other engines.
---------------------------------------------------------------------------
    \5\ Environmental Protection Agency, http://www.epa.gov/
cumulativeexposure/air/air.htm
---------------------------------------------------------------------------
    In Minnesota, we did not just rely on U.S. EPA's computer model. 
Over the last few years, we have been monitoring the outdoor air. We 
have actually measured 75 different air toxics around our State, in 
locations ranging from farms to small towns to big cities. What we 
found was disturbing.\6\ Our report was published in a scientific peer-
reviewed journal this month.\7\
---------------------------------------------------------------------------
    \6\ Minnesota Pollution Control Agency, Staff Paper on Air Toxics, 
St. Paul, Minn.: MPCA, Nov. 1999, http://www.pca.state.mn.us/air/
airtoxics.html#paper)
    \7\ Pratt, G., Palmer, K., et al., ``An Assessment of Air Toxics in 
Minnesota,'' Environmental Health Perspectives, Vol. 108, Number 9, 
September 2000.
---------------------------------------------------------------------------
    We found that when compared with health benchmarks, 10 air toxics 
exceeded thresholds in either modeled (predictions in the U.S. EPA's 
study) or monitored (actual measurements by the Minnesota Pollution 
Control Agency) concentrations or both.
    Five of these pollutants (formaldehyde, benzene, carbon 
tetrachloride, chloroform, ethylene dibromide) exceeded health 
benchmarks in some or all regions of Minnesota. In several cases, 
measured concentrations were actually higher than U.S. EPA's 
predictions in the Cumulative Exposure Project. We are now in the 
process of developing the capacity to measure the rest of the 10 
pollutants where there is reason to suspect high concentrations. These 
pollutants include 1,3 butadiene, acrolein and chromium.
    Many of the air toxics with the highest concentrations are 
primarily from cars, trucks, buses and other engines. For those 
chemicals, concentrations were highest by far in the Twin Cities. But, 
surprisingly, we found that one cannot escape air toxics by moving to a 
home far from urban centers. In rural Minnesota, even a town like 
Granite Falls, with a population of 3,000, showed measured 
concentrations of some toxics above health benchmarks.
    The Federal Government must no longer delay taking further action. 
While the provisions for point sources in the 1990 Clean Air Act 
Amendments have made a difference, there is clearly much more that 
needs to be done about mobile sources of air toxics--both on and off-
road.
    Although we appreciate U.S. EPA's efforts to regulate mobile 
sources, we believe they must turn their attention to reducing air 
toxics now. New amendments to the Clean Air Act must include air toxics 
regulation in order to ratchet down toxic tailpipe emissions from cars, 
trucks, buses and small engines. Requiring further improvements in fuel 
efficiency will also help reduce air toxics. We need national, rather 
than regional or State-by-State, standards. We also need to require 
cleaner burning fuels for all internal combustion engines. We need to 
standardize fuels and reduce the number of different ``boutique'' fuels 
around the country. The current situation, with different fuels 
specified for use in different parts of the country leads to spot fuel 
shortages and higher gasoline prices--something we are experiencing in 
the Midwest.
    I think we can accomplish all this while maintaining a significant 
role for homegrown ethanol as a fuel component. Ethanol production is 
an important industry in the Midwest. In Minnesota, we have 
successfully incorporated ethanol into our fuels with significant 
environmental benefit--and, we do not have the MTBE (methyl tertiary 
butyl ether) problem other States are facing.
    U.S. EPA tells us they plan to decide about further reductions in 
mobile sources of air pollution in the year 2004. Given what we 
measured in Minnesota, I believe we cannot wait that long.
    U.S. EPA also says they are working on an Urban Air Toxics 
Strategy. They have collected information on what everyone around the 
country is doing about urban air toxics. Frankly, I do not think of 
that as a strategy. I think of that as a list. We do not need a list. 
We need leadership, we need a real national urban air toxics strategy 
with specific goals that we can all focus on, so we can improve the air 
people breathe daily. And, given the health threat, we need a strategy 
now.
    A recent study in Denver showed that children living near heavily 
traveled streets have six times the risk of developing cancer and 
leukemia as other children.\8\ Research reported in the British medical 
journal The Lancet estimates that 6 percent of all deaths in Austria, 
France and Switzerland are due to air pollution and that half of those 
are due to mobile source pollution.\9\
---------------------------------------------------------------------------
    \8\ Pearson, R., Wachtel, H., Ebi, K., ``Distance-Weighted Traffic 
Density in Proximity to a Home is a Risk Factor for Leukemia and Other 
Childhood Cancers,'' Journal of the Air and Waste Management 
Association, Vol. 50, Feb. 2000.
    \9\ Kunzli, N., Kaiser, R. et. al., ``Public-health Impact of 
Outdoor and Traffic-Related Air Pollution: a European Assessment,'' The 
Lancet, Vol. 356, September 2, 2000.
---------------------------------------------------------------------------
    Research carried out by the Harvard School of Public Health in 
Boston shows a direct connection between heart attacks and air 
pollution.\10\ The scientists found that the higher the day's 
particulate pollution concentration, the more people died of heart 
attacks--even when particulate levels remained well below the standard 
proposed by U.S. EPA.
---------------------------------------------------------------------------
    \10\ ``Re-analysis of the Harvard Six Cities Study and the American 
Cancer Society Study of Particulate Air Pollution and Mortality,'' 
(Health Effects Institute, Cambridge, Mass.: July, 2000).
---------------------------------------------------------------------------
    In other words, people are dying of heart attacks brought on by 
particulate pollution so low we assumed it was harmless. Even when U.S. 
EPA's recently promulgated diesel and gasoline standards go into 
effect, clearly more will be needed to solve particulate pollution 
problems.
    The cost of the illnesses described in these studies is too high, 
both financially and socially. We cannot allow more delay.
integrated, cost-effective environmental regulation of power generation
    This is a lake located in the unique Voyageurs National Park on the 
Minnesota-Canada border. This remote area of forests and lakes is 
northern Minnesota's spectacular crown jewel\11\ (overhead in 
attachments). Hundreds of beautiful lakes just like it are scattered 
across the region. If you should decide to do any fishing in this lake 
next summer, we'd be obliged to warn you that you cannot safely eat 
more than one meal of fish per week of most fish caught in this 
pristine-looking lake. Pregnant women and children in your family 
cannot safely eat more than one meal of fish per month from this lake. 
The fish in this lake and in many other lakes in this remote wilderness 
area contain too much mercury.
---------------------------------------------------------------------------
    \11\ Photo courtesy of Minnesota Office of Tourism.
---------------------------------------------------------------------------
    The mercury got into the fish from the water. Much of that mercury 
got into the water from mercury deposition from the air. It got into 
the air from mercury-emitting sources such as power plants, hundreds 
and even thousands of miles away.
    We have taken significant steps to improve this situation in 
Minnesota, reducing our own mercury emissions by more than 50 percent. 
But most of the mercury in our fish comes from sources outside our 
borders.\12\
---------------------------------------------------------------------------
    \12\ Report on the Mercury Contamination Reduction Initiative: 
Advisory Council's Results and Recommendations, Minnesota Pollution 
Control Agency, March 1999, http://www.pca.state.mn.us/hot/legislature/
reports/1999/mercury.pdf
---------------------------------------------------------------------------
    Coal-fired electric utility plants are one of the largest sources 
of mercury emissions in this country. We know that if we further reduce 
emissions from coal-fired plants and develop and convert to other 
methods of power generation, we will not only cut mercury emissions but 
other pollutant emissions, too.
    Increasing demand for electric power has brought us face to face 
with tough environmental issues. What do we do about the transportation 
of air pollution across State borders? What will be the effects of 
regulating the tiniest of particles in the air, PM<INF>2.5</INF>? What 
do we do about regional haze? Do we need to do more to reduce acid rain 
in the northeast? What about toxic emissions from burning coal? What 
about climate change?
    These questions and the programs we have created to address them 
are like separate trains heading down separate tracks, each carrying a 
few passengers to separate destinations. We need one big train on one 
single track, so we can get everyone on board, all heading to the same 
place. We need a comprehensive, integrated national power generation 
strategy that regulates multiple pollutants, including nitrogen oxides, 
sulfur dioxide, carbon dioxide, mercury and other toxic pollutants. The 
strategy should set national goals and schedules that allow flexibility 
for industry in how to meet them. And we need a strategy that once and 
for all deals with old coal-fired power plants that have been 
``grandfathered'' into existing regulations.
    An integrated national approach should be long-term in nature. It 
should target both new and old plants, both large and small. However, 
for the existing population of old plants, a long-term schedule of 
plant renovation or phaseout should be implemented to limit disruption 
of electricity supply and economic costs. Again, the critical element 
is for the government to establish a set of schedules and performance 
standards for all facilities and allow electric utilities and 
independent power producers maximum flexibility in meeting those 
standards.
    The energy regulatory and environmental arms of the legislative and 
administrative branches of government need to start talking in concert 
with the industry. They need to acknowledge the problems on both sides 
and establish goals. It is a huge process, but one that must be 
initiated. We cannot ignore the environmental problems caused by global 
warming on one side, nor the dependence of our economy on energy on the 
other.
    I flew to Washington today from St. Louis, where I participated in 
a conference on energy and the environment. It was sponsored by the 
Environmental Council of States, the National Association of Regulated 
Utility Commissioners, the National Association of State Energy 
Organizations, and the State and Territorial Air Pollution Program 
Administrators and Association of Local Air Pollution Control Officials 
(STAPPA/ALAPCO), with some funding provided by the U.S. EPA. I will 
pass on to you the most important piece of advice I heard there: If we 
try to achieve environmental results pollutant by pollutant, we will 
hamstring the industry and never achieve what we want in the end 
anyway. And we'll risk an increasing number of brownouts and blackouts 
throughout the country as utilities struggle to meet separate 
requirements on separate schedules.
    Piecemeal programs targeting the power industry (acid rain, new 
ozone standard, PM<INF>2.5</INF>, regional haze and ozone transport, 
climate change) have led to enormous uncertainty and cost-
inefficiencies. Because no one is sure of what to expect from 
regulators, utilities delay environmental decisions, even delay 
decisions on new generating capacity. This cannot continue without 
eroding the reliable power supply of our Nation. Our lack of focus 
isn't good for the environment; it is not good for the industry; and it 
is not good for the citizens of the United States, who want and deserve 
both a reliable source of energy and a clean environment. A 
comprehensive and integrated approach to the power industry could lead 
to impressive environmental gains for our children without sacrificing 
growth in power capacity.
    I am certain we can develop an approach that can successfully 
balance environmental needs, cost-effectiveness and reliability. 
Amendments to the Clean Air Act must address a comprehensive and 
integrated approach to the power utility industry.
    You asked me to address what is working and what needs to be 
changed in the Clean Air Act. In addition to what I've mentioned 
(funding, air toxics and an integrated environmental energy strategy), 
we need to further simplify the permitting program. Right now, the 
biggest time drain in permitting is the new source review and 
prevention of significant deterioration regulations. These regulations 
were well intended, but are too complicated. Too many sources 
undergoing modification are using these rules to try to avoid new 
emission controls. Grey areas in these regulations have resulted in a 
recent onslaught of legal and enforcement actions across the country. 
It may be time for us to discuss whether it would be better for all, 
the regulated community and the regulators, to end the practice of 
``grandfathering'' existing sources (with reasonable timeframes) and to 
require all sources undergoing modifications to meet minimum pollution 
control standards.
    It is also important that cross-media questions be addressed. For 
instance, a neglected aspect of coal-fired generation is the fate of 
literally millions of tons of bottom and fly ash containing high 
concentrations of heavy metals. When we develop policies on air, too 
often we ignore parallel effects on our lands and waters. Cross media 
concerns that link the Clean Air Act to the Clean Water Act and other 
Federal legislation and rules need to be better developed.
    I want to thank you for inviting me here to provide Minnesota's 
perspective on changes needed to the Clean Air Act. I believe these 
changes are necessary to improve the air in our environment and 
therefore, the health and quality of life for the people of the United 
States of America. I believe these changes are necessary if we are to 
live up to the promise of the Clean Air Act.
    Thank you. I look forward to your questions.
    [GRAPHIC] [TIFF OMITTED] T1527.001
    
    [GRAPHIC] [TIFF OMITTED] T1527.002
    
    [GRAPHIC] [TIFF OMITTED] T1527.003
    
Responses by Karen Studders to Additional Questions from Senator Baucus
    Question 1. You suggested there is a shortfall in funding for State 
activities because the Clean Air Act per ton emission fee of $25 per 
ton (adjusted for cost of living) is too low. The Act (section 502(b)) 
appears to provide States with sufficient authority and responsibility 
to raise the fee to cover the relevant permitting responsibilities. Why 
is there a shortfall and does the Act need to be modified? What would a 
more appropriate fee level be in the Act and should it be higher for 
more toxic or persistent and bioaccumulative pollutants?
    Response. States were to have completed the first round of issuing 
Title V permits to all of their facilities by 2 years ago. For numerous 
reasons, nearly every State is far behind that original schedule and 
many still have only issued about half of their Title V permits. The 
permitting program regulations that were developed by the Environmental 
Protection Agency (EPA) are far more complicated than anticipated when 
the Clean Air Act Amendments were passed in 1990. The fact that so many 
States are still working to issue their initial round of Title V 
permits is a clear indication that the resources needed to implement 
the program are not adequate. While the Act gives States the ability to 
raise fees above and beyond the minimum stated by the law, States are 
reluctant to do so. There are many reasons for this reluctance, 
including: fear of creating a negative business climate relative to 
neighboring States and a reluctance by State legislators and Governors 
to raise fees for State agencies. A combination of streamlining the 
regulations and increasing the presumptive minimum fee to be collected 
seems to be in order.
    A number of States, Minnesota included, have debated the notion of 
charging higher fees for toxic and bioaccumulative pollutants. There 
are several reasons why this may not be a good idea. First, these fees 
are, by design, to raise funds to pay for the permitting program. Thus 
they provide little incentive to reduce emissions. Charging a higher 
fee for certain pollutants would only make sense if the fee were set 
high enough to provide a disincentive to emit that pollutant, or if the 
cost of regulating that pollutant were greater than others. Second, our 
emission inventories for toxic and bioaccumulative pollutants are very 
imprecise. The inaccuracies in the inventories would potentially create 
unfair billing situations and would certainly result in many challenges 
to the emission numbers. For the reasons stated above, Minnesota has 
decided not to pursue a different fee level for toxic and 
bioaccumulative pollutants.

    Question 2. What is the fee (per ton of emissions) which your State 
currently charges for permitting under Title V of the Clean Air Act? 
How much does that generate annually and what is your States' annual 
budget for permit activities, implementation and enforcement matters, 
emissions and ambient monitoring, modeling, analysis, demonstration, 
inventory preparation and emissions tracking, relating to air quality? 
What, if any, additional categories of spending are necessary to 
support air quality programs?
    Response. In the State fiscal year 2000, the fee per ton charged in 
Minnesota was $32.80. This generated $8.75M in revenue for the program. 
In the same fiscal year, the annual budget for the air program, 
including all other State and Federal funds, with the exception of the 
Minnesota Vehicle Inspection Program which has since been terminated, 
was $12.3M. Of this total, approximately 60 percent was expended on the 
regulatory compliance program (permitting, compliance, enforcement), 23 
percent was expended on the air monitoring program, 16 percent was 
expended on policy and planning activities, and 9 percent; was expended 
on administrative costs.
    There are at least two additional spending categories that should 
be considered. First, there is a very large regional planning effort 
underway to develop State Implementation Plans for regional haze. While 
the Regional Planning Organizations are being funded, little or no new 
funding has been made available to States to support their considerable 
efforts in this activity. States need financial support in order to 
participate effectively. Second, EPA will soon be releasing the latest 
results of its National Air Toxics Assessment. The data shows potential 
air toxics problems around the country. The current level of effort 
being made to confirm these results with actual monitoring data is not 
sufficient. Additional grants to States for air toxics monitoring is 
needed.

    Question 3. Flexibility was mentioned repeatedly during the hearing 
as necessary for efficient conduct of States' programs. The Clean Air 
Act Amendments of 1990 created relatively strict deadlines and 
established numerous requirements largely because insufficient progress 
had been made prior to 1990 in achieving attainment. How can we be 
certain that increasing flexibility will not result in slowing current 
progress? What specific changes in the Act would be necessary to 
enhance flexibility?
    Response. No one can guarantee that increased flexibility for 
States will not slow our current progress. However, many are certain 
that the current methods fail to accomplish the desired goals 
effectively or efficiently. Providing flexibility within a structure 
can help to identify methods that increase a program's efficiency or 
effectiveness.
    Bear in mind that flexibility can mean many different things. 
Frequently, States desire flexibility of process to meet the goals set 
by Congress or the Federal Government. The effectiveness of providing 
such flexibility to States can be best measured when Congress or the 
Federal Government: (1) establishes a clear environmental goal that is 
achievable on a State level; (2) imposes it with a realistic deadline; 
(3) sets up a mechanism that ensures the States' efforts are adequately 
funded, (4) establishes a program ``floor'' that establishes minimum 
expectations; and (5) provides for real consequences when States fail 
to deliver the desired results.
    It is clear that an enormous amount of progress has been made in 
improving the environment over the past 30 years of environmental 
regulation. However, Minnesota believes that most of the improvements 
that can be made under the Act have been made. And therefore the rate 
of decrease of air emissions from point sources has already begun to 
slow and flatten out. Furthermore, there are emerging issues and 
priorities not currently addresses by the Act, such as urban exposure 
to air toxics. Minnesota believes that given the flexibility to 
experiment, without degrading the environment, solutions can be 
discovered that improve the environment while decreasing the amount of 
resources expended. These resources can then be transferred to address 
emerging issues. Minnesota believes that the Toxic Release Inventory 
(TRI), while clearly not perfect, is a great example of how a much less 
burdensome approach clearly resulted in enormous benefits to our 
environment. Minnesota believes that given the opportunity to 
experiment, other TRI-type opportunities could be developed, 
implemented, evaluated, and then transferred to the system as a whole 
to bring our country to that next level or ``second wave of 
environmental protection.''

    Question 4. Transport of ozone and other long range pollutants 
continues to be a serious problem for public health and for State and 
local air quality planners. Do you have any suggestions for ways that 
the Act could better deal with this phenomenon?
    Response. Minnesota believes that Congress and EPA clearly need to 
take the lead to resolve problems resulting from long-range transport. 
This needs to be done in continuous consultation with the States. (The 
Environmental Council of the States (ECOS) provides an excellent means 
to work with all of the States.) Certain mid-range transport problems 
such as regional haze and ozone may be best turned over to regional 
planning organizations. EPA, however, must provide technical and 
financial aide to these regional planning organizations. EPA must also 
stay involved in the processes. Regional planning is still an 
experiment. In some cases it may fail. EPA and Federal law must step in 
to provide consequences if States fail to reach agreement or fail to 
implement their part of the solution. Finally, regional planning is 
likely to be a complex and expensive process and should not be 
undertaken even for mid-range transported pollutants if national 
regulation is more effective and efficient.
                                 ______
                                 
       Responses by Karen Studders to Additional Questions from 
                           Senator Voinovich
    Question 1. What would be the consequences to your State if the 
Environmental Protection Agency (EPA) moves forward with designations 
of ``nonattainment areas'' under the 8-hour national ambient air 
quality standard for ozone before the Supreme Court renders a decision 
in the case.
    Response. Minnesota submitted a letter to EPA requesting that the 
entire State be designated ``attainment'' for the proposed 8-hour 
standard. Therefore Minnesota should not be affected by, and does not 
disagree with a possible move by EPA to designate nonattainment areas.

    Question 2. Is EPA providing sufficient resources currently, as 
well as commitments for future resources, to conduct appropriate 
ambient air monitoring within your State, including monitoring of fine 
particulate matter and determination of the composition of fine 
particulate matter?
    Response. There seems to be sufficient funding to Minnesota for 
fine particulate monitoring. This is due primarily to the fact that the 
data collected to date seems to indicate attainment with the proposed 
new standard. The situation in other States that will not be in 
attainment may be different.
    There currently is insufficient funding for the monitoring of 
regional haze, not just in Minnesota but throughout the Midwest, and 
monitoring for air toxics.
    The monitoring network for regional haze was established based on 
the locations of Class I areas. The middle of the United States has few 
Class I areas (Kansas, Nebraska, Iowa, Wisconsin, Illinois, Indiana, 
Ohio, Pennsylvania and New York have no regional haze monitoring 
sites). This ``monitoring hole'' in the middle of the country must be 
filled with additional monitoring sites in order to develop the 
information needed to prepare State Implementation Plans for regional 
haze.
    EPA will soon be releasing the latest results of its National air 
Toxics Assessment. The data show potential air toxics problems around 
the country. The current level of effort being made to confirm these 
results with actual monitoring data is not sufficient. Additional 
grants to States for air toxics monitoring is needed.

    Question 3. Is EPA providing adequate flexibility and appropriate 
guidance to State and local air pollution agencies to administer the 
program for operating permits under Title V of the Clean Air Act?
    Response. Appropriate guidance.--EPA fails to provide guidance that 
meets a reasonable standard of being timely, consistent, and 
appropriate. While things have improved somewhat as the Title V program 
has matured, policy decisions still take too long to make and issue. 
Too often, policy decisions vary from region to region and the policies 
may cause problems for the permitting authorities (e.g. States) that 
need to implement the Title V program.
    In 1992, EPA promulgated the Part 70 rules, thus codifying Title V 
of the Clean Air Act. States then developed operating permit programs 
under those rules and began to permit facilities. EPA and the States 
both learned a great deal about operating permits since 1992.
    Unfortunately, EPA and the States did not always learn the same 
lessons or desire the same outcomes. EPA sought to clarify its 
intentions by developing policies and by revising the rules. States 
then needed to adapt their programs to the changing field of play, 
regardless of the impact on their programs.
    EPA still plans to amend the Part 70 rules, particularly in the 
areas of modifications and public participation. EPA has been working 
to change the modification provisions for several years, floating 
proposals at least twice. While changes are anticipated, no regulations 
have yet been promulgated.
    In the absence of a national policy, EPA's regional offices provide 
guidance. All too frequently, that guidance varies from region to 
region. Companies with facilities in several States tend to desire the 
interpretation that best suits their desires.
    Finally, EPA's policies may cause problems for the State 
implementing the program. One example is the conflict between the 
``once-in, always-in'' policy that EPA has applied for the Part 63 
National Emission Standards for Hazardous Air Pollutants (NESHAPs) 
program and the flexible policy for the Part 70 program. The Part 70 
policy allows facilities to move in and out of major source status.
    Another problem is EPA's interpretation that a Title V permit 
cannot supercede the, permit from which a specific condition is drawn. 
This causes confusion, as both the Title V permit and the previous 
permit must be actively maintained; if a conflict arises over the 
interpretation of the Title V condition, which permit governs the 
situation?
    Flexibility.--Title V creates nothing more than a permit to 
pollute. Facilities close to the threshold do have a strong incentive 
to reduce emissions below thresholds, in order to get out of the 
enormously complex and costly Title V requirements. However, once a 
permit is issued, or the source safely escapes permitting by reducing 
just enough to stay under thresholds, there is little incentive to 
further reduce the impact a facility has on the environment.
    There is a constant need to improve the way we protect our 
environment. Minnesota does not have all the answers as to how to go 
about doing this, and therefore desires the authority to experiment. 
Current options available to conduct such experimentation are limited 
at best. For example, Minnesota created a simplified and streamlined 
multimedia permit that replaced Title V and other Act provisions for a 
3M facility in Hutchinson, Minnesota. Stakeholders in Minnesota 
critically evaluated this alternate permit. A specific Minnesota law 
was passed (unanimously in both the Minnesota House and Senate) to 
provide boundaries and guidelines for such experiments in Minnesota. 
This experiment with 3M was not perfect. However, there were assurances 
it would be protective of human health and the environment. Yet, in the 
end EPA was inflexible and overrode the desires of the State to 
implement this experiment. This is the type of experiment Minnesota 
believes it should have the authority to:
    <bullet> develop,
    <bullet> undertake,
    <bullet> evaluate,
    <bullet> report on, and finally,
    <bullet> apply lessons learned to improving how Minnesota's 
environment is protected.
    There is more than one way to peel an apple. The method outlined in 
Title V, although valid, may not be the way to get the best performance 
or be the most efficient use of environmental protection resource 
dollars. Minnesota is committed to continuous improvement, and 
therefore is committed to gaining the authorities needed to conduct 
experiments to this end.

    Question 4. Are EPA's regulations under the Act sufficiently clear, 
consistent and timely to allow your State to properly implement Clean 
Air Act programs for which it is responsible?
    Response. EPA's regulations and the guidance provided by EPA fail 
to meet the standard of being clear, consistent, and timely. This is 
true for a large fraction of the Clean Air Act programs, and includes 
the Title V permitting program, the New Source Review (NSR) major 
source permitting program, and several of the New Source Performance 
Standards (NSPS) and the National Emission Standards for Hazardous Air 
Pollutants (NESHAPs).
    EPA is cursed with trying to apply its regulations consistently to 
a variety of situations, many with circumstances that would have been 
difficult, if not impossible, to anticipate. Applying the regulations 
in such situations leads to a lack of clarity and consistency. Trying 
to remedy the lack of clarity and consistency causes the lack of 
timeliness.
    For example, the NSR regulation lacks clarity sufficient to deal 
with all situations. For that reason, EPA developed (and continues to 
develop) guidance that interprets the regulation. EPA has issued enough 
guidance memoranda to fill at least five three-inch three-ring binders. 
To provide permittees throughout the country with a ``level playing 
field''--a clear, consistently interpreted regulation--the permitting 
authorities that implement NSR should be familiar not only with the 
regulation, but also with all the guidance. Because of the breadth of 
the guidance, this is a daunting task.
    However, the permitting authorities are not alone in their need to 
know the regulation and the guidance. Each of EPA's regions must also 
be able to interpret and apply these regulations consistently. 
Frequently, the interpretations from different regions on a given 
situation vary significantly. Then, the affected source or industry 
group often seeks to have the most lenient interpretation applied 
nationally.
    To try to solve this problem, some interpretations are raised to 
EPA headquarters. Because of EPA's structure and process, the 
decisionmaking effort typically involves a variety of competing 
interests and opinions. The entire process cannot be completed in a 
timely manner.
    Most States currently have large backlogs of unissued Title V 
permits. This is partly a clarity issue due to the tremendous task of 
deciphering how the Title V regulations apply to given sources. 
Minnesota was one of the first States to gain approval for implementing 
a Title V permit program, but is now faced with an initial issuance 
backlog that will take approximately 4 years to work through. This lack 
of issuance of Title V is not due to a lack of desire by Minnesota 
Pollution Control Agency (MPCA) staff. On the contrary, it is due to 
the commitment of MPCA staff to conduct the process in full compliance 
with the Title V and Part 70 permit requirements. The process of Title 
V permit issuance has turned out to be a much more complex and time 
intensive activity than anticipated.
    One possible solution to this dilemma would be to create a category 
of Title V sources, say under a threshold double the current limits 
that receive a streamlined permit approach. Another possibility might 
be to extend the maximum duration for at least some sources from 5 
years to 10 years or longer. If Congress is serious about addressing 
this State dilemma, Minnesota would be more than willing to help 
develop creative solutions that do not compromise the protection of the 
environment.
                                 ______
                                 
Responses by Karen Studders to Additional Questions from Senator Inhofe
    Question 1. From the State and local government point of view, what 
aspects of the Clean Air Act are currently working well?
    Response. Most of what the Clean Air Act (Act) set out to 
accomplish has been accomplished in Minnesota. For example: (1) 
Minnesota meets all National Ambient Air Quality Standards; (2) total 
pollutant emissions are down for historic highs; (3) Minnesota has an 
effective permit program; and (4) acid deposition in Minnesota has been 
reduced to what we believe to be environmentally safe levels. 
Nationwide the Act has resulted in reduced emissions and improved air 
quality through a strong consistent Federal presence. Certain clear 
victories stand out such as the acid rain provisions and removal of 
lead from gasoline. Progress has also been made in the more thorny 
recalcitrant problems such as ozone and air toxics. For the most part, 
the Act also lays out a constructive framework for State/Federal 
relationships. There are problems that remain, and limited 
modifications may be necessary to solve them.
    Minnesota believes that the Act falls short in two areas. First, 
once compliance is achieved with the standards in the Act (which is the 
case with most facilities in Minnesota), there is little incentive for 
further improvement. In Minnesota, in general, data trends are already 
showing a flattening of performance in regards to improving air quality 
for regulated pollutants. Second, there are emerging air quality issues 
that are not well addressed by the current regulatory system. These 
issues, such as urban exposure to air toxics and reduction of multi-
source regional pollutants such as mercury, do not fit well under the 
command and control model of the current regulatory system, and are not 
well addressed by the 1990 amendments to the Act.

    Question 2. From the State and local government point of view, what 
needs to be improved in the Act in order to provide you more 
flexibility and responsibility?
    Response. The MPCA has been and is continuing attempts to work with 
the Environmental Protection Agency (EPA) under various regulatory 
innovations programs. These programs include Project XL and the Common 
Sense Initiative. In addition, the MPCA had a key leadership role in 
the development of the Environmental Council of States (ECOS)/EPA 
regulatory innovations agreement. When reinvention efforts were 
implemented in the mid-1990s, the MPCA was an enthusiastic participant. 
The MPCA believed the initiatives presented the opportunity to improve 
the environment and become more efficient at the same time. However, 
MPCA experience with the reinvention initiatives has been 
disappointing. The effort to develop pilot projects has been resource 
intensive and has resulted in incremental improvements at best. A key 
part of why the EPA reinvention initiatives have had disappointing 
results is EPA itself. Instead of allowing innovation experiments to 
happen, and then evaluating and applying the lessons learned, EPA chose 
to focus on requiring guarantees of up-front success. This has resulted 
in resource intensive up-front review and micro-management of the 
proposed pilots. The outcome is apparent, very few participants 
stepping forward to pilot the initiatives. Therefore, little is being 
learned from innovation pilots as to how to improve the way regulators 
conduct our environmental business. The MPCA believes that it is 
difficult, if not impossible, for a multi-faceted and complex 
organization like EPA to develop pilot projects outside the core 
environmental regulatory programs.
    The MPCA supports and would like to see Federal legislation to give 
EPA clear direction in developing innovative approaches that result in:
    (1) a reduction of impacts on the environment;
    (2) an efficient use of resources; and
    (3) a better understanding of environmental impacts by the affected 
public.
    The MPCA believes a dialog on how to best implement innovative 
strategies is important. The premise of this dialog is the fact that 
current regulatory systems can and should be improved. The MPCA 
believes the focus at this point should be to facilitate experiments to 
identify how improvements can be made. The experiments should be 
conducted meeting the following four conditions:
    (1) will not harm public health or the environment;
    (2) will be consistent with existing Federal law;
    (3) will have a higher level of accountability to the public; and
    (4) will have evaluation and recommendation requirements to report 
lessons learned.
    Therefore, a Federal legislative action to simply facilitate 
experiments meeting the above criteria would be adequate. After results 
of experiments are known, recommendations could be made as to how the 
environmental regulatory system can be improved.
    Furthermore, the MPCA believes the primary reason for the 
disappointing results under current EPA innovation initiatives is the 
amount of resources required to develop and implement pilot projects. 
Minnesota as well as many other States, passed State legislation to 
conduct innovation-related pilot projects meeting the four criteria 
stated above. The MPCA believes that rather than create a new EPA 
program, Federal legislation should simply facilitate the ability of 
States to conduct and report on innovation pilot projects. Therefore, 
the MPCA recommends this provision state explicitly that EPA delegate 
the implementation of an innovative strategy program to a State if the 
program meets the above four criteria.

    Question 3. When the Clean Air Act began in the 1970's, no one had 
much experience. When the Act was amended in 1990, the States had 
little experience compared to the Federal Government. With the 
experience and expertise of everyone today, what parts of the Federal 
program can effectively be delegated to the States?
    Response. The Federal Government's role, in most cases, should be 
to enact laws and promulgate regulations that set national standards. 
Ideally, these standards are the desirable national environmental 
outcomes. The role of individual States is then to design programs that 
achieve the desired results.
    Where the States cannot individually produce the desired outcome, 
the Federal Government must intercede. This may occur because the 
problem is regional, national, or global in effect; or because a State 
is unable or unwilling to take the steps needed to produce the desired 
goal.
    When the scope of the problem is regional (e.g., ozone or regional 
haze), the Federal Government should encourage States to work together 
to solve the problems, perhaps including acting through its regulatory 
authority to mandate action by recalcitrant States. The Federal 
Government should provide a strong coordinative roll. For national and 
international problems (e.g., acid rain, mercury, or global warming), 
the Federal Government must take the lead in designing programs that 
reduce adverse impacts.
    Similarly, the Federal Government must intercede when a State fails 
to act to clean up problems that are within the State's own sphere of 
influence. When, however, a State has demonstrated that it is achieving 
the desired goal or that it is making adequate progress toward it, the 
Federal Government should grant the State greater freedom to make 
decisions about how it continues to conduct its activities. This is 
particularly true for pollutants that do not affect adjacent States.
    States have demonstrated that they have varying capabilities to 
manage Federal environmental programs. Certain States need greater 
oversight, as they have failed to clean up their problems with or 
without Federal assistance. However, over time, others have 
demonstrated that they can achieve the desired outcome with limited 
Federal oversight. These States should be given greater authority in 
using their resources to focus on the problems that the States have 
identified to be the most serious, and to use the tools that they deem 
to be most appropriate.
    States have achieved much of their early success with a ``command-
and-control'' approach. Today however, most major pollutant sources 
have the resources and the commitment to work as partners in protecting 
the country's environment. States like Minnesota need to leverage these 
partnering opportunities to move to the next level or ``second wave of 
environmental protection'' while reducing resources focused on 
traditional regulatory programs.
    It is Minnesota's desire that Congress and the Environmental 
Protection Agency (EPA) begin to grant States the authority to 
determine how to meet standards and how to create leveraged 
opportunities with the regulated community. Congress and EPA need not 
look far for ideas to create an atmosphere of innovation that will 
allow this type of partnering to occur. The General Accounting Office 
July 1997 report on ``Challenges Facing EPA's Efforts to Reinvent 
Environmental Regulation'' provides an accurate analysis of challenges 
with specific recommendations on ways to overcome these types of 
challenges.
    On a broader scale, the National Academy of Public Administration 
(NAPA) has produced three reports in recent years on reinventing the 
national environmental protection system. Congress could do well by 
taking NAPA's recommendations to heart and taking concrete steps to 
implement them.

    Question 4. I believe the trading program for acid rain has worked 
well. We are constantly being told we should expand the free market 
concepts of the Clean Air Act. My question is in which areas of the Act 
would a free market approach work?
    Response. In Minnesota we do not have experience with implementing 
local air quality trading programs, although we are a leader in water 
quality trading and can transfer that experience. It would appear that 
``scale of effect'' and simplicity would be two of the most important 
factors when considering candidates for trading programs. The less a 
pollutant acts locally, the better it is as a candidate for trading. 
This trait allows trading over large areas without creating adverse 
local impacts. The second trait, simplicity, would argue that problems 
created largely by one or two types of sources would be better 
candidates than problems caused by multiple source types.
    Global warming gases, mercury, NO<INF>X</INF>, and further sulfur 
dioxide reductions might be the best candidates from the ``scale of 
effect'' perspective. As an alternative, a system focused on one or two 
source sectors, such as electric utilities, could address multiple 
pollutants, and yet retain simplicity.
                                 ______
                                 
                              ATTACHMENT 1
 Minnesota Pollution Control Agency Staff Paper on Air Toxics (Initial 
                         Report, November 1999)
                           Executive Summary
                    air toxics: the invisible threat
    The U.S. Environmental Protection Agency's (EPA's) recent national 
study, the Cumulative Exposure Project (CEP), alerted the Nation to the 
possible risk of cancer faced by Americans over a lifetime of breathing 
toxic air pollutants in outdoor air. This risk is in addition to other 
risks, for instance, lifestyle choices such as smoking. The CEP's 
conclusions resulted from computer modeling to estimate air toxics 
emissions and, therefore, potential exposure, for each state. The CEP 
predictions for Minnesota parallel their predictions for other States 
with similar population centers.
    The CEP marked the first time that the EPA had attempted 
comprehensive modeling to predict ambient concentrations at a census-
tract level for each of the 48 contiguous States. The study used 1990 
emissions data and a computer model to calculate air toxics 
concentrations. Few actual measurements of these pollutants are 
available nationally. Unlike criteria air pollutants, such as carbon 
monoxide and sulfur dioxide (which have been monitored since the 
1970's), there is no national air toxics monitoring system. Minnesota 
is fortunate to have one of the best toxics monitoring systems in the 
Nation in terms of number of pollutants monitored, duration of 
monitoring and diversity of monitoring locations.
    The Minnesota Pollution Control Agency's (MPCA's) ambient (outdoor) 
monitoring data generally supports the CEP's conclusion. According to 
both CEP models and the MPCA's monitoring data, ambient concentrations 
of 10 toxic compounds exceed health benchmarks\1\ in some or all 
regions of Minnesota. Most of the increased cancer risk that can be 
attributed to these compounds are due to motor vehicle emissions. In 
fact, a comparison of the CEP's most modeled average concentrations 
with Minnesota's monitored concentrations indicates that, for almost 
two-thirds of the air toxics with both modeled and monitored data, the 
CEP's model actually underestimated current concentrations. In other 
words, the situation appears to be even more serious than the CEP 
indicates.
---------------------------------------------------------------------------
    \1\ A health benchmark is a concentration of the pollutant below 
which there is likely to be no public health concern. If the Minnesota 
Department of Health (MDH) has drafted a health risk value for a 
pollutant, that value was used as the health benchmark in this paper.
---------------------------------------------------------------------------
    This staff paper is intended to encourage further dialog and 
research on air toxics, and provides the first comprehensive analysis 
of the air toxics data collected from Minnesota's monitoring system. 
This analysis points to the need to re-examine MPCA resources and how 
they may be directed to air toxics issues, and to the need to influence 
national efforts to most effectively reduce public health risks 
associated with air toxics.
    Shown are the locations where monitoring data for this paper were 
collected.
[GRAPHIC] [TIFF OMITTED] T1527.004

                         pollutants of concern
    The CEP evaluated 148 toxic air pollutants using computer models. 
The MPCA monitors (actually measures in the air) 75 air toxics. When 
compared against health benchmarks, 10 pollutants exceeded health 
benchmarks in either modeled or monitored concentrations or both.
    All 10 of Minnesota's pollutants of concern appear on the list of 
33 hazardous air pollutants that the EPA judged to pose greatest threat 
to public health in urban areas. Taking into account current 
information, the 10 pollutants fall into two groups:
    1. Current information warrants action.--Enough information exists 
now to say we are concerned about levels in the ambient air and the 
potential adverse long-term health effects posed by formaldehyde, 
benzene, carbon tetrachloride and chloroform. The first action 
recommended is sharing information about the chemicals in this group 
with our partners and the public.
    2. Current information highlights need for more study.--Current 
data suggest that ethylene dibromide, 1,3-butadiene, acrolein, arsenic, 
nickel and chromium are pollutants of concern, but additional 
information is necessary to confirm their significance. Of the six 
pollutants in this group, it appears likely that, with additional data, 
nickel will fall from the list. In addition, diesel particulate matter 
and/or polycyclic organic matter (POM) may be added after further 
study.
Group 1: Current Information Warrants Action
    <bullet> Formaldehyde.--The mean ambient air concentration of 
formaldehyde measured at every site (25 sites total, both urban and 
rural) exceeded the cancer health benchmark of 0.8 micrograms ( g) per 
cubic meter (m<SUP>3</SUP>). Concentrations appear to be stable over 
the past 4 years. The widespread exceedances of health benchmarks for 
formaldehyde, which is a respiratory irritant and probable carcinogen, 
suggest that a public health issue exists. Roughly two-thirds of the 
formaldehyde in the ambient air is due to mobile sources--cars and 
trucks.
    <bullet> Benzene.--Both monitoring and modeling data show benzene 
concentrations above the lower range of the health benchmark in the 
Twin Cities metropolitan area and in the State's smaller cities, 
including Duluth, Rochester, Mankato and St. Cloud. About two-thirds of 
benzene emissions can be attributed to mobile sources. In the 
metropolitan area, there has been a slight decrease in benzene 
concentrations since 1991, for which the reason is unclear. Given the 
magnitude of the measured concentrations, it would appear that benzene, 
a known human carcinogen, presents a potential health problem in both 
the Twin Cities metropolitan area and in smaller population centers.
    <bullet> Carbon tetrachloride.--Although production of carbon 
tetrachloride has been banned in the United States since 1996, both 
monitoring and modeling data show that carbon tetrachloride 
concentrations in the air exceed cancer health benchmarks everywhere in 
Minnesota (as well as throughout the nation, according to the CEP). 
Minnesota's monitoring data do not show a decrease in concentrations 
since the ban. Carbon tetrachloride is very persistent in the 
atmosphere and can take decades to degrade. Carbon tetrachloride is a 
probable human carcinogen and also causes damage to the liver and 
kidneys.
    <bullet> Chloroform.--According to monitoring data, chloroform 
concentrations pose a concern at one location in Minnesota (the CEP did 
not predict any exceedances of the health benchmark). This location is 
in International Falls, adjacent to a U.S. paper mill and across the 
river from a Canadian paper mill, both of which are likely sources of 
the chloroform emissions. In addition to being classified as a probable 
carcinogen, chloroform may be involved in reproductive and 
developmental disorders. Target organs for chronic chloroform toxicity 
are the liver and the central nervous system.
Group 2: Current Information Highlights Need for More Study
    <bullet> Ethylene dibromide.--Monitored ethylene dibromide 
concentrations exceed health benchmarks in some rural locations of 
Minnesota (the CEP did not predict any exceedances). Measured 
concentrations were highest in Pipestone, in western Minnesota. More 
investigation is needed to determine the reasons for the high 
concentrations in that location. Ethylene dibromide was formerly used 
as a fumigant for agricultural purpose, but has been banned for this 
purpose since the 1980's.
    <bullet> 1,3-butadiene.--Because the CEP model predicted that this 
chemical would exceed health benchmarks in the Twin Cities metropolitan 
area and smaller cities, the MPCA has begun to develop the capacity to 
monitor 1,3-butadiene (the agency currently has no such capacity). 
Monitoring data will help confirm the reliability of the CEP model for 
this pollutant. About two-thirds of 1,3-butadiene emissions are 
predicted to come from mobile sources.
    <bullet> Acrolein.--The CEP estimates that acrolein concentrations 
exceed the health benchmark in the Twin Cities metropolitan area and in 
many smaller cities across Minnesota. As with 1,3-butadiene, the MPCA 
currently has no monitoring data to confirm the accuracy of this 
prediction, but is studying resources available to begin monitoring. 
Acrolein is a respiratory irritant emitted mostly by area (64 percent) 
and mobile (36 percent) sources.
    <bullet> Arsenic.--The method used for measuring arsenic 
concentration in the ambient air is more of a screening tool, as the 
lower detection limit of the method is greater than the health 
benchmark. It appears that arsenic concentrations may exceed health 
benchmarks at some locations, but more refined measurement is needed to 
confirm this.
    <bullet> Nickel.--The CEP predicts nickel to exceed the health 
benchmark in two census tracts in the Twin Cities metropolitan area. 
Monitoring data from all locations were well below the health benchmark 
and, in some cases, even lower than model predictions. More work is 
needed to measure nickel concentrations in the air in different 
locations, such as those near suspected point sources. More sensitive 
techniques might also confirm whether this chemical should be of 
concern.
    <bullet> Chromium.--Minnesota's monitoring data indicate that 
chromium concentrations may exceed the health benchmark at some 
locations, but not necessarily those predicted by the CEP. The health 
benchmark for chromium is less than the lower detection limit for the 
chromium measurement method used. Most of the monitoring data are below 
the lower detection limit of this method. More work is needed to be 
able to better quantify chromium concentrations and to speciate 
chromium, so that it is possible to determine how much of the most 
toxic form of this chemical exists in the ambient air.
    <bullet> Diesel particulate matter/POM.--Another group of 
pollutants may be added as a pollutant of concern in Minnesota after 
more study. Diesel particulate matter contains a ``soup'' of chemicals, 
most of which are organic (carbon-based) substances generated from the 
incomplete combustion of diesel fuel. Polycyclic organic matter (POM) 
consists of more than 100 compounds, including the group of organic 
compounds known as polycyclic aromatic hydrocarbons (PAHs). The 
California Air Resources Board (CARB) lists POM, PAHs and their 
derivatives as toxic air contaminants. CARB has identified diesel 
particulate matter as the primary air toxic pollutant of concern and a 
significant contributor to the overall cancer risk from air toxics. EPA 
is considering diesel particulate matter for classification as a 
hazardous air pollutant.
                     additive effects of air toxics
    It is important to remember that compounds modeled in the CEP and 
monitored by the MPCA are just a fraction of the anthropogenic (human-
caused) pollutants emitted into the air each day. In other words, 
ambient air contains very many pollutants, of which the MPCA monitors 
only a few. These pollutants can have synergistic effects, each 
compound having its own toxicity and, in addition, having more complex 
toxicities when combined with other air pollutants.
    There is little research available on risk to public health from 
exposure to multiple ambient air toxics. The additive effects of 
pollutants or the characteristic of a local emission source may make 
other pollutants, including those not singled out in this paper, a 
concern.
    Currently, the primary health concern from exposure to multiple air 
pollutants is increased cancer risk. Cancer is the toxicological 
endpoint of concern for 9 of the 10 air toxics targeted in this paper. 
More work needs to be done to determine the significance of noncancer 
endpoints, such as cardiopulmonary, neurologic, immunologic and 
reproductive/developmental systems effects.
                majority of risk is from mobile sources
    The majority of the risk posed by all the pollutants modeled in the 
CEP comes from mobile sources (cars, trucks, buses, etc.). Area and 
point sources account for about equal portions of the remainder of the 
risk. In the past, the MPCA has focused most of its resources on 
regulating point sources. The EPA's recently-
published Urban Air Toxics Strategy focuses on regulation of area and 
point sources, and gives less emphasis to specific regulation of toxics 
from mobile sources. While point sources have an impact at a local 
level and it remains important to ensure that their emission levels are 
protective of health, mobile sources impact a much wider geographic 
area. We believe this is important and must be reflected when the MPCA 
designs its 5-year work plans.
    Shown are the contributions by source to excess lifetime cancer 
risk based on CEP data.
[GRAPHIC] [TIFF OMITTED] T1527.005

                       urban areas most affected
    Air pollution is not evenly distributed geographically (except for 
certain pollutants, such as carbon tetrachloride, which is very 
persistent and relatively uniform in concentration across the state). A 
pattern exists for many of the toxics emitted in significant amounts 
from mobile and area sources (e.g, acrolein, formaldehyde, benzene and 
1,3-butadiene). The highest concentrations of toxics tend to be found 
in the center of the Minneapolis-St. Paul metropolitan area, with 
concentrations decreasing as one moves away from the urban center. In 
the rest of the state, most areas have lower concentrations than the 
metropolitan area. However, many smaller cities (e.g, Duluth, St. 
Cloud, Rochester, Mankato and Moorhead) also have elevated 
concentrations of these pollutants that come from mobile and area 
sources. Quite clearly, where an individual chooses to live, work and 
play affects exposure.
    This map shows predicted acrolein concentrations based on modeling 
data. Other pollutants in the paper show a similar pattern. The map 
illustrates the fact that air toxics are not just a metropolitan area 
issue.
[GRAPHIC] [TIFF OMITTED] T1527.006

         public sees air toxics as priority environmental issue
    The MPCA recently completed extensive public participation efforts 
aimed at learning about the environmental values of Minnesota citizens. 
These efforts included seven locations around the State for the 
``Governor's Forum: Citizens Speak Out on the Environment,'' a 
telephone survey to 800 households, and a project called ``Comparing 
Environmental Risks.'' In each of the three, air toxics issues ranked 
as a high priority with the public.
    <bullet> In the Governor's Forums: Citizens Speak Out on the 
Environment, 100 citizens from the Twin Cities metropolitan area ranked 
air-quality-related issues as two of their three most important 
environmental issues. The forums were held in the spring of 1999.
    <bullet> In the public values survey, also conducted in the spring 
of 1999, two of the top four environmental threats as ranked by the 800 
respondents were related to toxic air emissions (exhaust from cars, 
trucks and buses and emissions from manufacturing facilities and 
refineries).
    <bullet> In the Comparing Environmental Risks project, conducted in 
1996 and 1997, the citizens jury, stakeholder and MPCA staff groups all 
ranked the three sources of air pollution (industrial, mobile and area) 
at the top of the list is the risk-based environmental priorities 
project.
    Based on this information, it appears that the public, especially 
in the Twin Cities metropolitan area, is concerned about air toxics and 
air-quality-related issues. However, results from the public values 
survey also indicate that members of the public feel that air quality 
in their own communities is good to excellent and likely to remain so 
for the next 10 years. These differing perceptions may present a 
challenge to creating solutions, especially for mobile source issues, 
which may involve asking individuals to make changes in driving habits.
                              what's next
    The MPCA has created an Air Toxics Lateral Team, which began work 
in September 1999. This lateral team consists of three subteams:
    (1) Technical Team,
    (2) Communications and Reduction Strategies Team, and
    (3) Mobile Source Reduction Strategies Team.
    The overall goals of this lateral team are:
    <bullet> To identify, communicate and, when possible, address 
problems associated with toxic air pollutants, and
    <bullet> To protect human health and the environment from the 
effects of air toxics.
    The Technical Team continues to study the pollutants themselves. 
The initial focus of the Communications and Reductions Strategies Team 
will be on sharing the information contained in this staff paper with 
the public, and on identifying partners to work with. Communication 
pieces will be developed for various audiences using information from 
this paper as well as other information. The Mobile Source Reduction 
Strategies Team is beginning to develop a work plan that will encompass 
all of the MPCA's activities directed at mobile sources of air toxics.
                                 ______
                                 
                              ATTACHMENT 2
   Report on the Mercury Contamination Reduction Initiative Advisory 
                 Council's Results and Recommendations
                         1.0 executive summary
    The Mercury Contamination Reduction Initiative is a Minnesota 
Pollution Control Agency (MPCA) project aimed at reducing mercury 
contamination of fish in Minnesota lakes. As part of the initiative, 
the MPCA formed an Advisory Council to develop recommendations on 
mercury-reduction strategies for the agency's consideration. The 
purpose of this report is to document and recommend implementation of 
the strategies adopted by the Advisory Council.
Background
    Mercury is an environmental issue of significant concern in 
Minnesota and around the world. Mercury is a neurotoxin that 
concentrates in fish to the degree that eating the fish may expose 
humans and wildlife to unsafe levels of mercury. The concentrations of 
mercury in fish in most of the Minnesota lakes tested currently exceed 
the Minnesota Department of Health (MDH) fish consumption advisory 
level. Therefore, as a precaution, the MDH advises people who eat 
fish--particularly nursing mothers, children, and women of childbearing 
age--to limit the amount of fish they eat.
    Mercury is an element found naturally in the Earth's crust. Mercury 
is released into the environment through natural events, such as 
volcanic eruptions, and through processes, such as fuel and waste 
combustion; ore processing; and product manufacturing, use and 
disposal. Most of the point discharges of mercury to water have been 
reduced or eliminated, so it is estimated that virtually all of the 
mercury that now reaches the lakes in Minnesota is due to atmospheric 
deposition. More than half of the mercury deposited in Minnesota is 
thought to be global atmospheric contamination, the mercury remaining 
in the atmosphere for up to a year before it is deposited. It is 
estimated that 10 percent of the deposition in Minnesota is due to 
mercury emitted in Minnesota. Therefore, a 50 percent reduction in 
mercury air emissions in Minnesota is estimated to result in a 5 
percent reduction in mercury deposition in the state.
    Mercury uses in many products, such as paint, fungicides and 
batteries, have been reduced or eliminated. Because of this and other 
factors, such as mandated reductions from waste incinerators and other 
sources, mercury air emissions in Minnesota are estimated to have 
already declined by approximately 45 percent between 1990 and 1995.
           mercury contamination reduction initiative process
    To ensure that releases of mercury in Minnesota continue to 
decline, the MPCA established the Mercury Contamination Reduction 
Initiative (hereafter referred to as the ``Initiative''). The MPCA's 
goal for the Initiative is: ``To achieve significant reductions of 
mercury contamination, using the most cost-effective methods available, 
in cooperation with everyone who has an interest in the results.''
    To achieve this goal, the MPCA established an Advisory Council made 
up of representatives from industry, environmental groups and 
government to provide recommendations on mercury-reduction strategies 
for the agency's consideration (see Table 1 for a list of member 
organizations). The Advisory Council met nearly monthly from May 1997 
through February 1999. A number of organizations not represented on the 
Advisory Council also participated in Advisory Council meetings.
    The goal the Advisory Council established is: ``To advise the MPCA 
regarding policies designed to reduce mercury contamination and to 
recommend policy-oriented changes, taking into account the ability to 
reduce mercury contamination, cost-
effectiveness and the need for regional, national and international 
cooperation.''

                   Table 1.--Advisory Council Members
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Association of Minnesota Counties.........  Minnesota Department of
                                             Health
Center for Clean Air Policy...............  Minnesota Department of
                                             Natural Resources
Center for Energy and Economic Development  Minnesotans for an Energy-
                                             Efficient Economy
Clean Water Action/Minnesota Project......  Minnesota Forest Industries
Cooperative Power/Great River Energy......  Minnesota Hospital and
                                             Healthcare Partnership
Fond du Lac Indian Reservation............  Minnesota Iron Mining
                                             Association
Honeywell, Inc............................  Minnesota Pollution Control
                                             Agency
Izaak Walton League of America............  Minnesota Power
Lignite Energy Council....................  Minnesota Resource Recovery
                                             Association
Metropolitan Council......................  Northern States Power
Minnesota Center for Environmental          Recyclights
 Advocacy.
Minnesota Chamber of Commerce.............  U.S. Environmental
                                             Protection Agency--Region 5
Minnesota Dental Association..............  Western Lake Superior
                                             Sanitary District
------------------------------------------------------------------------

    To accomplish its goal, the Advisory Council established a three-
phase process. The purpose of Phase I was to improve the information on 
mercury use and release (``mercury inventory''), to identify options 
with the greatest potential to significantly and cost-effectively 
reduce mercury releases, and to identify strategies that create 
incentives for implementing mercury-reduction options. Results of this 
work can be found in the Source Reduction Feasibility and Reduction 
Strategies (SRFRS) Committee Report, Options and Strategies for 
Reducing Mercury Releases. (The SRFRS report is being revised and the 
final version is expected to be available in April 1999).
    In addition, a committee developed evaluation criteria to 
facilitate critical evaluation of the options and strategies. These 
criteria, which are defined in the Criteria Committee's Report on the 
Strategy Evaluation Process and Criteria Definitions, are: cost 
effectiveness, reduction potential, technical feasibility, 
comprehensiveness/fairness, social/political feasibility, permanence, 
flexibility, compatibility, transferability and verifiability.
    In Phase II, a committee was charged with using the strategy 
evaluation criteria to narrow the list of potential strategies to be 
considered by the Advisory Council. This committee was also directed to 
assess the economic impact and contamination-reduction potential of the 
strategies.
    Results of these analyses are presented in Appendix A and Appendix 
B. The package of strategies developed by this committee formed the 
basis for recommendations, agreed upon by the Advisory Council in Phase 
III of the process.
Advisory Council Recommendations
    The Advisory Council achieved consensus on the following 
recommendations which, taken as a whole, are designed to achieve the 
goals of the Initiative and the Advisory Council.
Mercury Reduction Goal
    The Advisory Council recommends establishment of a statewide goal 
in 1999 legislation that aims to reduce mercury releases to air and 
water (combined) by 60 percent in the year 2000 and by 70 percent in 
2005 using 1990 as the baseline year. Failure to meet this statewide 
goal is not a trigger for mandatory action in the legislation. The 
legislation would require MPCA to conduct a progress review in 2001 and 
2005 to reconsider voluntary and mandatory strategies and the goal. The 
reduction goal applies to the statewide total of releases from existing 
and new mercury sources. As new information regarding mercury releases 
changes the 1990 baseline estimate, the goal of a 70 percent statewide 
reduction in releases to air and water by 2005 will apply to the 
revised 1990 baseline.
National and International Strategies
    To significantly reduce mercury contamination in Minnesota, it will 
be necessary for reductions in mercury use and release to occur outside 
of Minnesota as well as within the state. To maximize mercury-reduction 
potential and cost-effectiveness, it makes more sense to implement 
certain mercury-reduction strategies on a regional or national level 
than only at the State level. The Advisory Council recommends pursuit 
of a set of national and international strategies for reducing mercury 
use and release, including:
    <bullet> Lowering the threshold above which sources would have to 
report mercury releases as part of the Toxics Release Inventory (TRI);
    <bullet> Increasing relevant mercury research;
    <bullet> Developing a comprehensive international mercury 
management plan that encourages pollution prevention and ensures that 
mercury is managed wisely;
    <bullet> Creating a mercury-related outreach position for Minnesota 
to share its success stories and to learn from others;
    Instituting a national mercury product labeling program or law;
    <bullet> Evaluating the feasibility of lower emission limits for 
sewage sludge incinerators;
    <bullet> Lowering emission limits for medical waste combustors; and
    <bullet> Establishing a credit for early action (early reduction 
credits) program.
Minnesota Mercury Inventory, Research, Monitoring and Reporting
    The Advisory Council recognized that additional work is needed to 
better understand mercury sources, environmental fate, health impacts 
and other risks in Minnesota. Toward that end, the Advisory Council 
recommends that research be conducted in Minnesota that is focused on 
addressing mercury issues of particular importance to Minnesota. The 
Advisory Council also recommends that efforts be applied toward 
improving the comprehensiveness and accuracy of the existing State 
mercury inventory. In addition, the Advisory Council recommends that 
the MPCA develop monitoring, measurement and reporting protocols that 
would improve data consistency both within and across sectors and 
result in a better accounting of mercury use, release and reductions. 
These protocols will be developed to enhance the possibility that 
mercury reductions achieved in Minnesota since 1990 could earn 
recognition or credit under any future Federal programs.
Reducing Purposeful Use of Mercury
    The Advisory Council determined that the lowest-cost strategies for 
reducing mercury tended to be those related to mercury-containing 
products. In order to maximize the cost-effectiveness of mercury-
release reductions, the Advisory Council recommends the following 
strategies for implementation in Minnesota:
    <bullet> Existing Products.--To improve the likelihood that mercury 
contained in products currently in use does not get released to the 
environment, Minnesota should improve the mercury-collection 
infrastructure, conduct clean sweeps to collect unneeded mercury, and 
step up enforcement of existing bans regarding disposal of mercury-
containing products. In addition, sources are encouraged to label 
mercury products still in use to ensure proper disposal.
    <bullet> New Products.--To discourage use of mercury and encourage 
proper management of new mercury-containing products, Minnesota should 
increase enforcement of existing mercury labeling laws and reduce 
demand for mercury-containing products by discouraging procurement of 
mercury-containing products by State government.
    <bullet> Education and Promotion.--Education and promotion are 
needed to maximize the effectiveness of strategies listed above, as 
well as to reach larger audiences. To achieve this, the Advisory 
Council recommends strategies that educate the general public, schools 
and target industries. The Advisory Council also recommends education 
geared specifically toward informing dentists of appropriate amalgam 
waste management practices and encouraging building contractors to 
reduce use of mercury products in buildings.
Voluntary Agreements
    As an essential strategy to achieve the mercury-reduction goals, 
the Advisory Council recommends that mercury sources be encouraged to 
develop voluntary agreements with the MPCA to reduce or work toward 
reducing mercury use and releases. Voluntary agreements provide a 
mechanism to achieve reductions from all sources, including those for 
which no cost-effective solutions were identified. Participation is 
open to any interested source; however, priority will be given to 
sources with releases in excess of 50 lb. per year that are not, 
already expected to significantly reduce their mercury use or release.
                           funding mechanisms
    The Advisory Council recommends that the MPCA and Office of 
Environmental Assistance prioritize their current budgets and staffing 
as well as other agency resources on mercury-reduction strategies prior 
to seeking general fund sources to cover cost of the strategies. After 
this is done, the Advisory Council supports a request of money from 
general fund sources to cover costs incurred by the state, counties or 
other government bodies necessary to implement the mercury-reduction 
strategies recommended by the Advisory Council.
                               __________
  Prepared Statement of Jeffrey A. Saitas, P.E., Executive Director, 
             Texas Natural Resource Conservation Commission
                              introduction
    Good afternoon, Mr. Chairman and members of the subcommittee. My 
name is Jeff Saitas and I am executive director of the Texas Natural 
Resource Conservation Commission. Our agency implements a broad range 
of regulatory and nonregulatory activities that protect the health of 
Texans and their environment. The agency is led by a three-member 
commission appointed by the Governor. About 3,000 staff members work in 
Austin and at 16 regional offices around the State. Clean air issues 
continue to be one of the agency's top priorities and toughest 
challenges.
    Thank you for the opportunity to testify about our experiences 
implementing the Clean Air Act and about our suggestions for 
improvement. I will highlight a successful planning process and point 
out where we feel held back, namely by the lack of timely Federal 
action and clear definition of the roles of local, State, and Federal 
Government to regulate emissions.
                        planning process success
    First, you've asked about what's working in Texas. One successful 
effort has been the development of a State Implementation Plan to 
address ozone problems in the Dallas-Fort Worth area. Through a 
partnership between State, local, and Federal Governments; by working 
with a wide variety of interested parties; and by seeking public input 
throughout the process, we've developed a plan that will clean up the 
air in the Dallas-Fort Worth area.
    The proposals developed for the Dallas-Fort Worth area are based on 
recommendations from local leaders and the community that target 
problem areas. They include local government controls, such as changes 
to building codes and transportation control measures; State controls 
on industrial point sources, principally power plants, and a more 
effective vehicle emissions testing program; and Federal controls such 
as automobile emission standards and cleaner fuels. The Dallas-Fort 
Worth portion of our State Implementation Plan was submitted to EPA in 
April of this year and determined to be administratively complete.
                    implementation process problems
    Unfortunately, elements of the Plan have been challenged by those 
industries that will be affected--particularly the electric utilities, 
cement kilns, diesel engine manufacturers, and the airlines. One of the 
most significant issues raised by this litigation is the question of 
Federal preemption. Several elements of our Dallas-Fort Worth plan have 
been challenged in court on the grounds that those control strategies 
are reserved for Federal action. In addition, Federal actions often 
occur too late for their full air quality benefits to be taken into 
account by States to meet Clean Air Act attainment deadlines.
    The Clean Air Act SIP process was designed to be a partnership 
between local, State, and Federal Government. For instance, the Act 
requires Federal agencies such as EPA, the Federal Aviation 
Administration, and the U.S. Army Corp. of Engineers to take steps to 
control emissions. On the other hand, if our Federal partners fail to 
control these emissions, or take too long to do so, the sources that 
the State can control will have to do more than their fair share. The 
problem here is the extra burden may be more than these sources have 
the ability to reasonably achieve.
                               conclusion
    To remedy this problem we need two things.
    <bullet> First, we need a true partnership--one that recognizes 
that Federal, State, and local performance are required for a 
successful SIP; without any one of these partners, the equity of the 
solution is compromised.
    <bullet> Second, we need very clear guidance on precisely what 
those roles are and how they will be performed.
    Thank you again for the opportunity to testify today. We look 
forward to working with the subcommittee and all interested parties.
                                 ______
                                 
  Responses by Jeffrey A. Saitas to Additional Questions from Senator 
                                 Inhofe
    Question 1. From the State and local government point of view, what 
aspects of the Clean Air Act are currently working well?
    Response. In some ways, the Clean Air Act has been working well. 
The biggest evidence of this is the fact that, overall, the air in the 
United States is cleaner than it was at the time of passage of the Act 
in 1977, and its amendment in 1990. As you noted in one of your 
questions, the acid rain program found in Title IV of the Act has 
helped to reduce acid rain efficiently. Likewise, the National Emission 
Standards for Hazardous Air Pollutants program is also likely to yield 
significant reductions in emissions of air toxics. The nonattainment 
and mobile source programs also have yielded reductions in emissions of 
pollutants for which there are National Ambient Air Quality Standards 
(NAAQS).
    For example, Texas has received the following specific 
environmental benefits traceable to well functioning components of the 
Federal Clean Air Act and its amendments:
    <bullet> Benzene, a known human carcinogen, sharply dropped at our 
ambient air monitoring sites in Houston following the introduction of 
reformulated gasoline.
    <bullet> Data we have collected under the Photochemical Assessment 
Monitoring Station Program have been useful in developing new State 
Implementation Plans for ozone.
    Finally, it should be noted that, while some of these programs have 
yielded environmental benefits, they could be made more effective, more 
flexible, and more cost-efficient.

    Question 2. From the State and local government point of view, what 
needs to be improved in the Act in order to provide you more 
flexibility and responsibility?
    Response. First, duplication and conflict between State and Federal 
requirements that does not improve air quality should be eliminated. 
For example, Texas has a program to review proposed new sources of air 
emissions that predates the Federal program, covers more sources and 
reviews the potential health impacts of more pollutants than the 
Federal program. In cases like this, where States have existing and 
effective programs, Federal program requirements are only different, 
not better. The Act as implemented should recognize this fact, and 
allow programs to differ in order to avoid duplicative or contradictory 
requirements on the regulated community or State environmental 
programs.
    Second, it should be recognized that the NAAQS program provides 
little to no incentive for actively seeking to reduce emissions in 
order to remain in compliance with the standard. The lion's share of 
the attention and resources focused on criteria pollutants has always 
been on nonattainment areas coming into attainment. Even the Act itself 
devotes exponentially more space to establishing requirements for 
nonattainment areas than to addressing areas that currently are in 
attainment. At a minimum, the Act should provide incentives such as 
flexibility or delayed designation of nonattainment areas that 
voluntarily take steps to reduce criteria air pollutants.
    Third, the prescriptive requirements in the Act for nonattainment 
areas should be examined. With many more areas and many more rural 
areas potentially violating the new and revised NAAQS, some of the 
current prescriptive regulatory requirements which made sense for 
reduction of pollution in urbanized areas may not have the same 
environmental benefit in largely rural areas. Requirements such as 
immediate, mandatory conformity, new source review (NSR) and even 
mobile source controls may not effectively address exceedances of the 
new standards. The Act should allow flexibility in these areas to apply 
the types of control measures that make the most environmental sense 
for their specific circumstances and not require the imposition of 
controls that have little benefit.
    Fourth, the Act should require consideration and coordination of 
deadlines under other Clean Air Act program requirements when 
developing compliance deadlines for new programs or NAAQS. These 
deadlines must be consistent, particularly when compliance with one 
program can preclude compliance with another. An example of this 
problem is presented in the new NAAQS for ozone, fine particulate 
matter and regional haze. Each of these programs will require the 
reduction of virtually the same types of pollutants, but each program 
has separate and sometimes contradictory deadlines. These requirements 
should be harmonized to reduce duplication of planning requirements on 
the States or control requirements on the regulated community.

    Question 3. When the Clean Air program began in the 1970's, no one 
had much experience. When the Act was amended in 1990, the States had 
little experience compared to the Federal Government. With the 
experience and expertise of everyone today, what parts of the Federal 
program can effectively be delegated to the States?
    Response. At the time of initial passage of the Act, many States 
had very limited air pollution control programs, so that the Federal 
Act focused on establishing a floor for State programs, which included 
specific program requirements that any facility in a State had to meet. 
One might expect that, as States have become more sophisticated and 
more active in controlling air pollution, the Federal Government would 
have become less involved in daily management of State air pollution 
issues. On the contrary, it has become more involved, to the point of 
attempting to incorporate entirely new State source review programs. At 
the same time, States and industry have experienced a corresponding 
explosion in the volume and level of detail in Federal environmental 
regulations. Despite this regulatory expansion, we are often still 
unable to answer basic questions that citizens want to know: Is the air 
around my child's school safe? Can I go outside?
    Given this paradox, I believe that the Clean Air Act needs to 
change in two basic ways. First, both States and the Federal Government 
must move to a results-
oriented mode that answers these basic questions. This includes a shift 
from a focus on rigid, detailed regulatory requirements to a focus on 
monitored environmental results. Second, this shift needs to include a 
similar shift in Federal treatment of State programs from an attitude 
that attempts to direct day-to-day management of State programs, to one 
that emphasizes environmental results.
    It would be helpful for the Federal Government to spend some of the 
time that could be freed up by ceasing management of State new source 
review programs on developing technical information and tools that can 
be used by State permitting authorities to implement their approved 
programs. Examples include development of information on emerging 
control technologies, toxicological information for compounds, emerging 
technology for stack and ambient emission monitoring techniques, and 
updating and improving Environmental Protection Agency (EPA) sampling 
and testing methods. For other permit programs delegated to States, EPA 
provides oversight through audits of selected permits after issuance. 
Using this procedure for the Clean Air Act would be a more effective 
way to use EPA resources.
    In addition, the Federal Government should set standards for 
conditions that are national in scope such as national power generation 
and multi-pollutant control strategies, and standards for upper air and 
equipment efficiency. The States cannot measure or enforce rules 
without standards against which performance can be measured. 
Furthermore, programs to meet local health-based standards should be 
delegated to the States.

    Question 4. I believe the trading program for acid rain has worked 
well. We are constantly being told we should expand the free market 
concepts of the Clean Air Act. My question is, in which areas of the 
Act would a free market approach work?
    Response. In general, a free-market approach should work in any 
region where an ambient standard can be established and specific 
pollutants and sources can be identified. Regulatory control 
requirements are generally the driver for a free market approach.
    Texas is now in the process of implementing two additional free 
market approaches to pollution control. The first is driven by Senate 
Bill 7, enacted by the Texas Legislature in 1999, that mandated for 
electric utilities a 50 percent reduction of emissions of nitrogen 
oxides (NO<INF>X</INF>) and a 25 percent reduction of SO<INF>2</INF>. 
This requirement is implemented under an allocation system modeled on 
the Title IV acid rain trading program.
    The second free market approach is prompted by a proposed 90 
percent reduction of NO<INF>X</INF> emissions from 1997 levels for 
stationary sources as part of the State Implementation Plan (SIP) for 
the Houston/Galveston area. This mandate has been coupled with new 
banking rules to allow for a mass cap and trade program in that area. 
The cap will effectively shrink the emissions in the area over time to 
a level consistent with the attainment strategy and allow the trading 
of allocations on the open market. In Texas we are exploring an 
expansion of the cap and trade program to other nonattainment areas in 
the future.
                                 ______
                                 
      Responses by Jeffrey A. Saitas to Additional Questions from 
                           Senator Voinovich
    Question 1. What would be the consequences to your State if EPA 
moves forward with designations of ``nonattainment areas'' under the 8-
hour national ambient air quality standard for ozone before the Supreme 
Court renders a decision in the case?
    Response. The major consequences of EPA moving forward with 
designations under the 8-hour ozone NAAQS would be the potential 
doubling of Texas' current four nonattainment areas covering 16 
counties under the 1-hour standard with the inclusion of the 
metropolitan areas of Austin, San Antonio, Tyler, and Longview, and the 
expansion of the Dallas-Fort Worth nonattainment area to include the 
entire CMSA. These designations in newly-affected areas and counties 
will trigger new regulatory requirements such as transportation and 
general conformity and Federal new source review, and will start the 
clock on State implementation plan requirements for which many of these 
areas are not prepared to develop and implement from either a 
technology or resource perspective. Furthermore, some of the mandatory 
requirements that result from a nonattainment designation may not 
effectively reduce ozone formation in some predominantly rural areas. 
Because of the cost and possible inefficiency of these requirements, we 
believe that designations should only be made after the legal 
challenges to the standard have been finally resolved, and should be 
implemented with adequate flexibility to take into consideration the 
unique characteristics and resource base of each newly-affected area.

    Question 2. Is EPA providing sufficient resources currently, as 
well as commitments for future resources, to conduct appropriate 
ambient air monitoring within your state, including monitoring of fine 
particulate matter and determination of the composition of fine 
particulate matter in the air?
    Response. Texas' monitoring efforts for fine particulate have 
received adequate funding from the EPA. Funding for other required 
Federal monitoring is also sufficient. We do not know at this time what 
funding will be provided for new toxic monitoring initiatives because 
funding decisions for that program will be made after the national 
pilot project on toxic monitoring is completed. However, if Texas is 
required to redirect current monitoring resources to focus on toxic 
monitoring, we might have to make substantial reductions or changes in 
existing networks because shutting down one monitor in a station of two 
or more monitors does not save any appreciable money or resources.

    Question 3. Is EPA providing adequate flexibility and appropriate 
guidance to State and local air pollution agencies to administer the 
program for operating permits under Title V of the Clean Air Act?
    Response. Flexibility under the Title V program should be expanded, 
and the guidance provided to States should be improved. In general, 
EPA's requirements for State programs are monolithic and prescriptive, 
regardless of the nature and breadth of State permit and enforcement 
programs.
    In particular, 40 CFR Part 70, which implements the Federal 
operating permit program, is much more prescriptive and inflexible than 
the Act in the areas of (1) Responsible Official/Duly Authorized 
Representative (RO/DAR), (2) RO/DAR certification requirements, and (3) 
the permit revision process. In addition, EPA has in some cases 
prevented States from using what flexibility is provided by Part 70. 
For example, EPA has not allowed States to use the provision for permit 
revisions procedures that are substantially equivalent to those in Part 
70.
    The latter is particularly difficult because EPA's process provides 
no flexibility in the operating permit revision process. The SIP 
deadlines cause State regulations to change so fast that it is 
difficult to get those rules into operating permits without delays and 
complications. Delays and complications are due to the lack of 
flexibility in the revision process rather than by physical changes at 
a facility. The EPA has been inflexible when interpreting 40 CFR Part 
70, even when other approaches meet the letter of Title V. In essence, 
the EPA would have the agency (the TNRCC) promulgate incorrect rule 
language in order to gain program approval under their interpretation 
of Part 70. It would be far better for EPA to allow ``substantially 
equivalent'' for revisions, where States can make a determination that 
something different is just as good as part 70.
    Lastly, EPA has been unsuccessful in finally adopting rules for 
Title V in large part because the agency has been too prescriptive 
concerning implementation, especially in the area of the permit 
revision process and State New Source Review interrelationship with the 
Operating Permit. At times, in fact, it appears that the Title V 
program is being used to reach State new source review program areas in 
ways that are not provided for in the new source sections of the 
Federal Act. The EPA should establish the objectives that are to be 
accomplished and allow States the flexibility to determine the best 
path to accomplish the objectives. Then EPA should oversee whether the 
objectives have been accomplished not the details of implementation.

    Question 4. Are EPA's regulations under the Act sufficiently clear, 
consistent and timely to allow your State to properly implement Clean 
Air Act programs for which it is responsible?
    Response. No, EPA regulations are seldom timely, consistent, or 
clear. Because of State and Federal regulatory overlap, there also is 
often duplication in requirements. EPA's guidance typically comes 
several years after implementation has begun. States lacking specific 
EPA instruction must develop their own mechanisms. EPA subsequently 
issues prescriptive guidance, without adequately considering the State 
mechanisms already in place. Last, many States do not have the research 
resources or statutory authority to determine what future Federal 
standards might be.
    Examples of untimely, inconsistent or unclear regulations include 
the following:
    <bullet> Areas may be designated as nonattainment (which 
immediately triggers a conformity requirement) under the new 8-hour 
standard before publication of procedures to predict how a new or 
modified source would impact the nonattainment or unclassified area;
    <bullet> Section 112(g) of the Clean Air Act requires States to 
conduct case-by-case reviews of the toxics emissions from a major 
source before EPA issues a MACT standard or air toxics regulation for 
that particular category of sources or facilities;
    <bullet> In the Operating Permit program, model permits and example 
forms were developed after the first program submissions were required 
and the periodic monitoring and compliance assurance monitoring 
requirements have taken years to finalize;
    <bullet> The guidance related to the Title III MACT standard and 
the rules and guidance relating to Title V create difficulties in 
efficiently incorporating the number of regulations (especially MACT 
standards) into Operating Permits already in the process of being 
issued;
    <bullet> Due to Federal Clean Air Act deadlines, States had to 
develop their own nonattainment permit review requirements without the 
EPA rules; EPA rules have yet to be issued.
    <bullet> In 1984 EPA was ordered by the D.C. Court of Appeals to 
analyze marine vessel emissions for permit applicability for PSD and 
NA; EPA has still not done that analysis, and the rules vacated by the 
Court still remain in the Code of Federal Regulations;
    <bullet> EPA's proposed new source review reform rules were 
published in July of 1996; but that package has never been finally 
adopted or withdrawn.
                                 ______
                                 
      Responses by Jeffrey A. Saitas to Additional Questions from 
                             Senator Baucus
    Question 1. You mentioned that there are a number of air pollution 
sources contributing to Houston's air quality problems which are 
outside your control. What is their contribution to nonattainment in 
Houston on a percentage of tons per day basis? What specific sources 
were you discussing? Would you support new Federal standards to control 
those sources?
    Response. In the Houston-Galveston 1-hour ozone nonattainment area 
approximately a 75 percent reduction in emissions of NO<INF>X</INF> 
will be required to demonstrate attainment. Of that NO<INF>X</INF> 
inventory, mobile source emissions make up over 40 percent. It should 
be noted that mobile source emissions include emissions not only from 
automobiles and construction equipment, but also from airplanes, 
locomotives, marine vessels, jet skis and even lawnmowers. As the Clean 
Air Act assigns primary responsibility for the development of mobile 
source emissions standards to EPA, affected industries have argued that 
Texas is preempted from regulation of such emissions.
    Because less than 60 percent of the NO<INF>X</INF> emissions 
contributing to the ozone problem in the Houston area are from 
stationary sources, when EPA does not require timely reductions in 
mobile source emissions, Texas is faced with the choice of either 
regulating mobile sources, over-regulating stationary sources, or not 
meeting the statutory deadline. The Act should be revised to require 
EPA to develop and implement those control programs over which it has 
authority on timeframes consistent with the statutory attainment dates 
or States should be allowed to extend those attainment dates as 
necessary to take full advantage of such EPA programs. In the 
alternative, States in addition to California could be specifically 
authorized to adopt standards for categories of mobile sources, 
especially where EPA fails to act.

    Question 2. What is the fee (per ton of emissions) which your State 
currently charges for permitting under Title V of the Clean Air Act? 
How much does that generate annually and what is your state's annual 
budget for permit activities, implementation and enforcement matters, 
emissions and ambient monitoring, modeling, analyses, demonstration, 
inventory preparation and emissions tracking, relating to air quality? 
What, if any, additional categories of spending are necessary to 
support air quality programs?
    Response. Texas currently assesses $26 per ton of pollutant which 
includes carbon monoxide (CO) that is not included in the Act's Title V 
requirements. When this amount is compared to the Title V requirement 
with the CPI inflation factor and exclusion of CO, the Texas' rate is 
slightly lower than the presumed national requirement. However, Texas 
collected approximately $39 million from the Air Emissions Fee during 
fiscal year 2000, which we believe adequately covered the costs to 
implement our Federal operating permit program. It should be noted that 
the Air Emissions Fee statute was recently changed to triple the fee 
annually for certain facilities that do not obtain State new source 
review permits. This exponential tripling of fees for large facilities 
could result in substantially greater fee collection than is required 
by the Federal Clean Air Act.

    Question 3. Flexibility was mentioned repeatedly during the hearing 
as necessary for efficient conduct of States' programs. The Clean Air 
Amendments of 1990 created relatively strict deadlines and established 
numerous requirements largely because insufficient progress had been 
made prior to 1990 in achieving attainment. How can we be certain that 
increasing flexibility will not result in slowing current progress? 
What specific changes in the Act would be necessary to enhance 
flexibility?
    Response. States have made significant progress in developing their 
air quality programs since the inception of the Act in 1977, and even 
since the 1990 amendments. While prior to that time many States may 
have needed prescriptive Federal requirements to provide effective air 
quality programs, most States now have the expertise and technical 
training required for effective air quality improvement programs. 
Therefore, it is reasonable to allow the States more flexibility in 
designing and implementing programs that are appropriate for the needs 
of individual States. To assure that this flexibility does not result 
in a slowing of current progress, EPA could be directed to hold each 
State strictly accountable for developing, submitting and implementing 
their individual plans by the deadlines required by the Act. The Act 
currently allows EPA more than adequate tools to enforce this 
accountability with the existing sanction provisions.

    Question 4. Ms. Studders of Minnesota called for a comprehensive, 
integrated national power generation strategy that regulates multiple 
pollutants, including NO<INF>X</INF>, CO<INF>2</INF>, mercury, and 
other toxic pollutants. This would seem to be a sensible combination of 
energy and environmental policy. What are your views on such a 
strategy?
    Response. Strategies that incorporate multiple pollutant control 
into national strategies are exactly where Federal policy should be 
going. The national power generation network is a perfect example as it 
involves toxics, criteria pollutants, and greenhouse gasses. Single 
pollutant strategies are less effective and efficient in addressing 
these problems.

    Question 5. Transport of ozone and other long-range pollutants 
continues to be a serious problem for public health and for State and 
local air quality planners. Do you have any suggestions for ways that 
the Act could better deal with this phenomenon?
    Response. Transport of ozone and other pollutants is definitely a 
serious problem in Texas as well as other States. We had a very graphic 
and visible example of that fact with the smoke from the Central 
American fires in the spring of 1998. However, the Act currently 
includes a provision to take into account the transport of pollutants 
from another country under Section 179b. With respect to domestically 
generated pollutants, Texas has addressed the transport problem by 
developing a regional strategy for ozone reductions that targets large 
sources and mobile emissions from the eastern half of the state. This 
strategy should also provide local benefits to areas that are close to 
being in violation of ozone standards.
[GRAPHIC] [TIFF OMITTED] T1527.007

[GRAPHIC] [TIFF OMITTED] T1527.008

[GRAPHIC] [TIFF OMITTED] T1527.009

[GRAPHIC] [TIFF OMITTED] T1527.010

[GRAPHIC] [TIFF OMITTED] T1527.011

[GRAPHIC] [TIFF OMITTED] T1527.012

[GRAPHIC] [TIFF OMITTED] T1527.013

[GRAPHIC] [TIFF OMITTED] T1527.014

[GRAPHIC] [TIFF OMITTED] T1527.015

[GRAPHIC] [TIFF OMITTED] T1527.016

[GRAPHIC] [TIFF OMITTED] T1527.017

[GRAPHIC] [TIFF OMITTED] T1527.018

[GRAPHIC] [TIFF OMITTED] T1527.019

[GRAPHIC] [TIFF OMITTED] T1527.020

[GRAPHIC] [TIFF OMITTED] T1527.021

[GRAPHIC] [TIFF OMITTED] T1527.022

[GRAPHIC] [TIFF OMITTED] T1527.023

[GRAPHIC] [TIFF OMITTED] T1527.024

[GRAPHIC] [TIFF OMITTED] T1527.025

[GRAPHIC] [TIFF OMITTED] T1527.026

[GRAPHIC] [TIFF OMITTED] T1527.027

[GRAPHIC] [TIFF OMITTED] T1527.028

[GRAPHIC] [TIFF OMITTED] T1527.029

[GRAPHIC] [TIFF OMITTED] T1527.030

[GRAPHIC] [TIFF OMITTED] T1527.031

[GRAPHIC] [TIFF OMITTED] T1527.032

[GRAPHIC] [TIFF OMITTED] T1527.033

[GRAPHIC] [TIFF OMITTED] T1527.034

[GRAPHIC] [TIFF OMITTED] T1527.035

[GRAPHIC] [TIFF OMITTED] T1527.036

[GRAPHIC] [TIFF OMITTED] T1527.037

[GRAPHIC] [TIFF OMITTED] T1527.038

[GRAPHIC] [TIFF OMITTED] T1527.039

[GRAPHIC] [TIFF OMITTED] T1527.040

[GRAPHIC] [TIFF OMITTED] T1527.041

[GRAPHIC] [TIFF OMITTED] T1527.042

[GRAPHIC] [TIFF OMITTED] T1527.043

[GRAPHIC] [TIFF OMITTED] T1527.044

[GRAPHIC] [TIFF OMITTED] T1527.045

[GRAPHIC] [TIFF OMITTED] T1527.046

[GRAPHIC] [TIFF OMITTED] T1527.047

[GRAPHIC] [TIFF OMITTED] T1527.048

[GRAPHIC] [TIFF OMITTED] T1527.049

[GRAPHIC] [TIFF OMITTED] T1527.050

[GRAPHIC] [TIFF OMITTED] T1527.051

[GRAPHIC] [TIFF OMITTED] T1527.052

[GRAPHIC] [TIFF OMITTED] T1527.053

[GRAPHIC] [TIFF OMITTED] T1527.054

[GRAPHIC] [TIFF OMITTED] T1527.055

[GRAPHIC] [TIFF OMITTED] T1527.056

[GRAPHIC] [TIFF OMITTED] T1527.057

[GRAPHIC] [TIFF OMITTED] T1527.058

[GRAPHIC] [TIFF OMITTED] T1527.059

[GRAPHIC] [TIFF OMITTED] T1527.060

[GRAPHIC] [TIFF OMITTED] T1527.061

[GRAPHIC] [TIFF OMITTED] T1527.062

 Prepared Statement of Dennis Hemmer, Director, Wyoming Department of 
                         Environmental Quality
    Good afternoon, Mr. Chairman and members of the committee. My name 
is Dennis Hemmer, Director of the Wyoming Department of Environmental 
Quality.
    Thank you for the opportunity to address you on reauthorization of 
the Clean Air Act.
    My comments today will primarily focus on those portions of the 
Clean Air Act dealing with stationary sources. With less than 500,000 
people in Wyoming, I don't have much experience with mobile sources or 
most of the urban issues related to the Clean Air Act. We also have 
good ``atmospheric ventilation,'' our clean air is often passing by at 
30 miles per hour.
    I think if you look at the results we have achieved in this 
country, the Clean Air Act has been very effective. It has focused on 
and addressed the issues.
    However, since the original passage of the Clean Air Act, each 
reauthorization has added another layer to the Act. While each was 
effective in addressing the issues of the day, the layers do not 
necessarily complement each other. More importantly, some of the layers 
create disincentives for emission reductions and penalize facilities 
that voluntarily make early reductions.
    I believe it is time to start with a clean sheet of paper. With 
respect to stationary sources, we need to start fresh and create a 
system that provides incentives for reductions.
    The first priority must be human health. The current health 
standards, essentially the National Ambient Air Quality Standards or 
NAAQS, should be retained. It is paramount that we protect the health 
of those around facilities and our general population. I would ask that 
more emphasis be placed on good science and data related to what is 
needed to protect public health. One only has to look back on the 
debate over the proposed fine particulate and ozone standards to see 
the need for better science and better data.
    Once we have protected public health, I believe the other goals 
related to stationary sources encompassed by the Clean Air Act are best 
served by a market-based system. I believe a properly constructed 
market system could provide incentives for emission reductions and 
incentives for the development of technology to reduce emissions.
    Before I proceed I must give proper credit. Many of the particulars 
I will suggest were developed in a paper written by Mr. Bob Neufeld.
    For a market system to work, a market must be created by some sort 
of limit similar to what was done for sulfur dioxide in the 1990 Clean 
Air Act Amendments. This limit usually takes the form of a cap or 
benchmark below which emissions must be maintained. Benchmarks would be 
set for each pollutant depending on the goal you wish to achieve. 
Benchmarks would need to be periodically reviewed. If the results 
desired are not being achieved, the benchmark would need to be lowered. 
Ideally, the benchmark would create a situation that achieves the goals 
and creates an economy that stimulates the development of new 
technology to accommodate growth.
    However, we need to be realistic. The benchmark may need to be 
raised if it is so low that it is determined it cannot accommodate 
society. As much as we would all like to see air quality gains similar 
to those made over the last 30 years, we need to recognize the 
population is expanding and today's technology demands materials and 
power.
    Remember, these are goals beyond health so I am not suggesting we 
sacrifice health for growth.
    Setting the benchmarks would be a Solomon-like task. If we embroil 
them in the morass associated with today's rulemaking, like today's 
rules, needed adjustments will only happen through litigation. A system 
is needed that allows adjustments to balance reductions with societal 
needs. The Federal Reserve could serve as a model.
    The parameters for the benchmarks must be clearly articulated and 
be closely tied to an intelligent national energy policy. I am 
concerned that today some decisions are being made to reflect agendas 
not articulated in the Act. I also believe we are dictating national 
energy policy through decisions made under the Clean Air Act. While the 
two must complement each other, energy policy needs to be thoughtfully 
debated in its own right.
    If a market-based system is used, the initial allocation of 
emissions is again a taxing task. Most systems use historic emissions 
as the baseline. Unfortunately, that system penalizes the cleaner 
facilities and rewards dirty facilities. Basing allocations on a 
market-based value, I would suggest gross revenue, would be a system 
more consistent with market principles.
    I believe there are vast opportunities for such a system. We would 
be able to create an environment where emission reductions can become 
revenue enhancers rather than revenue drains. We can create an 
environment that makes technology advances which reduce emissions very 
marketable.
    When our concern is visibility, there would also be opportunities 
for interpollutant trading. The light-disrupting properties of a 
particle of one species should be able to be related to the light-
disrupting properties of another species. While the trades may not be 
on a 1 to 1 basis, we should be able to equate the resource gains.
    I am not so naive as to believe that in a market system everyone 
will comply because they are good citizens or because they are making 
money. It would require limits allocated or obtained through the market 
be contained in an enforceable permit and that those limits be closely 
monitored for compliance.
    I also recognize that there would still be categories of emissions 
from these facilities, for instance fugitive emissions, that cannot be 
accommodated in the market.
    While we have a good law, if we continue to layer old on new, we 
will stifle significant opportunity for innovation. However, if we 
build on the advances of the last thirty years, take advantage of 
today's technology and mold a system that addresses today's issues, we 
can achieve even more without rancor and confrontation.
                                 ______
                                 
 Responses by Dennis Demmer to Additional Questions from Senator Inhofe
    Question 1. From the Sate and local government point of view, what 
aspects of the Clean Air Act are currently working well?
    Response. Overall, the Clean Air Act is working well. If you look 
at the gains we have made under the Act, I don't think you can reach 
any other conclusion.

    Question 2. From the State and local government point of view, what 
needs to be improved in the Act in order to provide you more 
flexibility and responsibility?
    Response. I believe the Act currently provides adequate flexibility 
and responsibility to the States. I also believe the regulations 
provide adequate flexibility and responsibility to the States. However, 
it is the guidance and oversight by the Environmental Protection Agency 
that hinders the States. It is the insertion of EPA guidance, which 
changes from time to time and, which while carrying no legal standing 
is treated as dogma, that most hinders the States from tailoring the 
Act to the State.

    Question 3. When the Clean Air program began in the 1970's, no one 
had much experience. When the Act was amended in 1990, the States had 
little experience compared to the Federal Government. With the 
experience and expertise of everyone today, what parts of the Federal 
program can effectively be delegated to the States?
    Response. I first have to disagree with your basic premise. I agree 
that in the 1970's we all had very little experience. However, since 
the 1970's it has been the States that have implemented the Act. The 
experience and expertise in actual implementation resides in the States 
to the point that today, I believe the States have more practical 
experience implementing the Act than the Federal Government. What is 
needed from EPA is national oversight, more research and better 
science.
    As I stated earlier, the Act and Regulations give the States a lot 
of authority, the States need to be allowed to exercise it.

    Question 4. I believe the trading program for acid rain has worked 
well. We are constantly being told we should expand the free market 
concepts of the Clean Air Act. My question is in which areas of the Act 
would a free market approach work?
    Response. A market-based system would work in most of the non-
health standard areas of the Act. Regional Haze and Prevention of 
Significant Deterioration are certainly receptive to a Market approach.
                                 ______
                                 
        Responses by Dennis Demmer to Additional Questions from 
                           Senator Voinovich
    Question 1. What would be the consequences to your State if EPA 
moves forward with designations of ``non-attainment areas'' under the 
8-hour national ambient air quality standard for ozone before the 
Supreme Court renders a decision in the case?
    Response. Wyoming does not anticipate any non-attainment areas 
under the 8-hour standard and therefore would anticipate no impact.

    Question 2. Is EPA providing sufficient resources currently, as 
well as commitments for future resources, to conduct appropriate 
ambient air monitoring within your State, including monitoring of fine 
particulate matter and determination of the composition of fine 
particulate matter in the air?
    Response. No. However, Wyoming has convened several multi-
stakeholder groups to increase ambient air monitoring throughout the 
state, but especially in areas of concern. I do not think the States 
can rely on EPA to provide the resources for monitoring. We are 
required to make more and more decisions based on modeling. 
Unfortunately, in many cases we don't have enough data to validate the 
accuracy of the models. While EPA needs to be a player, States must 
work with all parties to ensure an adequate base of credible data.

    Question 3. Is EPA providing adequate flexibility and appropriate 
guidance to State and local air pollution agencies to administer the 
program for operating permits under Title V of the Clean Air Act?
    Response. There is adequate flexibility in Title V of the Clean Air 
Act. However, EPA guidance is a day late and a dollar short. Under 
Title V, the States were given a tight timeline to pass needed law and 
regulations and to issue the permits. While having one of the highest 
percentage of Title V permits issued in the country, Wyoming did not 
meet the timeline. However, we did hit the ground running with very 
little guidance from EPA. As the program has progressed EPA has 
promulgated guidance and expected us to modify our programs 
accordingly. Their guidance is too late, has slowed down the process, 
and in some cases is contrary to common sense.

    Question 4. Are EPA's regulations under the Act sufficiently clear, 
consistent and timely to allow your State to properly implement Clean 
Air Act programs for which it is responsible?
    Response. Yes. While the regulations could be more definitive, they 
are adequate. It's the guidance that gives us problems in its 
timeliness and prescriptiveness.
                                 ______
                                 
 Responses by Dennis Demmer to Additional Questions from Senator Baucus
    Question 1a. What is the fee (per ton of emissions) which your 
State currently charges for permitting under Title V of the Clean Air 
Act?
    Response. $10 dollars per ton.

    Question 1b. How much does that generate annually and what is your 
State's annual budget for permit activities, implementation and 
enforcement matters, emissions and ambient monitoring, modeling, 
analyses, demonstration, inventory preparation and emissions tracking 
relating to air quality?
    Response. The $10 per ton fee generates on the average $1,950,763.
    Our budget is not separated out by the categories specified. While 
we track Title V and Federal expenditures as required we do not break 
it into specific categories. Our air quality annual budget is 
$2,751,407. Of this amount $217,668 is State funding, $445,122 is 
Federal funding and $2,088,617 is appropriated from fees.

    Question 1c. What, if any additional categories of spending are 
necessary to support air quality programs?
    Response. In addition to emission fees, Wyoming charges for permit 
review, that charge is the actual cost of review. For Wyoming the 
current budget and revenue has been sufficient. In addition to budget 
amounts, we have facilitated several cooperative efforts in recent 
years to increase monitoring or to calibrate models for specific areas 
of the state. In those instances we have used state, Federal, (both EPA 
and land managing agencies) and industry funding. These efforts have 
been overseen by stakeholder groups comprised of State, Federal, 
industry, environmental and tribal representatives. These efforts have 
been very successful.

    Question 2. Flexibility was mentioned repeatedly during the hearing 
as necessary for efficient conduct of States' programs. The Clean Air 
Act Amendments of 1990 created relatively strict deadlines and 
established numerous requirements largely because insufficient progress 
had been made prior to 1990 in achieving attainment. How can we be 
certain that increasing flexibility will not result in slowing current 
progress? What specific changes in the Act would be necessary to 
enhance flexibility?
    Response. For Wyoming I saw the 1990 Clean Air Act Amendments not 
so much as addressing a lack of progress as in changing the way we 
approach permitting. Prior to 1990 we had essentially a ``permit to 
construct'' system. It addressed the technical aspects of the facility. 
The 1990 Clean Air Act Amendments instituted the Operating Permit 
Program, a more comprehensive approach.
    I don't believe there is a problem with flexibility in the Act so 
much as, in many areas I think the current tools in the Act are not the 
most efficient way to address the issues. In each of the re-
authorizations we have added another layer to the Act, Prevention of 
Significant Deterioration and Title V for example. While each addressed 
the issue of the day, they were not necessarily compatible. They may 
also not be the most efficient means to address issues and indeed, in 
some cases conflict. We need a system that addresses the issues in the 
most efficient manner possible.

    Question 3. In your testimony you said that, ``One only has to look 
back at the debate over the proposed fine particulate and ozone 
standards to see the need for better science and better data.'' What 
would need to be ``better'' about the science and data that EPA used to 
justify those standards? What public health indicators would justify 
setting more stringent ozone and PM(<INF>2.5</INF>) standards than the 
ones that existed prior to EPA's action?
    Response. We need more science and data. When the 2.5 standards 
were set, the Science Advisory Board still couldn't agree on what the 
standards should be. EPA's ozone and PM<INF>2.5</INF> standards may 
have been correct or they may have been too high or too low. If we had 
better monitoring data in conjunction with better health data, I 
believe we could have made a better determination. I would hope that 
when the review comes around again, we have learned and compiled data 
that will give us the ability to make the best determination for the 
health of our citizens. The point of my testimony was that we need more 
and better data and science.

    Question 4. Ms. Studders of Minnesota called for a comprehensive, 
integrated national power generation strategy that regulates multiple 
pollutants, including NO<INF>X</INF>, SO<INF>X</INF>, CO<INF>2</INF>, 
mercury and other toxic pollutants. This would seem to be a sensible 
combination of energy and environmental policy. What are your views on 
such a strategy?
    Response. I suspect Ms. Studders and I are not too far apart. I 
called for a comprehensive national energy policy addressing both 
energy needs and environmental issues. However, I think that we need to 
separate health standards from those addressing other aspects of air 
quality. I believe the National Ambient Air Quality Standards have 
worked well. While we can debate the levels, we need to maintain 
individual facility requirements that assure the health of those around 
them.
    However, to address issues other than health (Prevention of 
Significant Deterioration, visibility, etc.) I fear we are on a 
collision course between energy supply and environmental issues. The 
last time we encountered this our solution were fast track proposals 
under the Department of Energy. I don't believe we have the correct 
tools to address this collision. I believe if we create a market-based 
system that creates incentives to reduce emissions and makes emission 
reduction profitable, we can achieve greater environmental gains.
    Likewise, if we focus on the desired result, there is ample 
opportunity for interpollutant trading. In visibility, often a particle 
is a particle.

    Question 5. Transport of ozone and other long range pollutants 
continues to be a serious problem for public health and for State and 
local air quality planners. Do you have any suggestions for ways that 
the Act could better deal with this phenomenon?
    Response. Ozone transport and visibility demand regional rather 
than local efforts. We need to determine the levels that give us the 
desired results and then create systems that achieve those levels. The 
Western Regional Air Partnership, while not perfect, is an attempt 
headed in the right direction. I believe we can get there only through 
a market-based system. We need to go back and structure the Act in a 
manner that focuses on the result and then provide mechanisms that 
allow achieving that result.
    Thank you for the opportunity to respond.
                               __________
   Prepared Statement of John E. Terrill, Jr., Air Quality Division 
                                Director
    Mr. Chairman, and members of the committee.
    My name is John Terrill and I am the Air Quality Division Director 
for the Oklahoma Department of Environmental Quality. I respectfully 
request that the Department's written statement be included in today's 
hearing record. It is a pleasure to appear before you today to share 
with you our thoughts as you begin the hearing process to reauthorize 
the Clean Air Act. Our experience indicates a number of areas in which 
the Act has allowed us to be successful and other areas in which there 
needs to be improvement.
                           agency background
    The Clean Air Act, last amended in 1990, provides the national 
framework for efforts to protect air quality. The Air Quality Division 
(AQD) of the Oklahoma Department of Environmental Quality (ODEQ) 
implements the State and Federal Clean Air Acts. As part of this 
implementation, the agency adopts rules, promotes compliance efforts, 
enforces rules, and develops pollution prevention strategies to reduce 
emissions and improve air quality.
    An EPA-approved State Implementation Plan (SIP) provides strategies 
and procedures for the daily operations of AQD. This SIP is reviewed 
and amended as necessary. It includes rules and strategies developed at 
the State level for implementing the various Federal air quality 
programs. To date, ODEQ has acquired all appropriate EPA air quality 
programs.
           ozone alert and flexible attainment region success
    Probably nothing illustrates our experience with the Act better 
than our struggle in the Tulsa area to attain and then stay in 
attainment with the 1-hour ozone standard. Just prior to the passage of 
the Clean Air Amendments in 1990, the Tulsa area was designated 
attainment for all National Ambient Air Quality Standards, including 
ozone.
    During the summer of 1991, Tulsa experienced two exceedances of the 
1-hour ozone standard. Two more exceedances of the standard in either 
1992 or 1993 would likely have placed the Tulsa area back into 
nonattainment. Rather than wait for the fate of whatever the summer 
weather of the next 2 years might bring, a group of concerned public 
officials, citizens and industry leaders voluntarily cooperated to 
create and implement the Ozone Alert! Program.
    Based on community outreach, public education and voluntary 
reduction measures, the program has become a model throughout the 
United States. As an outgrowth of the success of the Ozone Alert! 
Program, the Environmental Protection Agency, Oklahoma Department of 
Environmental Quality, the city of Tulsa, Indian Nation Council of 
Governments and various other State and local governmental entities 
entered into a memorandum of understanding creating the Flexible 
Attainment Region for the Tulsa area. Because of the cooperative 
efforts at the local, State and Federal level, Tulsa was able to avoid 
violation of the 1-hour ozone standard until this past Labor Day 
weekend.
    During two of the past three Labor Day weekends, truly exceptional 
weather events involving record high temperatures and persistent high 
pressure ridges, conspired to produce 3 of the 4 exceedances the Tulsa 
area has experienced over that 3-year period. The two exceedances, 
which occurred this past Labor Day weekend, places the Tulsa area in 
jeopardy of being designated nonattainment for the 1-hour standard, 
even though when you look at trends over the past several years the 
ozone levels continue to decline. However, the mandatory measures 
contained within the Flexible Attainment Region agreement may provide a 
mechanism to allow Tulsa to avoid this fate. The Tulsa area and quite 
possibly large portions of the State of Oklahoma will not be so 
fortunate under the 8-hour scenario if reinstated by the Supreme Court.
                   8-hour ozone standard difficulties
    Let me emphasize that we support the concept of a standard for 
ozone that looks at exposure over an 8-hour period. We believe that 
this form of the standard best represents real world exposures likely 
to be experienced by the population most at risk. We disagree with the 
level at which the standard was implemented.
    It is our belief that any time a standard such as this is changed 
and the bar is raised as it clearly has been in this case, the statute 
should require clear and incontrovertible evidence that such a change 
is necessary. In addition, once it has been established that a change 
in an existing standard is necessary, it should be mandatory upon the 
EPA that all guidance necessary to help the States and local agencies 
with implementation must be formulated and made available prior to the 
beginning of any implementation of that program.
    Ideally, this guidance would be written in cooperation with the 
State and local programs or at least there should be an opportunity for 
comment before the guidance becomes effective. For example, we never 
have received guidance that outlines EPA's position relative to the 
consequences of nonattainment under the 8-hour standard as it relates 
to New Source Review (NSR) transition areas. The Act itself is specific 
to the 1-hour standard only. It has also become quite obvious that the 
things we understood about the 1-hour standard do not necessarily apply 
to the 8-hour version.
    Voluntary measures that worked well to help shave the peaks on days 
of concern do not work as well under the 8-hour scenario. Ozone 
forecasting under the 8-hour standard is much more difficult and 
unpredictable. This is illustrated by the dramatic increase in the 
number of ozone alerts that have been called under the 8-hour standard 
as opposed to those that were called when the 1-hour standard was 
controlling.
    It has also become apparent that transport of ozone and ozone 
precursors on a near-regional basis such as between neighboring States 
is very important in forecasting ozone formation and in meeting the new 
standard. Until we know the effect of national measures such as low 
sulfur gasoline and Tier 2 standards, as well as regional measures such 
as implementation of control strategies in areas still in violation of 
the 1-hour standard, planning to meet attainment with the new standard 
is problematic. The resultant issues, such as development of an 
unnecessary State implementation plan to meet a standard beyond the 
control of the State, should have been thought through and clarified 
before the standard was changed.
                          low sulfur gasoline
    This leads me to examples implemented under the existing Clean Air 
Act that we feel will be very productive if done correctly. The first 
is low sulfur gasoline. Unless overturned by the Supreme Court, it will 
be very difficult for Oklahoma to ever meet the 8-hour standard as it 
presently exists without the emission reduction benefits from the lower 
sulfur gasoline. This measure along with stricter automotive emission 
standards, will lower mobile source emissions in local metropolitan 
areas, which would otherwise have to be lowered through forced mass 
transit, inspection and maintenance programs, or other more onerous and 
less effective control strategies. It will also help reduce the 
formation of ozone that would be available for transport between 
neighboring States. However, it will be several years before those 
requirements are fully implemented. An opportunity to see what air 
quality changes these significant measures will make on monitored data 
before near attainment areas are penalized is the only course of action 
that makes sense.
                         regional planning body
    The Regional Planning Body concept formulated in response to 
mandated requirements to reduce regional haze is also a good tool that 
has come out of the existing Act. This program allows adjoining States 
with like concerns and similar airsheds to work together in a regional 
context to analyze and propose strategies to address regional haze and 
fine particulate problems, should they be found to exist. We believe 
that addressing air pollution on a regional basis is likely to be a 
strong tool for future regulatory activities.
    States working together and exchanging data relative to the impact 
each State's emissions has on its neighbors will allow for more 
effective control strategies that will achieve greater reductions at a 
lesser cost. We believe that this concept should be expanded to include 
multipollutant strategies covering other criteria pollutants such as 
ozone, oxides of nitrogen, and sulfur dioxide. It is imperative under 
this concept however that the State and local programs continue to be 
viewed as partners in this endeavor.
                          need for consistency
    If there were one word that would summarize our concerns with the 
current system it would be consistency or the lack thereof. Consistency 
in the interpretation of statutes, as well as rules and regulations as 
they apply from State to State and region to region is fundamental to 
the integrity of any Federal law. The same is true for consistency in 
the data bases that are used for a variety of purposes throughout the 
State and Federal system.
Statutes, Rules, and Regulation Consistency
    The consistent interpretation of statutes, rules, and regulations 
is vitally important to both the regulators and the regulated 
community. It is important to know that when we obtain an applicability 
determination or some other type of rule interpretation from EPA that 
we are getting the same interpretation as that which would be given to 
another State with a similar fact situation. It is very damaging to our 
credibility and that of the EPA when industry points out that the same 
fact circumstance has resulted in a different interpretation in a 
different State or region. It can also create an unfair competitive 
advantage for like industrial facilities operating in different States 
and regions. The regulated community deserves to know what the rules 
are and that they are being applied the same throughout the country.
Data base Consistency
    Data base consistency, including the handling of the data, who 
should have access to that data and when, is also an area that needs to 
be addressed. The vast majority of the activities done by the EPA are 
driven by the data collected in the State and local programs. 
Currently, there is no consistent understanding as to what these data 
are useful to determine and what they are not; consequently, there is 
little consistency from State to State and region to region. This is 
especially troublesome when outside parties such as industrial, 
environmental, and other special interest groups attempt to use the 
data in support of their particular issue.
    We believe that the EPA should be required to establish standards 
for data to be submitted by States and utilized by EPA, yet allow State 
programs great flexibility in the design of their data management 
systems. EPA should also be encouraging and supporting the States 
movement toward electronic data submittal to ease the paperwork burden 
on the regulated community and the State and local agencies. We would 
also encourage further definition of what and when data are accessible 
by the public. We are supportive and believe in the public's right to 
have access to any data that are used to make decisions relative to the 
air quality programs. However, Congress should statutorily insist that 
before any data is made public by any agency, it is carefully evaluated 
as to its accuracy and made available for public viewing only in the 
context in which it was collected.
    For example, if ambient air sampling is conducted to determine 
possible toxic exposure, these data should reflect clearly the local 
area sampled and who likely exposure candidates might be. There should 
be no manipulation of the data that could cause the general public 
unnecessary alarm without justifiable cause. In addition, under no 
circumstances should Federal extractions or other manipulations of the 
data be made available to the public without first notifying the 
affected State or local program as to where the data will be made 
available and an opportunity provided to view and correct where 
warranted such data in the context in which it will be presented.
    new source review/prevention of significant deterioration reform
    New Source Review/Prevention of Significant Deterioration (NSR/PSD) 
reform is a concept that has been in the discussion stages for a number 
of years now with very little apparent progress. Unless a significant 
modification of the whole process is undertaken which would make the 
current system totally obsolete, much good could be accomplished by 
evaluating the existing applicability determinations, guidance, and 
other decisions that EPA has made since the inception of the original 
program.
    For example, there are literally thousands of various applicability 
determinations, some of which are outdated and others that contradict 
each other. There should be a statutory requirement that these 
determinations go through a process where duplicative, conflicting, and 
ambiguous applicability determinations are eliminated. Once these 
determinations have undergone this process, they need to then be made 
available in an easily accessible data base through the Internet so 
that each State, region, and affected industry can have access to the 
information. This would help give each facility undergoing NSR or PSD 
review reasonable assurance that the same answer will be given 
regardless of where they are located. However, the better approach 
would be statutorily to require EPA to make meaningful reforms to this 
system. Included in this should be the requirements that the PSD 
modeling continue to be improved especially as it relates to the 
impacts on the Class 1 areas.
                         oklahoma tribal issues
    In Oklahoma we have a unique situation relative to the tribal air 
rule as currently implemented. EPA has defined ``reservation'' by this 
rule to mean ``. . . all land within the limits of any Indian 
reservation under the jurisdiction of the U.S. Government . . .'', 
while under Federal law ``reservations'' are ``Indian reservations, 
public domain Indian allotments, former Indian reservations in Oklahoma 
and land held by incorporated Native groups.'' Under these definitions, 
most of the State of Oklahoma is considered ``former Indian 
reservation''. Further it appears that EPA has given tribes the 
authority to regulate businesses on non-Indian-owned fee lands within 
the exterior boundaries of a reservation, which in effect is the State 
of Oklahoma with the exception of Greer County, the Panhandle and 
Unassigned Lands.
    EPA is now referring to this rule interpretation as ``treatment in 
a manner similar to States'' rather than ``treatment as a State''. 
Unlike the State of Oklahoma, the tribe does not have to qualify for 
eligibility under established criteria. The tribe must simply show that 
it is a federally recognized tribe, that it has a governing body 
carrying out substantial governmental duties and powers and that it is 
capable of implementing the program. There are no criteria for a 
capability determination.
    The EPA Regional Administrator has the discretionary authority to 
decide on a case by case basis whether a tribe should have a program or 
not. Unlike a State, the tribe may develop portions of programs that 
are most relevant to the air quality needs of the tribe rather than 
enact the whole program. Unlike the State, the tribe is not required to 
provide an opportunity for permit applicants or other interested 
persons to seek judicial review of the tribe's implementation of the 
rule. Nor is the tribe subject to citizen suits. Given the number of 
tribes in Oklahoma, we have a confusing situation regarding this issue.
    We believe that each entity assigned responsibilities under the Act 
should have to meet the same criteria in carrying out that assignment. 
Further, we believe that it is mandatory upon EPA that they insure that 
no industry receives an unfair advantage as a result of EPA's 
interpretation of this rule. Compounding the problem, the EPA has been 
unable to assure us that they understand exactly what the tribes having 
air grants are doing with the money or what data is being collected and 
how it will be used.
                    role of the respective agencies
    The final topic we would like to discuss is, in our opinion, the 
most important--the respective roles of various offices within the 
Federal environmental agency and the roles of the State and local 
environmental agencies. We strongly support the regional office concept 
as it relates to EPA's structure. We believe there are research and 
planning functions that should be performed by EPA headquarters, an 
oversight and technical assistance role to be performed by the regional 
offices, and monitoring, permitting, inspection, and enforcement roles 
to be performed by the State and local programs.
Headquarters
    EPA headquarters should be primarily responsible for looking at the 
big picture while the regional offices should be responsible for the 
day-to-day oversight of State activities. The gathering and analysis of 
data submitted to Washington by the regional offices and the State and 
local programs should be EPA Headquarter's primary objective. From this 
analysis, national trends could be identified which should lead to 
national initiatives as needed. The writing and promulgating of rules 
and regulations, after input from appropriate stakeholders, should also 
be a major responsibility. Headquarters should also be responsible for 
insuring that data bases are accurate and that the rules and 
regulations are interpreted and administered equitably in all regional 
offices. They should also insure that each regional office is providing 
the appropriate oversight of the States within their jurisdiction 
through consistent interpretation of the Federal regulations.
Regional Offices
    The primary role of the regional office should be as technical 
resource for the States within their jurisdiction. They should also be 
responsible to see that each State equitably enforces all Federal 
requirements within their jurisdiction. States must carry out their 
responsibilities as the primary authority under the Federal Clean Air 
Act and if not, the regional office must assume that responsibility. 
The regional office should also be able to act, when requested by a 
State or local agency, in a timely and effective manner.
States
    Finally, the States must be given the latitude to carry out their 
functions as provided under the Clean Air Act. Greater deference must 
be given to decisions made by the States within established guidelines. 
This does not mean that EPA should give up its' oversight authority. 
EPA is welcome to Oklahoma whenever they want to go with us and see how 
we do our job and work side by side with us to augment our programs. We 
welcome them to examine and participate in any activity we do--from how 
we run our monitoring program, to how we write permits, to how we 
enforce those permits. We also invite constructive criticism and 
believe there is much we each can learn from the other.
    Further, EPA should be capable of assisting us in those technical 
areas where we don't have expertise. Expectations should be the same 
for all States or other agencies with similar program responsibilities. 
States must have a special opportunity to comment on all rules and 
guidance that are issued by EPA. While rule input is usually not an 
issue, guidance is often used as though it is a rule and thus should be 
subject to the same public input as a rule.
                               conclusion
    In our view, reauthorization of the Clean Air Act offers a 
wonderful opportunity to make meaningful changes to an area of 
environmental law that over the years has provided the framework for a 
number of advances resulting in cleaner, healthier air for our 
citizens. This also provides a wonderful opportunity to evaluate the 
overall program enhancing the areas that are working well and making 
some necessary corrections in those that are not.
    The entire regulatory scheme as it applies to air quality is too 
complicated. While this may be good for the attorneys, consultants, and 
special interest groups that are involved in the process on a daily 
basis, it is not good for those implementing the vast number of rules 
and regulations that have been enacted over the years. Nor is it good 
for the regulated community or the citizens the Act was designed to 
protect.
    We would urge you to take this opportunity and give careful 
consideration to making those changes that will simplify the final 
product. This will not be an easy task and will likely be met with some 
resistance. However, we believe the long-term benefits of making the 
Act easier to understand and implement will make whatever efforts we 
need to make to facilitate this change insignificant. We look forward 
to working with this committee in any capacity necessary as you 
continue this important work.
    Thank you for the opportunity to submit this testimony. I would be 
pleased to answer any questions that you may have.
                                 ______
                                 
   Responses by John E. Terrill to Additional Questions from Senator 
                                 Inhofe
    Question 1. From the State and local government point of view, what 
aspects of the Clean Air Act are currently working well?
    Response. We continue to support the concept of State 
Implementation Plan process contained in the Act in which the States 
are given the lead responsibility in air pollution control matters.

    Question 2. From the State and local government point of view, what 
needs to be improved in the Act in order to provide you more 
flexibility and responsibility?
    Response. EPA should be required by the Act and given the necessary 
funding to provide guidance, rules and technical assistance to the 
States in a timely manner.

    Question 3. When the Clean Air program began in the 1970's, no one 
had much experience. When the Act was amended in 1990, the States had 
little experience compared to the Federal Government. With the 
experience and expertise of everyone today, what parts of the Federal 
program can effectively be delegated to the States?
    Response. Just about all parts of the Federal program, except 
oversight, technical assistance, research, and the development of 
national regulations and standards can be delegated to the States. This 
would include permitting, monitoring, and enforcement activities.

    Question 4. I believe the trading program for acid rain has worked 
well. We are constantly being told we should expand the free market 
concepts of the Clean Air Act. My question is in which areas of the Act 
would a free market approach work?
    Response. We feel a free market approach would work best where a 
cap and trade system can be implemented. Such an option should be 
available to the States as control strategies for criteria pollutants 
where specific emission budgets have been established.
                                 ______
                                 
       Responses by John E. Terrill to Additional Questions from 
                           Senator Voinovich
    Question 1. What would be the consequences to your State if EPA 
moves forward with designations of ``nonattainment areas'' under the 8-
hour national ambient air quality standard for ozone before the Supreme 
Court renders a decision in the case?
    Response. Our two largest metropolitan areas could then be declared 
nonattainment for a standard that a Federal court has deemed 
unenforceable. This could cause undue confusion, and present 
impediments to these area's economic development and their ability to 
secure Federal highway funding

    Question 2. Is EPA providing sufficient resources currently, as 
well as commitments for future resources, to conduct appropriate 
ambient air monitoring within your State, including monitoring of fine 
particulate matter and determination of the composition of fine 
particulate matter in the air?
    Response. Present funding from EPA for monitoring activities is 
adequate. We are concerned however, if 103 funding is dropped, there 
will be a shortfall. If such monies become part of our 105 grant, we 
will experience difficulties having sufficient matching funds. We are 
also concerned that when the results of the National Air Toxics 
Assessment study are available to the public for comment, the need for 
toxic monitoring will arise. There will be a dramatic increase in the 
need for additional funds for toxics monitoring that has not yet been 
addressed.

    Question 3. Is EPA providing adequate flexibility and appropriate 
guidance to State and local air pollution agencies to administer the 
program for operating permits under Title V of the Clean Air Act?
    Response. Our communications with our EPA regional office 
concerning the administration of Title V have been good. EPA has been 
extremely slow in giving us full approval of our Title V program.

    Question 4. Are EPA's regulations under the Act sufficiently clear, 
consistent and timely to allow your State to properly implement Clean 
Air Act programs for which it is responsible?
    Response. It seems that guidance for implementing new programs and 
standards is consistently late or lacking.
                                 ______
                                 
   Responses by John E. Terrill to Additional Questions from Senator 
                                 Baucus
    Question 1. You said that the current system is inconsistent, 
though most of the examples that you cited seem more related to EPA's 
performance and organization. Please point out any specific 
inconsistencies in the Act which are impacting States' ability to 
protect public health and the environment.
    Response. There are none specifically in the Act.

    Question 2. In your testimony before the committee you stated that 
if the 8-hour ozone standard went into effect it would cost your State 
$43 million in the first year. Could you please elaborate on how you 
calculated that sum and what programs you expected to generate that 
cost? Please include specifics on the timeline of when such programs 
would take effect.
    Response. I don't recall citing such an amount, but the $43 million 
figure has been used as an estimate of the cost to establish an 
Inspection/Maintenance Program and Stage 2 Vapor Recovery Systems in 
the Oklahoma City metropolitan area.

    Question 3. Can you cite any studies that evaluated instances where 
ozone action days were forecasted but never actually occurred? If so, 
is that type of error more frequently occurring than ozone action days 
that occurred but were not predicted?
    Response. During the 2000 ozone season, the Oklahoma DEQ forecasted 
20 ozone alert days. Exceedances occurred on six of those days. 
Exceedances occurred, however, on 10 days when no alerts were called.

    Question 4. Do you have any evidence to suggest that the 8-hour 
ozone standard is more variable than the 1-hour standard?
    Response. Evidence exists that in Oklahoma the 8-hour ozone 
standard is much more stringent than the 1-hour standard. So much in 
fact than depending on weather conditions, and transport the standard 
can be exceeded virtually anywhere in the State. This also makes 
forecasting under the 8-hour standard much more difficult and 
unpredictable.

    Question 5. What is the fee (per ton of emissions) which your State 
currently charges for permitting under Title V of the Clean Air Act? 
How much does that generate annually and what is your State's annual 
budget for permit activities, implementation and enforcement matters, 
emissions and ambient monitoring, modeling, analyses, demonstration, 
inventory preparation and emission tracking, relating to air quality? 
What if any, additional categories of spending are necessary to support 
air quality programs?
    Response. Our current fee is $17.51 per ton of regulated pollutant 
for Title V facilities billed January 2000. It is projected to generate 
$4,233,596. Annual budget is $6,003,612. The money from 105 funds 
continue to shrink with no corresponding decrease in responsibility. 
The time is upon us to revisit what the Title V fees were supposed to 
pay for and to clarify for the States and industry what is expected.

    Question 6. Flexibility was mentioned repeatedly during the hearing 
as necessary for efficient conduct of States' programs. The Clean Air 
Act Amendments of 1990 created relatively strict deadlines and 
established numerous requirements largely because insufficient progress 
had been made prior to 1990 in achieving attainment. How can we be 
certain that increasing flexibility will not result in slowing current 
progress? What specific changes in the Act would be necessary to 
enhance flexibility?
    Response. States should not be held to rigid timelines, without 
receiving the appropriate and timely guidance and technical assistance 
from EPA. The Act could be modified to require EPA to develop such 
guidance and assistance prior to the imposition of requirement on the 
State.

    Question 7. Transport of ozone and other long-range pollutants 
continues to be a serious problem for public health and for State and 
local air quality planners. Do you have any suggestions for ways that 
the Act could better deal with this phenomenon?
    Response. The Act could be modified as to include ozone as a 
pollutant of concern in the Regional Planning Body regional haze 
process.

    Question 8. Are you aware of any State efforts to improve the 
consistency of data collected by the States? Has your State formally 
requested that EPA develop such standards?
    Response. We have made no such formal request. We, however, are 
concerned about the qualify and consistency of ambient data being 
collected by the tribes in our State, and have made our regional EPA 
office aware of our concerns. Our Assistant Executive Director is 
currently involved in an ECOS committee specifically formed to work 
with EPA to develop data standards. Hopefully the work will generate a 
position outcome.
                               __________
    Statement of Kenneth A. Colburn, Director of the Air Resources 
      Division, New Hampshire Department of Environmental Services
    Good day. My name is Ken Colburn. I am New Hampshire's air 
director, and I appreciate the opportunity to share with the 
subcommittee some of my ideas regarding reauthorization of the Clean 
Air Act.
    Four thoughts come immediately to mind: The first is ``Thank God, 
at last.'' The Act is certainly showing its age. With the benefit of a 
decade of hindsight, several fundamental flaws are evident in its 
structure, approaches, and scientific presumptions including, for 
example, that it generally ignores the existence of wind. I think EPA 
has done a reasonably good job of implementing the Act; though I do 
wish the Agency had come back to you sooner to fix some of its 
problems.
    Second, great good has nevertheless resulted from the Act, so we 
must undertake a ``mend it, don't end it'' reauthorization. Many new 
ideas were tried out in the 1990 Amendments, and some--like cap and 
trade programs--have proven extraordinarily successful. Others, 
however, have proven counterproductive and must be revised.
    Third, this reauthorization is far too important to public health, 
functioning ecosystems, and our nation's global competitiveness for it 
to devolve into partisan political or regional bickering. I am a 
witness to the power of collaboration; I have seen first-hand the 
progress that can be made when dedicated leaders like your chairman, 
Republican Senator Bob Smith, and New Hampshire's Democratic Governor, 
Jeanne Shaheen, work together. There is broad agreement among States 
that the Act should employ much less prescriptive approaches, provide 
greater opportunity to innovate responsibly and accountably, and 
incorporate new scientific developments much more readily. There is 
also broad agreement that progress in reducing air pollutant emissions, 
particularly from our transportation and electric power sectors, and 
the technology development that rises to meet this challenge, must 
continue.
    Finally, thorough, independent analysis of State air programs has 
determined that the Federal Government provides only enough resources 
to fund about half of what it asks States to do. And contrary to 
popular belief, Title V's ``polluter-pays'' provisions do not fill this 
gap; Title V added more work than it funded. Furthermore, the 
responsible, accountable regulatory flexibility that States should 
have--and which our companies deserve--is much more costly than 
traditional one-size-fits-all, command-and-control regulation. Simply 
put, Congress has to get serious about funding clean air, or something 
has to give.
    Air issues are among the most complex and difficult of all 
environmental matters, so much so that it is impossible to go into any 
real detail in a single hearing, let alone 5 minutes. Nevertheless, 
having lived and breathed these issues for the last 6 years, I can and 
do confidently represent to you that there are better ways to conduct 
air policy; better for the environment, better for the regulated 
community, and less costly to administer. I only have time for a few 
examples here today:
    <bullet> New Source Review (NSR) and Prevention of Significant 
Deterioration (PSD)--While States generally support requirements that 
new facilities install state-of-the-art pollution controls, the Act 
``lets the excellent get in the way of the good'' by encouraging 
sources to keep their old equipment running instead of installing new 
cleaner units. We can fix this.
    <bullet> Integrated, Multi-Pollutant Approaches.--Traditional 
pollutant-by-pollutant approaches maximize control costs, public policy 
battles (statutory and regulatory), and associated litigation to the 
detriment of public health, environmental quality, and economic well-
being. Substantial opportunities exist for effective control measures 
that address multiple pollutants simultaneously with declining caps 
over time. We can fix this, and indeed, your committee has already 
begun constructive deliberation regarding an integrated, four-pollutant 
approach for the electric power sector.
    <bullet> Encouraging Innovation and Superior Environmental 
Performance.--By its very prescriptiveness, the Act makes it difficult 
if not impossible for EPA to approve innovative new approaches to 
pollution reduction. We can fix this by providing EPA with the 
authority and responsibility to approve non-standard solutions that 
provide equal or better environmental benefits.
    <bullet> Better Ways to Control Pollution.--Requiring like 
categories of sources to pay for emissions, and then distributing the 
revenues back to those sources based on production, would encourage 
both lower emissions and higher productivity, with many attendant 
economic and regulatory benefits (e.g., continuous improvement, more 
flexibility, lower overhead, faster technology development, greater use 
of market forces, etc.). Similarly, if we internalized environmental 
costs (e.g., ``externalities'') into the price of goods and services in 
the first place, then market forces rather than regulation would drive 
environmental improvement. We can fix this by adopting better 
approaches to regulating sources.
    <bullet> Transported Pollution.--Too much time and money has been 
wasted--both at the Federal and State levels--arguing about the nature 
and extent of transported pollution. We should adopt a new definition 
of States' responsibility concerning transported pollution, perhaps by 
requiring that the air leaving a State be as clean or cleaner than the 
air entering the State. We can fix this.
    <bullet> Zero-Threshold Pollutants.--Science is increasingly 
showing that several pollutants, including ground level ozone and fine 
particulate matter, are ``zero-threshold pollutants.'' Unlike the 
traditional ``dose-response'' approach, there is no level of exposure 
that is ``safe.'' As a result, traditional approaches to setting and 
meeting National Ambient Air Quality Standards need revision, and costs 
should probably factor more greatly into this process. We can fix this.
    <bullet> Fairest or Least Cost.--The application of consistent 
emission standards across the Nation is widely regarded as a fair 
approach. However, due to widely varying emission densities across the 
country, this approach does not represent a least cost solution. Since 
both approaches have merit, there is a public policy quandary here. 
This is a decision that is appropriately resolved by Congress, however, 
so it's one we can fix too.
    <bullet> NO<INF>X</INF> vs. VOCs.--There are two precursors to 
ground level ozone, nitrogen oxides (NO<INF>X</INF>) and volatile 
organic compounds (VOCs). The Clean Air Act focuses overwhelmingly--and 
very prescriptively on--VOCs. Yet science has shown that NO<INF>X</INF> 
is by far the greater cause of ozone, in part because most VOCs are 
emitted from trees. We can fix this too.
    <bullet> Best Available Control Technologies (BACT) and Lowest 
Achievable Emission Rate (LAER).--New sources are required to install 
these controls, but nobody can tell them promptly and reliably what the 
``best technologies'' are. We can fix this; indeed, your committee has 
already begun to do so by proposing adequate funding for a BACT/LAER 
information clearinghouse.
    <bullet> Section 126.--Section 126 of the Act appropriately allows 
downwind jurisdictions impacted by emissions from upwind jurisdictions 
to petition EPA for relief. Unfortunately, however, this relief can now 
only be sought from stationary sources, even if mobile sources 
(vehicles) are the predominant source of emissions upwind. We can 
easily fix this.
    <bullet> Designation of Nonattainment Areas.--EPA has typically 
designated nonattainment areas based on ``Metropolitan Statistical 
Areas'' derived from the census. Notably absent is any consideration of 
the science regarding what emissions from what areas triggered what 
monitors into nonattainment. EPA has begun to take steps to revise this 
practice, but how it does so remains to be seen. We can fix this.
    <bullet> Combined Heat and Power.--Our current regulatory structure 
often makes it easier to construct two units (boilers, turbines, 
etc.)--one each for heat and power--than it does to construct just one 
capable of meeting both needs. We can fix this.
    <bullet> Plantwide Applicability Limits (PALs).--PALs regulate 
sources under a facility-wide emission cap instead of on a device-by-
device basis. They can allow sources much greater operational 
flexibility and reduce regulatory overhead, but PALs can be tricky to 
enforce. We can fix this.
    <bullet> Once In, Always In.-- EPA currently regulates some sources 
even if the devices that led them to be regulated in the first place no 
longer exist. We can fix this.
    <bullet> Energy Efficiency.--Finally and most importantly, there is 
widespread recognition that the production and use of energy--in all 
sectors--is the primary cause of most significant air pollution 
problems: ozone, mercury deposition, ongoing acid rain, toxic air 
pollution, and climate change. Further, small sources and even 
individuals account for more and more of this pollution. We need to do 
everything we can to encourage and assist States in making more 
efficient use of energy. In doing so, we will also reap the benefits of 
faster technological development and greater international economic 
competitiveness. I think we can address this too.
    I want you to know that you have New Hampshire's commitment, as 
well as my personal commitment, to assist you in any way we can in the 
daunting but doable task of defining, describing, developing, and 
drafting the ways to fix these problems.
    Thank you again for the opportunity to share these views. I look 
forward to responding to any questions you may have.
                                 ______
                                 
                               ATTACHMENT
                      issues relating to utilities
New Source Review (NSR) and Prevention of Significant Deterioration 
        (PSD)
    States strongly support installation of good controls when new 
construction or major modifications are undertaken.
    Thus, States conceptually support aggressive requirements for 
``Best Available Control Technology (BACT)'' under PSD and ``Lowest 
Achievable Emission Rate (LAER)'' under NSR. However, . . .
            Problem.--Letting Excellent Get in the Way of The Good.

    Substantial environmental benefits (e.g., 90-95 percent emission 
reductions) can often be secured economically, but diminishing returns 
requirements for ``excellence'' (e.g., 95-99 percent emission 
reductions) often render projects uneconomic.
    <bullet> Trigen example.
    Solution.--EPA must develop yardsticks or thresholds that provide 
sources greater timeliness and certainty (e.g., project cost as a 
percent of book value). Alternatively, develop yardsticks for 
exemptible environmental improvements (e.g., a project will be exempt 
from NSR if facility emissions per MWH will drop by 50 percent). Even 
relatively arbitrary yardsticks would be better than the current 
gridlock.
    Caution.--Capacity expansions with marginal environmental benefits 
cannot be exempted from NSR because they:
    <bullet> LDelay or prevent the much greater multi-pollutant 
environmental benefits that result from capital stock turnover.
    <bullet> LDiscourage adoption--and thus development--of new, more 
competitive technologies. Better alternative: an Integrated Approach to 
Utility Emissions (see below).

            Problem.--What is BACT/LAER Anyway?

    EPA has never adequately funded the Federal BACT/LAER 
clearinghouse.
    Precisely when is a technology commercially ``available''?
    <bullet> Example: NH and CT appeals.
    BACT sometimes conflicts with LAER in areas to which both apply.
    Shunting the BACT/LAER discovery and substantiation burden onto 
sources threatens projects through unnecessary delay and increased 
regulatory risk, retarding capital stock turnover.
    Solution.--Provide sufficient support for the Federal BACT/LAER 
Clearinghouse. Also, require EPA to define default BACT/LAER 
technologies to streamline project approvals.
    Caution.--Beware of the ``technology vs. results cycle,'' wherein 
sources vacillate between ``EPA should just specify the technology 
necessary to comply'' and ``EPA should just specify the result and let 
sources pick the technologies.''
    <bullet> LBest of both worlds: EPA should specify default compliant 
technologies, but sources can choose to ``do as good or better.''
    <bullet> L(See ``Encouraging Innovation and Superior Environmental 
Performance'' below.)
Multi-Pollutant Strategies (Co-Benefits)
    Pollutant-by-pollutant approaches maximize control costs, public 
policy battles (statutory and regulatory), and associated litigation to 
the detriment of public health, environmental quality, and economic 
well-being.
    Substantial opportunities exist for effective control measures that 
address several pollutants simultaneously.
    <bullet> See modeling results from STAPPA/ALAPCO's Reducing 
Greenhouse Gases and Air Pollution: A Menu of Harmonized Options 
(attached).
    Note.--The proposed Federal ``Clean Air Partnership Fund (CAPF)'' 
originated out this State-based effort. Not surprisingly, then, the 
States strongly support implementation of a CAPF.
    Nobody plans future coal capacity, so don't wed national policy to 
the past.
    Exit strategy: A reasonably gentle but firm glide path for coal 
interests.
An Integrated Approach to Utility Emissions
    A current opportunity for compromise on NSR/PSD through the use of 
multi-pollutant strategies.
    Sources would commit to substantial reductions in at least 
NO<INF>X</INF>, SO<INF>2</INF>, CO<INF>2</INF> (to Rio levels), and Hg 
(mercury) in a specified timeframe.
    Reduction commitments would inoculate sources against NSR/PSD.
    Emissions budgets, if used, should be output-based (i.e., emissions 
per MWH); our interest is in the societal goods produced, not in 
rewarding production inefficiencies.
    Approach should include requirements for disclosure of the 
environmental characteristics of the power generated (i.e., 
``Environmental Disclosure'').
    Would eliminate current expensive, time-consuming litigation and 
attendant uncertainty.
    Would avoid the patchwork quilt of State-specific regulations that 
will otherwise result.
    Would enable a competitive power marketplace sooner and with 
greater certainty.
    Would provide lower overall societal cost through multi-pollutant 
reduction strategies.
Control Cost Concerns
    Doomsday scenarios typically cite aggregate costs.
    Must ask: How much per KWH? How will ratepayer bills be impacted?
    If adding 2-5 mills to 5 cents electric rates (i.e., 5.2- 5.5 cents 
per KWH) for NO<INF>X</INF> controls will be economically disastrous, 
why isn't the Northeast economy--with rates 2-3 times as high as this 
(i.e., 10-18 cents per KWH)--a basket case? Instead, it is leading the 
Nation economically.
System Reliability Concerns
    Doomsday scenarios premised on multiple, simultaneous, low-
probability worst-case scenarios occurring.
    Still only produces a manageable ``cause for concern'' in summer 
2002.
    Applicable maxim: ``Ask an engineer about doing something and 
you'll get nothing but problems; tell an engineer to do something and 
you'll get nothing but solutions.''
                additional clean air act (caa) problems
Oxides of Nitrogen (NO<INF>X</INF>) vs. Volatile Organic Compounds 
        (VOCs)
    Both are ``precursors'' (i.e., essential ingredients) in forming 
ozone smog.
    However, most VOCs are biogenic (i.e., are emitted naturally; oaks 
emit isoprene, pines emit terpene, etc.).
    And NO<INF>X</INF> reductions have been clearly demonstrated to be 
more effective at lowering ozone concentrations (e.g., OTAG modeling).
    Based presumably on mid-1980's science, the CAA imposes far more 
specific and onerous requirements for VOCs, the pollutant that is least 
effective, much more expensive to control, and whose primary source is 
natural emissions.
    Why does EPA persist in implementing these ineffective statutory 
requirements (e.g., VOC RACT, I/M) when cheaper and more effective 
results can be had through NO<INF>X</INF> reductions?
    <bullet> LNH I/M example.
    <bullet> LIt's the law is no excuse. EPA has a moral responsibility 
to seek revision to the law when science shows the need to do so.
Setting Health-Based Standards (NAAQS) for Zero-Threshold Pollutants
    Old health premise regarding air pollution was ``Dose-Response''--
i.e., once below a certain level pollutant concentrations did not 
impact public health.
    New understanding is ``Zero-Threshold''--i.e., pollutant reduction 
improves public health all the way down to zero.
    Impact on the form of the NAAQS: With a zero-threshold pollutant, 
overall exposure is the best measure of health impact, so NAAQS should 
reflect the longest feasible averaging time (ideally, a seasonal or 
annual average). The 8-hour form is better than 1-hour, but still a 
weak reflection of public health impact.
    Impact on setting the level of NAAQS: Must consider costs; what 
other yardstick is there? (Must include public health and environmental 
costs as well, however!)
A Public Policy Quandary: Broadly Applicable Regulations or Least Cost 
        Solutions?
    EPA's 22-State NO<INF>X</INF> SIP Call creates a ``level playing 
field'' by applying the same emission limit to the entire region--even 
for sources in areas that have less impact on air quality.
    <bullet> Fair, understandable, and easier to apply and enforce.
    Analytical techniques and technologies exist today that can 
reasonably accurately quantify and apportion culpability.
    <bullet> Result: Geographically targeted and pro-rated control 
measures produce least cost solutions.
    <bullet> Emissions trading would still be workable through the use 
of ``discounting'' or ``trading ratios.''
Section 126 (Downwind Areas Petition EPA for Relief from Upwind 
        Stationary Source Emissions)
    Currently Section 126 of the CAA only provides for relief from 
stationary sources such as power plants and large industrial 
facilities.
    Power plants comprise only about 25-33 percent of NO<INF>X</INF> 
emissions (though controlling these sources is one of the most cost-
effective options).
    Section 126 should be modified to provide relief from non-
stationary source pollution as well (e.g., heavy duty diesel engines, 
area sources, etc.).
Designation of Nonattainment Areas Under the 8-Hour Ozone NAAQS
    In determining nonattainment areas, EPA typically applies 
designations across census-based Consolidated Metropolitan Statistical 
Areas (CMSAs).
    Instead, science would suggest approaching designations on the 
basis of an ``Area of Violation (AOV)'' with an accompanying ``Area of 
Influence (AOI).''
    Use of CMSAs can lead to ridiculous and ineffective regulatory 
outcomes.
    <bullet> Example: NH vis-a-vis Cape Cod.
Combined Heat and Power (CHP)
    Also known as ``Cogeneration.''
    Current regulations, together with economies of scale, disadvantage 
CHP, resulting in higher emissions since two boilers (i.e., one for 
electric power and one for the heating load) are otherwise required.
    <bullet> Trigen Example.
    <bullet> CHP is often a victim of ``Letting excellent get in the 
way of the good.''
Plantwide Applicability Limits (PALs)
    Concept: Adopt a more stringent limit on overall plantwide 
emissions of a given pollutant in exchange for operational flexibility 
under this cap.
    Better for sources, better for regulators (e.g., permit writers), 
but possibly harder to enforce.
    EPA has simply stopped approving permits that incorporate PALs.
    ``Just Say No'' is not an optimal or acceptable solution; if EPA 
won't implement PALs, the CAA should be modified to explicitly 
authorize them.
Once In, Always In
    EPA's ``Reasonably Achievable Control Technology (RACT)'' 
regulations (and perhaps others) require ``Once in, always in'' 
provisions.
    Even if a source has permanently eliminated emissions sources, it 
is still regulated and subject to record keeping and reporting 
requirements.
    The CAA should be modified to explicitly exempt such sources from 
regulation.
     ideas for a ``second generation'' of environmental regulation
The Industry Average Performance System (IAPS)
    Until environmental ``externalities'' are internalized, public 
policy battles (statutory and regulatory), litigation, and control 
costs will be maximized--to the detriment of public health, 
environmental quality, and economic well-being.
    If environmental externalities were internalized, then economics 
rather than regulation would drive environmental improvement (less or 
no litigation; fewer or no ``command and control'' approaches, fewer or 
no congressional or regulatory battles, etc.)
    Requiring like categories of sources to pay for emissions, and then 
distributing the revenues back to those sources based on production, 
would encourage both lower emissions and higher productivity, with many 
attendant economic and regulatory benefits. (See IAPS attachment.)
    Not a tax; not a revenue source for government.
Encouraging Innovation and Superior Environmental Performance
    EPA either cites the CAA to dissuade those interested in pursuing 
environmental innovation, or struggles to find a legal basis for 
allowing them to do so.
    EPA also fears litigation from third parties if it allows 
innovative initiatives, let alone if they fail to deliver on their 
anticipated promise.
    Result: Minimal environmental innovation, risk-taking, and 
potentially productive experimentation.
    Solution.--Provide EPA with explicit, appropriate authorization to 
allow and encourage non-traditional innovation and experimentation. 
(See the National Academy of Public Administration's report on this 
topic.) Further, require EPA to approve non-standard regulatory 
approaches that it determines are reasonably likely to equal or exceed 
the environmental performance of the controlling traditional regulatory 
approach(es).
A New Definition for States' Responsibility Concerning Transported 
        Pollution
    Debates about causality and ``significant contribution'' could be 
easily avoided simply by requiring that each State have a reasonable 
opportunity to achieve attainment.
    In many cases at present, the air pollution entering a State would 
cause nonattainment of NAAQS even if all of the State's own emissions 
were eliminated.
    Solution.--Require that the air leaving a State must be as clean or 
cleaner than that entering the same State. Hold downwind States 
harmless from Federal sanctions until this outcome is achieved.
    Note.--Such a requirement would eliminate the need for Section 126 
provisions in the CAA.
[GRAPHIC] [TIFF OMITTED] T1527.063

    Statement of Ron Methier, Chief, Air Protection Branch, Georgia 
                   Environmental Protection Division
    Good afternoon ladies and gentlemen:
    My name is Ronald Methier. I am the Chief of the Air Protection 
Branch of the Georgia Environmental Protection Division. On behalf of 
the State of Georgia, I would like to thank you for this opportunity to 
testify on what is a very important issue, not only to the people of 
Georgia, but I believe to the people of the United States as a whole.
    You have asked me to address the important topic of what, if 
anything, needs to be ``fixed'' in the Clean Air Act. What is working 
in Georgia and what is not? What can be done to address the problems? 
In thinking about these questions, we have concluded that the single 
most valuable ``fix'' that Congress could effect would be to increase 
the flexibility given to both EPA and the individual States, to allow 
the States to take advantage of solutions most relevant and most 
effective for their regions. Today, I will give you our perspective on 
the Clean Air Act and discuss two specific areas where the Act's lack 
of flexibility makes it difficult for Georgia to address its air 
quality problems in a timely and cost-effective manner. First, I will 
address the difficult situation Georgia faces in trying to meet the 
Act's strict attainment dates--an unachievable goal, because these 
dates apply even to areas which, like Georgia, are significantly 
affected by the transport of pollutants from other States. Second, I 
will show how the rigidity of the Act's specific mandated control 
measures--such as Federal fuel requirements--may be more hindrance than 
help in Georgia's struggle to achieve attainment.
    The Federal Government and the States share the same goal--national 
clean air, as soon as possible. It is self-evident that this goal 
cannot be achieved without Federal and State cooperation and 
partnership. The complexities of some aspects of the air pollution 
problem make it almost impossible for either the Federal Government or 
States acting on their own, to develop and carry out all the programs 
necessary to achieve nationwide attainment of Ambient Air Quality 
Standards. This is especially true for a State like Georgia, which, 
like most eastern and southern States, must contend with pollutants 
transported from upwind States over which it has no control. Georgia 
has developed what it believes are workable and scientifically sound 
solutions to these problems. Some of these solutions are based on 
science developed long after the Clean Air Act Amendments of 1990. EPA 
must be given the flexibility to allow States like Georgia to take 
advantage of such state-of-the-art technology and scientific knowledge 
in crafting regional solutions that will meaningfully contribute to 
clean air throughout the Nation. The last major amendments to the Clean 
Air Act were made, as you know, in 1990. These amendments impose strict 
and specific controls, ranging from required vehicle inspection 
programs to the required use of specially formulated gasoline, on areas 
that fail to reach attainment by a specific date. The decade since 
1990, however, has seen exponential advances in scientific knowledge 
about the causes of air pollution and the solutions to it. The 
technology to implement these solutions has likewise changed 
dramatically. Specific requirements prescribed by the 1990 Clean Air 
Act Amendments are, in some cases, no longer the most effective or 
efficient ways to achieve clean air. The Clean Air Act, however, has 
not been amended to reflect these scientific advances. As a result, EPA 
and the States are left with limited ability to take advantage of new 
knowledge and technology, to craft creative, regionally-specific 
solutions. If the Clean Air Act is to remain relevant in this new 
millenium, something must be done to give EPA and the individual States 
the flexibility to take advantage of the knowledge and technological 
explosion of the 1990's.
                     evolution of the clean air act
    To understand this issue better, it may be useful to briefly 
revisit the evolution of the Clean Air Act and how emerging scientific 
knowledge has shaped that evolution. It seems apparent that for the 
last thirty years, Congress has struggled with ways to mandate a 
solution to the nation's air pollution problem. This seems especially 
true for Georgia's largest air pollution problem--ground-level ozone.
    Congress first addressed the ground-level ozone problem in 1970, 
when it directed EPA to establish National Ambient Air Quality 
Standards for ozone and other pollutants and directed the States to 
develop implementation plans for the ``implementation, maintenance and 
enforcement'' of these standards by 1973. In early recognition that 
partnerships between the States and the Federal Government were crucial 
given the national character of the ozone problem and the impact of 
ozone transport among States, Congress required that these plans 
include provisions for ``intergovernmental cooperation,'' in achieving 
attainment of the Air Quality Standards.
    For a wide variety of reasons, despite congressional mandates, very 
little progress was made during the 1970's and 1980's toward attainment 
of the ozone standard. This failure was in large part traceable to a 
lack of scientific understanding of the effects of ozone transport, 
leading to an inability to quantify with specificity the control 
measures necessary to reduce ozone transport impacts on downwind areas.
    By 1990, when most areas had still not achieved attainment, 
Congress decided to employ a much more specific and prescriptive plan 
in the Clean Air Act Amendments of 1990. Attainment deadlines were set 
and sanctions contemplated for failure to meet those deadlines. Strict 
control measures were prescribed. The record clearly shows that 
Congress felt it was crucial to force the development of technology and 
science to correct the air problems.
    Congress also understood the need for partnerships between the 
States and the Federal Government. Congress recognized that ``. . . 
[a]reas in some States may be unable to attain the Ozone standard 
despite implementation of stringent emissions control because of 
pollution transported into such areas from other States.''\1\ In 1990, 
Congress entrusted EPA with the authority to convene ``ozone transport 
commissions'' to study and propose additional control measures 
necessary to enable downwind States to attain the ozone standard by the 
attainment date. With the transport commission provisions, the ``Good 
Neighbor'' provision in section 110(a)(2)(D), and section 126 
authorizing States to bring suit to require control measures in upwind 
States, Congress endeavored to provide the tools necessary for EPA and 
the States to address transported pollution.
---------------------------------------------------------------------------
    \1\ S. Rep. No. 101-228, at 48 (1990), reprinted in U.S.C.C.A.N. 
3385, 3434.
---------------------------------------------------------------------------
    Although we clearly understood more about air pollution in 1990 
than we had in 1970, scientific knowledge about the causes and the 
solutions, however, was still in relative infancy. For example, in 
1990, the scientific community did not fully understand how ozone 
itself was formed, nor did it recognize the significance of nitrogen 
oxides (NO<INF>X</INF>) in this formation process. We did not yet 
recognize that, for the southeast, NO<INF>X</INF> rather than volatile 
organic compounds (VOCs) were the critical factor in ozone formation. 
Likewise, although transport was recognized to be a significant hurdle, 
the regulatory agencies had limited ability to quantify or rectify its 
impact.
             progress toward achieving clean air act goals
    Despite the problems with scientific understanding, the 1990 
Amendments have forced progress toward attainment. Under the 1990 
Amendments, Atlanta was designated a ``serious'' ozone nonattainment 
area, with an attainment date of November 15, 1999. After some initial 
problems, this plan is working. The 1999 attainment date proved not to 
be practicable for Atlanta or for numerous other serious nonattainment 
areas; but we have nevertheless made considerable progress in reducing 
pollution. Despite the tremendous population growth of the metropolitan 
Atlanta area, controls are already in place which have reduced peak 
ozone concentrations and both NO<INF>X</INF> and VOC emissions. With 
additional controls coming on line, the Atlanta area is now projected 
to attain the 1-hour standard for ozone by 2004.
    Georgia recognizes that much of the progress that it has made 
toward attainment is a direct result of the various controls required 
by the 1990 Amendments. For example, Georgia has benefited from the 
acid rain reduction controls, the requirements for enhanced vehicle 
inspection programs, the gasoline vapor recovery requirements, as well 
as the requirement to prepare implementation plans showing specific 
rates of progress toward attainment.
    Now, however, some of the specific controls enumerated in the 1990 
Amendments have served their purpose and have, in fact, outlived their 
usefulness. During the last 10 years, vast strides have been made in 
understanding the science of ozone formation. Likewise, the 
understanding of the mechanisms and impacts of ozone transport are much 
improved. Consequently, some of the specific control measures set out 
in 1990 are now obsolete. Likewise, some of the attainment dates 
imposed by Congress in 1990 proved to be unrealistic and, where 
attainment has been impeded by ozone transport, should be extended.
       atlanta illustrates major problems with the clean air act
    As stated above, Atlanta was unable to meet its 1999 attainment 
deadline. Atlanta was not alone. More than 20 metropolitan areas all 
over the county are still classified as nonattainment for ozone, as 
shown on the attached map. Except for those areas ranked ``extreme'' or 
``severe,'' shown in red on the map, all of the areas missed their 
statutory attainment dates. These areas range from California to 
Connecticut, from Texas to Wisconsin, from relatively small cities like 
Louisville, KY and Springfield, MA, to large cities like Dallas and 
Atlanta. The reasons for non-attainment vary from location to location; 
there are important regional and technical distinctions that affect the 
attainment efforts. The very fact, however, that so many areas have 
failed to attain itself demonstrates that something is not working the 
way Congress intended and certainly is not working as effectively as it 
could. Atlanta's experience is illustrative of problems that are common 
to many of these nonattainment areas.
    The reasons that the attainment dates set by Congress proved 
unrealistic are clear now in a way that they were not a decade ago. The 
attainment schedule began to fall apart when the first attainment 
demonstration State Implementation Plans (SIPs) became due. For serious 
non-attainment areas, these were due on November 15, 1994. As it turned 
out, however, scientists at that time were just beginning to understand 
the complexity of the transport problem. These gaps in knowledge made 
it impossible for the States to forecast attainment by the given 
deadlines, or to determine what additional controls might be required 
short of draconian, very costly measures with uncertain efficacy. 
Because the modeling data was not available to forecast attainment by 
the statutory deadlines, EPA, of necessity, extended the deadlines for 
these submittals.
    In an effort to develop better models for forecasting attainment 
and to propose solutions to the ozone transport problem, the Ozone 
Transport Assessment Group (``OTAG'') was formed in 1995 by 
representatives of 37 States east of the Rocky Mountains, along with 
representatives from EPA and industry and environmental groups. OTAG 
conducted comprehensive studies of interstate ozone formation and 
transport. The group concluded its work in June 1997, 6 months after 
EPA had expected, and only 18 months before the serious-area attainment 
deadline. Even then, while the group was able to conclude that 
NO<INF>X</INF> reductions were necessary to address transport, it was 
not able to reach consensus on specific control recommendations. Once 
again EPA took the reasonable step of extending the deadline for 
submittal of the States' attainment demonstration SIPs, this time until 
April 1998. EPA took final action on the ozone transport problem in 
September 1998. This final rule, generally referred to as the 
``NO<INF>X</INF> SIP Call,'' required 22 States and the District of 
Columbia to revise their SIPs to provide for NO<INF>X</INF> reductions 
specifically quantified in the rule. The chosen control measures were 
to be implemented no later than May, 2003. The NO<INF>X</INF> SIP Call 
has been upheld by the D.C. Circuit, but the court recently extended 
the final implementation date until May 2004.
    Thus, while Congress expected that it would be feasible, with 
diligence, for serious nonattainment areas to come into compliance by 
1999, the protracted timetable required for EPA to finalize regulations 
to address the complex problem of interstate transport of 
NO<INF>X</INF> has prevented us from meeting that statutory deadline in 
Atlanta, despite our concerted efforts. Georgia has already implemented 
regulations to obtain major reductions in NO<INF>X</INF> emissions and 
is imposing controls at least equal to those which will be imposed by 
the NO<INF>X</INF> SIP Call. Georgia projects that Atlanta will attain 
the 1-hour standard for ozone in 2004 as soon as the NO<INF>X</INF> SIP 
Call controls reduce NO<INF>X</INF> emissions from our neighboring 
States.
    The uncertainties and difficulties presented by Atlanta's failure 
to meet the statutory attainment deadline illustrate critical problem 
areas in the Clean Air Act. Georgia has already adopted extensive 
control measures on both stationary and mobile sources, all of which 
work to reduce ground level ozone in Atlanta. Once the NO<INF>X</INF> 
SIP Call is fully implemented, ozone levels in Atlanta will meet the 
Air Quality Standard. In the meantime, however, uncertainty as to EPA's 
authority and discretion may result in the absurd consequence of the 
imposition of costly control measures which are scientifically obsolete 
and which will not result in faster attainment.
congress should extend or confirm that epa has the authority to extend 
                        the attainment deadlines
    In the 1990 amendments to the Clean Air Act, Congress imposed 
sanctions for a failure to meet the attainment deadlines. Because 
Congress clearly assumed that the attainment deadlines were reasonable, 
the Act provides that if EPA determines that an area has not attained 
the standard, such area ``shall be reclassified by operation of law.'' 
Sec. 181(b)(2). In the case of Atlanta, for example, such a 
determination by EPA could result in ``bump up'' of the Atlanta area to 
classification as a ``severe'' nonattainment area. With a ``bump up'' 
to severe, automatic consequences would result, such as a requirement 
that we use Federal reformulated gas (RFG), stricter standards on 
industrial facilities, and monetary penalties for failure to attain. 
Sec. Sec. 182(d), 185, 211(k). Recognizing the unfairness that would 
result from requiring bump-up and the attendant sanctions upon States 
with areas unable to show attainment due to interstate transport of 
ozone, EPA has proposed a policy which allows it to extend attainment 
dates where interstate transport is a significant contributor to non-
attainment (the ``Extension Policy'').\2\
---------------------------------------------------------------------------
    \2\ Extension of Attainment Dates of Downwind Transport Areas, 64 
Fed. Reg. 14,441 (March 25, 1999).
---------------------------------------------------------------------------
    In issuing the Extension Policy, EPA recognized that downwind 
States have been operating in a ``climate of uncertainty'' as to the 
allocation of responsibility for pollutants transported from upwind 
States. EPA has stated its view that ``Congress, had it addressed the 
issue, would not have intended downwind areas to be penalized by being 
forced to compensate for transported pollution by adopting measures 
that are more costly and onerous and/or which will become superfluous 
once upwind areas reduce their contribution to the pollution problem.'' 
Id. at 14,444. EPA's Extension Policy reasonably allows downwind States 
to assume the benefit of the NO<INF>X</INF> SIP Call reductions in 
making their attainment demonstrations, so long as areas can 
demonstrate that they meet the criteria.\3\
---------------------------------------------------------------------------
    \3\ To qualify for application of the extension policy an area 
must:
    (1) be identified as a downwind area affected by transport from 
either an upwind area in the same State with a later attainment date or 
an upwind area in another State that significantly contributes to a 
downwind non-attainment;
    (2) submit an approvable attainment demonstration with any 
necessary, adopted local measures and within an attainment date that 
reflects when the upwind reductions will occur;
    (3) adopt all local measures required under the areas current 
classification and any additional measures necessary to demonstrate 
attainment; and
    (4) provide that it will implement all adopted measures as 
expeditiously as practicable, but no later than the date by which the 
upwind reductions needed for attainment will be achieved. Id. at 
14,444.
---------------------------------------------------------------------------
    EPA has acknowledged that Atlanta's ozone problem is significantly 
affected by transport and in December 1999, EPA proposed to apply the 
Extension Policy to Atlanta upon approval of the attainment 
demonstration SIP.\4\ EPA has also proposed to apply the Extension 
Policy to a number of other nonattainment areas affected by ozone 
transport, such as Beaumont/Port Arthur,\5\ Louisville,\6\ and St. 
Louis.\7\ The practical effect of the Extension Policy is to allow EPA 
to extend attainment dates for serious ozone non-attainment areas such 
as Atlanta to June, 2004, the date on which NO<INF>X</INF> SIP Call 
reductions are to take effect. EPA believes, and Georgia agrees, that 
the Extension Policy is within EPA's authority under the Clean Air Act 
and that it is consistent with congressional intent.
---------------------------------------------------------------------------
    \4\ 64 Fed. Reg. 70,478 (Dec. 16, 1999).
    \5\ 64 Fed. Reg. 18,864 (April 16, 1999).
    \6\ 64 Fed. Reg. 27,734 (May 21, 1999).
    \7\ 64 Fed. Reg. 13,384 (May 18, 1999).
---------------------------------------------------------------------------
                   challenges to the extension policy
    In spite of the reasonableness of the Extension Policy, it has come 
under severe criticism. There are many who contend that the Extension 
Policy is beyond EPA's authority and that EPA has no power to vary the 
strict attainment dates set forth in the Clean Air Act amendments of 
1990.
    In the case of Georgia, we are currently involved in litigation in 
which the validity of the Extension Policy has been attacked. The case 
is pending before the Court of Appeals for the Eleventh Circuit and has 
not yet been resolved. Very recently a suit was filed seeking an order 
to require EPA to bump up 15 areas, including Beaumont/Port Arthur and 
Louisville, to the next higher classification, in spite of EPA's 
proposal to extend the attainment dates for some of those areas. We 
have received a notice of intent to file such a suit seeking to force 
``bump up'' of the Atlanta area.
    If the Extension Policy were held invalid in current or future 
litigation, the necessary result is that Atlanta and all other areas 
which have failed to reach their statutory attainment dates must be 
``bumped up'' to the next higher classification. In the case of 
Georgia, bumping up Atlanta to classification as a severe area would 
have significant punitive consequences, which do nothing to promote 
better air quality objectives and which impose needless extra costs 
upon Georgia consumers.
    Georgia urges Congress to address the Clean Air Act and to remedy 
the problem of automatic bump-up where the failure to attain is due to 
circumstances beyond the State's control, such as interstate ozone 
transport.
    the clean air act does not allow sufficient flexibility in the 
      development of state-specific or region-specific clean fuels
    In its ongoing efforts to reach attainment in Atlanta, Georgia is 
also struggling with compliance with the Clean Air Act requirements on 
clean fuels. Georgia has worked cooperatively with all stakeholders, 
including the oil industry, to develop a Georgia fuel which is designed 
to address Georgia's pollution issues and is cost effective.
    The Clean Air Act should be revised to permit States to implement 
State-specific control measures, so long as they satisfy the Clean Air 
Act goals.
clean air act amendments of 1990 mandate federal reformulated fuel upon 
                       reclassification to severe
    The Clean Air Act currently provides that when an area is 
reclassified from serious to severe, it is subject to the Federal 
reformulated gas requirements.\8\ As with so many other provisions of 
the 1990 amendments to the Clean Air Act, the clean fuel provisions of 
the Act are very prescriptive and extremely detailed.
---------------------------------------------------------------------------
    \8\ CAA Sec. 211(k)(10)(D), 42 U.S.C. Sec. 7545(k)(10)(D).
---------------------------------------------------------------------------
    Since 1990, technology has advanced and knowledge of ozone non-
attainment has changed. We now know that pollution is different in the 
southeast than in other parts of the country. Air pollution in general, 
and ground level ozone specifically, form differently in the south than 
in other areas of the country. Transport in the southeast is 
significant, but distances of transport are not as extensive as in the 
midwest and northeast. In addition, in Atlanta as in most of the 
southeast, the ozone problem is largely caused by NO<INF>X</INF>. That 
is, because of the tremendous amount of biogenic (natural) VOCs from 
forests and other vegetation, control of VOCs has not proved to be as 
effective in reducing ground-level ozone. Rather, it has been 
determined by numerous studies that the best method to address ozone in 
the southeast is by reduction of NO<INF>X</INF> emissions.
    For this reason, the fuel issue as well is simply not appropriate 
for a ``one-size-fits-all'' solution. It is important that Congress 
allows the States sufficient flexibility to tailor solutions which 
address their specific air quality problems in the most efficient and 
cost-effective manner.
    the georgia fuel is carefully designed to address atlanta's air 
                            quality problem
    In June 1997, at the conclusion of the OTAG process, Georgia began 
immediately to craft the mobile source control strategy needed to bring 
Atlanta into attainment. We started by meeting with oil industry 
representatives to identify the best fuel program for the metro area. 
We hosted an extensive consultative process with the Georgia Petroleum 
Council and its members, representing refiners, marketers and pipeline 
operators. Together we determined that low sulfur gasoline is the most 
cost-effective fuel to reduce NO<INF>X</INF> emissions from gasoline-
powered vehicles operated in the Atlanta region.
    With the support of the oil industry, Georgia adopted regulations 
in May 1998 that lowered the average sulfur concentration in gasoline 
sold during the summer ozone season to 150 ppm. The industry began 
delivering this gasoline in 1999 for use in a control area encompassing 
Atlanta and 25 counties. This fuel reduces NO<INF>X</INF> emissions 
from gasoline-powered vehicles by 6.6 percent at a cost of 
approximately 1 to 2 cents per gallon, as estimated by the oil 
industry.
    In 2003, Georgia is going to a more stringent low sulfur fuel, one 
that requires an annual average sulfur content of 30 ppm, in a larger 
45-county control area. This gasoline will reduce NO<INF>X</INF> 
emissions by 12.0 percent, or 23.54 tons per day, at a cost of 2.2 to 
2.4 cents per gallon, as estimated by an oil industry consultant. Also, 
because of a 7.0 pound per square inch Reid vapor pressure limit 
instituted in Georgia in 1995, VOCs and toxics will both be reduced by 
more than 25 percent. This fuel is a critical part of the targeted 
strategy to improve air quality and bring Atlanta into attainment with 
the ozone Air Quality Standard by 2004.
 federal reformulated gas (rfg) would be less effective and more costly
    Federal reformulated gas (RFG), if required in Georgia, would not 
only be less effective in combating Atlanta's ozone pollution but would 
also be more costly. Under the Federal Phase RFG program, which started 
January 1 of this year, gasoline sold in RFG areas will reduce 
NO<INF>X</INF> emissions by up to 8.8 percent at a cost of about 4 to 6 
cents per gallon, as estimated by the U.S. Environmental Protection 
Agency.\9\ Compared with the Georgia low sulfur gasoline that is slated 
for arrival in 2003, the implementation of Phase 2 RFG in the Atlanta 
area would result in a fuel at least 27 percent less effective in 
reducing NO<INF>X</INF> at about twice the incremental cost. Federal 
Phase 2 RFG is not the right fuel solution for Atlanta but might be 
forced on us by prescriptive Clean Air Act requirements and EPA's 
limited discretion.
---------------------------------------------------------------------------
    \9\ 59 Fed. Reg. 7810 (1994).
---------------------------------------------------------------------------
                               conclusion
    During the debates on the 1990 amendments to the Clean Air Act, 
Senator Baucus noted that the transport provisions were designed to 
avoid placing an ``unfair burden on any State which is the victim of 
transported air pollution.\10\ Nevertheless, Atlanta and other areas 
which have been significantly affected by ozone transport are indeed on 
the brink of being sanctioned, when it is clear that their failure to 
attain results not from lack of effort on their part but on the time 
required to address the very complex problem of ozone transport. We do 
not believe that Congress intended this result. We urge you to act 
expeditiously to address these unintended consequences of the strict 
prescriptive provisions of the 1990 Amendments. We request that 
Congress either extend the attainment dates, where the failure to 
attain is a result of interstate transport or, in the alternative, make 
it clear that EPA has authority to extend. Second, we urge you to 
revise the Clean Air Act to allow the States more flexibility in 
developing specific control strategies, such as clean fuels that are 
best suited to their particular air quality problems. With clean fuels, 
the one-size-fits-all prescription in the Clean Air Act simply does not 
work. Giving EPA the authority to approve State-specific fuels would 
promote the goal of better air quality. Moreover, as a general rule we 
believe that it is appropriate for Congress to invest EPA and the 
States with more flexibility and discretion, so that they can continue 
to utilize developments in science and technology to craft improved 
solutions to the critical national issue of air quality. On the part of 
Georgia, I want to express our commitment to continue to work hard to 
ensure that Atlanta and all other areas in our State meet the national 
air quality standards. If Congress gives us more flexibility, I believe 
that the public will benefit.
---------------------------------------------------------------------------
    \10\ 136 Cong. Rec. S 16895, at S16970 (1990).
---------------------------------------------------------------------------
    I thank you for giving me the opportunity to tell you about some of 
the critical issues which Georgia is facing under the Clean Air Act.
[GRAPHIC] [TIFF OMITTED] T1527.064

  Responses by Ron Methier to Additional Questions from Senator Inhofe
    Question 1. From the State and local government point of view, what 
aspects of the Clean Air Act are currently working well?
    Response. Georgia believes that the Clean Air Act as a whole is 
working well. Proof of the Act's effectiveness can be found in the 
United States Environmental Protection Agency's (EPA) air quality 
trends reports. These reports indicate that, overall, pollutant 
emissions are decreasing and air quality is improving all across the 
country. This improvement in air quality can in large part be 
attributed to the deadlines and mandates in the Act, which have forced 
technology and the development of new control measures. Forcing such 
innovation has resulted in substantial emission reductions.
    Additionally, Georgia believes that the ``division of labor'' the 
Act creates between EPA and the States is generally effective. EPA has 
the resources and responsibility to do research and develop standards 
that can be broadly applied across the country. States rely on EPA to 
make such regional and national policy decisions, since doing so would 
require many more resources than most States have. Once EPA develops 
these standards, the States can then use the standards and the 
resulting rules promulgated by EPA to develop a locally-specific plan 
to improve air quality.

    Question 2. From the State and local government point of view, what 
needs to be improved in the Act in order to provide you more 
flexibility and responsibility?
    Response. Of major concern to the State of Georgia is the 
specificity with which the Act outlines and requires control measures 
for ozone nonattainment areas. It seems that in the Year 2000 these 
``one-size-fits-all'' solutions--such as requiring Federal reformulated 
gasoline--may have outlived their usefulness. There is little question 
that the specific control measures outlined in the Act helped 
facilitate the attainment of the 1-hour ozone air quality standard by a 
large number of areas classified nonattainment under the 1990 
Amendments to the Act. The controls may, however, have reached a point 
of diminishing returns in at least some of the areas that still remain 
nonattainment for ozone. These areas are, for the most part, larger 
urban areas with individual characteristics that require individualized 
approaches to solving their ozone problems.
    For example, the Section 181 reclassification provisions which 
would require Atlanta and other areas to ``bump up'' to higher ozone 
area classifications result in mandated control measures that do not 
make sense for all areas. Atlanta would be especially adversely 
affected by these control measures because ``bump up'' to a ``severe 
nonattainment area'' would require Atlanta to use Federal reformulated 
gasoline (RFG). This formulation of gasoline is simply not appropriate 
for Atlanta, because it reduces volatile organic compounds (VOCs), not 
oxides of nitrogen (NO<INF>X</INF>), the problem in Atlanta.
    RFG, if required in Georgia, would not only be less effective in 
combating Atlanta's ozone pollution but would also be more costly. 
Under the Federal Phase 2 RFG program, which started January 1 of this 
year, gasoline sold in RFG areas will reduce NO<INF>X</INF> emissions 
by up to 8.8 percent at a cost of about 4 to 6 cents per gallon, as 
estimated by the U.S. Environmental Protection Agency. Compared with 
the Georgia low sulfur gasoline that is slated for arrival in 2003, the 
implementation of Phase 2 RFG in the Atlanta area would result in a 
fuel at least 27 percent less effective in reducing NO<INF>X</INF> at 
about twice the incremental cost. Federal Phase 2 RFG is not the right 
fuel solution for Atlanta but might be forced on us by prescriptive 
Clean Air Act requirements and EPA's limited discretion. This is just 
one example of the way that EPA and the States need more flexibility 
and discretion to utilize new developments in science and technology 
and to take advantage of what we are learning about the successes of 
voluntary control measures. These could be solutions that were not 
available or recognized in 1990. They could also be multi-state, 
regional solutions that require more time to implement than single-
state plans.

    Question 3. When the Clean Air program began in the 1970's, no one 
had much experience. When the Act was amended in 1990, the States had 
little experience compared to the Federal Government. With the 
experience and expertise of everyone today, what parts of the Federal 
program can effectively be delegated to the States?
    Response. Georgia believes that as a whole, programs now delegated 
to the States are sufficient.

    Question 4. I believe the trading program for acid rain has worked 
well. We are constantly being told we should expand the free market 
concepts of the Clean Air Act. My question is in which areas of the Act 
would a free market approach work?
    Response. Georgia agrees that a free market trading approach has 
worked well for acid rain pollutants. This approach could probably also 
work well for regional NO<INF>X</INF> reductions impacting urban ozone 
nonattainment areas and for reducing regional haze.
    As a caveat, however, it seems that the free market approach works 
best for large national or regional areas, where an overall reduction 
in pollutants is needed to solve a large air quality problem. Such 
programs become less effective in smaller areas where individual 
sources or groups of sources can have localized impacts. Congress 
should also be mindful that such programs require significant 
additional resources to administer.
                                endnote
    59 Fed. Reg. 7810 (1994).
                                 ______
                                 
Responses by Ron Methier to Additional Questions from Senator Voinovich
    Question 1. What would be the consequences to your State if EPA 
moves forward with designations of ``nonattainment areas'' under the 8-
hour national ambient air quality standard for ozone before the Supreme 
Court renders a decision in the case?
    Response. If the 8-hour national ambient air quality standard is 
upheld, Georgia will have three additional ozone nonattainment areas in 
addition to Atlanta. Simply put, if EPA designates these areas 
nonattainment, and the Supreme Court eventually strikes down the 
standards, Georgia may have unnecessarily wasted time and resources in 
response to these designations. That said, we understand that such 
premature designation is no longer an option, as a result of the recent 
Appropriations bill, H.R. 4635, which effectively bars EPA from 
designating these areas before U.S. Supreme Court action.
    H.R. 4635 has reduced some of the uncertainty for States. 
Nonetheless, the whole situation makes it difficult for Georgia to 
properly plan. The eventual timing of designations should reflect the 
time needed for Georgia, as well as other States, transportation 
planning agencies and the regulated community to meet the new 
nonattainment area requirements with as smooth a transition as 
possible, while still maintaining progress on meeting those standards.
    The timing involved in the eventual designations is very important. 
The earlier the designations, the less time States will have to prepare 
for this new rule. Georgia, like most other States, is proceeding with 
the initial planning activities to prepare for whatever the outcome may 
be. This includes evaluating air monitoring data, improving emission 
inventories of the ozone-forming pollutants, and developing the tools 
and relationships needed to work with local transportation planning 
agencies in these new areas that will be faced with planning for 
conformity. This period of uncertainty has minimized Georgia's 
effectiveness in all of these areas, since we are balancing our 
resources to work on this rule--that may or may not become effective--
with other more certain rules we must implement now.

    Question 2. Is EPA providing sufficient resources currently, as 
well as commitments for future resources, to conduct appropriate 
ambient air monitoring within your State, including monitoring of fine 
particulate matter and determination of the composition of fine 
particulate matter in the air?
    Response. Initial necessary funding is adequate. Future necessary 
funding is uncertain. Congress has ensured so far that funding has been 
sufficient to begin monitoring for the fine particulate matter network. 
Without assurances of continued funding, however, the ability to 
maintain such monitoring is unclear.
    In many cases, such as providing the monitoring equipment, the 
training required to operate that equipment, or decisions on 
implementation, EPA has not been timely. This has resulted in less time 
for States to act, delaying the collection of some data that will be 
required to determine whether areas are meeting the standard and what 
the possible causes of non-compliance may be. For example, new 
speciation monitors have now been delivered and are ready to operate to 
better determine the composition of fine particulate matter. Georgia 
has been unable, however, to obtain the training required to properly 
operate this equipment. EPA, due to insufficient resources, is unable 
to offer enough training courses. This will delay our ability to begin 
gathering this important data.

    Question 3. Is EPA providing adequate flexibility and appropriate 
guidance to State and local air pollution agencies to administer the 
program for operating permits under Title V of the Clean Air Act?
    Response. No. EPA has provided guidance to State and local 
permitting agencies relating to the implementation of Title V, some of 
which was intended to provide flexibility to State and local agencies. 
Much of this guidance, however, was not provided on a timely basis.
    EPA has had to issue dozens of guidance memos and is working on a 
third White Paper to interpret the Part 70 regulations. As a result of 
a fairly tight schedule imposed by Title V for States to submit Title V 
plans, for facilities to submit applications, and to issue all Title V 
permits, much of this guidance has come relatively close to or after 
the statutory deadlines. For example:
    <bullet> EPA issued ``Questions and Answers--Operating Permits 
Program'' only 4 months before the deadline for States to develop 
plans;
    <bullet> EPA issued White Paper 2 dealing with the development of 
permit applications 4 months before companies were required to submit 
completed applications;
    <bullet> EPA is still working on two documents related to the 
content of Title V permits when approximately 50 percent of all Title V 
permits nationwide have already been issued.
    As a result of EPA's delay, permitting agencies have been forced to 
develop and implement their Title V programs without guidance, only to 
later be faced with EPA guidance that is contradictory to developed, 
and implemented, programs.
    A solution to this problem may be to provide more realistic 
deadlines, by extending the statutory requirements for initial permit 
issuance and for full program approval. Such an extension would allow 
EPA additional time to finalize guidance currently under development 
and to promulgate the proposed revisions to Part 70. It would also 
allow State and local permitting agencies to complete the initial Title 
V permit issuance in a reasonable and consistent fashion.

    Question 4. Are EPA's regulations under the Act sufficiently clear, 
consistent and timely to allow your State to properly implement Clean 
Air Act programs for which it is responsible?
    Response. No. EPA is not always timely, as evidenced by so many 
court-ordered deadlines for new actions and rules. These late actions 
adversely affect Georgia, which relies on these national rules in 
developing its State implementation plans to meet air quality 
standards. If Georgia is late with these plans the Act mandates 
sanctions, even though there are no such penalties for late EPA action.
    Many of EPA's rules are overly complex. It takes a battery of State 
engineers, private consultants, and lawyers, to develop, review and 
issue many new industrial air permits. And even then, as can be seen 
with EPA national enforcement actions on power plants, the wood 
products industry, and others, interpretation of the rules can vary. 
This has proven very disruptive to Georgia's air quality planning and 
for the regulated community in Georgia. Transportation conformity 
rules, also, have proven to be unclear, resulting in disruption and 
lawsuits in Atlanta and many other areas.
    There are many aspects of the Title V regulations that are unclear 
and require additional guidance. EPA has issued close to 40 national 
policy guidance memos and is about to issue its third White Paper on 
Title V. As is discussed in the previous answer, many of these guidance 
documents have not been timely.
    An important point to remember here is that EPA, like the States, 
is under-
funded to perform the broad range of responsibilities needed to 
implement the Clean Air Act. This has, no doubt, limited EPA's ability 
to act in a more timely manner with clear, consistent regulations.
                                 ______
                                 
  Responses by Ron Methier to Additional Questions from Senator Baucus
    Question 1. What is the fee (per ton of emissions) which your State 
currently charges for permitting under Title V of the Clean Air Act? 
How much does that generate annually and what is your State's annual 
budget for permit activities, implementation and enforcement matters, 
emissions and ambient monitoring, modeling, analyses, demonstration, 
inventory preparation and emissions tracking, relating to air quality? 
What, if any, additional categories of spending are necessary to 
support air quality programs?
    Response. Georgia currently charges a fee of $28/ton for calendar 
year emissions of permitted Title V major sources. Georgia does not 
have a Title V permit application fee. In State Fiscal Year 2000 (the 
latest available), we collected $7.00 million in Title V fees. The 
total FY2000 budget for all air quality related activities (excluding 
the vehicle emission inspection and maintenance program, which is 
funded by emission inspection fees) was $14.54 million. The air quality 
related activities that are not covered by Title V fees are supported 
by Federal grants, non-Title V permit fees from Acid Rain sources, and 
State funding. Beginning in fiscal year 2001, the non-Title V Acid Rain 
fees will become Title V fees and will only be available to fund Title 
V eligible permitting activities.
    There are a number of federally required programs (such as 
development and implementation of State implementation plans for 
attainment and new source permitting required by Parts C and D of Title 
I) that are not eligible to use Title V permit fees. With the 
conversion of Acid Rain fees to Title V fees and the continued growth 
of non-Title V fundable activities, Georgia will need to identify other 
funding mechanisms if these programs are to be carried out.

    Question 2. Flexibility was mentioned repeatedly during the hearing 
as necessary for efficient conduct of States' programs. The Clean Air 
Act Amendments of 1990 created relatively strict deadlines and 
established numerous requirements largely because insufficient progress 
had been made prior to 1990 in achieving attainment. How can we be 
certain that increasing flexibility will not result in slowing current 
progress? What specific changes in the Act would be necessary to 
enhance flexibility yet avert backsliding?
    Response. Georgia is concerned with achieving the goals of the 
Clean Air Act (Act) as expeditiously as possible. We believe, however, 
that allowing States the flexibility to develop State implementation 
plans (SIPs) using that mix of controls that the State has determined 
are necessary to achieve those goals, versus the imposition of 
federally-mandated controls, properly delegates that responsibility to 
the States, without slowing progress toward those goals.
    Georgia agrees that the deadlines and mandates of the 1990 
amendments to the Act were necessary due to the lack of progress in 
many areas up to that time. Some of these deadlines, however, have 
proven to be unachievable and some of the mandated controls have 
outlived their usefulness. Georgia's experience attempting to attain 
the 1-hour ambient air quality standard for ozone, while dealing with 
the issue of transport, illustrates both of these points.
    Since 1990, we have learned at least two important facts about 
ozone. First, much of the lack of progress toward achieving the 1-hour 
ozone standard stemmed from our limited understanding of how ground 
level ozone is really formed. Second, Federal mandates requiring 
specific control measures--a ``one-size-fits-all'' approach, such as 
reformulated gasoline (RFG) in section 211(k)--make less sense for some 
ozone nonattainment areas, such as Atlanta, because of that area's 
unique situation.
    Of all the criteria air pollutants, ozone is the most complicated 
in its formation and control. The mandates and deadlines in the 1990 
amendments forced EPA and the States to work aggressively on the ozone 
problem to gain a better understanding of possible causes and 
solutions. Through the Ozone Transport Assessment Group (OTAG), 
convened by EPA in 1995, the EPA, 37 eastern States, and stakeholders 
worked under tight deadlines to try to obtain a much better 
understanding of the causes of ozone, the significant effect of 
transported ozone and ozone precursors (oxides of nitrogen or 
NO<INF>X</INF> and volatile organic compounds or VOCs), and to develop 
possible solutions. Unfortunately, even with its aggressive schedule, 
OTAG was not able to finish its work in time to help serious 
nonattainment areas, such as Atlanta, achieve attainment by the 
deadlines in the Act. (See also answer to question 3 below.) Atlanta 
now faces possible ``bump up'' to the ``severe'' classification, which 
mandates the use of RFG.
    Ten years after the 1990 amendments, we also have a better 
understanding of what really needs to be done for Atlanta to attain the 
1-hour ozone standard, i.e., that the control of NO<INF>X</INF> 
emissions is key. RFG will not control NO<INF>X</INF> emissions as well 
as the low sulfur gasoline proposed in Georgia's attainment SIP, which 
is also estimated to be less costly to the consumer than RFG.
    If Atlanta is bumped up to ``severe,'' and we don't believe it 
should be (see answer to question 3 below), Georgia should have the 
flexibility to opt out of RFG and use its low sulfur gasoline so long 
as it will achieve attainment as expeditiously as practicable, but no 
later than the attainment date in the Act. To allow nonattainment areas 
to opt out of the RFG requirement, we recommend that Congress revise 
section 211 (k)(10)(D) of the Act as follows:
    (D) Covered area.-- The 9 ozone nonattainment areas having a 1980 
population in excess of 250,000 and having the highest ozone design 
value during the period 1987 through 1989 shall be ``covered areas'' 
for purposes of this subsection.
    Effective 1 year after the reclassification of any ozone 
nonattainment area as a Severe ozone nonattainment area under section 
7511 (b) of this title, such Severe area shall also be a ``covered 
area'' for purposes of this subsection; provided, however, that no area 
shall be deemed a ``covered area'' pursuant to this paragraph if the 
current or proposed implementation plan for that area includes State or 
local gasoline rules, and if the Administrator has determined that 
gasoline conforming to those State or local rules will achieve the 
necessary reduction in ozone or ozone precursors at least as 
expeditiously as the federally-certified gasoline.
    Another area in which we believe the States should be granted 
flexibility is in the utilization of multi-pollutant control measures, 
e.g., in complying with the 1-hour ozone standard and the particulate 
matter standard. Such flexibility would encourage more multi-pollutant 
planning and should reduce the cost of compliance. We know, for 
example, that Atlanta's ozone and fine particulate matter levels are 
both high. There are many control measures we could consider that help 
control both of these pollutants, yet the planning deadlines and SIP 
submittal dates in the Act as it now stands may force Georgia to 
utilize single-pollutant control measures in order to meet those near-
term deadlines. If, instead, we had some additional time to plan, we 
could utilize multi-pollutant controls that would achieve overall 
cleaner air at a somewhat later date.
    EPA and the States should be provided the flexibility to set 
reasonable, yet aggressive timeliness for attainment of the air quality 
standards for multiple pollutants in the most cost-effective way, so 
long as public health will be protected.

    Question 3. Transport of ozone and other long-range pollutants 
continues to be a serious problem for public health and for State and 
local air quality planners. Do you have any suggestions for ways that 
the Act could better deal with this phenomenon?
    Response. Yes. Based on what we have learned about transport since 
1990 through the OTAG process and the initial work on regional haze, we 
now understand that regional analysis and planning are much more 
critical to meeting air quality goals than we ever thought. The Act 
should recognize this and build in sufficient time and proper 
mechanisms to deal with transport in the most effective way. Again, 
Georgia's experience in trying to attain the 1-hour ozone standard 
while dealing with the issue of transport illustrates the need to 
revise the Act so that nonattainment areas affected by transport are 
not unfairly penalized for circumstances entirely beyond their control.
    Congress, through the 1990 amendments to the Act, provided the 
States and EPA with a variety of measures to address the problems 
caused by the transport of ozone and ozone precursors. A lack of 
knowledge regarding ozone formation, transport, and control, however, 
rendered these statutory tools all but useless for most of the 1990's.
    Specifically, section 110(a)(2)(D) of the Act required States to 
ensure that their SIPs included sufficient controls to prevent local 
emissions from contributing significantly to nonattainment in downwind 
States. In addition, section 126(b) authorized States to petition EPA 
for a finding that any major source or group of stationary sources 
emits or would emit any air pollutant in violation of section 
110(a)(2)(D). Last, pursuant to sections 176A and 184, States could 
petition EPA to convene an interstate ozone transport commission(s), if 
EPA had reason to believe that the transport of ozone or ozone 
precursors from one or more States contributed significantly to a 
violation of a national ambient air quality standard in one or more 
other States. All of these tools, however, required the States to have 
sufficient emissions data and modeling technology to utilize them. 
Additionally, these tools would have had to have been utilized early in 
the process so that the necessary controls on transport were in place 
prior to the States' attainment dates. Because many States did not have 
the resources and expertise to acquire such data and/or perform such 
modeling, they were unable to use the tools provided by Congress.
    Georgia, like most eastern States, chose instead to deal with the 
ozone transport problem by participating in OTAG. However, OTAG did not 
conclude its work until June 1997, and while OTAG was able to agree 
that NO<INF>X</INF> reductions were the key to transport, the group was 
not able to propose specific additional controls. As a 
result, the final NO<INF>X</INF> SIP Call was not issued by EPA until 
October 1998, and its reductions will not take effect until May 2004. 
For Atlanta, Georgia and other ``serious'' nonattainment areas, these 
control measures are too late, because their statutory attainment date 
of November 15, 1999, has already passed. Because Atlanta has missed 
its attainment date, it is faced with possible bump up to ``severe'' 
pursuant to section 181 (b)(2) of the Act, even though its air quality 
has actually improved.
    To resolve the inequities in the Act related to transport, EPA 
adopted a policy in March 1999 to extend the attainment dates of ozone 
nonattainment areas, like Atlanta, significantly affected by transport. 
See Extension of Attainment Dates for Downwind Transport Areas, 64 Fed. 
Reg. 14,441 (Mar. 25, 1999). We recommend that Congress either extend 
the attainment dates in the Act where the failure to attain is a result 
of transport, or make it clear that EPA has the authority to extend in 
those circumstances. EPA's Extension Policy can be adopted into the Act 
by adding the following paragraph to section 181 (a):
    (6) Upon petition of a State, the Administrator may grant an 
extension of the attainment date specified in table 1 of paragraph (1) 
of this subsection for nonattainment areas affected by transport from 
either an upwind area in the same State with a later attainment date or 
an upwind area in another State that significantly contributes to 
nonattainment; any such extension shall provide for attainment of the 
national ambient air quality standard for ozone as expeditiously as 
practicable.

    Question 4. You expressed concern about EPA's ``bump-up'' policy 
and its impact on the Georgia economy. Congress created those 
nonattainment designation categories and their requirements to 
encourage States to act expeditiously to control pollution. If the air 
that Georgians are breathing falls into the category that Congress 
designated, why shouldn't ``bump-up'' occur?
    Response. The Atlanta nonattainment area should not be bumped up to 
``severe,'' because bump up will not result in attainment of the 1-hour 
ozone standard any sooner, but will actually hinder attainment. Thus, 
the only effects of bump up will be punitive.
    In 1990, the Atlanta area was re-designated as nonattainment for 
the 1-hour ozone standard and its air quality classified as 
``serious.'' Since then, as a result of strong local control measures, 
Atlanta's air has been cleaned up to the ``moderate'' level, i.e., the 
most recent design value for the Atlanta area is 0.157 ppm, which if 
Atlanta was classified today pursuant to section 179 of the Act, 
Atlanta's air quality would be classified as ``moderate.'' This 
improvement in air quality was achieved in spite of the significant 
contribution to nonattainment of ozone and ozone precursors transported 
into Atlanta from other States. (See footnote 2.)
    Not only would bumping up to a ``severe'' classification not 
reflect the air quality in Atlanta, it would also not result in any new 
ozone control measures that will achieve attainment sooner. In fact, 
the mandated RFG requirement for ``severe'' areas in section 182 of the 
Act will impede attainment, because RFG does not address NO<INF>X</INF> 
as well as Georgia's low sulfur gasoline. Atlanta's current attainment 
SIP, using Georgia's low sulfur gasoline and factoring in the new 
controls provided by the NO<INF>X</INF> SIP Call, demonstrates 
attainment of the 1-hour ozone standard in 2003; however, that date 
will probably have to be revised to 2004 based on the extension for 
compliance with the NO<INF>X</INF> SIP Call to 2004. Even so, Atlanta's 
projected attainment date of 2004 is sooner than the attainment 
deadline in the Act for severe areas of November 15, 2005.
    Bumping up Atlanta to ``severe'' and requiring Georgia to adopt the 
additional control measures mandated for ``severe'' areas, when Georgia 
already has a plan for attainment, will unduly penalize the Atlanta 
nonattainment area for transported pollution beyond Georgia's control. 
More importantly, the time and expense to adopt such measures will be 
for naught, because such measures will become superfluous once the 
NO<INF>X</INF> SIP Call is implemented.
                                endnotes
    1. EPA's document entitled ``Air Quality Modeling Technical Support 
Document for the NO<INF>X</INF> SIP Call,'' dated September 23, 1998, 
shows that, on average, over 20 percent of exceedances of the 1-hour 
ozone standard in the Atlanta, Georgia nonattainment area are caused by 
emissions from sources in other States.
    2. The NO<INF>X</INF> SIP Call was challenged and substantially 
upheld in Michigan v. EPA, D.C. Cir., No. 98-1497. Pursuant to an Order 
of this Court entered on August 30, 2000, the deadline for 
implementation of the controls required by the NO<INF>X</INF> SIP Call 
was extended from May 1, 2003, to May 21, 2004.
    3. Although EPA has not yet been sued over its failure to ``bump 
up'' Atlanta, EPA has received a notice of intent to sue from Georgians 
for Transportation Alternatives, the Georgia Coalition for the People's 
Agenda, Southern Organizing Committee for Economic and Social Justice, 
and the Sierra Club.
                               __________
        Statement of Richard P. Homrighausen, Mayor, Dover, Ohio
    Chairman Inhofe, Senator Graham, members of the subcommittee, thank 
you for this opportunity to testify before you today on the important 
subject of reauthorization of the Clean Air Act. As a mayor from the 
heart of the industrial Midwest, I know both the value that citizens 
have received from the passage of the Clean Air Act, and its 
amendments, as well as the hardships imposed from inflexible, 
overzealous and overreaching administration.
    Dover, Ohio has a population of about 13,000--with more than 900 
commercial and industrial entities calling Dover home. As you would 
expect, our goal is to provide reliable, affordable power to our 
consumers--including helping our local businesses remain viable and 
attracting new development. One of the primary attractions that Dover 
holds is our status as a municipal electric community. The city of 
Dover also owns and operates a 14-megawatt coal-fired power plant 
(which is co-fired with natural gas), a 16-megawatt gas turbine, a 2.5-
megawatt diesel generator and we recently installed six 1.8-megawatt 
diesel generators in a joint effort with AMP-Ohio and other municipal 
electric communities. Over the last 9 years as mayor, and as a prior 
member of city council, I have had considerable experience (and 
frustration) in working with the EPA on the regulatory treatment of our 
small electric utility.
    In addition to our local generation, we purchase power through and 
are a member of American Municipal Power-Ohio (AMP-Ohio), the nonprofit 
wholesale power supplier and services provider for 78 municipal 
electric systems in Ohio, three in Pennsylvania and two in West 
Virginia. AMP-Ohio's largest generating resource is the Gorsuch 
Station, a 213-megawatt coal-fired facility located in Marietta, Ohio.
    As a small-town mayor, local municipal utility operator of a small 
coal-fired power plant, participant in AMP-Ohio and president of the 
Ohio Municipal Electric Association (OMEA) Board of Directors, I want 
to share with you my observations on the Clean Air Act--its successes 
and failures--as well as my views on how to fix the problems that 
communities like mine are experiencing.
    I shared many of these thoughts in testimony before your 
subcommittee on April 29, 1997, when I testified about concerns 
regarding EPA's then-proposed ozone and particulate matter standards.
                     overview of the clean air act
    As the members of this subcommittee are aware, the Clean Air Act 
was passed in 1970 with the goal of achieving and maintaining healthy 
air quality in the United States. The Act established a process for the 
U.S. Environmental Protection Agency (EPA) to develop ambient standards 
for various ``criteria'' pollutants, with the standards set to protect 
human health and welfare. Once these standards were developed, an 
evaluation process was employed by EPA and the States to determine 
which areas where not in compliance. The States were to develop 
enforceable State Implementation Plans (SIPs) for achieving and 
maintaining these National Ambient Air Quality Standards (NAAQS), 
including the establishment of emissions limits for those existing 
major and minor air pollution sources thought to be contributing to a 
non-attainment problem. EPA then set emissions limits--or New Source 
Performance Standards (NSPS)--for new major air pollution sources (and 
major rebuilds).
    A key feature of the Clean Air Act deserves to be spotlighted--
Congress did not direct EPA to regulate existing sources (e.g., pre-
1970). Rather, EPA set the ambient air standards and left to the States 
the responsibility for meeting those standards. This division of 
responsibility between EPA and the States was carefully crafted (and 
maintained through subsequent amendments to the Act), and has been 
repeatedly threatened by recent EPA actions.
    The 1977 amendments to the Clean Air Act created an advanced set of 
regulation for new major sources of pollution and established a three-
part test for new sources--first, it cannot cause an exceedance of the 
ambient air standards; second, it must meet the applicable Prevention 
of Significant Deterioration (PSD) standard; and, third, it must 
utilize the Best Available Control Technology (BACT).
    As you know, among other provisions, the 1990 Clean Air Act 
Amendments created the innovative ``cap and trade'' acid rain program.
                             the successes
    Under the Clean Air Act, significant improvement has been made in 
air quality. The benefits to public health, agriculture, building and 
``enjoyment of life'' are considerable. As a local official, I must 
emphasize that these accomplishments were realized largely through the 
efforts of State and local governments through innovative development 
and implementation of the SIP program. These improvements must 
continue. There are still areas of non-attainment in our country. 
Furthermore, we need to provide for continued economic expansion 
without degrading our air quality and associated public health and 
welfare. However, these further improvements must continue to be driven 
at the State and local level--not dictated by a central bureaucracy--
and must feature a balanced cost/benefit approach.
    The second crowning success of the Clean Air Act is the innovative 
sulfur dioxide (SO<INF>2</INF>) trading program. This ``market 
approach'' has been highly successful overall, with the cost of 
compliance being far less than what would have resulted from the 
traditional ``command and control'' approach. The successful SO<INF>2</INF> 
approach to emission reductions should be extended to other pollutants.
                              the failures
    Regrettably, my list of Clean Air Act failures is much longer than 
my list of successes. Following is a list of key areas in which I 
believe Congress and the EPA must seek improvement:
1. Minimizing Impacts on Small Business and Local Government
    Under the Unfunded Mandates Act, the Small Business Regulatory 
Enforcement Fairness Act (SBREFA) and similar provisions, EPA and other 
Federal agencies are to consider and respond to the specific and 
differing needs of small business and local government. Regrettably, 
all too often the needs of these interests are ignored, with EPA 
imposing a ``cookie cutter'' approach where the costs of compliance are 
as high for a small facility or operator as they are for facilities 
many times larger. EPA's selection of particulate matter 
(PM<INF>2.5</INF>) and 8-hour ozone standards are prime examples of 
actions taken without regard to the impacts on small business and local 
government.
    Moreover, the laws intended to provide special recognition for the 
unique needs of small business and local government often have little 
impact, because EPA circumvents their responsibility under these 
provisions by delegating final action to the States--who do not operate 
under the same provisions and procedural requirements.
2. Fostering Participation and Market-based Solutions
    The Title IV acid rain program exempts units under 25 MW. The Act 
encourages their participation in the market-based SO<INF>2</INF> 
reductions by allowing these units to ``opt in'' to the program--with 
the assumption that the units would be shut down and the operator could 
use the ``allowances'' to secure an alternative power supply. 
Regrettably, despite the diligent efforts of AMP-Ohio, OMEA and others, 
EPA has not constructed the ``opt in'' program in a workable manner. 
They have failed to foster participation in the market-based program by 
small generators and have consequently penalized us and failed to 
pursue a cost-effective means of bringing numerous small emitters under 
the Act's acid rain program.
3. Exceeding Agency Authority
    In adopting and amending the Clean Air Act, Congress did not give 
EPA the authority to set emissions limits for ``grandfathered'' plants. 
Yet EPA has taken numerous approaches to target these plants and 
attempt to force their retirement. It is worth noting that EPA has 
frequently overstepped its congressionally-granted authority, earning 
the dubious distinction of losing the majority of appeals of its rules 
to the D.C. Circuit.
    However, even if eventually overturned by the Court, EPA's actions 
have a serious chilling effect on our industry and economy. For 
instance, as a result of EPA's unilateral reinterpretation of the NSPS 
and NSR rules, utility routine maintenance and plant improvements have 
virtually come to a halt, thereby threatening the reliability of the 
Nation's electric system.
    EPA also appears to be attempting to exceed its authority through 
back-door imposition of carbon dioxide (CO<INF>2</INF>) limits--even 
though EPA lacks authority to regulate CO<INF>2</INF> and Congress has 
expressly taken action to preclude back-door implementation of the 
Kyoto Treaty. Under a 1996 proposed rule to revise the NSR program, EPA 
is attempting to get coal-burning utilities to ``voluntarily'' agree to 
a suite of emissions reductions--including CO<INF>2</INF>--to obtain 
relief from what undoubtedly will be a stringent new NSR rule.
4. Usurping State Authority
    The Act creates a careful partnership between EPA and the States. 
In general, EPA sets the broad standard, and the States have the 
flexibility to implement various means of achieving that standard. 
However, EPA has increasingly undermined the authority of the States by 
seeking to impose plant-specific limits on ``grandfathered'' plants, 
overturning State BACT determinations, and indiscriminate use of its 
veto power over State Title V permitting decisions.
5. Departing From ``Technological Feasibility'' and ``Cost 
        Effectiveness''
    Since its inception, Congress expected that technological 
feasibility and cost effectiveness would be taken into account in 
establishing NSPS and the determination of BACT. Historically, EPA and 
the States have generally balanced pollution control technology and 
cost, and the required BACT removal efficiency standards have improved 
impressively. However, in 1998, EPA issued revised nitrogen oxide 
(NO<INF>X</INF>) standards for utility and industrial boilers, basing 
the standard on a single, very expensive control system regardless of 
boiler or fuel type. In addition, several southeastern States have 
recently had their BACT determinations overturned by EPA.
6. Failure to Employ a Multimedia Approach
    As the recent experience with methyl butyl tertiary ether (MTBE) 
standards demonstrates, EPA's failure to take a ``holistic'' approach 
to pollution prevention and regulation leads to deployment of 
technologies to reduce one form of pollutant that merely causes or 
contributes to another source problem. By taking a multimedia (e.g., 
air, water, waste) approach, the agency will maximize the environmental 
benefits of its actions and facility managers will avoid conflicting 
requirements and have the flexibility needed to meet permit limitations 
in a manner best suited to a given facility.
7. Disregard for the Energy Needs of The Country
    I understand that EPA's mission is not to provide for the energy 
sufficiency of the country. However, recent regulatory and enforcement 
actions by the agency suggest an agenda to prevent future development 
of coal-fired generation and reduction or elimination of existing coal-
fired generation. The economy is growing at a rapid clip, and the past 
few summers have demonstrated the strains that occur from inadequate 
supply. The majority of new facilities that are being built are gas-
fired and built to serve ``peak'' demand. The lack of base-load plants 
and the over-dependence on a single fuel source should be of concern to 
all of us.
                            recommendations
    Mr. Chairman, members of the subcommittee, I have shared with you 
numerous concerns. I want to also share with you my views on how to 
help fix these deficiencies. In some cases, statutory revisions are 
necessary; in other cases, I believe that the EPA needs simply to be 
told it has ``crossed the line''.
    I offer the following suggestions:
    <bullet> Revise SBREFA by creating an independent advisory 
commission to develop binding regulations for SBREFA implementation and 
to prevent EPA efforts to circumvent SBREFA by delegating actions to 
the States. In addition, the ``direct/indirect'' standards for review 
should be revised so that the EPA cannot unfairly determine that the 
impacted community is too small to warrant SBREFA treatment.
    <bullet> Expand the use of market-based mechanisms to achieve 
pollution reduction objectives and adopt language to fix the acid rain 
``opt in'' program.
    <bullet> Continue rigorous oversight--such as this hearing--to 
prevent EPA from over-reaching its statutory authority and take action 
(such as the Byrd-Hagel resolution and Knollenberg funding limitation) 
when necessary to curb agency efforts to create new regulations and 
programs without congressional authorization.
    <bullet> Reaffirm the role of the States in implementing key 
elements of the Act.
    <bullet> Explicitly amend the Act to require the use of 
scientifically-supported standards and technologies and impose cost-
effectiveness tests on agency actions.
    <bullet> Adopt multimedia pollution management in order to 
encourage innovation, flexibility and cost-effectiveness.
    <bullet> Ensure that the country maintains a diverse fuel supply.
                               conclusion
    The Clean Air Act has worked well in many of the areas envisioned 
by Congress, including developing a mechanism for setting and attaining 
ambient air standards. When standards are based on scientific consensus 
and designed to address human health and welfare, the system works. 
Most criticisms of the Clean Air Act are actually criticisms of EPA's 
efforts to use the Act to achieve objectives and impose restrictions 
beyond congressional intent.
                               __________
Statement of Marcia Willhite, Assistant Chief of Environmental Health, 
               Lincoln-Lancaster County Health Department
    Mr. Chairman and members of the subcommittee, I am Marcia Willhite, 
Assistant Chief of Environmental Health at the Lincoln-Lancaster County 
Health Department in Lincoln, Nebraska. Thank you for this opportunity 
to provide some comments on the Clean Air Act as you begin considering 
its reauthorization.
    Our local health department's air quality program administers the 
Clean Air Act within Lancaster County, Nebraska. Lancaster County is 
home to about 240,000 people and includes air pollution sources ranging 
from small dry cleaners to Goodyear Tire and Rubber to grain elevators 
to a coal-fired power plant. We are currently in attainment of all 
National Ambient Air Quality Standards and anticipate remaining so. Our 
scope of activities includes all levels of air permitting, compliance 
inspections, enforcement, air toxics, collection of emission 
inventories, air quality planning and technical assistance. Our guiding 
principle is pollution prevention. We have a separately delegated Title 
V program supported by fees which we collect. We are an implementing 
agency for the Risk Management Planning program (112r). In summary, our 
local health department administrates a small air quality program which 
is experienced in administering a large range of air quality program 
activities.
    The main message I bring to you today from Lincoln, Nebraska is 
that the Clean Air Act is working. It is holding the line on air 
emissions increases in our community. Title V permits, which contain 
all applicable air quality requirements in one document for easy 
reference, are causing regulated entities to pay closer attention to 
those requirements. Air toxics standards are being implemented and 
complied with. We have received virtually no complaints from the 120 
regulated businesses in our community about the process or substance of 
Clean Air Act requirements. Light- and heavy-duty vehicle and low-
sulfur fuel standards are coming on-line in the next few years which 
will reduce the air quality impact of increasing vehicle miles traveled 
which, in Lancaster County, is outpacing population growth by more than 
3 to 1.
    The secondary message I offer to you today is that there are some 
concepts we, as a local air quality program in a growing community, 
encourage Congress to consider as the Clean Air Act is reauthorized.
    Prevention-based strategies.--The Clean Air Act is a tool for 
public health risk reduction: the greater the air pollution reduction, 
the greater the risk reduction. Interestingly, the greatest air 
pollution reductions achieved in Lancaster County in the past 5 or 6 
years were not mandated by the Clean Air Act. Between 1994 and 2000, a 
53 percent reduction in hazardous air pollutants and a 43 percent 
reduction in volatile organic compounds occurred because of voluntary 
choices made by businesses to use less toxic materials and less-
polluting processes. The coal-fired power plant in Lancaster County 
even reduced sulfur dioxide emissions by 2000 tons per year voluntarily 
by switching to ultra-low sulfur coal. These choices to prevent 
pollution rather than control it need to be encouraged and rewarded. 
Somehow, the lesson learned in Lancaster County, that significant 
environmental benefits occur through voluntary pollution prevention, 
needs to be applied to the Clean Air Act of the 21st century. 
Specifically, incentives for pollution prevention need to be 
incorporated for those regulated businesses willing to take that option 
or to go beyond the minimum air quality requirements.
    Another area where prevention-based strategies are needed is in the 
area of maintaining clean air while cities grow. Lincoln is currently 
an attainment area. However, in the next 20-30 years, our population is 
likely to increase substantially. The land use choices and 
transportation plans made today may affect our ability to maintain non-
attainment status in the future. The tools and funding to support 
assessment, innovation and ``best management practices'' to reduce air 
quality impacts of transportation should be available to communities 
like Lincoln that are trying to prevent unhealthy air as well as to 
areas that are solving air quality problems.
    Multi-Pollutant Strategies.--The next version of the Clean Air Act 
needs to achieve risk reduction more efficiently and comprehensively by 
incorporating multi-pollutant control strategies. Certain source 
sectors, mainly combustion sources such as utilities and internal 
combustion engines (mobile and stationary), are significant sources of 
criteria and hazardous air pollutants and greenhouse gases. Harmonizing 
control options to simultaneously reduce all pollutants of concern for 
a particular sector is easier to implement for both industry and State/
local regulatory agencies and is more cost-effective.
    Examples of opportunities for better harmonization are plentiful. 
Coal-fired power plants have gone through separate requirements and 
permitting for acid rain and NO<INF>X</INF> reduction and are likely to 
face regulation for air toxics reduction. Similarly, the recent light- 
and heavy-duty vehicle and fuel standards are focused on ozone 
precursors. Had they been optimized to include air toxics reduction as 
well, a separate rulemaking process under 202 (1) would not have been 
necessary. Reformulated gasoline (RFG), although intended for ozone 
reduction, has been effective in reducing levels of air toxics such as 
benzene, which national assessments indicate is a concern in every 
county in the United States. Yet, RFG may only be sold in ozone non-
attainment areas. The next version of the Clean Air Act should be 
structured to enable multi-pollutant strategies for air pollution 
management.
    Authorize State and Local Air Toxics Risk Reduction.-- The current 
Clean Air Act calls for a substantial reduction in cancer risk from air 
toxics in urban areas. To implement this, the U.S. Environmental 
Protection Agency (EPA) has drafted a strategy centered on identifying 
the pollutants and sources which contribute most significantly to 
public health risk based on national, regional or local-level 
assessments. In this draft strategy, EPA would address sources and 
risks ranking highly on a national-level assessment and States or 
localities would address risks and sources of high priority based on 
regional or local assessment. This is an efficient, common sense 
approach. Although EPA is authorized to reduce risk through national 
standards, the mandate and authority under the Clean Air Act for States 
or localities to require actions which reduce air toxics emissions 
identified as posing unacceptable health risk is unclear. Thus, in the 
reauthorized Clean Air Act, a clear mandate and authority for States 
and localities to cause risk-based reductions would assist our local 
community when national standards do not address our most pressing air 
toxics risks.
    While other aspects of the Clean Air Act could be addressed, we 
have purposely limited our community's comments to these three key 
issues that we, as a local air quality program in Lincoln-Lancaster 
County, Nebraska believe are of utmost importance. Please keep 
prevention-based strategies, multi-pollutant strategies, and 
authorizing State and local air toxics risk reduction in mind as you 
craft the reauthorization of the Clean Air Act.
    Again, thank you for this opportunity to provide comments to this 
subcommittee. We hope you will consider these concepts worthy of 
further study. I will be happy to answer any questions you may have.
                               __________
Statement of Zach D. Taylor, Executive Director, Association of Central 
                      Oklahoma Governments (ACOG)
    I am Zach Taylor, Executive Director of the Association of Central 
Oklahoma Governments in Oklahoma City, which also serves as the 
Metropolitan Planning Organization under TEA-21. (Show clear jar with 
lid.) I brought you a breath of fresh air from Oklahoma in case you 
need it during this dialog.
    The Central Oklahoma region has been in compliance with national 
ambient air quality standards for ozone since 1978. In addition, we 
have been in compliance with the standards for carbon monoxide since 
1990. This accomplishment has been due to the continuing proactive 
efforts of our civic leaders, local businesses, government officials 
and residents. However, we are fearful that changes to the NAAQS for 
ozone and particulate matter in September 1997 will thwart the progress 
made by grass roots efforts in Central Oklahoma.
    The last 3 years have brought exceptionally difficult weather to 
Central Oklahoma, in which the best efforts of our community haven't 
always been able to combat the power of Mother Nature. Hot, dry 
weather, coupled with a persistent high-pressure system permeated the 
region in the summers of 1998-2000. Though our region appears to remain 
in compliance, it is likely or inevitable that with another hot summer, 
we will violate the current National Ambient Air Quality Standards for 
ozone. Being labeled a ``non-attainment'' region, even a marginal one 
based on the EPA's definitions, would be an unfortunate label for the 
region to be tasked with, as it would wipe away years of proactive and 
concerted work from the citizenry to address this issue.
    In addition, such a label would have major financial impact on our 
citizens; we estimate a cost of at least $43 million just for our 
motoring public, not to mention ramifications for our businesses.
    As Congress addresses reauthorization of the Clean Air Act, we 
appreciate this opportunity to express some concerns from a heartland 
regional perspective:
    (1) Consistent with the position of the Oklahoma Department of 
Environmental Quality, leaders in Central Oklahoma also support an 8-
hour measuring standard for ground-level ozone. We believe that this 
mode of measuring allows for a more realistic method of gathering air 
quality data. However, we feel that the measure currently in place is 
too strict and limiting, and would favor a measure that is more 
scientifically sound. We urge that the EPA's Science Advisory Board 
revisit its studies regarding air quality standards, and that EPA take 
smaller steps in implementing the scientists' recommendations. (More 
specifically, the Board's recommendation for an ozone standard was a 
range of .07-.09 ppm. If more stringent requirements were shown to be 
scientifically justifiable, we would favor a more gradual 
implementation schedule, beginning with .09 ppm).
    (2) Congress should allow States and local governments to use 
flexibility in determining the most effective control measures for 
their particular regions. Geography, climate, transport issues, in 
addition to the cultural values and habits of the people of a given 
area, are all factors that affect the success of given actions. Along 
those lines, we also encourage EPA to invest in additional research 
related to the effectiveness of various measures in different regions 
of the country.
    (3) We strongly encourage national emphasis to be put on research 
and technological solutions rather than heavy-handed enforcement. We 
encourage national research for nationwide remedies, including new 
technologies for mitigating industrial pollution as well as mobile 
source pollution, such as the rapid acceleration of the use of 
alternative fuel vehicles (hybrid/dual powered, electric, compressed 
natural gas, propane and so forth).
    (4) It is clear that current motor vehicle emission standards, 
including the new laws regarding light and heavy duty trucks and sport 
utility vehicles, will be necessary to continue to make progress on the 
clean air front. The positive effect of these new regulations are 
likely to have a dramatic effect in Oklahoma since a relatively large 
portion of our population is prone to driving trucks and SUVs. One 
thought would be to direct EPA to refrain from declaring new non-
attainment areas until such time as the new mobile source emissions 
regulations have had time to make an impact.
    (5) Then, there is the conformity ``hammer''. Should a region be 
declared non-
attainment, the State and local governments in that area should be 
given ample time (at least 3 years) to adjust their transportation 
plans before Federal transportation dollars are withheld in the name of 
conformity. In the current Act, federally-funded transportation 
projects must be found to conform to State air quality plans before 
they are adopted, accepted, approved or funded. The dilemma, however, 
is that it takes several months to develop an emissions budget 
(requires an inventory of all emission sources and the use of a 
photochemical dispersion model to identify reductions through 
transportation control measures) which must be done before a draft 
State Implementation Plan is developed. Once a draft plan is on the 
table, it takes at least one legislative session to get the plan and 
pertinent laws approved by the State legislature, and still additional 
time to measure Transportation Improvement Programs (TIPs) against the 
State plan once it's approved. In Oklahoma, this process would take no 
fewer than 2 years and probably three. It is ludicrous for the Federal 
Government to hold up progress in a regional community, as long as good 
faith efforts in response to air quality have been made and are being 
made to work toward adoption and implementation of a plan.
    (6) Because anomalous weather patterns have aggravated the region 
and the State for the past 3 years, we are particularly sensitive to 
how weather or other situations (such as wild fires in Mexico a couple 
of summers ago) can affect adversely local efforts to maintain clean 
air. Therefore, we ask that EPA expand its current guidelines and 
parameters regarding exceptional events such as those attributed to 
wildfires, industrial fires and accidents and other anthropogenic 
phenomenon that affect air quality conditions. Proposed guidance 
offered a few years ago by the EPA addressed this situation, but did 
not make it through the rulemaking process.
    Thank you for listening. Thank you for your efforts to maintain the 
country's clean air status, but please keep in mind the economic and 
financial ramifications of your decisions. As long as there is true 
scientific basis for the decisions made in this regard, we will all be 
the winners. The local elected officials of ACOG recognize that we 
can't each live in a bubble, and we can't pass out jars of clean air to 
each of our citizens. Given that reality, we're anxious for your wisdom 
in finding solutions that will help us all breathe a little easier. 
Thank you.
                               __________
    National Association of Local Government Environmental 
                                             Professionals,
                                  Washington, DC, October 11, 2000.
Hon. Max Baucus,
Committee on Environment and Public Works,
U.S. Senate,
Washignton, DC.
    Dear Senator Baucus: In response to your invitation to submit 
written testimony regarding local government officials' perspectives on 
the Clean Air Act, I am writing on behalf of the National Association 
of Local Government Environmental Professionals (NALGEP) to submit 
testimony.
    In July 2000, NALGEP joined with mayors and county officials from 
across America to issue a new report titled, ``Profiles of Local Clean 
Air Innovation: Empowering Communities to Meet the Air Quality 
Challenges of the 21st Century.'' This NALGEP report provides the view 
of local environmental, economic development, transportation, and 
planning officials on how the Clean Air Act can help promote improved 
air quality through locally-driven innovation. The report finds that 
the Clean Air Act has already promoted substantial progress in cleaning 
the air, but that Federal environmental policy must provide more 
incentives, resources and flexibility for localities to improve air 
quality. The report emphasizes how air quality can be improved through 
new Federal/local/State partnerships, and through local innovation in 
smart growth, clean energy, transportation choice and pollution 
prevention.
    To develop the report, NALGEP convened a ``Clean Air Task Force'' 
of 32 of the nation's leading local environmental and air quality 
managers. In coordination with the Clean Air Task Force, NALGEP 
interviewed more than 85 local officials to determine their views on 
how air quality can be improved for the long term. From these 
interviews, NALGEP developed 20 findings, 10 recommendations for 
action, and 20 profiles that illustrate local clean air innovation.
    I am pleased to submit a copy of the report's executive summary, 
which provides the views of local government environmental officials 
across America on the important topic of cleaning the air in 
partnership with the Federal Government. Thank you for your invitation 
and for your consideration.
            Sincerely,
                                          Kenneth A. Brown,
                                         NALGEP Executive Director.
[GRAPHIC] [TIFF OMITTED] T1527.065

[GRAPHIC] [TIFF OMITTED] T1527.066

[GRAPHIC] [TIFF OMITTED] T1527.067

[GRAPHIC] [TIFF OMITTED] T1527.068

[GRAPHIC] [TIFF OMITTED] T1527.069

[GRAPHIC] [TIFF OMITTED] T1527.070

[GRAPHIC] [TIFF OMITTED] T1527.071

[GRAPHIC] [TIFF OMITTED] T1527.072

[GRAPHIC] [TIFF OMITTED] T1527.073

[GRAPHIC] [TIFF OMITTED] T1527.074

[GRAPHIC] [TIFF OMITTED] T1527.075

[GRAPHIC] [TIFF OMITTED] T1527.076

[GRAPHIC] [TIFF OMITTED] T1527.077

[GRAPHIC] [TIFF OMITTED] T1527.078













              CLEAN AIR ACT: STATE REAUTHORIZATION ISSUES

                              ----------                              


                       MONDAY, NOVEMBER 13, 2000


                                       U.S. Senate,
               Committee on Environment and Public Works,  
 Subcommittee on Clean Air, Wetlands, Private Property and 
                                            Nuclear Safety,
                                                  Oklahoma City, OK
    The subcommittee met, pursuant to notice, at 2 p.m., at 
Oklahoma City Community College, 7777 South May Avenue, 
Oklahoma City, OK, Hon. James M. Inhofe (chairman of the 
subcommittee) presiding.
    Present: Senator Inhofe.

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Could I have your attention?
    OK. Here are our four guests. First of all, I'll start our 
meeting today. I've been told we're competing today with an 
energy symposium, transportation symposium and a couple of 
other things, so that we're not probably going to have the same 
size of crowd as we had the last time we had an EPW hearing in 
Tulsa.
    But we will officially call it to order. Today's hearing 
will look at the issue of weather-related events on air quality 
and nonattainment status. We chose Oklahoma City because of the 
nonattainment days in 1998 which were the direct result of the 
fires in Mexico. I'm sure many of you remember those fires and 
the effect it had on the air here in Oklahoma.
    In addition to fires, many other weather-related or natural 
events such as exceptional humidity, volcanic activities, dust 
storms, which are prevalent here in Oklahoma which can cause 
areas to violate the air quality standards.
    In addition to creating the air quality problems, which of 
course, is a problem, these events trigger the air monitors 
causing local areas to violate the air standards, resulting in 
nonattainment days. It's important to realize that these 
violations are caused by naturally occurring events, not man-
made sources. Therefore, States and local governments should 
not be penalized for these violations. I believe we and the EPA 
agree on these points.
    Some of you know that I spent three terms as mayor of 
Tulsa. During that time we went through some nonattainment 
times, and I think it's very difficult for people in Washington 
and hearings in Washington to really, really understand what 
you have to go through and the dangers that you face and the 
disasters locally that can come from getting into nonattainment 
areas for something which really isn't your fault.
    The EPA has a process for States to submit data to the EPA 
in order to request a waiver for particular dates, due to 
natural events such as the Mexican fires. The problem arises 
concerning the process EPA uses to make determinations and to 
grant waivers. For Mexican fires they granted some dates for 
most States, but their decisions contradicted the 
recommendations from the States. I hope today we can get a 
better understanding of how the process works.
    We would have three questions. What information do the 
States use in seeking waivers? Second, what is the process the 
EPA uses to examine that data? Third, the criteria used or the 
process used by the EPA in making the decision.
    Over the last 2 years, I've received conflicting 
information from the EPA officials on these questions, and I 
hope we can get a more definitive answer today. I hope with Mr. 
Seitz here, we will.
    Mexican fires involve the ozone standard, and these 
naturally occurring events such as fires will also play a role 
in the Particulate Matter standard, if the Supreme Court rules 
in EPA's favor; and it will play a role in the Regional Haze 
Rule, which I know will have a big impact on your State of 
Colorado, Representative Mitchell.
    With the increasing number of fires, particularly 
controlled burns on Federal land, the impact on designations 
and nonattainment days will continue to grow. Because of this, 
I believe it makes more sense to provide the governors with the 
clear ability to have such dates disregarded when it is shown 
that noncompliance is caused by these natural events.
    Now, I'm going to be introducing a bill tomorrow. With all 
this uncertainty going on right now, I'm not sure we'll have 
votes, but we're supposed to right now. But if we do have to go 
back, I will be introducing a bill that will require the EPA 
administrator to disregard monitoring data if the data had been 
influenced by exceptional events such as fires, if it is 
requested to do so by the Governor of the State.
    I don't intend to even do anything with this bill this 
year, but I want to get it in to start people talking about it. 
Then when we get Clean Air re-authorization next year, this 
will be a part of that. Now, I don't expect anyone to comment 
on that because you weren't aware of that in advance, but if 
anyone wants to address it, they certainly can.
    [The prepared statement of Senator Inhofe follows:]
     Statement of Hon. James M. Inhofe, U.S. Senator from the State
                              of Oklahoma
    Today's hearing will look at the issue of weather-related events on 
air quality and nonattainment status. We selected Oklahoma City because 
of the nonattainment days in 1998 which were a direct result of the 
fires in Mexico. I'm sure many of you remember those fires and the 
effect it had on the air here in Oklahoma. In addition to fires, many 
other weather-related or natural events such as exceptional humidity, 
volcanic activities, dust storms, etc., can cause areas to violate the 
air quality standards.
    In addition to creating air quality problems, these events trigger 
the air monitors causing local areas to violate the air standards, 
resulting in nonattainment days. It is important to realize that these 
violations are caused by naturally occurring events, not man-made 
sources. Therefore, States and local governments should not be 
penalized for these violations. I believe on this point the EPA agrees 
with me.
    The EPA has a process for States to submit data to the EPA in order 
to request a waiver for particular dates, due to natural events such as 
the Mexican fires. The problem arises concerning the process EPA uses 
to make determinations and to grant waivers. For the Mexican fires they 
granted some dates for most States, but their decisions contradicted 
the recommendations from the States. I hope today we can get a better 
understanding of how the process works.
    <bullet> What information do the States use in seeking waivers?
    <bullet> What is the process the EPA uses to examine the data?
    <bullet> What is the process EPA uses for making the decision?
    Over the last 2 years I have received conflicting information from 
EPA officials on these questions. I hope we can get the definitive 
answer today.
    The dates in question from the Mexican fires involve the ozone 
standard. These naturally occurring events such as fires will also play 
a role in the Particulate Matter standard, if the Supreme Court rules 
in EPA's favor; and it will play a role in the Regional Haze rule, 
which I know will have a big impact on the State of Colorado.
    With the increasing number of fires, particularly controlled burns 
on Federal land, the impact on designations and nonattainment days will 
continue to grow. Because of this, I believe it makes more sense to 
provide the Governors with the clear ability to have such dates 
disregarded when it is shown that noncompliance is caused by these 
natural events.''
    Therefore, I will be introducing a bill tomorrow when I return to 
Washington, D.C., which will require the EPA administrator to disregard 
monitoring data if the data has been influenced by exceptional events 
such as fires, if it is requested by the Governor of the State.
    I do not intend to move the bill this year, but instead I intend 
for it to be wrapped into Clean Air Reauthorization next year. I will 
not put any of the witnesses on the spot by asking them to comment on 
the bill, but if you like you are free to comment on the ideas behind 
the bill.
    Senator Inhofe. Our panel is now seated at this table, 
includes Mr. John Seitz who is director of the Office of Air 
Quality Planning and Standards, and Mr. Seitz has been good 
enough to be--let's see--it was in Ohio, I believe Mr. Seitz.
    Mr. Seitz. Correct.
    Senator Inhofe. We appreciate your moving around for us.
    Colorado State Representative Shawn Mitchell. Mr. Mark 
Coleman, executive director of Oklahoma Department of 
Environmental Quality, and Mr. Jim Thomas, director of the 
Technical Analysis Division of Texas Natural Resources 
Conservation Division.
    Normally we have a little stop/caution bell and lights 
here, but we're not going to use them this time since we do 
have right up to 5 minutes until 4 p.m., to complete this, so 
there is no reason to keep our four witnesses down to within 
the normal 5-minute hearing.
    So with that, we'll go ahead and we'll start with you, Mr. 
Seitz, for your opening statement. Then we'll all respond to a 
questions and answers. All right?
    Mr. Seitz.

   STATEMENT OF JOHN SEITZ, DIRECTOR, OFFICE OF AIR QUALITY 
       PLANNING AND STANDARDS, RESEARCH TRIANGLE PARK, NC

    Mr. Seitz. Thank you, Mr. Chairman. Thank you for the 
opportunity to testify for you today. It is my pleasure to be 
here in Oklahoma City.
    Today I'm going to discuss how EPA's policies try to 
protect the public health by addressing the man-made sources of 
air pollution in the context----
    Senator Inhofe. Could you get a little closer to the 
microphone? I think that will be helpful.
    Mr. Seitz. Today I'm going to discuss how EPA's policies 
try to protect the public health by addressing the man-made 
sources of air pollution in the context of unusual but 
foreseeable meteorological episodes as well as exceptional 
events.
    As in the case with the others testifying here today, our 
primary mission at EPA is to protect public health. Air 
pollution is associated with a variety of serious health and 
environmental problems. For example, breathing particulate 
matter can aggravate pre-existing respiratory ailments, reduce 
lung capacity and even result in premature death. Carbon 
monoxide can aggravate angina. Photochemical smog can impair 
lung function, cause chest pains and cough, worsen respiratory 
disease, and a few will actually sunburn the lungs.
    The Clean Air Act, a law created and amended with strong 
bipartisan support, provides a very successful blueprint for 
our efforts to clean up the Nation's air.
    Before I describe how EPA's air programs account for 
exceptional natural events such as volcanoes, wind storms, and 
fires, I would like to use one historical event to highlight 
the role of meteorological and geographic factors, how they 
play into our exposures.
    In 1948, a fog descended over Donora, PA. An unusual set of 
weather circumstances--a stagnant temperature inversion--
trapped the smog from coal-burning fireplaces and industrial 
plants in the valley. By the time the episode was over with, 20 
people had been killed and 5,000 illnesses had been reported. 
That unusual and horrific combination of human-made pollution 
and weather, ushered in a new era for us in understanding air 
pollution.
    We've made tremendous progress since then. Since 1970, 
we've reduced emissions of sulfur dioxide by 37 percent, lead, 
98 percent, carbon monoxide, 31 percent. In the last 10 years 
ambient levels of particulate matter have been reduced by 18 
percent. Since 1990, EPA has put in place rules that have 
removed 1.5 million tons of toxics from the air.
    The role of weather and other natural factors in air 
pollution remains a fact of life. It has long been known that 
weather plays a role in many kinds of air pollution problems. 
The tragedy in Donora involved an unusual meteorological 
episode, but what made it deadly was the human-caused pollution 
in the air. Our knowledge about these kinds of interactions has 
evolved over the years and so have our policies.
    Widespread regional stagnation conditions have occurred 
repeatedly in the United States, most recently in 1983, 1988, 
1991, 1993, 1995, and 1998. Air quality did exceed the national 
standards during this period of time.
    For 30 years the Nation's program for controlling smog has 
been based on recognitions that stagnation in hot weather 
occurs frequently. Therefore we require in States planning for 
attainment demonstrations to consider these types of events in 
their planning for control strategies.
    Breathing is not a seasonal activity, and the Nation's 
programs to reduce air pollution work to protect citizens year-
round. Emissions of smog-formed chemicals, toxics and 
carcinogens must be controlled so that air pollution levels do 
not endanger public health even on very hot stagnant days.
    States reduce emissions so they can meet the air quality 
standards even during stagnant periods of the summer. Over the 
years, this approach has been very successful. Even California, 
where the air has been known to be very dirty and the weather's 
very hot, for the last 10 years, the exceedance of the 
standards there have gone from 133 to 39.
    At the same time, EPA has developed a series of policies 
and programs to address the fact that weather and other 
uncontrollable natural and exceptional events can influence air 
quality.
    EPA has worked with the States to address these exceptional 
events over the years, and a few examples include Mount St. 
Helens, the clean-up after Hurricane Andrew, and the 1998 
Mexican fire situation. I'd like to take a moment now to focus 
on those exceedances dealing with the Mexican fire situation. 
In 1998, we worked with the States, including Oklahoma, to 
address the catastrophic fires of Mexico and Central America. 
Together we set up a work group comprised of national air 
quality experts and developed technical guidance for 
identifying when and where the fires affected these levels.
    The guidance included sophisticated technical tools such as 
satellite imaging, ground-level visibility measurements, 
airport measurements, and on-the-ground information provided by 
the States.
    Our regional office received requests from nine States to 
exclude certain days of ozone data from compliance calculations 
due to these fires. We conducted an extensive technical review 
of these requests in consultation with NOAA, NASA and academia, 
as well as the technical staff of EPA.
    As a result of that review, 92 of the 153 days requested 
were excluded, including some in Oklahoma. I'd be happy to talk 
about this in more detail including the event that's been 
raised earlier about May 11, that's shown on the chart in front 
of you.
    In summary, it's been long recognized that weather plays a 
role in forming certain pollutants, like photochemical smog. 
Our goal has always been the same--focus Federal, State, and 
local efforts on those aspects of the problem that we can 
control, the emissions from industrial, automotive, and other 
sources in the area.
    At the same time, EPA has worked with States, and others, 
on the balance and protective approach to address truly 
exceptional events.
    The bottom line is that even on hot summer days, people 
breathe. Children, asthmatics, and elderly, and even healthy 
adults are vulnerable to air pollution. Our policies are 
designed to protect all Americans.
    Mr. Chairman, this concludes my oral remarks, and I'll be 
happy to answer any of your questions.
    Senator Inhofe. Thank you, Mr. Seitz.
    Representative Mitchell.

    STATEMENT OF HON. SHAWN MITCHELL, STATE REPRESENTATIVE, 
                         BROOMFIELD, CO

    Mr. Mitchell. Good afternoon, Senator Inhofe, staff of the 
subcommittee. I understand that one of the things you will be 
considering today, is information from States on innovative 
strategies that we have adopted to protect our air quality from 
impairment due to federally-prescribed burns, and to preserve 
air quality from other activities that take place on public 
lands.
    Colorado has been a leader with respect to this issue, and 
I appreciate you having this hearing and making the 
subcommittee available.
    Let me begin by explaining that I'm an elected State 
representative from Broomfield, CO, and although I would be 
proud to be from Oklahoma, as I was introduced, I can't claim 
that honor. I'm from Broomfield, CO, which is between Denver 
and Boulder. I serve on the Health, Environment, Welfare and 
Institutions Committee, known by the acronym HEWI, and also 
serve on the Judiciary Committee, and the Legislative 
Leadership Committee, which is known as Legislative Council
    I've sponsored State legislation on clean air, and on 
dealing with State and Federal relations in the environmental 
protection arena. I hope today to discuss with you mandates 
that the Federal Government has placed on the State of Colorado 
that do not adequately allow the States to account for and 
regulate the major source of air pollution, wildfire, and 
prescribed fire, occurring on Federal lands. This is an area 
that I suggest Federal and State legislators can be working in 
tandem to rectify.
    Colorado has taken substantial action to protect air 
quality and visibility, as well as public welfare in our State. 
The visibility issue is of particular importance to Colorado 
because of our unique status as a receptor State of air 
pollution generated in other States, combined with our large 
numbers of natural parks and wilderness areas. I will include 
in my testimony ways in which Federal legislation could make 
our job easier at the State level and also promote and protect 
clean air.
    Colorado is blessed with 13, and that's soon to be 14, 
pristine national parks and wilderness areas. We're proud of 
these beautiful areas and proud of the work we do to keep the 
air clean, and the scenic vistas from Rocky Mountain National 
Park to Mesa Verde to Black Canyon of the Gunnison, and the 
soon-to-be Great Sand Dunes National Park. We welcome visitors 
to our State to enjoy these natural wonders.
    We are also proud of our achievements and the improvements 
that we made to air quality in our city. The Denver 
Metropolitan Area, we are happy to report, has attained the 
National Ambient Air Quality Standards for Carbon Monoxide, 1-
hour summertime ozone, and PM<INF>-10</INF>. We have not had a 
violation of those standards for some time, and have 
established programs to continue to improve or maintain our air 
quality.
    I would ask that this recent report from the Colorado Air 
Quality Control Commission on its activities and their public 
results be included in this record.
    Senator Inhofe. OK.
    Mr. Mitchell. Unfortunately, we cannot claim such good news 
with regards to the EPA's new 8-hour summertime ozone standard. 
Unusually high measurements recorded during the summer of 1998 
have potentially put us back into nonattainment. Those high 
readings, some knowledgeable observers believe, were affected 
by wild-land fires during that hot summer, and again similar 
effects took place during the summer of 2000.
    I would like to point out four areas where we have taken 
action to improve and protect our current air quality and 
visibility.
    First, a smoke management memorandum of understanding 
between the State of Colorado and local, State, and Federal 
land management agencies, which lays out the responsibility of 
all the parties to a prescribed burn. The Department of Public 
Health and Environment, is the State's lead environmental 
protection agency, and its role is to review and to authorize 
prescribed burns by public land holders.
    Second, legislation that I sponsored, and that was passed 
by the Colorado General Assembly, to require the Colorado 
Public Health and Environment and the Colorado Air Quality 
Control Commission to establish an inventory of emissions from 
Federal and State lands. This inventory will help Colorado's 
Air Quality Control Commission develop programs to further 
protect visibility in our beautiful wilderness areas.
    Third, actions taken by Governor Bill Owens of Colorado, 
after the disastrous National Park Service prescribed fires in 
New Mexico, to review existing permits and permit applications, 
to ensure that adequate plans are in place to protect the 
environment and public safety, before starting another 
prescribed fire in Colorado.
    Fourth, legislation passed by the Colorado General 
Assembly, which we believe is consistent with section 118 of 
the Clean Air Act, that requires land managers to prepare plans 
for burns, to receive permits from the State Department of 
Health, and to pay fees for the emissions of criteria air 
pollutants, the same as any other source in Colorado.
    The State of Colorado and other Western States are being 
squeezed by the dual pressures of tighter national air quality 
standards, new visibility standards, and also facing increased 
emissions from natural and prescribed fires on Federal lands.
    I would like to ask that this chart that I pulled off the 
Department of Interior's web page be included in the record.
    Senator Inhofe. OK.
    [The referenced chart was not supplied to the committee:]
    Mr. Mitchell. The chart shows that on all Federal lands in 
1996, prescribed burns were conducted on 915,000 acres. By 
1997, that had increased to 1.6 million acres. In 1998, 1.9 
million acres, and in 1999, 2.24 million acres, an increase of 
almost 2\1/2\ times in just 3 years.
    These are huge increases and we believe they are 
contributing to adverse visibility impacts and regional haze in 
Class I, or wilderness, or near wilderness areas across the 
country, and increased pollution in the areas near where the 
burns occur.
    Now to put this issue and our State efforts in context, I 
would like to provide a little more background on the four 
particular efforts that I described.
    As I mentioned, we have a Smoke Management Memorandum of 
Understanding. This agreement was forged between State, local, 
and Federal Government in 1994, and updated in 1999. It 
provides a framework for governments to address the issue of 
prescribed burns. It is a first step toward constructive State, 
Federal, and local relations. It requires the Federal 
Government to minimize visibility impacts from its activities 
and to demonstrate that no State or Federal air quality 
standards will be exceeded as a result of the proposed burn, 
and to maintain assistance for establishing an inventory of 
burn emissions
    This was a good first step, but many of us in the 
legislature believed that more could be done. So in 1999, we 
passed two additional pieces of legislation to protect and 
enhance air quality and visibility in Colorado.
    The first law made the provisions of our State Clean Air 
Act regarding permitting applicable to Federal land managers. 
Activities on Federal lands are the last clearly identifiable 
major source of air pollutants that we had yet to require 
programs for air quality management.
    Colorado's Senate bill 145, legislatively required the 
establishment of a management program for prescribed burning. 
It required Federal agencies to submit a document that 
describes their future emissions of air pollutants. It required 
that the agencies use ``all available practical methods that 
are technologically feasible and economically reasonable in 
order to minimize the impact or reduce the potential for such 
impact on both the attainment and maintenance of '' State and 
Federal air quality and visibility standards.
    To put this law in context, it simply requires Federal 
agencies to provide information to States' clean air regulators 
that will allow them to impose the same standards and 
obligations on government activities that industry has already 
been meeting for 20 years.
    Another issue we faced in this regard is that Western 
States have not previously required Federal agencies to 
inventory the pollution generated by prescribed burns. This 
leaves States like Colorado with inadequate information about 
pollutants being transported into the State from wildfires and 
prescribed burns in adjacent States as well as in Class I areas 
or other Federal or public lands in the State of Colorado.
    This is important because without emissions inventory from 
wild land and prescribed fires, States cannot adequately 
prepare the EPA mandated State Implementation Plans for 
Regional Haze, due, beginning as early as 2003. One remedy I 
would suggest is that Congress direct the Federal land 
management agency to inventory their emissions from both 
prescribed and wildfire
    I would also suggest that Congress require Federal agencies 
to provide those inventories to all downwind States so that we 
can adequately prepare our State implementation plans for 
Regional Haze and take account of contribution of Federal 
lands.
    The second piece of legislation, to manage this issue 
within our State, I sponsored a bill that will require State 
and Federal land managers to prepare inventories of all 
emissions from their lands. This information will give us an 
idea of the amount of haze and ozone precursors that prescribed 
fires are contributing to air pollution in Colorado. The 
legislation requires those agencies to prepare emissions 
inventories, also for stationary sources and mobile sources, as 
well as the prescribed fires that they control.
    However, there is some uncertainty regarding the 
willingness of the Federal executive branch to comply with this 
law. It would help if Congress were to clarify with land 
management agencies the compliance with permitting programs and 
State clean air laws, as required under the Federal Clean Air 
Act.
    The final step that Colorado has taken with respect to 
prescribed fires after the tragedy in New Mexico, was an order 
by Governor Bill Owens to ensure the protection of the people 
in Colorado, as well as our courts. The Governor placed a 
moratorium on the issuance of new permits for prescribed fires. 
He also suspended existing permits until they could be reviewed 
by State officials to ensure that adequate protections were in 
place. The Air Quality and Forestry officials worked together 
to establish criteria under which the permits were reviewed to 
ensure the protection of public safety, as well as the 
environment. The Air Quality Control Commission is reviewing 
the current smoke management MOU and will consider adding new 
criteria to be reviewed before a burn can be started, such as 
checking for the most up-to-date meteorological conditions and 
forecast, before starting a fire.
    I would also like to recommend that money not be 
appropriated to regional organizations such as the Western 
Regional Air Partnership or WRAP, but instead be sent directly 
to the State for their use.
    As you know, Senator Inhofe, the Regional Haze Rule has 
been very controversial and will be very difficult to 
implement. One of the difficulties for a State like Colorado, 
is we don't believe we have sufficient data to make an informed 
decision. We believe that money being sent to the WRAP, could 
better be used by States such as Colorado for monitors along 
borders that could help identify pollutants being transported 
into State land.
    Also, additional monitors could help us better understand 
what air pollution's coming from Federal lands within our 
State.
    Finally, I would like to recommend that Congress examine 
the impacts of Federal use of prescribed fire on air quality 
standards, as well as examine what impediments there are to the 
kind of efforts I have described by States to hold the Federal 
Government liable for the pollution it causes. If our 
experience is similar to that of other States, then it seems 
the law should be clarified so that Federal agencies have a 
directive from Congress that they must comply with the Clean 
Air Act and with the State efforts to protect clean air.
    Thank you again for having this hearing, and thank you for 
allowing me to testify. I would be pleased to answer any 
questions you may have for me.
    Senator Inhofe. Thank you, Representative Mitchell.
    Mr. Coleman.

  STATEMENT OF MARK COLEMAN, DIRECTOR, OKLAHOMA DEPARTMENT OF 
            ENVIRONMENTAL QUALITY, OKLAHOMA CITY, OK

    Mr. Coleman. Thank you, Senator. It is a pleasure to appear 
before you today, and speak to you on the topic of exceptional 
events, and how they are related to air pollution control 
strategies.
    Such events, by definition, are those that are out of the 
ordinary. Their very nature makes them unrealistic to control 
through the environmental planning process. We are no stranger 
to significant changes in weather in our part of the State. 
Very hot days and very cold days are something we can 
ordinarily plan for.
    However, we are also no stranger to truly exceptional 
events, even in that exceptional pattern. Extreme 
meteorological conditions associated with the ``Dust Bowl'' 
days of the late 20's and early 30's, were responsible for the 
loss of millions of tons of topsoil and resultant air 
pollution.
    To the extent that it was dark, even in the middle of the 
day, we can only imagine what the particulate loadings to the 
atmosphere were back then. Exceptional events continue to 
affect us today.
    During the spring of 1998, there were significant forest 
fires in the Yucutan Peninsula. Those fires produced an air 
pollution episode that was truly an extraordinary event, and 
certainly beyond the control of the environmental agency. 
Besides causing high particulate levels, these fires were also 
responsible for high levels of ozone. The haze and particulates 
were so severe, that during the episode, there were areas in 
Texas and Louisiana that issued health advisories.
    We have a video that we would like to show. We will show 
that, while I'm talking, and you will be able to see it.
    On May 11, abnormally-elevated ozone levels were observed 
in the Oklahoma City area. These values were higher than 
expected because they occurred on a day with relatively high 
wind speeds, and mild temperatures, conditions not normally 
conducive to ozone formation.
    Four sites, Senator. I suspect, I have you at a bad 
position in order to be able to see it, but, I believe we've 
shown that to you before.
    These are conditions which are not normally conducive to 
ozone formation, which are the relatively high wind speeds and 
mild temperatures. Four sites in the Oklahoma City area 
experienced 8-hour maximum ozone levels that became the fourth 
highest ozone values for the entire year. It is these fourth 
highest values of course that are the critical ones that are 
used in calculations to determine attainment status. This 
occurred about the time of the height of the fire's impact on 
Texas and the Gulf Coast.
    Later, after reviewing ambient data investigating 
meteorological conditions, observing pollution levels 
throughout our entire part of the country, and making use of 
extensive satellite photography, it became apparent that the 
Mexican fires were the cause of the elevated ozone values on 
May 11. We, of course, wanted to exclude those data from this 
particular extraordinary event in determining our attainment 
status.
    Using the available satellite photography, we felt we had 
very convincing evidence. We feel like we still do, that the 
plume from the Mexican fires impacted central Oklahoma on that 
day and met EPA's exclusion criteria.
    Nevertheless, to date we've been unable to convince EPA of 
our position. If you look, you can see the plume rising up. You 
can actually see it far better from the back, than your angle. 
You can see the plume rising up, and going across central 
Oklahoma. It comes from actually below the Dallas area and then 
goes on up.
    Now, this year, one of our monitoring stations in Tulsa, 
experienced an ozone concentration that caused a violation of 
the 1-hour ozone standard, and this was the only violation of 
the 1-hour ozone standard experienced in Oklahoma, Senator, 
we're proud to say, since the early 90s.
    Nevertheless, the necessary four exceedances occurred at 
that site over the last 3 years. Three exceedances, 
surprisingly, occurred during the Labor Day Weekend of 1998, 
and again during the Labor Day Weekend of 2000.
    On the Labor Day Weekend of 1998, the high temperature in 
Tulsa on September 4, was 107 deg.. That, as you would 
recognize, is an all-time record for that day. In fact, that 
day was the hottest day of the hottest summer, since 
recordkeeping began in 1895. The only comparable period was the 
``Dust Bowl Era,'' which peaked in 1931.
    The reason for this extraordinary heat wave was primarily 
an abnormally long-lasting high pressure ridge, accompanied by 
light surface winds. According to NOAA, northeastern Oklahoma 
can expect less than 10 total days annually for air stagnation. 
In 1998, we set an all-time record for air stagnation with 33 
days. The two Tulsa exceedances on Labor Day Weekend of this 
area occurred on September 1 and 2. The high temperature in 
Tulsa on September 1, was 108 deg., which was another all-time 
record for that particular day.
    The high temperature of September 2, which was 107 deg., 
was the highest on that date since 1939. These hot days 
followed the driest month since 1896. Since these abnormal 
conditions are completely beyond our scope and control, we will 
be requesting the EPA to exclude those data when determining 
the areas of attainment status for the 1-hour standard.
    Declaring an area of nonattainment using data collected 
during an exceptional event doesn't make good sense, much less 
good science.
    We feel that EPA guidance on exceptional events, 
particularly related to ozone, needs revision to allow abnormal 
stagnation events and inversions to be considered the 
exceptional events they in truth are. We feel the draft 
guidance published by EPA in 1994, though never finalized, goes 
a long way to meeting that objective and is much more 
appropriate than the Agency's official 1986 version.
    We further contend that it's the affected State, not EPA, 
that is in the best position to determine whether an event 
should be considered exceptional or not. It's also our 
suggestion that the Clean Air Act be amended to specifically 
exclude air quality monitoring data shown to be influenced by 
truly exceptional events when determining compliance for the 
national ambient air quality standards, and we certainly 
support the legislation you mentioned at the beginning. Thank 
you, Mr. Chairman.
    Senator Inhofe. Thank you, Mr. Coleman.
    Mr. Thomas.

STATEMENT OF JIM THOMAS, DIRECTOR, TECHNICAL ANALYSIS DIVISION, 
  TEXAS NATURAL RESOURCES CONSERVATION COMMISSION, AUSTIN, TX

    Mr. Thomas. Mr. Chairman, thank you for allowing me to be 
here and make a statement. My name is Jim Thomas. I'm the 
director of Technical Analysis investigation at the Texas 
Natural Resource Conservation Commission.
    Our agency implements a broad range of regulatory and non-
regulatory activities that protect the health of Texans in 
their environment. The agency is led by a three-member 
commission appointed by the Governor. About 3,000 staff members 
work in Austin and 16 regional offices around the State.
    The statement I would like to make today will deal with 
recurring natural events, and particularly the 1998 Mexican 
smoke event. Recurring natural events in the United States and 
foreign countries often influence air quality in Texas. 
Southwestern dust storms, Saharan dust storms, agricultural 
fires, and forest fires are just a few of the influences that 
we face.
    Today I would like to discuss one case in particular, the 
agricultural fires that occurred in 1998, in Mexico and Central 
America, the effect of the smoke and air quality on Texas, and 
the need for a consistent policy and guidance at the national 
level on exceptional events like this one. During the period 
from April 1, 1998 through June 20, 1998, large amounts of 
smoke were transported into Texas from fires in Mexico and 
Central America.
    Even though agricultural burning is conducted every year in 
Central America, the smoke's intensity was unprecedented in 
recent history. The fires were unusually intense and widespread 
because of severe drought conditions in Mexico and Central 
America.
    The smoke also produced high levels of ozone and carbon 
monoxide. These pollutants accompanied the smoke into Texas.
    The first illustration here gives the extent of the plume 
as it existed on May 8, and I think we have pointed out on 
that, and is somewhat legible, that the smoke plume wraps all 
the way around up into Texas to the Dallas-Fort Worth area, and 
then follows the coastline across Florida and out into the 
Atlantic.
    The extent of that plume is amazing when you look at it, 
and that is not unusual. By May 1998, smoke intensity climbed 
up to levels that threatened public health. Concerned by this 
threat, the Texas Natural Resource Conservation Commission 
stepped up its air quality monitoring activities and worked 
with the news media and other governmental agencies to make the 
public aware of the dangers posed by these smoke levels. When 
our agency became aware of unusual air quality monitoring 
readings, we shifted additional ground monitors into the Rio 
Grande Valley, and made numerous flights with an airborne 
sampling platform operated by Baylor University.
    In addition, our agency posted information and warnings on 
our website, established a toll-free hotline, and issued public 
health alerts through the news media.
    After the conclusion of this event, we undertook an 
analysis of the association of high ozone and carbon monoxide 
levels with smoke transported from Central America. Evidence of 
this relationship came from aircraft data and from a comparison 
of the peak smoke day with a non-smoke day.
    Jim, if you will take that first one down. This is a 
vertical profile as flown by the Baylor aircraft, and what you 
see in brown is a nephelometer reading, or a measurement of 
light scatter, which indicates particulate matter, and the red 
line is the associated ozone readings.
    If you look at the bottom, down below the mixing layer or 
the boundary layer, you can see the nephelometer readings were 
quite high, indicative of tremendous particulates. Accompanying 
that are high levels of ozone at very low levels.
    Then as you move up vertically, you can see a spike in the 
nephelometer reading accompanied by an ozone spike associated 
with that plume that jumps from something on the order of 60 
PPB up to 120 PPB.
    Normally the background level at this time of the year 
would probably be in the 40 PPB range, and all through that 
spiral, vertical spiral, you see that the ozone levels are 
elevated.
    Evidence of this relationship came from aircraft data, from 
the comparison of the peak smoke day with a non-smoke day. 
Numerous aircraft flights during the smoke period found layers 
of smoke aloft that contained greatly increased ozone levels. 
Ozone levels aloft as high as 100 to 140 parts per billion were 
found in association with the smoke layers.
    The comparison of the peak smoke day at Brownsville on May 
8, 1998, with a non-smoke day, October 3, 1998, showed that 
ozone, carbon monoxide, and particulate levels were much higher 
on the smoke day, even though the wind speed, wind direction, 
and temperature of the 2 days were almost identical.
    Ozone levels on the peak smoke day reached peak 1-hour 
values near 100 parts per billion, whereas on the non-smoke day 
the ozone peaked at only 20 parts per billion. In Brownsville, 
we had a reading that reached 90 parts per billion with the 
wind blowing 15 miles an hour, which is an unusual situation, 
one that we had not seen before.
    Satellite imagery and air trajectories were used to show 
the origin of smoke and its transport into Texas. Numerous 
large fires in Mexico and Central America produced large clouds 
of smoke that were visible in satellite imagery from March 
through June 1998.
    The heaviest smoke production occurred in early to mid-May, 
whenever winds were from the south to southeast in the 
southwestern portion of the Gulf of Mexico, and the smoke was 
transported across the Gulf and into Texas.
    Airport visibility measurements from the National Weather 
Service automated stations were used to supplement particulate 
measurements for determining smoke intensities at various 
locations in Texas. A strong correlation between visibility and 
particulate levels was shown in measurements from both 
Brownsville and Austin. The combination of visibility and 
particulate measurements was then used to estimate the smoke 
impact on high ozone days during the smoke period. This 
investigation showed that 14 high ozone days from Texas also 
had moderate to high smoke levels and were therefore likely to 
have been influenced significantly by the ozone associated with 
the smoke. As early as May 1998, our agency began consultation 
with the EPA, Region 6. We provided significant amounts of data 
to EPA's technical working group for the Central American 
forest fires through the Region 6 office.
    We also presented the EPA with the results of our own 
analysis of the fire's air quality impacts on Texas as part of 
our request to have ozone exceedance days during the period of 
April 1, 1998 through June 20, 1998, declared as exceptional 
events.
    As of this hearing date, the EPA has declined to grant an 
exceptional event status for all of the days that Texas has 
identified as being influenced by Central American smoke.
    Of some 81 days that we requested exceptional event status 
for, EPA, rated by region, they divided the State into three 
regions, Region 1 being the Gulf Coast area, Region 2 being 
northeast Texas and Region 3 being northwest Texas.
    In Region 1 we were granted 40 days of the 81 requested. In 
Region 2 we were granted 17 days of the 81 requested, and in 
Region 3 we were granted 11 days out of the 81 requested. The 
Texas National Resource Conservation Commission believes that 
there exists a need for the EPA at a national level to increase 
its awareness of these exceptional natural events and their 
impact on ambient measurements, pollutant and pollutant 
precursors.
    In addition, there's a need for a coherent flexible policy 
that provides guidance not only for one-time exceptional 
events, but also recurring or long-term exceptional events that 
are beyond the control of air quality agencies.
    We also think that the EPA should track these exceptional 
events and quantify those, archive the data in a way that is 
available to the States for their use in air quality planning.
    I thank you for the opportunity to make a statement and 
would be happy to answer any questions.
    Senator Inhofe. Thank you, Mr. Thomas.
    I think first of all, it might be beneficial to see what 
areas we all agree on, and I think, Mr. Seitz, you would agree 
and the rest of the table, obviously, that naturally occurring 
events such as fires or dust storms should not be counted 
against the State or a city for the purpose of determining 
nonattainment dates. What are your feelings about that?
    Mr. Seitz. Senator, with respect to wildfires and dust 
storms, to the extent that it is consistent with our policy, 
the data is recorded to be in compliance. We would agree with 
that.
    Senator Inhofe. I assume the three of you agree with that.
    You know, we passed legislation having to do with 
emergencies and it's called our pre-disaster mitigation 
legislation. We actually came up with some things where we are 
prone, for example, in Oklahoma to have the emergency of 
tornadoes and what you can do to minimize the damage done 
there.
    Is there anything a State can do to mitigate against the 
effects of naturally-occurring events that you can think of
    Mr. Seitz. Is that addressed to me?
    Senator Inhofe. Anyone. What I'm trying to get at here is 
we all agree that naturally-occurring events should not be 
scored against a political subdivision in terms of attainment. 
Then the next thing you do is determine whether or not there is 
something that the State or political subdivision can do, and I 
don't know the answer at the moment.
    Mr. Seitz. I think Mr. Coleman touched on a policy that was 
put in place in 1986--is that which acknowledges, as you 
suggest, Mr. Chairman, that fire, volcanoes, dust storms, this 
type of a thing clearly is where you would flag the data. It 
does not provide for meteorological events, but to the extent 
it's fire or dust, that that data should be flagged.
    But it also suggests that although the State agencies 
certainly have no control over it, to the extent practical and 
practicable. I think most States do this already. As you have 
mentioned, States can give advisories to the public so the 
public can protect themselves. The policy goes on to say what 
can be done to protect the public in light of this event States 
should do. But as far as controlling it, I would agree.
    Senator Inhofe. Yes, that's my point. I think we can say 
``yes, there is a tendency in this area for this to happen.'' 
We know that in Mexico they do burn, but we have no way of 
knowing where the predominant winds are going to be, and how 
it's going to affect us.
    I would ask all four of you, does the current process of 
the State's petition of the EPA and the EPA making a decision 
work in an expeditious manner?
    Mr. Coleman. Well, I guess that the question is, did we get 
what we asked for? And we would not have asked for that which 
we didn't think we had sufficient reason to ask for it.
    I think all of us are very much interested in having an 
environment that is an acceptable environment that's conducive 
to good health, and that's what we have dedicated our careers 
to provide.
    Senator Inhofe. Yes, I was really trying to get at the 
process as opposed to that, and is there a process that we can 
use in petitioning the EPA and then the EPA responding to that 
that's better, or what flaws do you see in that process right 
now?
    Mr. Coleman. I think that those of us at the State level 
are far closer to the issue than those at the Federal level.
    My personal belief is that that call should be made by the 
State instead of us requesting with the EPA having the ``no'' 
and having the ``yes.'' My own belief is that that should be 
our determination with EPA having the burden, not just to turn 
it down, but have a good reason to overturn it.
    Senator Inhofe. Well, I think that obviously Mr. Seitz has 
heard me agree with that in the past. I've had the experience 
of being the mayor of the city, as well as State government and 
national government. It always seems to me that the closer you 
get to home, the more you can have an understanding of the 
problems, which comes to another area.
    You guys from the States that we have represented here, 
Colorado, Oklahoma, and Texas, have you ever tried to put down 
the cost of these things? If you're proposing, such as I'm 
proposing, to perhaps involve the Governors more than just 
everything being done in Washington, the cost that is having to 
be borne by your respective States? Have you ever quantified 
that in this process?
    Mr. Thomas. With regard to control strategies aimed at the 
nonattainment situation? We're wrestling at this moment with a 
SIP for the Houston area. We have not fully quantified the 
cost, but we have had cost numbers come back to us that are 
astronomical. The controls alone for point sources in the 
Houston area are something on the order of $20 billion.
    Mr. Coleman. Million or billion?
    Mr. Thomas. Billion. Big bucks.
    Senator Inhofe. Yes.
    Mr. Mitchell. Mr. Chairman, on behalf of Colorado, I'm sure 
the executive branch or the State health department could give 
you a close to precise number on quantifying that cost. From 
the legislative branch I cannot, but I'd like to briefly 
comment on the previous question you asked on whether the 
current procedure for requesting waivers works well. One quick 
observation is that we have to recognize the incentives of the 
various parties.
    Of course the States would like anything that tends to 
drive a low result, have that characterized as an irregular 
event. The EPA, which is a regulator for public health, would 
like to lay everything to the charge of the States and be able 
to find nonattainment and impose stricter regulations on the 
States.
    So perhaps what should happen in the process in requesting 
a waiver? I don't know if I can agree that the State should 
have final and absolute say, but neither do I think the EPA 
should have as much control and authority over that decision. 
But if there could be some impartial forum or venue for 
reaching that decision short of mounting Federal litigation 
against the administration for its determination, the process 
might work in a little more fair and evenhanded way.
    Senator Inhofe. I want you to respond, Mr. Seitz, but I 
want to clarify what we're talking about here. There is a cost 
to preparing the data that is required when you're requesting a 
waiver. I've been told there's confusion in that you spend a 
lot of resources sending things in that later on you really 
didn't have to. That's really what I was getting at.
    Mr. Seitz.
    Mr. Seitz. Thanks for the clarification, Senator, and I'd 
like to respond to Representative Mitchell on the first point, 
with respect to the desire of the EPA to capture someone under 
our natural events policy. That policy of 1986 was originally 
put in place at the request of the States to avoid just that 
situation. So I think there's currently a mechanism in place to 
exclude data for these natural events. The process question 
which you raised, Senator, is a fair one. With respect to the 
fires, I'd be the first to say that this one was catastrophic. 
It came to our attention as a result of Texas and we looked at 
the data. We put this policy for this particular set of fires 
in place. The process we provided access to satellite 
information to States, such as Texas. You heard Mr. Thomas' 
explanation of data they explained to us. So I think the 
process, if anything, was wide open as to the type of data 
needed to be presented and as to what could be presented by the 
State. The review process was not only EPA. It was a group of, 
as we said before, NASA, NOAA, and academia. We had heard the 
message, and Senator, you've made your point clear to me 
numerous times about the need for EPA not to do things alone, 
but rather to put it before the public, into a process for peer 
review so it's good technical data.
    I agree with Representative Mitchell. It is not all EPA's 
decision. It's not all the State's decision. It's a process 
that gets the proper technical personnel involved. In this case 
NASA, NOAA, academia, as well as technical staffs in the States 
and the local agencies put the data forward. To the extent that 
EPA had the final decision, that is correct. In terms of a 
national air quality standard being in place and the need for 
consistency, that's the process that was followed.
    So in terms of the cost, some was clearly borne by EPA and 
the Federal Government for some of the satellite data. Some of 
the monitoring data was generated from a monitoring network 
that you were responsible for putting in place with 
PM<INF>-2.5</INF>, and some of the burden was on the States. 
But the overall benefits from these programs is to protect 
public health. As you know from the benefit studies, the 
benefits exceed costs by 4 to 1.
    Senator Inhofe. The data that was generated from Oklahoma 
and going back to this May. First of all, you have accepted a 
lot of the dates that we had except for May 11, and the data 
from Oklahoma appears to be convincing to me, and I understand 
it's based on Federal data, so I'm not sure why the two 
different sets of data would disagree so much and why you 
discount the data that Mr. Coleman used in that case.
    Mr. Seitz. The agency did not discount Mr. Coleman's data. 
As a matter of fact, we took the video and sent it to NOAA. If 
not, Mark, I owe you an apology for not receiving that. It was 
reviewed by the scientists at NOAA, and they concluded that 
this was not part of the plume.
    In addition, the satellite which was used by the State of 
Oklahoma for the that purpose, I think, is the GOES satellite, 
which is at a height of 36,000 kilometers. The TOMS satellite, 
which was used to generate our data point, is merely 740 
kilometers. So the resolution from the TOMS' image is a lot 
better.
    In addition, what we tried to do was use a series of 
technical data. If in fact the TOMS satellite did not show the 
plume there, that is not where we stopped. We then went to 
airport data, monitoring data or any other data that were 
available and you've heard a good explanation from the State of 
Texas of other data that was submitted.
    The data from the TOMS satellite as well as airport 
observations in Oklahoma on the day in question, May 11, did 
not report any impairment of visibility or smoke. So it wasn't 
a question of excluding the data Mr. Coleman provided. It was 
that the overall data set showed that May 11 was not a day when 
Oklahoma was being impacted by smoke. I would agree. Mr. 
Coleman and I talked earlier about the fact that there is 
clearly movement of something from Texas into Oklahoma.
    But one final point of technical information, and this is 
where I just want to keep it technical, the GOES satellite is 
not particularly strong at registering aerosols. As a matter of 
fact, it's not designed for aerosols. Aerosols are what we're 
looking for.
    Senator Inhofe. I thought that's what we were looking at on 
your chart that you put up.
    Mr. Seitz. This is aerosol. This is a different satellite. 
We're talking two different satellites. The total ozone mapping 
spectrometer satellite, GOES is another satellite that was used 
by the agency. So we're talking two different images.
    Senator Inhofe. Let's see the one that we had up. I thought 
was a pretty good image and it's not that one.
    Mr. Seitz. That's GOES.
    Mr. Coleman. Ours is the other one. This is the TOMS. This 
is the data that we don't think present our picture very 
fairly. Obviously, Senator, we think that a picture is worth 
1,000 words. I think anyone can pretty clearly see the plume 
arise. In fact you can see two plumes arise and come up out of 
that smoke and come into our State, and we clearly had an 
impact that was observed on that particular day.
    Now, it wasn't the extreme high level of smoke. In fact, if 
it had been dense smoke, it might have been of some benefit to 
us in that it would have cut down the sunlight and we might not 
have had as much formation of the ozone.
    But you can see two different plumes. One kind of rises out 
of the southwestern side of the State and goes up and that's 
rather thin. Then the heavy one comes clearly up and goes up 
through central Oklahoma. In fact, from the imagery, we believe 
that if the sun had been in a slightly different angle, it 
would have been even more clear when the pictures were taken.
    Senator Inhofe. Well, Mr. Thomas, the 1998 fires were worse 
than anything you had before, coming from Central America and 
from Mexico----
    Mr. Thomas. Yes, sir.
    Senator Inhofe. Was there any particular reason that you 
determined, because I haven't looked to see whether those were 
planned, or what caused them--or was it a condition that where 
the Mexican fires were different than they had been before--but 
the conditions, wind, temperature and all that was different. 
What caused that to be the worst?
    Mr. Thomas. Well, I think the severity of the fires 
themselves contributed to that. There was a very severe drought 
in central Mexico--Central America and Mexico, and the smoke 
off of that was--you know, we see a little smoke every year, 
but it got so dark that the street lights came on. It's just 
something that we haven't seen before. It was severe. Elderly 
people and young people were having asthma attacks, severe 
health conditions. My own father-
in-law was not getting outside because he couldn't breathe.
    Senator Inhofe. I thought I mentioned to you that I was 
there during that time in the Brownsville area when we were 
having some problems.
    Mr. Thomas. It was very severe.
    Senator Inhofe. I want to get back to your chart in just a 
minute. Representative Mitchell, I was surprised I hadn't heard 
you talk about this before, when you were talking about under 
controlled burns. It's gone from 900,000 to 2.5 million in a 3-
year period.
    Now, these are--this is something we have control over. Why 
was it increased that much during that time period?
    Mr. Mitchell. Prescribed burns have received recently 
renewed attention as an environmentally sound way to manage 
Federal lands. The strategy used to be to suppress all fires, 
and then instead of suppression, environmental and public land 
management just shifted to try to recreate the occasional 
natural fire, and that philosophy has taken over.
    They burned a lot more acres, a lot more land, almost 2\1/
2\ times from 915,000 acres in 1996 to 2.24 million in 1999. 
Now, that's Federal policy. So I can only comment on it from 
that level of familiarity. I can't tell you exactly why they 
have increased so dramatically.
    Mr. Seitz. Let me tag on and help, maybe, Representative 
Mitchell. He is absolutely correct. As you recall, Senator 
Inhofe, we went through some of the Regional Haze hearings. The 
Department of Interior, Department of Agriculture, in 
cooperation signed an agreement to put in place more prescribed 
burns for the exact purpose Representative Mitchell talks, to 
try to get hold of or return the forest to the natural 
conditions, and it was thought this was clearly better than the 
catastrophic burns that are otherwise subject to happen.
    They indicated at that time there would be more burning to 
try to capture to get ahead of it, and that's why in fact, some 
of the policies have been in place for Regional Haze Rule to 
make this--don't punish States with this smoke, but the 
Representative is absolutely correct. It's for the purpose of 
trying to return these lands to a natural condition.
    Senator Inhofe. Did I understand, Representative Mitchell, 
that you said that in the process of the controlled burns, you 
authorize it at some point? It comes from the State in advance 
so that even though it may be the Federal Government doing it, 
the State has the final authorization?
    Mr. Mitchell. Under the Federal Clean Air Act, the States 
are delegated authority to, No. 1, administer the Federal clean 
air program, but No. 2, to apply State clean air standards not 
only to private industry within the State, but the Federal 
activities that go on within the State. Included in that grant 
of authority is the authority to regulate and permit any major 
pollution-producing activity such as the prescribed Federal 
burn.
    So the short answer is yes, the State does have the 
authority to review and to authorize or to permit specific 
Federal burns.
    Senator Inhofe. Is there anything you can add to that, Mr. 
Seitz, as to what the EPA is doing to try to make that easier?
    Mr. Seitz. Well, there are two issues. One is the burns. 
There, the Representative is correct. There is a program--and I 
think you touched on it in your testimony--a cooperative effort 
between the land managers as well as the State of Colorado to 
agree in a permit process.
    The issue that the Representative mentioned was a debate on 
a piece of legislation directed, I believe, at the Federal 
sector to require permits.
    It wasn't that the Federal land managers are disagreeing 
with the thought because they are in fact cooperating under the 
MOU. It is that under the Clean Air Act, we will comply in 
Federal sectors. We'll comply as long as the legislation isn't 
directed solely at us and no one else.
    So to the extent--I'm just not familiar with the 
legislation, so I apologize. But to the extent the legislation 
is broad-based and affects us, States, ranchers, other 
landowners that burn, then in fact, under section 118 of the 
Clean Air Act, we would, as the Representative indicates, 
comply.
    Senator Inhofe. Mr. Seitz, do you want to put that chart 
back up? Is there something you want to address?
    Mr. Seitz. I just wanted to point out to Mr. Coleman that 
this is, I believe, the day of the 13th, and as you can see, 
the plume is touching right to the border of Oklahoma, but 
clearly is not there by TOMS.
    On the other hand, ground level observations and ground 
level data on the ground in Oklahoma submitted by the State of 
Oklahoma said there was impairment.
    So although TOMS did not support a granting of this date, 
other data did. So on balance, again, looking at all the data, 
we granted the 14th.
    Senator Inhofe. The 14th, but not the 13th. Mr. Seitz. The 
day of the 13th, the day in question, it was granted. Even 
though the plume--I'm just making the point that it wasn't one 
data point that was used.
    So what you're saying, Mr. Seitz, is that you are willing, 
the EPA, to use your TOMS data, but also that that's submitted 
by the States and work out the conclusion working with them.
    Mr. Seitz. Correct. Again, we relied heavily on the 
technical panel from NOAA, NASA, and academia to review it all 
in cooperation with the technical staff in my office, the EPA 
regional offices, and the State.
    Senator Inhofe. The EPA pays for the monitors, and they 
determine where the monitors are going to be within the State, 
is that--my understanding correct?
    Mr. Seitz. The overall monitoring network, there's two 
types of monitors. First, there's a Federal list of monitors 
that are placed in a given location based upon our guidance for 
the purpose of attainment/nonattainment regulatory decision.
    Second, there's a group of monitors that are allowed to be 
placed at the discretion of the State and local agencies.
    For instance, as mentioned in Colorado, I believe the 
section 105 money and grant money provide for running the basic 
program and monitoring program is somewhere around $3.5, or $4 
million annually. That money goes directly to the States. 
Certainty of that monitoring is at the discretion of the 
States.
    Senator Inhofe. OK. It's my understanding, Representative 
Mitchell, that Colorado wanted to have more monitors placed on 
the borders to show, to demonstrate where this was coming from. 
The EPA wanted to have the monitors in the large cities. Is 
that correct?
    Mr. Mitchell. That's consistent with my understanding, but 
we have about reached the outer boundary of my factual basis to 
comment.
    Senator Inhofe. How about that, Mr. Seitz, on the 
determination of placement of monitors, we have had--we 
actually had a similar problem in Tulsa some time ago, and how 
do you think that can be improved, or how do you think it can 
be a little more cooperative with the political subdivisions in 
making those determinations?
    Granted, we want to present the best case we can, but I 
don't think you should be in the position to try to present the 
worst case you can.
    Mr. Seitz. The monitoring network itself, as I'm sure 
you're aware, covers ozone, PM, lead. It's a very large 
network. It covers multi-purposes.
    As I said, part of that network is designed for regulatory 
purposes. The remainder of the network is up to the State. 
Maybe, Mr. Thomas can help me here, but I don't know what it is 
in any given State. There's certain latitude in the State and 
local governments to move monitors.
    I'm not quite sure what the percentages are, but some can 
be moved. I think what the States and STAPPA/ALAPCO would say 
very quickly to you and to me, Senator, is the problem is there 
aren't enough. They would like to get more monitors because 
there are competing demands for even the ones they have the 
latitude to move--demands for this purpose or that purpose, so 
they would like more.
    So, I think the real question and we currently have it 
underway with STAPPA/ALAPCO is to take a look at the deployment 
of the entire network.
    Is there a way that we can, in a more efficient manner, in 
a cooperative manner at both the State and local level, deploy 
the network differently?
    I hope your issue would be addressed. I call it the 
integrated monitoring strategy. We currently have an evaluation 
under way with STAPPA/ALAPCO, the State and local programs, to 
look at that exact issue.
    Senator Inhofe. You want to say something, Mr. Coleman?
    Mr. Coleman. Yes, sir. I want to go back to the TOMS data, 
and of course, we had an opportunity with the recent fires to 
be able to examine how predictive that was, and I--my staff 
tells me, that there are problems from the--this particular 
system as it relates to being able to accurately depict where 
problems would occur.
    The ground truth and the truth from this particular data 
set do not match up terribly well in a number of instances.
    Senator Inhofe. Well, yes, but as you heard Mr. Seitz say, 
that they will consider theirs, but also consider whether the 
monitoring that you have, do you think that you end up getting, 
a fair representation as to what the problem is? Averaging 
out----
    Mr. Coleman. No, sir. We can see a problem, and if we don't 
get agreement on the problem, we have grave difficulties. 
That's what our bottom line is, we can see it, you can see it 
with a picture, and to not receive the attention that we think 
that deserves, is something that just gives us great heartburn.
    Mr. Seitz. Again, I agree with Mr. Coleman, of course, that 
a picture speaks 1,000 words. But I'm not the expert to review 
it. All I can say is that a panel of experts reviewed the data 
and concluded that it was not smoke.
    Senator Inhofe. You know, Mr. Seitz, in your opening 
statement, the phrase always captures my attention when you 
talk about premature deaths.
    I remember back when we were having the big fight on the 
ambient air thing and Administrator Browning quite often used 
that as it was convenient for her to use. We heard during that 
debate, it started out there were 20,000 premature deaths, and 
then after looking at that it came down to 15, then down to 
something less than 1,000, but the interesting thing that I 
noticed is my dear mother-in-law died during that timeframe.
    She was 97 years old and by using the criteria of premature 
deaths, she was one of them in that statistic. What's your 
definition?
    Mr. Seitz. Of a premature death?
    Senator Inhofe. Yes.
    Mr. Seitz. In my mind, any death, any premature death, is 
anyone that dies early. What I see is a child, or a senior 
citizen in respiratory distress, as a result of 
environmentally-induced particles who goes into an asthmatic 
attack and dies.
    Senator Inhofe. I don't think that's a very good answer. In 
fairness to you, you inherited that phrase. You didn't invent 
it.
    Mr. Seitz. Well, Senator, I think there are statements 
concerning EPA that have been explained to me twice, once by 
Representative Mitchell and once by you, that the mission of 
EPA is to try to take the worst-case scenario data and capture 
the impact it may have on people. I think that is an 
overstatement as well.
    We have the 1986 policy that was put in place dealing with 
excluding data, and the 1994 policy that was put in for 
excluding particle data. In addition, the fact that EPA 
excluded 92 of the 153 days requested by States, certainly 
gives EPA, at least the technical staff at EPA, the chance to 
acknowledge that we may occasionally look critically at the 
data.
    Mr. Thomas. Senator.
    Senator Inhofe. Yes, go ahead. I'm getting some 
information.
    Mr. Thomas. If I could comment on the TOMS satellite, we 
have found that certainly visible satellite imagery is useful. 
There are some drawbacks. One thing, it's not available at 
night, and does not indicate how much smoke is mixing to the 
surface.
    There are some drawbacks with the TOMS satellite. An 
example of satellite measurements produced by the national or 
NASA group from the TOMS satellite, has some problems. The NASA 
aerosol imagery does not indicate that clouds are obscuring the 
ability to see smoke, for instance.
    The data that is used is day-old data, and you have to fill 
the gaps in between the satellite passes. So there are some 
real drawbacks, and in my technical staff 's evaluation of 
using TOMS we use both TOMS and GOES-8 satellite imagery to 
make our determinations.
    Senator Inhofe. Are you satisfied, Mr. Thomas, as far as 
the State of Texas is concerned, that that information other 
than TOMS is being considered equally with TOMS information at 
the EPA level in Washington?
    Mr. Thomas. I'm not real sure how that was done. We have 
their letter, and it defines to a large extent how that was 
done. We had requested a total of 81 days. Our feeling is that 
we really don't understand the science involved with these 
types of events because we see such unusual things happen such 
as a 90-PPB reading for an 8-hour standard when the wind is 
blowing 15 miles an hour. That just doesn't occur normally.
    So we ask that the whole event be set aside because we're 
not sure in our mind what's going on with the science. I think 
we need to develop the technical skills and the science where 
we understand this much better, and then we will have a better 
basis for making these determinations.
    Senator Inhofe. Do you think the State of Colorado and 
Oklahoma need to devise a way that comes up with more accurate 
information?
    Mr. Coleman. Senator, I guess my great concern is that in 
order for us to have not only the proper information, but given 
whatever information we have, particularly if it is information 
from an extreme event that causes us to fall into 
nonattainment, our responsibility then is to develop and design 
a system that would bring us into attainment, and it is my 
position that we cannot in anyway do that because we don't know 
where to go. How much do we need to get in order to control the 
weather, which we cannot do?
    Mr. Mitchell. Yes, Senator, Colorado would like to develop 
better ways to have better information about pollutant sources, 
both from out of State, and from Federal activities in-State.
    I just realized that your question to me about the location 
of the monitors may have been a reference to something in my 
testimony about funding for monitors and what that was was a 
reference to, in this case, the WRAP or regional--Western 
Regional Air Partnership, a sub-national but super-state kind 
of regulatory body that does not seem to be the most beneficial 
approach to dealing with the problem
    Rather than appropriating funds to these kind of big State 
collective think-tanks and regulatory boards, we suggested that 
the money could be better spent, appropriated directly to the 
States for air quality protection, including purchasing 
monitors and placing them strategically.
    It's not a debate of where the monitor should go, it's a 
debate of whether to send the money to sub-national groups, or 
to put into good science, and Colorado votes for good science.
    Senator Inhofe. Mr. Seitz, your response?
    Mr. Seitz. Just in terms of the clarification for the 
monitoring money, that money again is, and does, go straight to 
the State of Colorado. The money Representative Mitchell refers 
to is the regional planning body money, which is, I think, in 
total a $6 million appropriation. That money is allocated to 
the correct sub-regional groups. It is for the purpose that 
Representative Mitchell talked about--the sharing of 
information.
    For instance, in this area of the country CENSARA is a 
group of the technical experts from the group of States. They 
get together to share information on inventories, emissions, 
wind information, such as that.
    I'm not sure what funds we are talking about. I think 
generally from the States, those funds for the regional 
planning groups in order to plan, cross each other, and have 
been very well received. That does not in any way change the 
allocation of the monies to the States for the purpose of 
monitoring. That's a separate process altogether.
    Senator Inhofe. Mr. Seitz, when I was asking the question 
about, ``Is it the policy of the EPA to present the worst case 
as opposed to the case of the States,'' I asked Andrew Wheeler 
here to refresh my memory on the cost figures back during the 
ambient air fight, and he did.
    The EPA was saying in direct response to my question during 
that time what is going to be the cost on ozone and particulate 
matter on an annual basis, and the EPA's estimation was between 
$6 and $8 billion.
    Shortly after that, the present technical adviser, said it 
would be $60 million for ozone alone, and the region foundation 
out in California came along and said it would be $120 million 
for ozone and particulate matter.
    It seems to me, and I get this more when we are having 
hearings in Washington, that we get this extreme case 
presented, as opposed to what we find out later to be the case.
    So it is not you making these estimates, that's why it 
occurred to me to ask the question.
    Mr. Seitz. Well, if we are just talking history here, you 
recall the acid rain program, when we were talking about 
trading acid rain credits when those numbers first came around, 
and industry was projecting it would cost $4,000 a ton, and I 
think the last time I saw it was a $100.
    I think the economic projections certainly move around. Let 
us say that.
    Senator Inhofe. Well, that may be true, but I'll wait until 
we have the hearing where we have the witnesses who can defend 
that assertion.
    Mr. Seitz. I have given thought to your question about 
premature death. Anyone that died, before their time, would be 
my opinion.
    Senator Inhofe. I plan to be one.
    Mr. Mitchell. I suggest that Mr. Seitz missed the more 
important issue, which is that premature death depends on 
whether it was your mother-in-law or my mother-in-law.
    Senator Inhofe. Mr. Coleman, you discussed your testimony, 
the problem that Oklahoma had during the two Labor Days of 1998 
and 2000. Can you explain why you believe these dates should be 
considered exceptional events and what the EPA has said about 
those dates?
    Mr. Coleman. We have not yet submitted those data, and I'm 
sure that John will be very, very receptive to our data when we 
do submit it, but when you have peaks in temperature that are 
all-time peaks, our planning is not such that we can deal with 
that.
    As a matter of fact, planning itself doesn't envision a 
worst case, but a predictable worse case. That's what planning 
is all about. The events that are beyond the pale of normal 
planning are the sorts of things that we are not able to 
predict, and it would be very unjustified on our part to 
attempt to design a control program that was based on things 
which had not yet happened. That is by definition, what does 
happen when you have record temperatures.
    Senator Inhofe. Yes.
    Mr. Mitchell. Mr. Chairman, I would like to underscore 
something that Mr. Coleman just said, and I think it's just 
sort of two ships passing in the night, between the State 
position, and the view that Mr. Seitz has expressed.
    In his opening remarks, he said that we have to plan for 
hot, smoggy days, too. We can't just set standards that apply 
to perfect weather, and none of us on the State side are asking 
for standards that apply only to perfect weather, but we are 
asking when something is truly aberrational, something, an 
extraordinary event causes conditions that in Mr. Coleman's 
words cannot be planned for or in common sense, can't be 
budgeted for, like building a freeway that never has a traffic 
jam, not even on the biggest, highest, most extraordinary 
traffic volume of the year, then those are issues that the 
States should not be accountable for, in the ordinary course of 
planning an operation.
    Mr. Seitz. Back to EPA. Senator, I would agree that there 
was hot weather. I also would agree that in the State of 
Oklahoma, over the last 25 years, 80 percent of the days when 
the temperature's been over 106 deg., there have been no 
exceedances of the ozone standard.
    We talk about stagnation days. We talk about stagnation 
days in Tulsa. What about Springfield, MO? It is located 
relatively close to Tulsa, and I forget what the number of days 
for Tulsa exceeding the ozone standard was--33, I believe--
which was the record. Springfield, MO, had 55. Wichita, KS, had 
stagnation of the same level. Oklahoma City had stagnation. How 
come there were no violations of the 8-hour standard in any of 
those places?
    If you take a look at the emissions profile over the past 
30 years, this has been no surprise. Hot temperature and 
precursors to ozone equals ozone. If you take a look at the 
emissions profile, and if I recall, and Mark, you're going to 
have to help me out here, in that same episode, Tulsa had 
called and indicated their biggest concern were the 
NO<INF>X</INF> emissions, that were in their opinion, 
uncontrolled in the Tulsa area.
    It was their hope that their working to control those 
emissions, would in fact, be a step in a positive direction.
    I understand the weather is hot. I will never forget 1983. 
We were meeting with Georgia, and they said you can't make me 
design a plan to account for 1983. This year of stagnation will 
never repeat itself. It will just never happen again. Don't let 
me look at that.
    Well, it was 1983, 1988, 1991, 1993, 1995, and 1998. These 
conditions are not that exceptional. We have seen the only 
difference is the emissions. Are the temperatures hot? Yes. 
Have they been hot in the past? Yes. Have they been hot in this 
region of the country? Yes. Have there been exceedances 
everywhere in this region of the country? No. You take a look 
at the emission profile of VOC to NO<INF>X</INF> in these areas 
and they are the precursors. You see a spike for NO<INF>X</INF> 
in this area.
    Senator Inhofe. Mr. Coleman, do you have anything in 
response to that?
    Mr. Coleman. Yes, sir. I would--I recall your days when you 
were mayor, and you were struggling, trying to come up with a 
way to bring--return ourselves to attainment, and we took some 
rather stringent measures at that time, and we were successful, 
and we were the first State in the Nation to return completely 
to attainment, having been partially in nonattainment.
    So we are very proud of the actions that we have taken to 
come back in attainment. Our situation is such that because of 
our planning, we sit right on the cusp of being in 
nonattainment at any given point in time, and it doesn't take 
much to cause us to fall over.
    That is the nature of the system that we were supposed to 
design, is one which did what we needed to do to come to the 
edge, and we have.
    Senator Inhofe. Yes.
    Mr. Coleman. Thus, when there's an exceptional event like 
the hottest day, in the hottest summer on record, we did not 
plan for that, and furthermore, I would still say we would be 
derelict if we did. Now, should we plan for hot days? Of course 
we should. Do we? Yes, we do.
    But, we don't plan for events that are just simply not 
predictable. We plan for events that are predictable.
    Senator Inhofe. Yes.
    Mr. Coleman. Even that causes a very high level of cost to 
our citizens to pay for the elevated cost of electricity, 
because we have additional controls that are necessary because 
of that.
    Throughout our entire system, all the goods that are 
produced in our State, that added burden is there. A reasonable 
added burden is what we are responsible to add, and that's all 
we plan to add.
    Senator Inhofe. Mr. Thomas, in your testimony, you called 
for the EPA to develop a coherent and flexible policy for 
dealing with long-term exceptional events that are beyond the 
control of the air quality agencies. Could you explain, what is 
wrong with the current EPA policy, and describe how such a 
policy should work, specific suggestions on what would make 
this easier?
    Mr. Thomas. I think our concern is that we, technically, do 
not understand the science that is occurring in these unusual 
events. Ozone generally forms, when precursors in presence of 
temperature and sunlight occurs.
    In the case of these types of events, it appears that the 
ozone is carried in with the plume, that it's already there, or 
it may be forming in that plume. But when you have an event, 
where you have very high wind conditions, and you get very high 
ozone readings, that is completely contradictory to what 
normally happens.
    Normally, you have stagnation, very low wind speeds, 3 to 4 
miles an hour or 5, somewhere in that neighborhood, and you 
start to see a build-up of ozone over time, and it will wrap up 
over days, and you will see an episodic event several days 
long.
    I think that we collectively need to advance the technology 
and the science for these types of events, and understand them 
better, and then develop a policy based on that new science 
that is coherent, that makes sense, that's reasonable, where 
you can define what is occurring.
    Senator Inhofe. So you might say this falls into the 
category of ``ready, fire, aim.'' You don't have the science 
there, to be able to do something, and you have no control over 
the circumstances, and that's what becomes costly.
    Mr. Thomas. Yes, sir. It can become very costly to a State. 
For instance, in 1995--Texas experienced in 1994, a very low 
number of exceedance days, compared to past history. In 1995, 
that jumped very high. In 1996, it came back down. The 
explanation would be, I think, if you looked at just from a 
logical standpoint, the emissions had not changed that much 
over those 3 years. So something has changed, and we have 
generally attributed that to the meteorology.
    There was a variability in the meteorology that caused 
that. Well, last year, I discovered that the northern Canada 
fires called the ``Barille fires,'' occurring in 1995, had a 
tremendous impact on the State of Texas.
    How that impact occurred, I'm not sure, or what occurred 
because we have not devoted the resources and time and effort 
to understand that science, that far downwind, but it 
definitely had an impact, and I just think we need to devote 
some resources to looking at these types of episodes and 
understanding them better, the science that's taking place.
    Senator Inhofe. Representative Mitchell, you raised a 
number of valid concerns about how the Federal Government 
handles its burn policy on Federal lands. Of course, this 
includes a lot of different agencies, your forest service, 
Department of Interior, but what can the EPA do to help resolve 
this issue, the guy sitting next to you?
    Mr. Mitchell. I guess I would answer on two levels. Thank 
you, John. First, when a prescribed burn is obviously the 
source of particulate matter, or other pollutants that are then 
registered in a metropolitan area, they shouldn't be counted 
against the metropolitan area's attainment and pollution 
standards. The EPA should be aware that the State has no 
control over Federal lands, but indeed there's no control over 
the prescribed burn, but indeed it's an activity affirmatively 
caused by Federal activity.
    That is in the strong case or in the exceptional case, 
particularly when a fire burns out of control. But as a more 
generally applicable matter, what Colorado would like, and I 
think when other States look at the issue, what they will want 
as well, is accurate information about the general contribution 
to haze and ozone problems that comes from prescribed burns, 
because information is always useful in valid policymaking.
    If we are going to impose stringent new standards on 
metropolitan areas for haze and air quality, we want to know 
what baseline of pollution already exists, just by virtue of 
the burns on Federal lands.
    So, what the EPA can do is encourage Federal agencies to 
comply with State efforts to get information, and to get 
pollution inventories from Federal agencies, so that policy can 
take into account whatever contribution to the problem comes 
from Federal agencies.
    Senator Inhofe. Well, that is what I want to hear, is 
specific things like that. You know, these hearings, field 
hearings are not here for a lovefest. We really want to find 
out what the problems are.
    Now, I would say this, and I know Mr. Seitz would agree, 
when we have our hearings in Washington, they are much more 
combative, for some reason, than when we get out in the real 
people world.
    But you know, we're embarking upon starting to--we've had 
three hearings already on the re-authorization to clean up. We 
are not going to string it out like it has been strung out 
before. We plan to do it in this coming Congress, and get it 
done.
    So when we have these hearings, we want to find out, just 
like the hearing we had in Ohio, new source review, we want to 
know what is out there, can be done, and what is not working, 
and what to make of jobs, what things we can transfer to the 
States, to the local subdivisions, because if we don't hear 
from the States on this, then we're going--I can assure you we 
are going to be hearing from the Federal side on this, and that 
is why this is so important. Yes.
    Mr. Mitchell. Well, if you're looking for argument, I can 
give you a little more specific comment. With regards to the 
two bills in Colorado that I mentioned, one specifically 
regulating Federal burns, and saying Federal Government, you 
need to demonstrate that this is the most environmentally sound 
way to approach the problem, and you need to demonstrate your 
plan to avoid pushing the State to nonattainment.
    That was Senate bill 145. The other bill that I sponsored, 
that said public land managers and owners, you need to 
inventory your activities on those Federal lands, on the 
Federal lands that you manage, and tell us what pollutants are 
likely to come out of those activities.
    The response has been troubling, in that prescribed burns 
are valued land management tools for the reasons that we 
earlier described, because the suppression--I mean, I'm talking 
in a circle. Let me back up for a minute, and say we used to 
suppress fires on public lands, and the problem that that 
produced was, you have a buildup of tremendous tinderbox 
conditions, and when fires do strike, they burn out of control.
    So, a more sound approach, and more environmentally 
approximating what nature does, is to have these occasional 
fires in these areas.
    When a State comes along and says, ``Well, wait a minute, 
we want to know how much pollution you are producing, and how 
much we are being held responsible for, or particularly, if you 
burn out of control, we don't want to be pushed into 
nonattainment, so we want to take some steps to gather 
information about these burns,'' the reaction is one of, ``No, 
we don't want you to look at that, because we like prescribed 
burns, and we think it's a good environmental tool, and we 
don't want this information to come out, because it might 
question our policy judgments on prescribed burns.''
    On my bill on inventories, on activities in Federal lands, 
we had a witness from the Army Corps of Engineers, I believe, 
and also a witness from the Sierra Club, just come talk about 
what a wonderful thing prescribed burns were, and why it was a 
terrible idea we should be trying to get this information.
    To which I think the reasonable response is, that's great, 
that prescribed burns are a valid tool of land management, but 
we still want to know what they are doing to the environment, 
what they are doing to the atmosphere, so that other broader 
policy can take that into account.
    So what can the EPA do? It can cooperate with such efforts, 
instead of opposing such efforts, and it can encourage other 
Federal agencies and land managers to cooperate with such 
efforts, instead of opposing such efforts.
    Senator Inhofe. You're wiggling, Mr. Seitz.
    Mr. Seitz. I am in agreement, and as a follow-up to this, 
we need to personally call Representative Mitchell back. As you 
know, we testified last year about the memorandum agreement 
that was signed by these agencies, and I believe the State of 
Colorado has a smoke management plan in place at the State 
level. If they do, and a State SIP, there is a requirement of 
those agencies to share the exact information that 
Representative Mitchell is talking about, with the State 
agencies, to accomplish the exact purpose that you're referring 
to.
    For instance, last year in Colorado, for prescribed burns, 
I believe PM<INF>-10</INF> in the Federal sector, were 
somewhere around 1,200 tons of emissions expected from that, 
versus the 46,000 tons from mobile sources, and 19,000 tons 
from stationary sources.
    So, if I have the inventory in my office in North Carolina, 
I will follow up with Representative Mitchell personally, and 
dig into this a little bit, and find out there's a State plan. 
The Federal agencies are supposed to be at the table working 
with the State on the exact information that Representative 
Mitchell is talking about.
    Senator Inhofe. Well, we've had a lot of hearings 
addressing things we will be considering in the re-
authorization of the Clean Air Act such as the new source 
review.
    But, in this case, we're talking about how States deal with 
problems over which they have no control. I would ask these 
three. Probably, Mr. Seitz, you would not want to speak, 
certainly not on behalf of the EPA, but I mentioned a bill of 
legislation that we're going to introduce that would very 
simply say those things. It would require the EPA administrator 
to disregard monitoring data if the data has been influenced by 
exceptional events, events that are beyond your control, if it 
is requested by the Governor of the State. Would that be 
helpful?
    Mr. Thomas. I think it would be very helpful to the State 
of Texas. We have enough occurrences of high ozone, primarily 
the only pollutant that we are having difficulty with when 
we're not having exceptional events. I think to have a law that 
allowed for the setting aside of the entire event, would be 
acceptable to us.
    Mr. Coleman. Yes, sir. We obviously believe that would be 
very much the case. There probably does need to be some 
mechanism for EPA to challenge those days or challenge that 
determination, but we believe the shoe ought to be on the other 
foot, from the current situation, and that gets to the exact 
issue we are here.
    Senator Inhofe. Any thoughts, Representative Mitchell?
    Mr. Mitchell. I will take the comments of Mr. Thomas and 
Mr. Coleman.
    Mr. Seitz. Me, always ready to tread where I shouldn't.
    Senator Inhofe. Well, you know, the big issue, we are--I've 
chaired this committee now for 4 years, and regardless of which 
area we're addressing, the argument seems to come, is there an 
inordinate amount of influence of power and decisionmaking in 
Washington, as opposed to the political subdivisions.
    Right now, we're not sure what the administration is going 
to be in Washington in the next term. It might shock you, Mr. 
Seitz, to know that I have a preference, but when it does 
happen, and we have a different----
    Mr. Seitz. Senator, as you know, I'm a career civil 
servant.
    Senator Inhofe. Then I think the thrust, and you find this 
in both party platforms, the Republicans do want to get as 
close to the problem as possible and we have tried to divest 
the power from Washington.
    And the other extreme is, and I know it's hard for 
Oklahomans to understand this, but there are people I deal 
with, on the floor of the Senate, on a daily basis, who believe 
that no good decisions are made, unless they are made in 
Washington.
    So this is going to be--we wanted to know these things. As 
we get prepared for continuing our hearings, which we will be 
having when we get back in January, the re-authorization of the 
Clean Air Act, we want to come to you in your States, find out 
what specific things that you want to talk about, the ideas you 
have.
    You have expressed some today. I would ask you, at this 
point, if there are any more that you want to express. This is 
your time to do it.
    Now, what we are going to do for the next, what, next 7 
days, have you submit, after we have had this hearing, specific 
ideas that you would like to have considered during the time 
that we go through this re-authorization process.
    So I expect you to do that in writing, at a later date, but 
for right now, is there any real strong recommendation that you 
would have from the State of Oklahoma, Mr. Coleman.
     Mr. Coleman. Senator, as you know, we worked on the Clean 
Air Act when it was rewritten. Our position is that there are a 
number of places that the Act goes further than was necessary.
    An act may have--may have more meaning, or may have more 
need on the two coasts, than it does in our portion of the 
country, but in our portion of the country, I think it's very 
clear that there needs to be a whole lot more ability to make 
determinations here, than making them somewhere else, 
particularly, when they're made somewhere else, based on 
conditions that do not exist here.
    Senator Inhofe. In other words, one-size-doesn't-fit-all.
    Mr. Coleman. No, sir.
    Senator Inhofe. Mr. Thomas.
    Mr. Thomas. I think we will submit some ideas. Right now 
I'm not----
    Senator Inhofe. All right.
    Mr. Thomas. I'm not going to throw any out.
    Senator Inhofe. Anything else, Mr. Mitchell?
    Mr. Mitchell. No, thank you, Mr. Chairman. I wouldn't have 
anything at this time to add to my testimony and the 
discussion.
    Senator Inhofe. All right. Mr. Seitz, any comments you want 
to make?
    Mr. Seitz. Just one final thought. As we go down the 
requests that are submitted, we need to think about what we've 
learned over the last several years. Mr. Coleman and the State 
of Texas had a few debates recently, about putting monitors for 
ozone on the border.
    A Governor that makes one decision with respect to that 
data, doesn't necessarily make a decision that may be endorsed 
by another Governor. Any process that vests authority in one 
particular subdivision without, as Representative Mitchell 
testified, a good process which would involve technical review, 
national consistency is a process that will ensure only that 
section 126 petitions will be filed by one Governor to another 
Governor.
    So as we move forward with moving the decision point away 
from Washington to the States, which is what the Clean Air Act 
has always envisioned--the State Implementation Plan--those 
plans have got to be developed with the awareness that wind 
blows pollution.
    Senator Inhofe. And we understand that and it's not a 
piling on down here, and there's a lot of things these three 
would disagree with each other, and I'm sure Mr. Coleman would 
want Mr. Thomas to keep his ozone from the Dallas-Fort Worth 
area from coming into southern Oklahoma.
    So we realize that those boundaries don't exist, but we are 
out here and close to the problem, and for that reason, I am 
soliciting your recommendations as we progress along, and we 
talk about other specific areas as we do that.
    Mr. Thomas. Thank you, sir.
    Senator Inhofe. Any last comments anyone would like to 
make?
    Mr. Seitz. Thank you very much.
    Senator Inhofe. Thank you. Thank you all for coming. We 
appreciate your attendance here today. We are adjourned.
    [Whereupon, at 4 p.m., the subcommittee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Testimony of John S. Seitz, Director, Office of Air Quality Planning 
          and Standards, U.S. Environmental Protection Agency
    Good morning Chairman Inhofe. Thank you for the opportunity to 
testify today. It is my pleasure to be here in Oklahoma City.
    Today I am going to discuss how the Environmental Protection 
Agency's (EPA's) policies preserve public health protections by 
addressing the man-made sources of air pollution in the context of both 
unusual, but foreseeable, meteorological episodes, as well as truly 
exceptional or unpredictable natural events.
    As is the case with others testifying here today, our primary 
mission at EPA is to protect public health. Air pollution is associated 
with a variety of serious health and environmental problems. For 
example, breathing particulate matter can aggravate pre-existing 
respiratory ailments, reduce lung capacity and even result in premature 
death. Carbon monoxide can aggravate angina (heart pain). Photochemical 
smog can impair lung function, cause chest pain and cough, and worsen 
respiratory diseases and asthma. We have made great strides as a nation 
reducing levels of all of these pollutants. EPA's role in this has 
entailed a wide variety of actions ranging from setting national air 
quality standards that protect the public health, to requiring power 
plants to reduce emissions of harmful air pollution, to setting 
standards for vehicle emissions, to working with State and local 
governments to ensure that they have the necessary tools to implement 
plans to reduce air pollution and to inform the public about air 
quality.
    The Clean Air Act, a law created and amended with strong bipartisan 
support, provides the blueprint for our efforts to clean the nation's 
air. Between 1970 and 1999, total emissions of the six principal air 
pollutants decreased 31 percent. This dramatic improvement occurred 
simultaneously with significant increases in economic growth and 
population. For 30 years, the Clean Air Act has provided critical 
health protection to the American public. The 1990 Clean Air Act alone 
will bring huge health benefits. For example, EPA's central estimate is 
that the annual benefits in 2010 when the 1990 Clean Air Act is fully 
implemented will include: 23,000 fewer incidences of premature 
mortality; 67,000 fewer cases of chronic and acute bronchitis; 64,000 
fewer respiratory and cardiovascular hospital admissions; and 1.7 
million fewer asthma attacks.
    Over the past 30 years, EPA has developed a series of policies and 
programs to address the fact that weather and other uncontrollable 
natural and exceptional events can influence air quality. Our 
implementation of those policies and approaches confirm our commitment 
to balanced, common-sense, cost-effective strategies to protect the 
public from the dangers of air pollution. EPA and the States have 
worked together under a variety of different circumstances, such as the 
Mount Saint Helens eruption, clean-up of debris after Hurricane Andrew 
devastated south Florida, and the pollution from the 1998 Mexican 
wildfires situation, to determine the most appropriate way to deal with 
air quality data associated with natural or exceptional events.
    Before I describe how EPA accounts for various exceptional and 
natural events such as volcanoes, wind storms and fires in our 
regulations, I would like to provide a brief background on the role of 
meteorological and geographic factors in people's exposure to air 
pollution.
    In 1948, a fog descended over Donora, Pennsylvania. An unusual set 
of weather circumstances--a stagnant temperature inversion--trapped the 
smoke from the coal-burning fireplaces and industrial plants in the 
valley. The air grew heavier. By the time the weather shifted, the air 
pollution trapped over Donora had killed 20 people and over 5,000 
people reported illness. That unusual and horrific combination of man-
made pollution and weather ushered in a new era of understanding 
regarding the health impacts of air pollution, and awakened a new 
awareness of the impact of human activity on our quality of life.
    Obviously, we have made tremendous progress since that terrible 
incident. Since 1970, we have reduced emissions of sulfur dioxide by 37 
percent, lead by 98 percent and carbon monoxide by 31 percent. In the 
last 10 years, ambient levels of particulate matter (PM<INF>-10</INF>) 
have dropped 18 percent. Since 1990, EPA has also put in place rules 
that will prevent 1.5 million tons of toxics from being released into 
our air. The work of the States, local governments, Federal Government 
and the various industries have brought about these dramatic 
improvements, and all Americans are better off because of it.
    The role of weather and other natural factors in air pollution 
remains a fact of life. Weather can exacerbate air pollution problems. 
The tragedy in Donora involved an unusual meteorological episode, but 
what made it deadly was the human-caused pollution in the air. Our 
knowledge about these kinds of interactions has evolved over the years, 
and so have our policies and standards.
    The history of how States and EPA have worked together to develop 
programs to address ground-level ozone is an excellent example of how 
EPA's approaches factor in unusual climatic episodes in developing 
plans to reduce emissions. Ozone is unhealthy to breathe, even at low 
levels. It affects a variety of individuals, including healthy children 
and adults who are active outdoors during the summer. Ozone can also 
aggravate asthma, and make people more sensitive to allergens. Ozone 
also increases people's susceptibility to respiratory infections. It 
can inflame and damage the lining of the lungs, much like a sunburn.
    Unlike many other pollutants, ozone is not emitted directly into 
the air. It is formed when emissions of nitrogen oxides (emitted from 
power plants, motor vehicles and other industrial sources) chemically 
react with volatile organic compounds (emitted from motor vehicles, 
petroleum refineries, chemical plants and other sources) in the 
presence of heat and sunlight. Because it is triggered by sunlight and 
heat, ozone in the air we breathe tends to reach its highest levels 
during the summer months, often when the air is stagnant.
    When States are developing their emission reduction control 
programs to meet the air quality standards for pollutants like ozone, 
EPA requires them to take into consideration stagnation episodes and 
other periods that are conducive to ozone formation. The States must 
reduce emissions to the point that they can meet the air quality 
standards even during hot, stagnant periods of the summer. This 
approach has been very successful. Southern California, for example, 
has reduced its number of days exceeding the national ozone standard 
from 133 to 39 in the past 10 years alone, despite its hot summer 
temperatures.
    The history of our national air quality standard for ground-level 
ozone demonstrates how EPA's approaches to providing public health 
protection have evolved while also allowing us to address other 
factors, including unusual climatic episodes. The air quality standards 
are set in a way that balances the level and form of the standard so 
that public health is protected, and, at the same time, provides a 
stable benchmark on which to develop implementation programs. In the 
1970's EPA set a national air quality standard for photochemical 
oxidants, measured as ozone. That standard was set at 0.08 part per 
million and was not allowed to be exceeded for more than 1 hour per 
year. By 1979, the review of new scientific health effects studies 
served as the basis for EPA's revision of the ozone standard. This 
revision took into account the fact that it is the level and the form 
of an air quality standard that together determine the degree of public 
health protection. EPA set the revised air quality standard at a level 
of 0.12 parts per million over a 1-hour period. EPA also changed the 
form of the standard so that it could be exceeded any 3 days over a 3-
year period. In part, this inherently made some allowance for unusually 
high ozone levels that could result from unusual weather during any 
given year.
    Then, in 1997, based on an extensive review of the most recent 
peer-reviewed science, EPA again revised the ozone standard, changing 
the averaging time from 1 hour to 8 hours, setting the level at 0.08 
part per million, and establishing a new, more flexible form that is 
based on the fourth highest daily concentration in a year, averaged 
over 3 years. This revised standard will protect public health from the 
prolonged exposures to ozone at lower levels--shown by the new research 
to adversely affect people's health--while better taking into account 
unusual, but foreseeable meteorological episodes. In a nutshell, that 
means an area may have many more exceedances of the 8-hour standard 
than was the case with previous ozone standards before EPA determines 
that an area is violating the national air quality standard.
    EPA provided similar additional flexibility when we revised the 
ambient air quality standards for particulate matter in 1997 by 
establishing new fine particle standards with levels set in conjunction 
with more flexible forms.
                       exceptional events policy
    In 1986, EPA worked with States to develop what has become known as 
the Exceptional Events Policy. This policy was designed so that 
singular events--such as a volcanic eruption--that create air pollution 
levels above the health-based air quality standards are excluded from 
the data used to determine if an area is meeting the standards.
    The definitions and associated criteria in the policy provide some 
flexibility in their application to an individual event. Under the 
policy, an ``exceptional event'' is one that is not expected to recur 
routinely at a given location, that is uncontrollable or that is 
unrealistic to control through State implementation plans. Judgment is 
needed to identify whether an event is exceptional in the area of the 
country where it has occurred. For example, the dust caused by salting 
and sanding streets in a southern city may occur infrequently, but such 
conditions would not be exceptional in the northeast. Similarly, 40-
mile per hour winds may occur infrequently in the southeast, but they 
may be the norm in central and western States.
    This policy also addressed other events, such as stratospheric 
ozone intrusion; chemical spills and industrial accidents; infrequent 
large gatherings, events expected to occur less than once per year; as 
well as clean-up activities after a major disaster.
                      natural events policy (1996)
    The Natural Events Policy was created because certain events, such 
as wildfires and dust storms, were affecting particulate matter 
(PM<INF>-10</INF>) concentrations in many areas several times a year. 
As a result, EPA worked in partnership with State and local air 
pollution control agencies to develop a policy for addressing 
violations of the air quality standards for particulate matter 
(PM<INF>-10</INF>) caused by natural events. This policy supersedes the 
Exceptional Events Policy for three events: wildfires, high winds (dust 
storms), and volcanic and seismic activity.
    The Natural Events Policy helps provide increased public health 
protection by minimizing exposures and reducing levels of particulate 
matter emissions during forest fires, dust storms, volcanos, and 
earthquakes. Under this policy, when such a natural event is determined 
to be the cause of a violation of the particulate matter 
(PM<INF>-10</INF>) standard, EPA works with the States to ensure that 
they are not penalized for this violation if the State develops and 
implements a natural events action plan.
    Natural Event Action Plans include public notification and 
education programs, procedures to minimize public exposure to high 
PM<INF>-10</INF> concentrations, and measures to abate or minimize 
PM<INF>-10</INF> emissions from industrial and other sources that are 
controllable and are contributing to the problem with best available 
control measures. When the best control measures for an emissions 
source are not known, the States must commit to identify, study and 
implement practical control measures in the future.
  ozone exceedances due to the 1998 mexican and central american fires
    In 1998, EPA began working with several States, including Oklahoma, 
to determine how best to address the impact on ground-level ozone and 
particulate matter levels in the United States caused by catastrophic 
fire events that burned out of control in Mexico and Central America. 
We set up a workgroup comprised of national air quality experts and 
developed technical guidance for identifying when and where the fires 
affected air pollution levels. The guidance included the use of 
sophisticated, yet readily accessible technical tools such as satellite 
imagery and ground-level visibility measurements to assess the smoke 
plume location and movement. The guidance addressed possible impacts on 
peak daily monitored ozone levels downwind of these fires and methods 
for technically justifying the exclusion of certain ozone values above 
the level of the standard from use in subsequent compliance 
calculations.
    EPA received requests from nine States to exclude certain days of 
ozone data from compliance calculations due to these fires. Using our 
guidance, we carefully reviewed the various requests in consultation 
with other outside experts from the National Oceanic and Atmospheric 
Administration (NO<SUP>AA</SUP>), National Aeronautics and Space 
Administration (NASA), and academia. As a result of this process, we 
were able to concur with most of the requests from those nine States, 
including Oklahoma.
                               conclusion
    In summary, EPA has a long history of developing policies and 
approaches that protect the public health, while taking into account 
truly exceptional events. We have worked with States to fashion very 
balanced and protective approaches to address the effects of 
uncontrollable events that contribute to air pollution episodes.
    Regardless of what causes any given air pollution event, people 
must breathe. Children, asthmatics and the elderly are especially 
vulnerable to the health problems caused by air pollution. Our policies 
are designed to protect people, while at the same time focusing 
Federal, State and local air pollution control strategies on those 
aspects of the problem over which EPA and State and local governments 
can control--emissions of industrial and other pollutants into the air.
    Mr. Chairman, this concludes my written remarks. I would be happy 
to answer any questions that you may have.
                               __________
   Testimony of Representative Shawn Mitchell, Representative for the
                           State of Colorado
    Good morning Mr. Chairman and members of the subcommittee. I 
understand that today you would like to hear from States on some of the 
innovative strategies we have used to protect our air quality from 
impairment due to Federal fires and also to take recommendations for 
Federal legislation on this issue. Colorado has been a leader with 
respect to dealing with this issue, and I truly appreciate you making 
the subcommittee available.
    Let me begin by explaining that I am an elected State 
Representative from Broomfield, Colorado, which is located between 
Denver and Boulder. I serve on the Health, Environment, Welfare, and 
Institutions Committee, as well as the Judiciary Committee, and the 
Legislative leadership committee (Legislative Council). I have 
sponsored State legislation regarding both Federal lands and air 
quality protection. As you know the roles of State and Federal 
Government dealing with both federally managed lands in western States 
and with environmental protection are muddled at best. I hope today to 
present to you mandates that the Federal Government has placed on the 
State of Colorado that do not adequately allow the States to account 
for and regulate a major source of air pollution--wild land fire and 
prescribed fire occurring on Federal lands. This is indeed an area I 
suggest Federal and State legislators should be working in tandem to 
rectify.
    Colorado has taken action designed to protect air quality and 
visibility as well as public welfare in our State. The visibility issue 
is of particular importance to Colorado because of our unique status as 
a receptor State of air pollution generated in other States combined 
with our large number of National Parks and Wilderness Areas. I will 
include in my testimony ways in which Federal legislation could make 
our job at the State level easier while also promoting cleaner air.
    Colorado is blessed with 13 (soon to be 14) pristine national parks 
and wilderness areas. We are proud of these areas and take great pride 
in our air quality programs to protect visibility and air quality in 
those areas, and throughout our great State. From Rocky Mountain 
National Park and Mesa Verde, to Black Canyon and the soon to be Great 
Sand Dunes National Park, we welcome visitors to our State to enjoy 
these natural wonders.
    These pristine natural wonders are sources of great pride to 
Coloradans, however, they are also significant sources of air pollution 
that impair our air quality.
    We are also very proud of the improvements we have made to air 
quality in our cities. The Denver metropolitan area, we are pleased to 
say, has attained the National Ambient Air Quality Standards for Carbon 
Monoxide, 1 hour summertime ozone, and PM<INF>-10</INF>.
    We have not had a violation of those NAAQS for sometime, and have 
established programs to continue to improve or maintain our air 
quality. I would ask that this recent report from the Colorado Air 
Quality Control Commission be included in the record.
    Unfortunately, we cannot claim such good news with regards to EPA's 
new 8-hour summertime ozone standard. Unusually high measurements 
recorded during the summer of 1998 have potentially put us back into 
nonattainment. These high readings, some believe, have contribution 
from wild-land fires during that hot summer, and again in the 2000 
summer.
    I would like to point out four areas where we have taken action to 
improve or protect our current air quality and visibility. These areas 
are:
    1. A smoke management memorandum of understanding between the State 
of Colorado and local, State, and Federal land management agencies that 
lays out the responsibilities of all the parties to a prescribed burn. 
The Department of Public Health and Environment is the lead 
environmental protection agency and their role is to permit the 
prescribed burns of Federal Government and State land management 
agencies.
    2. Legislation authored by me and passed by the Colorado General 
Assembly that will require the Colorado Department of Public Health and 
Environment and the Colorado Air Quality Control Commission to 
establish an inventory of emissions from Federal and State lands. This 
inventory will help Colorado's Air Quality Control Commission develop 
programs to further protect visibility in our pristine areas.
    3. Actions taken by Governor Owens of Colorado, after the 
disastrous National Park Service prescribed fires in New Mexico, to 
review existing permits and permit applications to ensure that adequate 
plans are in place to protect the environment and public safety prior 
to the ignition of a prescribed fire in Colorado.
    4. Legislation passed by the General Assembly, we believe is 
consistent with Section 118 of the Clean Air Act, that requires land 
mangers to prepare plans for burns, receive permits from the Department 
of Health and pay fees for the emissions of criteria air pollutants the 
same as any other source in Colorado.
    The State of Colorado and other Western States are being squeezed 
with the dual vices of tighter national air quality standards, and new 
visibility standards while also facing increased emissions from 
natural, and prescribed fires on Federal lands. I would like to ask 
that this chart which I pulled off of the Department of Interior's web 
page be included in the record. It clearly shows there has been a 
dramatic increase in the use of prescribed fires over the past 5 years. 
In 1995, the USDA and Department of the Interior used prescribed fires 
on 918,300 acres of land across the United States. In 1996, that total 
went slightly down to 915,163 acres, in 1997 that total was 1,601,158 
acres, in 1998 it was 1,889,564 acres, and in 1999 the total acres 
burnt in the United States rose to 2,240,165. This is a staggering 
increase that we believe is contributing to adverse visibility impacts 
and regional haze in Class I areas across the country and increased 
pollution in the areas surrounding where the burns occur.
    As I mentioned earlier, we have a Smoke Management Memorandum of 
Understanding. This agreement was forged in 1994, and updated in late 
1999 and provides some framework for the relationship between the 
State, the Federal Government, and local governments. This MOU was a 
productive first step toward compliance by the Federal Government with 
our environmental laws. It required them to minimize visibility impacts 
from their activities, demonstrate that no State or Federal air quality 
standards will be exceeded as a result of the burn, and to maintain a 
system for establishing an inventory of emissions.
    While this was a good first step, many of us at the State 
legislature believed that more should be done. So, in 1999 we passed 
two pieces of legislation that protect and enhance air quality and 
visibility in Colorado.
    The first law made the provisions of our State Clean Air Act 
regarding permitting applicable to the Federal land managers. 
Activities on Federal lands are the last clearly identifiable, major 
source of air pollutants that we had yet to require programs for air 
quality management. SB 145 legislatively required the establishment of 
a management program for prescribed burning. It required the Federal 
Government to submit a document that describes their future emissions 
of air pollutants. It required that the Federal agencies use, ``all 
available practicable methods that are technologically feasible and 
economically reasonable in order to minimize the impact or reduce the 
potential for such impact on both the attainment and maintenance of'' 
State and Federal air quality and visibility standards.
    To put this law into context, it simply required Federal land 
managers to provide information to the Air Quality Control Commission 
so they could establish permitting and regulatory programs to meet the 
same EPA mandated Federal standards for air quality that industry was 
forced to comply with over 20 years ago.
    Another issue we faced in this regard is that western States have 
not required the Federal agencies to inventory the pollution generated 
from prescribed burns. This leaves States like Colorado with inadequate 
information about pollutants being transported into the State from 
wildfires and prescribed burns in adjacent States.
    This is important because without the emission inventories from 
wild land and prescribed fires States cannot adequately prepare the EPA 
mandated State Implementation Plans for Regional Haze due beginning as 
early as 2003.
    One remedy that I would suggest, is that you, Congress, direct the 
Federal land management agencies to inventory their emissions from both 
prescribed and wildfires. I would also suggest that you require them to 
provide those inventories to all downwind States so that we can 
adequately prepare our State Implementation Plans for Regional Haze and 
begin to effectively work to demonstrate reasonable progress toward 
attaining the Federal mandates.
    To manage this issue within our State, we passed a second piece of 
legislation that will be very important in future years for 
policymakers in Colorado. It requires that the State and Federal land 
managers prepare inventories of all emissions from their lands. This 
information will give us an idea of the amount of haze and ozone 
precursors that prescribed fires are contributing to air pollution in 
Colorado. This legislation also requires that emissions inventories be 
prepared for government agency controlled stationary sources and mobile 
sources, as well as prescribed fires. However, there is some 
uncertainty with respect to the willingness of the Federal executive 
branch to comply with this law. It would be helpful if Congress were to 
clarify with the land management agencies that compliance with State 
permitting programs for air quality purposes is required.
    The final step that Colorado has taken with respect to prescribed 
fires occurred after the tragedy in New Mexico. In order to ensure the 
protection of the people in Colorado as well as our forests, Governor 
Owens placed a moratorium on the issuance of new permits for prescribed 
fires. He also placed a suspension on existing permits until they could 
be reviewed by State officials to ensure that adequate protections were 
in place. Air Quality and Forestry officials worked together to 
establish criteria under which the permits were reviewed to ensure the 
protection of public safety as well as the environment. The Air Quality 
Control Commission is reviewing the current Smoke Management MOU 
mentioned earlier and will consider adding the new criteria to be 
reviewed before a burn could be initiated, such as checking for the 
most up to date meteorological conditions prior to setting the fire.
    I would also like to recommend that money not be appropriated to 
regional organizations such as the Western Regional Air Partnership 
(WRAP) but instead be sent directly to the States for their use. As you 
know Mr. Chairman, the Regional Haze Rule has been very controversial 
and will be very difficult to implement. One of the difficulties for a 
State like Colorado is that we don't believe we have sufficient data to 
make an informed decision. We believe that money being sent to the WRAP 
could be better used by States such as Colorado for monitors along our 
borders that could identify pollutants being transported into our 
State. Also, additional monitors could help us better understand what 
air pollution is coming from Federal lands within our State.
    Also, I would like to recommend that Congress examine the impacts 
of Federal use of prescribed fire on air quality standards as well as 
examine what impediments there are on States in holding the Federal 
Government liable for the pollution they cause. If our experience is 
similar to those of other States then it seems that the law should be 
clarified so that Federal agencies have a directive from Congress that 
they need to comply with the Clean Air Act.
    Thank you again for having this hearing and thank you for allowing 
me to testify.
                               __________
 Testimony of Mark S. Coleman, Executive Director, Oklahoma Department 
                        of Environmental Quality
    Mr. Chairman, and members of the committee, it is a pleasure to 
appear before you today and speak to you on the topic of exceptional 
events and how they are related to air pollution control strategies. 
Such events can be natural or manmade, but are usually considered 
exceptional because they are either so out of the ordinary that they 
are not expected to recur routinely; or their very nature makes them 
unrealistic to control through the environmental planning process. How 
can a control agency effectively plan for meteorological conditions 
that could significantly affect air pollution levels when those 
conditions are expected to occur only once or twice in a century? 
Should our control strategy be predictable or unpredictable events?
    We feel it is appropriate to hold such hearings in Oklahoma, as our 
State is no stranger to such exceptional events. It seems we truly get 
more than our fair share. In just the past few years, Oklahomans have 
experienced drought, floods, fires, a major tornado and a tragic 
bombing. A prime example of an exceptional event in Oklahoma and its 
relationship to air pollution is a vivid and integral part of our 
State's history. The extreme meteorological conditions associated with 
the Dust Bowl Days of the late 1920's and early 1930's were responsible 
for the loss of millions of tons of topsoil and the resultant air 
pollution, which devastated the environment and economy in our area of 
the country. We can only imagine what the particulate loadings to the 
atmosphere were back then, but I would surmise that present day 
National Ambient Air Quality Standards were greatly exceeded.
    And exceptional events continue to affect us today. Dust storms and 
wildfires, which can greatly contribute to air pollution, still occur 
with some regularity; likewise, periods of drought, dominant high-
pressure ridges, and abnormal wind patterns can greatly exacerbate 
various air pollution levels.
    Let's examine a recent exceptional event that had environmental 
impacts on Oklahoma. During the spring of 1998 there were numerous 
significant forest fires in Mexico and Central America's Yucatan 
Peninsula. These fires made national news and produced an air pollution 
episode that was a truly extraordinary event and beyond the control of 
State and local air pollution control agencies. It was definitely 
documented that besides causing high particulate levels and haze, these 
fires were also responsible for high levels of ozone. Air pollution 
from these fires affected many areas of the United States, but the haze 
and particulates were so severe that during the episode, areas of Texas 
and Louisiana were issued health advisories. Those fires began in early 
spring, and were not extinguished until in the summer.
    On May 11, 1998 abnormally elevated ozone values were observed in 
the Oklahoma City area. These values were higher than expected because 
they occurred on a day with relatively high wind speeds and mild 
temperatures, conditions not normally conducive to ozone formation. In 
fact on May 11 the Edmond, Moore, Oklahoma City, and Goldsby sites 
experienced 8-hour maximum ozone values that became the 4th highest 
ozone values for the entire year. It is these fourth highest values 
that are the critical ones used in the calculations to determine an 
area's attainment status. And all this was occurring about the time of 
the height of the fires' impact on Texas and the Gulf Coast. Later 
after reviewing ambient data, investigating meteorological conditions, 
observing pollution levels throughout our part of the country, and 
making use of extensive satellite photography, it became apparent to 
our Air Quality Division that the Mexican fires were the most probable 
cause for the elevated ozone values in the Oklahoma City area on May 
11. During 1998 and 1999 the DEQ worked diligently with the 
Environmental Protection Agency to try to exclude data from the 
extraordinary event when determining our attainment status. Using 
available satellite photography, we felt we had some very convincing 
evidence that the plume from the Mexican fires impacted central 
Oklahoma on May 11 and met EPA's exclusion criteria. Nevertheless, we 
were unable to convince EPA of our position.

    (Visual demonstration on proximal showing plume impacting Oklahoma 
City area)

    Even more recent exceptional events have influenced air pollution 
concentrations observed in Oklahoma. This year, one of our monitoring 
stations in Tulsa experienced ozone concentrations that caused a 
violation of the 1-hour ozone standard. This was the first violation of 
the 1-hour ozone standard experienced in Oklahoma in many years. In 
fact, it is the only violation of the standard that has occurred since 
additional SIP control measures were required in 1988 and our 
nationally copied ozone alert programs were implemented in the early 
1990's. Nevertheless, four exceedances occurred at the site over the 
last 3 years: three of the exceedances surprisingly occurring during 
the Labor Day weekends of 1998 and 2000. Coincidentally, during both 
these weekend periods, the Tulsa area found itself under extremely 
abnormal meteorological conditions, which we feel qualify as 
exceptional events.
    On September 4, 1998 the day of one of the ozone exceedances in 
question, the high temperature in Tulsa was 107 deg. F., an all-time 
record for the day and 14 deg. above the normal daily high. In fact, 
this day was the hottest day of the hottest summer since record keeping 
began in 1895! The only comparable period was the ``Dust Bowl Era'' 
which peaked in 1931! The reason for this extraordinary heatwave was 
primarily an abnormally long lasting high-pressure ridge that dominated 
the region. Such high-pressure ridges are accompanied by light surface 
winds and ``sinking'' air which traps pollutants. According to the 
National Oceanic and Atmospheric Administration (NOAA), northeastern 
Oklahoma can expect two or fewer stagnation cases per year and less 
than 10 total days of air stagnation. In 1998 we set an all time record 
for Oklahoma air stagnation with 33 days!
    The two Tulsa exceedances on Labor Day weekend of this year 
occurred on September 1 and 2. The high temperature in Tulsa on 
September 1 was 108 deg. F., which was another all-time record for the 
day and 14 deg. above the normal high. The high temperature of 
September 2, 107 deg. F, was the highest on that date since 1939. These 
hot days followed the driest month since 1896. Stagnation days were 
again much more prevalent than normal during this period. The 
particular air stagnation event, which immediately preceded the Labor 
Day weekend 2000 high ozone values, was in its 12th and 13th 
consecutive days when the high value occurred.
    Clearly, the truly exceptional weather conditions that occurred in 
the Tulsa area during the Labor Day weekends of 1998 and 2000 
significantly contributed to our ozone violation. As you are aware, 
ozone is formed by unique photochemical reactions between volatile 
organic compounds, oxides of nitrogen, and sunlight. High temperature 
and stagnant conditions accelerate the process. Since we feel that 
these abnormal conditions are completely beyond our scope of control, 
we will be requesting that the EPA exclude data collected on the days 
in question when determining the areas attainment/nonattainment status 
for the 1-hour standard.
    As you can see, exceptional events have uniquely impacted 
environmental planning in Oklahoma. The Clean Air Act requires the 
States to monitor their air sheds for specific criteria pollutants. The 
concentrations observed are then compared to health standards. If the 
standards are exceeded, then control plans must be developed and 
implemented. The problem arises when data collected are skewed by 
exceptional events whose occurrence is almost always infrequent or 
outside the control of the regulatory agency. Declaring an area a 
nonattainment area using data collected during an exceptional event 
just doesn't make good sense. EPA must make its guidelines on how to 
exclude such data as clear and concise as possible, and yet be flexible 
enough to accept valid scientific arguments. Specifically, we feel that 
EPA guidance on exceptional events particularly relating to ozone needs 
revision, especially allowing abnormal stagnation events and inversions 
to be considered the exceptional events they in truth are. We feel that 
draft guidance published by the Agency in 1994, though never finalized, 
goes a long way in meeting this objective. We believe this draft 
guidance is much more appropriate than the Agency's official 1986 
version because it provides a mechanism for ``flagging'' extreme 
weather events.
    We further contend that it is the affected State, not EPA, that is 
in the best position to determine whether an event is considered 
exceptional or not. It is also our suggestion that the Clean Air Act be 
amended to specifically exclude air quality monitoring data shown to be 
influenced by truly exceptional events when determining compliance with 
the National Ambient Air Quality Standards.
    Thank you, Mr. Chairman.
                               __________
Statement of Jim Thomas, Director of Technical Analysis, Texas Natural 
                    Resource Conservation Commission
    Good afternoon Mr. Chairman. My name is Jim Thomas. I am director 
of Technical Analysis at the Texas Natural Resource Conservation 
Commission. Our agency implements a broad range of regulatory and 
nonregulatory activities that protect the health of Texans and their 
environment. The agency is led by a three-member commission appointed 
by the Governor. About 3,000 staff members work in Austin and at 16 
regional offices around the State.
    Thank you for the opportunity to testify today about weather-
related events and their effect on ozone nonattainment under the Clean 
Air Act. Recurring natural events in the United States and foreign 
countries often influence air quality in Texas. Southwestern dust 
storms, Saharan dust, agricultural fires, and forest fires are just a 
few of the influences that we face. Today, I'd like to discuss one case 
in particular--the agricultural fires that occurred in 1998 in Mexico 
and Central America, the effect of the smoke on air quality in Texas, 
and the need for consistent policy and guidance at the national level 
on exceptional events like this one.
            agricultural fires in mexico and central america
    During the period from April 1, 1998 through June 20, 1998, large 
amounts of smoke were transported into Texas from fires in Mexico and 
Central America. Even though agricultural burning is conducted every 
year in Central America, the smoke's intensity was unprecedented in 
recent history. The fires were unusually intense and widespread because 
of severe drought conditions in Mexico and Central America. The smoke 
also produced high levels of ozone and carbon monoxide. These 
pollutants accompanied the smoke into Texas.
    By May, 1998, smoke intensity climbed to levels that threatened 
public health. Concerned by this threat, the Texas Natural Resource 
Conservation Commission stepped up it's air quality monitoring 
activities and worked with the news media and other governmental 
agencies to make the public aware of dangers posed by these smoke 
levels. When our agency became aware of unusual air quality monitor 
readings, we shifted additional ground monitors into the Rio Grande 
Valley and made numerous flights with an airborne sampling platform 
operated by Baylor University. In addition, our agency posted 
information and warnings on our Web site, established a toll-free 
information hotline, and issued public health alerts through the news 
media.
                         analysis of the smoke
    After the conclusion of this event, we undertook an analysis of the 
association of high ozone and carbon monoxide levels with smoke 
transported from Central America. Evidence of this relationship came 
from aircraft data and from a comparison of the peak smoke day with a 
non-smoke day. Numerous aircraft flights during the smoke period found 
layers of smoke aloft that contained greatly increased ozone levels. 
Ozone levels aloft as high as 100 to 140 parts per billion were found 
in association with smoke layers.
    The comparison of the peak smoke day at Brownsville on May 8, 1998, 
with a non-smoke day, October 3, 1998, showed that ozone, carbon 
monoxide, and particulate levels were much higher on the smoke day--
even though the wind speed, wind direction, and temperatures were 
almost identical on both days. Ozone levels on the peak smoke day 
reached peak 1-hour values near 100 parts per billion, whereas on the 
non-smoke day the ozone peaked at only 20 parts per billion.
    Satellite imagery and air trajectories were used to show the origin 
of the smoke and its transport into Texas. Numerous large fires in 
Mexico and Central America produced large clouds of smoke that were 
visible in satellite imagery from March through June, 1998. The 
heaviest smoke production occurred in early to mid-May. Whenever winds 
were from the south to southeast in the southwestern portion of the 
Gulf of Mexico, the smoke was transported across the Gulf and into 
Texas.
    Airport visibility measurements from National Weather Service 
automated stations were used to supplement particulate measurements for 
determining smoke intensities at various locations in Texas. A strong 
correlation between visibility and particulate levels was shown in 
measurements from both Brownsville and Austin. The combination of 
visibility and particulate measurements was then used to estimate the 
smoke impact on high ozone days during the smoke period. This 
investigation showed that 14 high ozone days in Texas also had moderate 
to high smoke levels and were therefore likely to have been influenced 
significantly by the ozone associated with the smoke.
                         consultation with epa
    As early as May 1998, our agency began consultations with the U.S. 
Environmental Protection Agency (EPA). We provided significant amounts 
of data to the U.S. EPA's technical working group for the Central 
American forest fires through the Region 6 office. We also presented 
the U.S. EPA with the results of our own analysis of the fire's air 
quality impacts on Texas as part of our request to have ozone 
exceedance days during the period of April 1, 1998 through June 20, 
1998, declared as exceptional events. As of this hearing date, the U.S. 
EPA has declined to grant an exceptional event status for all of the 
days that Texas has identified as being influenced by Central American 
smoke.
    The Texas Natural Resource Conservation Commission believes that 
there exists a need for the U.S. EPA, at a national level, to increase 
its awareness of these exceptional natural events and their impact on 
ambient measurements of pollutants and pollutant precursors. In 
addition, there is a need for a coherent, flexible policy that provides 
guidance not only for one-time exceptional events, but also recurring 
or long term exceptional events that are beyond the control of air 
quality agencies. We look forward to working with Congress and the U.S. 
EPA on the development of such a policy.
[GRAPHIC] [TIFF OMITTED] T1527.079

[GRAPHIC] [TIFF OMITTED] T1527.080

[GRAPHIC] [TIFF OMITTED] T1527.081

  

                                <greek-d>

</pre></body></html>
